<html>
<title> - THE DRUG ENFORCEMENT ADMINISTRATION: WERE CRIMINAL INVESTIGATIONS SWAYED BY POLITICAL CONSIDERATIONS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   THE DRUG ENFORCEMENT ADMINISTRATION: WERE CRIMINAL INVESTIGATIONS 
                  SWAYED BY POLITICAL CONSIDERATIONS?

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                         DECEMBER 6 AND 7, 2000

                               __________

                           Serial No. 106-257

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
74-430                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    December 6, 2000.............................................     1
    December 7, 2000.............................................   259
Statement of:
    Marshall, Donnie R., Administrator, Drug Enforcement 
      Administration.............................................   315
    Mercado, Julio, Deputy Administrator, Drug Enforcement 
      Administration; Ernest L. Howard, Special Agent in Charge, 
      Houston Field Office, Drug Enforcement Administration; and 
      R.C. Gamble, Chief Inspector, Drug Enforcement 
      Administration.............................................    53
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Illinois, e-mail dated March 15, 2000...................    62
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio, letter dated March 16, 2000.............    68
    Marshall, Donnie R., Administrator, Drug Enforcement 
      Administration, memo dated August 20, 1999.................   330
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California:
        Letter dated August 20, 1999.............................    38
        Letter dated November 2, 2000............................    51
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        E-mail dated March 14, 2000..............................    73
        Letter dated December 6, 2000............................   267

 
   THE DRUG ENFORCEMENT ADMINISTRATION: WERE CRIMINAL INVESTIGATIONS 
                  SWAYED BY POLITICAL CONSIDERATIONS?

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:40 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Shays, Horn, 
LaTourette, Ose, Waxman, Norton, Cummings, Kucinich, and 
Tierney.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Sean Spicer, director of communications; M. 
Scott Billingsley and Andre Hollis, counsels; Thomas Bowman and 
Kristi Remington, senior counsels; Pablo Carrillo, 
investigative counsel; S. Elizabeth Clay and Nicole Petrosino, 
professional staff members; Marc Chretien, senior investigative 
counsel; Gil Macklin, professional staff member/investigator; 
Robert A. Briggs, chief clerk; Robin Butler, office manager; 
Michael Canty and Toni Lightle, legislative assistants; Josie 
Duckett, deputy communications director; Leneal Scott, computer 
systems manager; John Sare, deputy chief clerk; Corinne 
Zaccagnini, systems administrator; Phil Schiliro, minority 
staff director; Kristin Amerling, minority deputy chief 
counsel; Michael Yeager, minority senior oversight counsel; 
Ellen Rayner, minority chief clerk; and Jean Gosa and Earley 
Green, minority assistant clerks.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record; and 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to in the record be 
included; and without objection, so ordered.
    I ask unanimous consent that a set of exhibits shared with 
the minority staff prior to the hearing be included in the 
record; and without objection, so ordered.
    And I ask unanimous consent that the questioning in the 
matter under consideration proceed under clause 2(j)(2) of 
House rule 11 and committee rule 14 in which the chairman and 
ranking minority member allocate time to committee members as 
they deem appropriate for extended questioning not to exceed 60 
minutes divided equally between the majority and the minority.
    Mr. Waxman. Reserve the right to object, Mr. Chairman, on a 
couple of the points you just raised.
    One, I would like to ask you to defer the request on the 
timing because we would change from the 5-minute rule to a half 
an hour each side, and that puts us at quite a long time before 
we can get our questions in. But I may not object to it. If you 
would just withdraw that for a minute.
    And on exhibits I would ask you to amend your unanimous 
consent request that the exhibits not go in the record until 
our staff has an opportunity to review them.
    Mr. Burton. The staff has not had a chance to look at those 
exhibits yet?
    Mr. Waxman. Could you also withhold that unanimous consent?
    Mr. Burton. We will withhold that as well, and hopefully 
they can make a decision here relatively soon while I am making 
my opening statement.
    Mr. Waxman. I hope so.
    Mr. Burton. I also ask unanimous consent that questioning 
in the matter under consideration proceed under clause 2(j)(2) 
of House rule 11 and committee rule 14 in which the chairman 
and ranking minority member allocate time to committee counsel 
as they deem appropriate. And we will defer action on that 
until I make my opening statement.
    Today's hearing focuses on the war on drugs. Specifically, 
we are focussing on allegations that an important investigation 
of drug trafficking was shut down because of political 
pressure.
    Of all the things that our government does, protecting the 
public against drug traffickers has to rank as one of the most 
important. Drug abuse has destroyed countless lives in this 
country. It's hard to find a family that hasn't felt the pain 
of drug addiction. We spend billions of dollars to fight drug 
trafficking and prosecute drug dealers. If there is one area 
that we do not want to be undermined by partisan politics it's 
the enforcement of our drug laws. Unfortunately, that is 
exactly what has been alleged by some in this case. We do not 
want to make any allegations about anyone or any individuals 
before we have all the facts.
    Now I am not going to make a long opening statement today 
because we do not have all the facts at this point. We have 
been trying very hard to get the facts for about a month and a 
half, and as usual it's been a frustrating experience. The only 
way to make progress was to call a hearing and issue subpoenas.
    Maybe the best way to start this hearing is to retrace our 
steps.
    This summer, we heard about an investigation of drug 
trafficking in Houston, TX. There was an investigation 
involving a man named James Prince. He owns a record company 
called Rap-A-Lot. He and his associates were believed to be 
large-scale drug dealers. This investigation produced more than 
20 convictions. There were allegations that political pressure 
was brought to bear, and the Drug Enforcement Administration 
killed the investigation. So we asked the DEA for a briefing.
    In July, the staff was briefed by the head of the DEA's 
Houston field office, Mr. Earnest Howard. Mr. Howard assured 
the staff that the DEA's investigation was active and ongoing. 
He was very convincing, so we didn't pursue the matter any 
further.
    Then, in October, we were told there were e-mails that 
contradicted what we were told. We asked the DEA to give us the 
e-mails. I had a personal conversation with Mr. Marshall, the 
head of the DEA. They were given to us.
    The e-mails flatly contradicted what Mr. Howard told us. We 
have a March 14 e-mail from Mr. Marshall to DEA headquarters in 
Washington. He states, ``I understand that the situation 
involving Rap-A-Lot and James Smith, a.k.a. James Prince, has 
only gotten worse. To eliminate any further difficulty in this 
matter I have decided that the Houston division will curtail 
any enforcement against this subject.'' He concludes by saying, 
``at any rate, it is over; and we are closing our case on 
Prince.''
    The next day Mr. Howard sent another e-mail to Washington. 
This one states, ``now we bow down to the political pressure 
anyway. It is over now. The Houston division will terminate all 
active investigation of Rap-A-Lot except for those persons who 
have already been arrested or indicted.''
    There could not be a starker contrast between what we read 
in June and what we read in those e-mails. Naturally, we wanted 
an explanation. We've had a hard time getting one.
    This isn't the only time that politics may have intruded 
into this investigation. Last August, one of our colleagues, a 
Congressman, weighed in. She accused the DEA of harassing Mr. 
Prince. She asked the Attorney General, General Reno, for an 
investigation; and she got one. Within a month, the DEA had 
removed the lead agent, Jack Schumacher, from the case and 
started an internal investigation of him.
    Last month, we interviewed several local Houston City 
policemen. They were assigned to a joint investigation of Mr. 
Prince with the DEA. They told us that they were removed from 
the case about a month after the Congresswoman's letter 
arrived. They told us they were called to a meeting with 
Special Agent Howard, the head of field office. Mr. Howard told 
them that the investigation was over, and he cited the 
Congresswoman's letter.
    Well, something is terribly wrong here. On one hand, we are 
told by the head of the DEA's field office that the 
investigation is open and leads are being followed. On the 
other hand, we are being told by everyone else that the 
investigation has been shut down not once but twice.
    I asked to interview all of the DEA officials who were 
involved. I received no response. I asked again. I called the 
head of the DEA, Mr. Marshall, to ask for his corporation. He 
did not return my call, and I was told that he and the DEA were 
told not to cooperate with the committee. I was informed that 
the Attorney General had ordered Mr. Marshall not to speak to 
me. I was also informed that an inspector general investigation 
would be done and the committee would not be allowed to speak 
to anyone because of that investigation.
    That's inexcusable. We're the Congress of the United 
States. We have an obligation to conduct oversight. We are 
asked to appropriate billions of dollars to fund those 
government agencies. We have to conduct oversight to make sure 
the money is being wisely spent and the laws are being 
followed, and yet I am told the head of a major agency like the 
DEA cannot pick up the phone and talk to a committee chairman 
here in Congress.
    We could not get any explanation whatsoever as to what was 
going on. That's tantamount to telling the Congress to just go 
home and mind its own business and let the executive branch do 
whatever it wants. Well, that's not how it should work.
    So I issued subpoenaes and called this hearing. We are not 
going to make any assumptions about anyone's guilt or innocence 
here. We are not going to make any allegations about any 
political influence being exerted until we have all the facts. 
But if there was a significant investigation of drug 
trafficking and it was shut down for no apparent reason other 
than politics then we need to know about that and get the facts 
out to the American people.
    We have a lot of unanswered questions. I want to get 
answers to all of them, so I would like to get started.
    Before I yield to my colleague from California, Mr. Waxman, 
let me say that appearing on the first panel will be DEA agent 
Jack Schumacher and Houston police officers Bill Stephens, 
Larry Jean Allen and Ralph G. Chaison.
    Appearing on the second panel will be DEA Special Agent in 
Charge Earnest Howard, DEA Chief Inspector R.C. Gamble, and DEA 
Deputy Administrator Julio Mercado. I hope I pronounced that 
correctly. DEA Administrator Donnie Marshall had a scheduling 
conflict for today, and so he will appear tomorrow afternoon at 
1 o'clock.
    I want to thank all of our witnesses for being here, and I 
yield to Mr. Waxman for his opening statement.
    Mr. Waxman. Thank you, Mr. Chairman.
    The chairman discussed the committee's investigation of the 
James Prince Rap-A-Lot records matter in the Dallas Morning 
News last month. He said that the Department of Justice is 
purposefully interfering with the committee's investigation, 
charging that, ``Janet Reno is blocking and I believe 
obstructing justice for political reasons.''
    Discussing Mr. Prince, Mr. Burton further stated, ``he 
gives a million to a church, the Vice President goes to that 
church, and 2 days later somebody says they are closing the 
case. Something is wrong. They're blocking us because I think 
they're afraid that this might be an embarrassment to the Vice 
President.''
    I just want to point out that, based on the information the 
committee has gathered, these allegations are wholly 
speculative. They are also under active investigation by the 
Justice Department's Office of Inspector General. When the 
chairman made a passionate plea a few minutes ago that our 
committee is not being fully cooperated with in getting all the 
information, having people talk to us, I would just point out 
that it is not unusual and in fact it's usually the case where 
the Department of Justice is pursuing its own inquiry that they 
do not want to be interfered with by a committee of the 
Congress. They are conducting an investigation, and they do not 
want to and in fact I think they have a responsibility not to 
be talking to any committee of Congress while that 
investigation is going on.
    But we simply don't know all the facts. None of us should 
draw conclusions before the facts are in. I hope we spend today 
making productive use of our time to understand what are 
legitimate questions in this case, but as we move forward we 
should be mindful of the need not to complicate or undermine 
ongoing criminal investigations and especially if we undermined 
them for what appears to be casting political aspersions. And 
we should also try to avoid naming individuals connected to 
this matter who have never been tried for or convicted of any 
criminal offense.
    Mr. Chairman, I look forward to the testimony of the 
witnesses. I know that you are approaching this as a way for us 
to get the facts, and that's what I think we ought to do. So I 
will work with you in that regard.
    You were going to ask--I do not know if you will have 
opening statements from other Members.
    Mr. Burton. I will be happy to, if they like.
    Mr. Waxman. I have completed my opening statement. I know 
you asked we proceed under the 30 minutes for each side. We 
will not object to that.
    Mr. Burton. Without objection, it is so ordered.
    Do other Members have opening statements they would like to 
make or comments? Mr. Horn. Mr. Shays. Mr. LaTourette. Mr. 
Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    This hearing brings to bear interesting issues that do 
require some clarification, Mr. Chairman. However, I have 
paused in the reviewing of the documents for this hearing 
because time after time the majority, no matter what the issue, 
seeks to place the blame on President Clinton or Vice President 
Gore. Even this week we will have our umpteenth hearing on 
missing White House e-mail.
    So here we are again. This time, unfortunately, the 
integrity of one of our colleagues and a Member of Congress has 
been called into question.
    As you may know, many African American Members of Congress 
serve not only their geographic constituencies but also a 
national constituency. We often receive requests to help on 
issues that affect African Americans on a national level. 
Racial profiling in particular has been a key problem of 
concern. I have personally travelled around the country 
listening to this constituency tell me over and over again how 
they are often subject to harassment and intimidation by a 
group that is sworn to serve and protect them. Unfortunately, 
despite our best efforts, it will continue. In the last few 
weeks, African American voters in Florida have raised similar 
concerns.
    I have noted a majority of our law enforcement officers 
serve their community and do a good job. However, as it is 
often said, one bad apple spoils the bunch.
    I just wanted to quote from the letter of the 
Congressperson who the chairman referred to, just a small part 
of the letter, to emphasize what I am talking about. In that 
letter the Congressperson says, in talking about Mr. Prince, 
says,

    Mr. Prince alleges that the DEA has accused him of earning 
the profits of his business illegally. In addition, he alleges 
that he has been subjected to racial slurs, illegal search of 
his automobile and that his customers and workers are stopped 
and questioned without provocation by the DEA.
    Mr. Prince also has raised concerns about the interference 
in his right to travel, and he has been stopped numerous times 
on dark stretches of Texas highways. Simply put, Mr. Prince 
believes strongly that the Department of Justice must intercede 
into the questionable practices of the DEA and provide him with 
the necessary protection to ensure that his life and livelihood 
are not subject to ongoing harassment and intimidation.

The Congressperson goes on to say,

    I am often contacted by African Americans who feel helpless 
when confronted with incidents as described by Mr. Prince. The 
harrowing details of Mr. Prince's allegations and my reputation 
in vigorously pursuing such matters warrant that I assist him 
to the best of my capabilities.

She goes on to ask that the DEA--that the Attorney General look 
into this matter.
    So, Mr. Chairman, I look forward to hearing from today's 
witnesses to learn more about the investigation, the 
implications for the future and how Members of Congress can 
intercede on legitimate issues without being muddied in the 
process. Thank you very much. Thank you, Mr. Ranking Member.
    Mr. Burton. Thank you, Mr. Cummings.
    The gentlelady from Washington.
    Ms. Norton. I am going to try to stay--I am supposed to 
speak somewhere in my district--because I need to hear what the 
evidence is here. I am concerned that the Vice President's name 
would be drawn into this matter since, so far as I know, it 
raises his profile considerably to say it was marginal at best. 
That is to say, if the Vice President can go someplace, as 
public figures do, and thereafter something happens and he then 
is drawn into it, to call it circumstantial evidence is to 
raise its probity. That's why I would like to hear whether 
there is any real evidence about his involvement.
    I am concerned that it is alleged that a Member of Congress 
called, and I don't believe that the majority means to cast any 
aspersion upon this Member of Congress. I note that when they 
said it was a Congresswoman, Mr. Chairman, everybody looked at 
me. I guess there are few enough of us so if you see one of us 
sitting up here this must be she. This is not she. I do know 
the Congresswoman in question, and the majority has been 
careful here, so I make no accusation whatsoever.
    But I do wish to say for the record that there should be no 
implication that this Congresswoman would seek to protect 
anyone dealing in drugs if she knew he was dealing in drugs and 
that this Congresswoman has been an outspoken opponent of, by 
now, the well-documented practice of racial profiling.
    It also has been my experience that it is very difficult to 
get the Department of Justice or the DEA to cease an 
investigation that it has started, so I would be quite amazed 
if all it took was a phone call from a Member of Congress and 
you could then get the investigation called off. In that case, 
I think you might expect lots more calls from Members who get 
complaints from their constituents.
    Mr. Waxman. Would the gentlelady yield to me?
    Ms. Norton. I yield to the gentleman.
    Mr. Waxman. Thank you for yielding to me.
    Representative Maxine Waters' involvement in this matter 
appears to be explained by her longstanding efforts to address 
racial profiling and other criminal justice issues affecting 
African Americans. In addition to serving as a member of the 
Judiciary Committee and its Constitution Subcommittee, 
Representative Waters served as chair of the Congressional 
Black Caucus from 1997 to 1998 and formulated the Agenda for 
Black America which included a commitment to civil rights. 
Moreover, she has been particularly active in drawing public 
attention to the practice of racial profiling by law 
enforcement organizations.
    I would like to ask unanimous consent, Mr. Chairman, to put 
into the record, so there should be no question about 
Representative Waters and her involvement in this whole thing, 
a transcript of an interview with her in August 1999 by the DEA 
Office of Professional Responsibility and a letter that she had 
sent to the Attorney General with regard to this issue.
    Mr. Burton. Without objection, so ordered.
    [Note.--The information referred to may be found at the end 
of this hearing.]
    Mr. Waxman. Thank you for yielding to me.
    Thank you, Mr. Chairman.
    Mr. Burton. Any other comments?
    If not, I would like for witnesses to be sworn. But because 
we have two undercover agents here who we do not want on 
television we will ask you to be seated, which is unusual. We 
would like for all of you to raise your right hand.
    [Witnesses sworn.]
    Mr. Burton. Do any of you have opening statements you would 
like to make? If not, then we will start with our first 30 
minute segments, and I will yield to Mr. Shays.
    Mr. Shays. Thank you.
    Before my 30 minutes begins, I would like to offer Mr. 
Waxman the opening 30 minutes, and I would be happy to follow. 
I know he voiced a concern about the opportunity to speak.
    Mr. Waxman. I thank you very much. But this is a hearing 
called by the majority, so the majority ought to go first.
    Mr. Shays. I am happy to do that. I just wanted to make 
sure that was acceptable.
    I would like to state for the record that--before my 30 
minutes--that two of our four witnesses are African Americans. 
They happen to be behind the shield doing covert work, but I 
would like the record to note that.
    Mr. Waxman. I hope that in no way jeopardizes their 
security to have identified them in any way. But thank you for 
your generous offer.
    Please let the majority proceed on their 30 minutes. Then 
we'll take ours.
    Mr. Shays. Thank you.
    Mr. Schumacher, how long have you been a law enforcement 
officer?
    Mr. Schumacher. Approximately 27 years.
    Mr. Burton. Mr. Schumacher, would you pull the mic closer 
to you? Not real close. Just put it in the direction so we can 
pick up everything you say. Thank you, sir.
    Mr. Shays. During those 27 years, approximately how many 
arrests have you made? More than you can count?
    Mr. Schumacher. Somewhere over 1,000.
    Mr. Shays. How much experience do you have with narcotics 
investigations?
    Mr. Schumacher. About 20 years.
    Mr. Shays. How many times have you testified in court?
    Mr. Schumacher. Several hundred.
    Mr. Shays. Have you received any awards or commedations?
    Mr. Schumacher. Yes, sir.
    Mr. Shays. A number of them or just a handful?
    Mr. Schumacher. Five or six.
    Mr. Shays. What was your most recent award, recognition?
    Mr. Schumacher. Performance award from the DEA.
    Mr. Shays. Have you been involved in any disciplinary 
action?
    Mr. Schumacher. Yes, sir.
    Mr. Shays. What have been the outcomes of those?
    Mr. Schumacher. Unfounded.
    Mr. Shays. Are you a rogue DEA agent, as one or two people 
have accused you of? In other words, operating outside the 
rules and regulations?
    Mr. Schumacher. Absolutely not.
    Mr. Shays. When you started work on the investigation that 
I am going to refer to as Rap-A-Lot, when did you start?
    Mr. Schumacher. August 1998.
    Mr. Shays. When were you assigned to the joint DEA/Houston 
Police Department Task Force?
    Mr. Schumacher. Well, actually, shortly after I was 
assigned the case I began to recruit HPD officers to 
participate in the investigation.
    Mr. Shays. I want you to bring the mic closer to you, if 
you could. You have a rather mellow voice.
    What results had you obtained up until September 1999, what 
results in this investigation?
    Mr. Schumacher. The investigation resulted in numerous 
arrests, grand jury indictments, seizures of crack and powder 
cocaine.
    Mr. Shays. Do you remember how many arrests, how many 
indictments, how many convictions?
    Mr. Schumacher. At least 20.
    Mr. Shays. Twenty arrests or 20 indictments or 20 
convictions?
    Mr. Schumacher. Well, some arrests generated more than one 
indictment. But if I reflect on it everyone we arrested has 
been convicted.
    Mr. Shays. Was information developed on illegal activity 
that in your opinion warranted further investigative work when 
the task force's work was suspended?
    Mr. Schumacher. Yes, sir.
    Mr. Shays. Now we're going to get into specifics later, but 
do you think sufficient work was done to develop leads that you 
were investigating in 1999 and early 2000?
    Mr. Schumacher. I'm sorry, would you repeat that?
    Mr. Shays. We're going to get into more specifics later, 
but do you think sufficient work was done to develop leads that 
you were investigating in 1999 or early 2000 or do you think 
more work needed to be done?
    Mr. Schumacher. More work needed to be done.
    Mr. Shays. I would like to ask Mr. Stephens--Mr. Chaison, 
is that how you say your name?
    Mr. Chaison. That's correct.
    Mr. Shays. You both will have to switch the mic back and 
forth.
    Mr. Burton. You need to point the mic right at your mouth 
and have it relatively close.
    Mr. Shays. Mr. Stephens, could each of you please provide a 
short summary of your law enforcement background and 
experience.
    Mr. Stephens. I've been a police officer with Houston 
Police Department for 20 years and 6 months. I spent a short 
time in patrol, made sergeant and went to the homicide division 
for 10 years. I've been in the narcotics for 6 years.
    Mr. Shays. Mr. Chaison.
    Mr. Chaison. Yes. I've been a police officer for 21 years. 
I've worked out of the Special Operations Division where we 
have provided security for the President, Vice President and 
any dignitary that came to the city of Houston. I was assigned 
to narcotics in 1993 where I have worked since then.
    Mr. Shays. And you are an undercover officer at times.
    Mr. Chaison. That's correct.
    Mr. Shays. Mr. Allen.
    Mr. Allen. Yes I've been a police officer 17 years. I have 
worked in narcotics 9 years. I have worked as a polygraph 
examiner 4 years.
    Mr. Shays. It's my understanding that all three of you have 
been involved in the joint task force with the DEA to 
investigate the Rap-A-Lot organization, is that correct, Mr. 
Stephens?
    Mr. Stephens. Yes, sir, it is.
    Mr. Shays. Mr. Chaison.
    Mr. Chaison. That's correct.
    Mr. Shays. Mr. Allen.
    Mr. Allen. That's correct.
    Mr. Shays. When were you on the task force and what were 
your assignments, as best you can tell us? Again, we will go 
down. Mr. Stephens.
    Mr. Stephens. In October or November 1998 Jack Schumacher 
came to the Houston Police Department, to the Narcotics 
Division, and requested assistance from a squad to help him 
with an investigation which was the Rap-A-Lot case. My captain 
at the time then assigned my group and myself to work on that 
case with Agent Schumacher, and we stayed on the case until it 
was closed.
    Mr. Shays. Mr. Chaison--when you say until it was closed, 
not that you had finished your work, Mr. Stephens, is that 
correct?
    Mr. Stephens. That's correct.
    Mr. Shays. The work still needed to go on, is that correct?
    Mr. Stephens. Yes, sir.
    Mr. Shays. Thank you.
    Mr. Chaison.
    Mr. Chaison. Yes, after our group was assigned to assist 
the DEA, my primary function was a case agent and UC--UC being 
undercover officer.
    Mr. Shays. When were you assigned?
    Mr. Chaison. In September 1998.
    Mr. Shays. Mr. Allen.
    Mr. Allen. My role started in September 1998 also. My 
primary assignment was case agent and undercover officer.
    Mr. Shays. I want each of you to give me the date on which 
your work was suspended. Mr. Stephens.
    Mr. Stephens. I don't know the exact date, but it was in 
the period between September 20 and 25, I believe, 1999.
    Mr. Shays. Mr. Chaison.
    Mr. Chaison. September 1999.
    Mr. Allen. September 1999.
    Mr. Shays. In all three cases, gentlemen, you were involved 
in investigating the Rap-A-Lot organization, is that correct? 
Mr. Stephens.
    Mr. Stephens. That's correct.
    Mr. Chaison. That's correct.
    Mr. Allen. That's correct.
    Mr. Shays. At the first meeting of the joint task force, 
did Special Agent Ernie Howard make comments about how the task 
force was not going to be affected by political influence like 
others have been? And I would like to know, what did he say? 
Mr. Stephens.
    Mr. Stephens. It's my recollection that he gave us his full 
support. He wanted the case investigated in the manner that if 
there was something there to be done, to do it; if there was 
not, to let him know. He was our biggest support during the 
period that we investigated the case.
    Mr. Shays. Mr. Chaison.
    Mr. Chaison. Yes, it was my understanding from Mr. Howard 
that he would assist us in anything that we needed. He was 100 
percent behind us and that if there was anything there he 
wanted it uncovered; if not, accept that.
    Mr. Allen. To my knowledge, it was the same thing that Mr. 
Chaison said. It started out where we had all the resources we 
needed up until the time it was stopped.
    Mr. Shays. Mr. Stephens, you worked out of the Houston 
office of DEA in October 1998.
    Mr. Stephens. We actually moved over there I believe in 
December 1998. My squad relocated to the DEA office, yes, sir.
    Mr. Shays. I would like to ask each of you, was this the 
only time that you worked on a joint task force for the DEA in 
Houston?
    Mr. Stephens. No, sir.
    Mr. Chaison. No.
    Mr. Allen. No.
    Mr. Shays. Did all of you work under the DEA Special Agent 
in Charge Earnest Howard? Mr. Stephens.
    Mr. Stephens. We are assigned to the Houston Police 
Department, sir. The ultimate person we worked for would be our 
chief. But, yes, during that task force, he was our supervisor.
    Mr. Shays. And for all three.
    Mr. Chaison. That's correct.
    Mr. Allen. That's correct.
    Mr. Shays. In January 1999 the task force made a 
significant arrest in the case. Could you please explain what 
happened at that time? And I would open it to up to Mr. 
Stephens. And if any of you, Mr. Chaison or Mr. Allen, want to 
add to it you can join in afterwards. Mr. Stephens.
    Mr. Stephens. It was January 7, 1999. It was a reversal 
operation----
    Mr. Burton. May I interrupt real quickly here? Just to 
clarify this was the arrest of McCarter, Ballard, Russell, et 
al, and McCarter was the No. 3 in the Rap-A-Lot organization 
and the arrest involved 6 kilos of cocaine, correct?
    Mr. Stephens. Yes, sir.
    Mr. Burton. Thank you.
    Mr. Shays. Can you add to that?
    Mr. Stephens. It was actually Steven McCarter, Edward 
Russell, William Ballard and Eric Bradley, in a reversal 
operation that took place on January 7 where Mr. McCarter and 
Mr. Russell, Mr. Bradley and Mr. Ballard came to a hotel in 
Houston, TX, and took 6 kilos of cocaine and the $90,000.
    Mr. Shays. Anything that you gentlemen would add?
    OK. Note that for the record.
    Mr. Schumacher, in August 1999 our colleague, Congresswoman 
Maxine Waters, wrote a letter to Attorney General Janet Reno 
concerning the Prince investigation or what I call the Rap-A-
Lot investigation by the DEA. The letter alleged that Prince 
was the subject of racial harassment by the DEA. The DEA's 
Office of Professional Responsibility launched an investigation 
into the actions of its agent. Did you all know about this 
letter, Mr. Schumacher?
    Mr. Schumacher. Yes, sir.
    Mr. Shays. Mr. Stephens.
    Mr. Stephens. Yes.
    Mr. Shays. First off, I would like to know when you knew, 
Mr. Schumacher. This was August 1999, that the letter was 
written.
    Mr. Schumacher. The latter part of August.
    Mr. Stephens. The same.
    Mr. Shays. Mr. Chaison, did you know of the letter?
    Mr. Chaison. Yes, the same.
    Mr. Allen. The same.
    Mr. Shays. Now I would like to know--first off, no one is 
questioning the integrity of our colleague. We might question 
the judgment, but that's another issue. But I would like to 
know how did the letter affect your work, Mr. Schumacher?
    Mr. Schumacher. Well, it was a multi-step process.
    Mr. Shays. Are you referring to a multi-step because of the 
Office of Professional Responsibility?
    Mr. Schumacher. Well, it was a series of events, sir.
    Mr. Shays. OK, let's run down them as quick as you can.
    Mr. Schumacher. The letter came in. We were told about it. 
We were told subsequently that a DEA internal OPR investigation 
was launched and that Ms. Waters was actively pursuing--
advocating these allegations.
    Mr. Shays. We're kind of running out of time here, but the 
bottom line is you were then investigated, is that correct?
    Mr. Schumacher. Yes, sir, we were.
    Mr. Shays. And what was the result of the investigation?
    Mr. Schumacher. Of the OPR investigation?
    Mr. Shays. Yes, sir.
    Mr. Schumacher. In October 2000, myself and Agent Scott 
received clearance letters from OPR.
    Mr. Shays. Mr. Chaison and Mr. Allen and Mr. Stephens, do 
you want to add anything?
    Mr. Stephens. As far as morale for the letter, what I think 
hurt us as much as anything was the fact that it alleged racial 
profiling of Mr. Smith. And myself, my team members, Agent 
Schumacher and the ones on the task force at that time had 
never been around Mr. Smith except for in the courtroom where 
he was there to see Mr. McCarter and Mr. Russell during the 
trial.
    Mr. Shays. So just for the record, all four of you, do you 
believe this investigation was motivated by race in any way? 
Mr. Schumacher.
    Mr. Schumacher. Absolutely not.
    Mr. Shays. Mr. Stephens.
    Mr. Stephens. No.
    Mr. Shays. Mr. Chaison and Mr. Allen.
    Mr. Chaison. No.
    Mr. Allen. No.
    Mr. Shays. Just note for the record that, Mr. Chaison and 
Mr. Allen, you both are African Americans, is that correct?
    Mr. Chaison. That's correct.
    Mr. Allen. That is correct.
    Mr. Shays. It is our understanding that in September or 
October 1999 Special Agent in Charge of the DEA office in 
Houston, Mr. Howard, called a meeting of the task force 
investigating the Rap-A-Lot matter. Were you called to a 
meeting of the whole task force by Agent Howard in September/
October 1999, and what happened at that meeting, Mr. Stephens?
    Mr. Stephens. Yes, I was called to a meeting; and Mr. 
Howard said that we were shutting down the investigation or 
that he was shutting down the investigation.
    Mr. Shays. Was it your understanding that as to the exact 
date and time of this meeting--when was it, do you remember?
    Mr. Stephens. I don't recall the exact date. I think it was 
in the range of September 20 through the 25th.
    Mr. Shays. Mr. Chaison or Mr. Allen, were you at this 
meeting?
    Mr. Chaison. Yes.
    Mr. Allen. Yes.
    Mr. Shays. And you verify that basically you were told it 
was being shut down?
    Mr. Chaison. Yes.
    Mr. Allen. That's correct.
    Mr. Shays. What was the reason, what was the explanation, 
Mr. Stephens?
    Mr. Stephens. Political reasons.
    Mr. Shays. That's your interpretation.
    Mr. Stephens. Those were his words, political reasons.
    Mr. Shays. Would you add to that, Mr. Chaison, Mr. Allen?
    Mr. Chaison. We were told the investigation was being 
stopped because of political pressure.
    Mr. Shays. Mr. Allen.
    Mr. Allen. Same response. Because of political pressure.
    Mr. Shays. Mr. Schumacher, were you at that meeting?
    Mr. Schumacher. Yes, sir, I was.
    Mr. Shays. Does your recollection coincide with Mr. 
Stephens, Mr. Chaison and Mr. Allen?
    Mr. Schumacher. Yes, it does.
    Mr. Shays. In your own words, what was the reason?
    Mr. Schumacher. Mr. Howard said it was headquarters, 
politics--or politics and headquarters and that as of 10:21 
this morning we're shutting it down.
    Mr. Shays. Now it's our understanding that a total of seven 
Houston policemen were taken off the case. What was done to 
replace them, Mr. Stephens?
    Mr. Stephens. There was nothing done to replace them.
    Mr. Shays. They were taken off the case?
    Mr. Stephens. Yes, sir. We did continue with the judicial 
process. Anyone going to court we did follow through with that. 
But as far as any proactive investigation they were not 
replaced.
    Mr. Shays. So those who were indicted, the indictments were 
pursued, but there was no further investigation, to the best of 
your knowledge.
    Mr. Stephens. There was no proactive investigation, no, 
sir.
    Mr. Shays. Given that all of you had important work to do, 
what did Mr. Howard do to ensure that the level of effort did 
not drop off? Mr. Stephens.
    Mr. Stephens. Nothing that I know of, sir.
    Mr. Shays. Mr. Chaison, Mr. Allen.
    Mr. Chaison. I am not understanding your question.
    Mr. Shays. Mr. Schumacher, let me just ask you that 
question.
    Mr. Schumacher. I'm sorry, would you repeat that?
    Mr. Shays. Given that--all the important work to do, what 
did Mr. Howard do to ensure that the level of effort did not 
drop off?
    Mr. Schumacher. What efforts were made by--in September? 
None.
    Mr. Shays. Seven policemen are taken off the case.
    Mr. Schumacher. Right.
    Mr. Shays. So what effort was made by Mr. Howard to make 
sure that the effort of investigation did not drop off? Seven 
officers were removed. Who took their place?
    Mr. Schumacher. None, no one.
    Mr. Shays. So it's your testimony that, to the best of your 
knowledge, Mr. Howard did nothing to make sure that this 
investigation continued.
    Mr. Schumacher. Yes, sir.
    Mr. Burton. If the gentleman would yield. The investigation 
stopped at that point. Mr. Howard put nobody else on the firing 
line to go out and continue the investigation, correct?
    Mr. Schumacher. That is correct sir.
    Mr. Burton. Thank you.
    I thank the gentleman for yielding.
    Mr. Shays. You told the committee staff, Mr. Stephens, that 
Mr. Howard had been one of your biggest supporters and he put a 
No. 1 priority on the investigation. Do you believe--first off, 
what was his demeanor? Can you gentlemen tell me? Was he happy 
about ending this case or unhappy or what?
    Mr. Stephens. On which part? At the beginning or at the 
end?
    Mr. Shay. At the end.
    Mr. Stephens. At the end it was my opinion he was 
uncomfortable when he told us to shut it down. When the group 
started asking questions about it, that's when he time stamped 
it and gave a date and time. The date I don't remember. The 
time I don't. But I know that he did say, it's so and so, it's 
this time, this date, I'm telling you it's shut down.
    Mr. Shays. Mr. Chaison, Mr. Allen, you want to add to that?
    Mr. Chaison. Yes. I think as far as how it affected my 
morale it was--being in police work so long and doing many, 
many, many investigations and to be assured in this 
investigation that we had 100 percent support and then have the 
rug snatched from under us, it was like it wasn't worth it all. 
What are we out here doing? Are we on the same page as 
everybody here, concerned about the war on drugs or just what 
is it? Tell me.
    Mr. Shays. Mr. Chaison, Mr. Allen, both of you do 
undercover work. When you do this kind of work do you fear that 
your life is in danger?
    Mr. Allen. Yes, I do, especially after the meeting we had 
with Mr. Howard. It took a lot out of me because I couldn't 
understand, I couldn't get an answer why. We were doing well, 
and all of sudden it was stopped. But there was no answer why, 
and that bothers me till this day.
    Mr. Shays. Let me ask each of you, Mr. Stephens, Mr. 
Chaison, Mr. Allen, you are in the process of investigating 
this work. It was shut down. Was it shut down because you 
basically had run out of leads and it wasn't going anywhere or 
were you fairly certain that you were making progress in this 
investigation?
    Mr. Allen, let's start with you.
    Mr. Allen. Based on all the information we had, we were 
still continuing with the investigation. There were more leads 
that we can follow. There was more undercover work we could 
have done, but due to the fact it was shut down we couldn't do 
any more because we still had informants out there working the 
streets for us.
    Mr. Shays. So when it was shut down this was kind of out of 
the blue. This wasn't something that you were expecting.
    Mr. Allen. That's correct.
    Mr. Shays. Mr. Chaison.
    Mr. Chaison. That's correct. We had informants that were 
still in the picture, and all of a sudden we had to go to them 
and explain to them that--don't do anything else. Again, it 
was--when you see officers hurt in the line of duty and 
especially in narcotics investigations and then you have this 
happen to you it's very depressing.
    Mr. Shays. Do you feel you have the support of your fellow 
officers coming up here or do you they kind of think that you 
are making a mistake coming up here? Are they happy to see you 
up here do you think or are they disappointed that you're here?
    Mr. Chaison. No, I think--when we left, the officers that 
know us well, we have 100 percent support of our department and 
our co-workers. It's almost like a rooting section we may 
receive when we return.
    Again, we make many arrests, small people and people with 
notoriety; and the Federal Government and the States have 
invested a lot of time and money into our investigations. And 
then we get someone to come along with money and can halt an 
investigation and then can have music done behind it, bragging 
about what they have done, it's a slap in the face.
    Mr. Shays. You're making reference to the fact that Mr. 
Prince, basically, his legitimate business is hard-core gang 
rap music. And maybe you could make reference a little more 
clearly here. Are you saying that one of rapsters was 
mentioning this case or mentioning any of the officers?
    Mr. Chaison. That's correct. One of his artists on his 
label made a song, composed a song about our investigation and 
bragging how he's had DEA agents replaced and jobs terminated, 
confidential informants would be killed or killed.
    Mr. Shays. Did he mention any law enforcement's names in 
this rap music?
    Mr. Chaison. Yes, he did he mentioned Jack Schumacher and 
Chad Scott. He mentioned the local police which he called--the 
local police executing warrants at his house.
    Mr. Shays. Now we're going to have Agent Howard testify in 
the next panel, but the bottom line of your testimony--how much 
time do I have left? I would like each of you to describe to me 
whether you felt this investigation should have continued. I 
want you to tell me why you think it ended and tell me what you 
think if we continued this investigation what we would have 
achieved. And I'll start with you, Mr. Schumacher.
    Mr. Schumacher. Yes, sir. I think that the--based on the 
results that the investigative team had accomplished I think it 
should have continued, it being the investigation. We had three 
informants still plugged in to the Rap-A-Lot gang, if you will; 
and we were just getting, really, getting to the second phase. 
And it started out as a drug investigation. It spread out to 
police corruption, murder. We were in the second phase, and I 
think it should have continued. We had the investigative leads; 
and had the investigative resources continued to go forward, I 
believe we would have met with some success.
    Mr. Shays. Thank you. I'm going to come back to you, and I 
will have about 10 questions. I want to go fairly quickly.
    Mr. Stephens.
    Mr. Stephens. OK. I think we definitely had things to do. 
We had people in jail that, in my opinion and without going 
into too much detail about the case, hold the key to us being 
successful. We started to break a stranglehold that Rap-A-Lot 
had on the 5th ward in Houston where everyone was afraid to 
talk to us, and we were taking small steps to get big steps, 
sometimes bigger than others, but there was much more left to 
be done.
    Mr. Shays. So Mr. Prince succeeded in stopping the 
investigation it appears, and the end result is you even have a 
song celebrating the fact that he was able to stop the police 
work.
    Mr. Chaison.
    Mr. Chaison. That's correct. I definitely feel that--let me 
relate a hot kitchen to you. When it's hot in the kitchen, when 
the heat is turned up and you want to alleviate that heat, you 
get out of the kitchen or you turn your heating system off. The 
heat was definitely on him and his organization. It was there. 
The pressure was on, which started to infiltrate his 
organization, and he knew this. And the best way to--I would 
assume the best way to stop this investigation was to do it 
like he had done it before, which I wasn't privileged to that 
investigation but I understand it was stopped due to political 
pressure. And if political pressure worked before then it will 
work again. And this has happened. This is my opinion.
    Mr. Shays. Is your opinion basically that you--sometimes 
there's no one to kind of protect the small guy but the big guy 
has people to find ways to protect him? Is that kind of what 
you're saying to us?
    Mr. Chaison. Yes, we have small people, small fish ask us 
all the time, why don't you get the big guy? And we had a big 
guy and it was evident----
    Mr. Shays. And yet he may have been found innocent. Your 
investigation may not have led to something, but it's your 
testimony that your investigation was stopped in the middle.
    Mr. Chaison. That's correct.
    Mr. Shays. Mr. Allen.
    Mr. Allen. Yes, our goal was to target a person. We 
targeted that person, we started making arrests, we got into 
the 5th ward, and all of a sudden it was stopped. I feel real 
bad about it because we were making headway, we were continuing 
to make headway, and then all of a sudden it stopped.
    Mr. Shays. I yield back my time.
    Mr. Burton. I would like to ask a couple questions if I 
might, if the gentleman would yield to me.
    How many of the 20 people that were convicted of narcotics 
trafficking or murder were associated with Mr. Prince and Rap-
A-Lot? Were there a lot of them?
    Mr. Schumacher. I can think of about 10.
    Mr. Shays. Were any of them in an executive capacity or in 
what capacity in which did they serve?
    Mr. Schumacher. Two of them, McCarter and Russell, whom we 
arrested on January 7, 1999, occupied what I would characterize 
as management-style positions with Prince's Rap-A-Lot company. 
They had an office on the same floor as Mr. Prince. And during 
our investigation in January we had numerous calls between an 
informant and Russell while Russell was at the compound, Rap-A-
Lot compound. He would answer the phone Rap-A-Lot. And then we 
had the informant on two different occasions meet with Russell 
in his office at the Rap-A-Lot compound.
    Mr. Burton. There was one murder conviction. Was there any 
association between the person that was convicted of murder and 
anybody at Rap-A-Lot?
    Mr. Schumacher. Yes, sir.
    Mr. Burton. Can you give us that connection?
    Mr. Schumacher. Lamar Burkes was recently convicted of 
murder. And we had been told on several occasions by another 
informant that it was the informant's understanding that Prince 
had solicited Burkes to murder selected key witnesses in this 
case.
    Mr. Burton. That Prince had himself, according to your 
informant--this was secondhand information--had been involved.
    Mr. Schumacher. Yes.
    Mr. Burton. This is speculative, but you do believe that 
there would have been more convictions had you been able to 
continue the investigation and you might have been able to go 
right up the food chain and nail the kingpin, is that correct?
    Mr. Schumacher. I think there would have been more 
convictions, and we would have tried very, very hard to reach 
our objective.
    Mr. Burton. Mr. Stephens.
    Mr. Stephens. Absolutely.
    Mr. Chaison. That's correct.
    Mr. Allen. That is correct.
    Mr. Burton. So all four of you believe that this case was 
cutoff in the middle of the stream and that the people who were 
the big Kahuna or kingpins were saved by the stopping of the 
investigation, correct?
    Mr. Schumacher. They received a reprieve, yes, sir.
    Mr. Stephens. Yes, sir.
    Mr. Chaison. That's correct, sir.
    Mr. Allen. Yes.
    Mr. Burton. Any more questions from anybody?
    Mr. LaTourette. While the yellow light is still on.
    Mr. Shays. I want to ask one last thing to Mr. Schumacher. 
Were you transferred to a desk job on March 15, 2000?
    Mr. Schumacher. Yes, sir.
    Mr. Shays. What do you believe was the reason for this 
transfer?
    Mr. Schumacher. I was told that headquarters told our front 
office to take me out of--off the Rap-A-Lot case, out of the 
group that has the case and preferably out of the Houston 
office.
    Mr. Shays. Who told you that?
    Mr. Schumacher. I was told by--under confidential 
circumstances.
    Mr. Shays. OK. Thank you.
    Mr. Burton. Mr. Waxman, 30 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    First, I want to yield 10 minutes to the gentleman from 
Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Waxman.
    First, I want to say to all our officers, we applaud what 
you do every day. As one who has addressed the drug issue head 
on and lives in a community that's been taken over by drugs to 
a large degree, I understand what you do, and we want to thank 
you for doing what you do.
    But I want to clear up something very quickly. Mr. Shays 
said something that tremendously concerns me as a Member of the 
U.S. Congress when he spoke of Maxine Waters; and he said, I 
don't question her integrity, but I do question her judgment. 
And certainly he has that right. But I want to put it on the 
record that I could think of no Member of Congress who has 
fought this drug war and put her life on the line on many, many 
occasions--and I am talking about even from an international 
level--than Maxine Waters. And I just want to make sure that 
that's very clear because I would not want this moment in 
history to pass without that being abundantly clear.
    Let me just ask you, Mr. Schumacher, I want to go for a 
moment--I am sure Mr. Waxman will go into other issues, but I 
want to just go to this discussion that was had with Mr. Howard 
with regard to the investigation being stopped. One of my 
concerns in sitting on this committee has consistently been is 
a lot of times people are brought before this committee, 
accusations are made, and these people have to go back to their 
communities and live. I want to make sure, just as we would not 
accuse you of something that you did not do, because you do 
have to go back to Texas, we wouldn't want that to happen to 
anyone. I know I wouldn't.
    Let me ask you this in that regard in this conversation 
that you had with Mr. Howard: did he tell you about--did he 
give up any names of people when he talked about being stopped 
for--the investigation being halted for political reasons?
    Mr. Schumacher. It seems that he mentioned the name Maxine 
or Waters. I'm sorry. Can you hear me?
    Mr. Cummings. Yeah, I can hear you. Can you tell us what he 
said?
    Mr. Schumacher. The best I recall, sir, is he walked into 
the group, we gathered up--it was not unusual for Mr. Howard to 
come over and speak to me directly about the case because he 
had demonstrated an intense interest in it. He was our biggest 
supporter, our biggest fan; and we cannot have made the 
progress we had made without him providing the resources for 
us. But on that particular day he came in, said numerous 
phrases, etc. What I recall was the words, DEA headquarters or 
headquarters, politics, Maxine or Maxine's letter, and I am 
shutting it down. I don't want anybody to get hurt here.
    Mr. Cummings. Now, this was--you were--I think you said a 
little bit earlier that there had been a complaint against you, 
is that right, with regard to--you had been investigated with 
regard to what kind of charges, can you tell us, with regard to 
this case that is?
    Mr. Schumacher. Allegations not charges.
    Mr. Cummings. Allegations. Were you being investigated?
    Mr. Schumacher. Yes, sir.
    Mr. Cummings. What were those investigations? What was that 
in regard to?
    Mr. Schumacher. Well, I later found out when I was 
requested to come and interview up here in Washington, DEA 
headquarters, OPR, in February 2000. That was the first time I 
saw what the allegations were.
    Mr. Cummings. And what were the allegations?
    Mr. Schumacher. Racial profiling, civil rights violation, 
discrimination, conduct unbecoming of an agent.
    Mr. Cummings. During the course of the--I think you 
mentioned another person who was also investigated, do you 
recall?
    Mr. Schumacher. Agent Chad Scott.
    Mr. Cummings. Agent Scott. All right. Now when this 
discussion was had with Mr. Howard, did he mention at all the 
investigation and was the investigation still ongoing at the 
time that this conversation took place?
    Mr. Schumacher. I am not sure which investigation you're 
referring to.
    Mr. Cummings. All right.
    Mr. Schumacher. There is the criminal investigation 
involving Rap-A-Lot, then there's the internal investigation by 
DEA.
    Mr. Cummings. I'll clear that up for you. Let me clear that 
up, and thank you for bringing that to my attention. What I am 
asking you is when you had the discussion with Mr. Howard about 
the ending of this criminal investigation of Rap-A-Lot, was the 
investigation of you, the internal investigation, still going 
on?
    Mr. Schumacher. I was not aware that it was active or 
initiated. I want to say at that time my understanding was that 
Ms. Waters--subsequent to a visit by Mr. Prince to her office, 
Ms. Waters had sent a letter and followed it up with a phone 
call to Attorney General Reno, who in turn forwarded that 
letter over to DEA headquarters. And that was my understanding 
of where it was at that point.
    Now when officially DEA headquarters, OPR initiated that 
investigation I don't know to this day. I don't know the date.
    Mr. Cummings. Let me ask you this: Your visit to 
Washington, did it come subsequent to your meeting with Mr. 
Howard about the ending of the criminal investigation? Did it 
come after that?
    Mr. Schumacher. Yes, sir, it did.
    Mr. Cummings. All right. Now, when the discussion was--are 
you clear?
    Mr. Schumacher. Yes.
    Mr. Cummings. When the discussion was had with the--let me 
go to this last discussion you said you had with the 
confidential--this confidential discussion that you had. Was 
that with a member of the DEA or--can you tell us that--or a 
member of the Houston Police Department? Can you tell us that?
    Mr. Schumacher. It's a confidential matter.
    Mr. Cummings. All right. So you can't tell us.
    When Mr. Shays asked you whether you were now--or someone 
over here asked you whether you now had a desk job, you have a 
desk job now, is that right?
    Mr. Schumacher. I did at that time, yes, sir.
    Mr. Cummings. Now I think you said something that--I just 
want you to clear this up for us. You said that it had gotten 
into the second phase, that you were about to go into the 
second phase--what does that mean--of the criminal 
investigation.
    Mr. Schumacher. Well, that's my characterization of the 
situation. As Sergeant Stephens had referred to, we anticipated 
either McCarter or Russell cooperating and/or some of the other 
folks we had arrested that they would become defendant/
witnesses, if you will. And the second phase would be launched 
subsequent to that, along with some other information that 
informants we had working----
    Mr. Cummings. And are these cases--let's assume the 
investigation was started up again, are the cases still viable, 
you think?
    While you're thinking, let me ask Mr. Stephens, do you 
think the cases are still viable?
    Mr. Stephens. I think it would take a lot more work now 
than it would then, but I'm not going to give up on it. I think 
probably we could do something, yes.
    Mr. Cummings. What about you, Mr. Allen?
    Mr. Allen. I think it would be a hard task to get back to 
right where we were before it ended. It would be real hard.
    Mr. Cummings. Mr. Schumacher.
    Mr. Schumacher. The hardest part would be----
    Mr. Burton. Excuse me, I believe the other officer would 
like to comment.
    Mr. Cummings. I will get back to him. I thought Mr. 
Schumacher was ready to respond.
    Mr. Schumacher. The hardest part would probably be to 
reestablish the motivation of our initial informants, because 
when we backed off they were just left out there in the cold, 
so to speak.
    Mr. Cummings. Mr. Chaison.
    Mr. Chaison. Yes, I concur. I think we could probably do 
something, but it would be difficult to get back to where we 
were. Because not only do we have politics playing a part, but 
we have the judicial system we have to look at also as, to me, 
causing interference.
    Mr. Cummings. Last but not least, Mr. Chaison, you in your 
testimony--I listened to you very carefully when you were 
talking about the rap songs, and I must admit I think there is 
a generation gap with regard to me and the rappers, but I do 
listen to what they write about and sing about or speak about. 
And I take it that you, when you listened to these, this rap 
is--this by this particular fella, Prince, the songs that you 
talked about, the one that you talked about where they gave the 
lyrics that referred to Schumacher and you all----
    Mr. Chaison. I am referring to an artist on the Rap-A-Lot 
label, Brad ``Scarface'' Jordan. I don't know if anyone, any 
Congressman, Congressladies, have listened to the CD. I would 
encourage you to listen. It's very clear. It's not a rap song 
that's difficult to understand.
    But when you advocate the hostility and the violence that 
this individual is talking about, that's a problem. Again, I 
say that not only do we have problems politically, when we take 
cases to court and they go through the system and the judge 
comes--after the jury finds a defendant guilty and then a judge 
comes back and reverses the jury's decision, I'm still trying 
to understand that.
    I don't know how that type of thing happens, and I have 
been in court, going to court on court cases for 21 years or 
better, and you know, there's just something very blatant. It's 
difficult for me to understand.
    Mr. Cummings. As a lawyer, I just have to ask you this, 
you're not trying to--you're not accusing a judge of 
misconduct, are you? I'm just curious. Is that what you're 
saying?
    Mr. Chaison. No. I'm just trying to understand what 
happened, and then you as an attorney may be able to help me 
shed some light on to me what happened in Federal cases like 
that. I don't know.
    Mr. Cummings. OK.
    Mr. Chaison. I would definitely not accuse a Federal judge, 
a State judge, a municipal court judge of any wrongdoing. I'm 
not an attorney, so I don't understand the process. I 
understand what I'm supposed to do as an employee of the police 
department, and I do that and I do it well, and we're similar 
to the judicial system, and I try and understand what the court 
is about.
    Mr. Cummings. I understand. Let me just ask this one last 
thing. When the--when you all were taken off the case--Mr. 
Stephens, when you all were taken off the case, how many 
officers were left in the task force, do you know?
    Mr. Stephens. Well, the joint task force dissolved when we 
left.
    Mr. Cummings. OK.
    Mr. Stephens. We were part of that joint task force, DEA 
group four remained, but that was it.
    Mr. Cummings. So it was over?
    Mr. Stephens. Yes.
    Mr. Cummings. How many cases were still pending to go to 
court?
    Mr. Stephens. I'd be guessing, but I'd say three, four, 
five, around in there.
    Mr. Cummings. So you all testified--did you testify in 
those cases?
    Mr. Stephens. Yes.
    Mr. Cummings. And were you successful?
    Mr. Stephens. Yes.
    Mr. Cummings. Now, DEA, did DEA force remain, is that what 
you said?
    Mr. Stephens. They continued being DEA. The task force 
dissolved. They remained in their offices which is where we had 
been----
    Mr. Cummings. Do you know whether they continued to do any 
investigations with regard to any of the things that you all 
were looking at?
    Mr. Stephens. I don't know of them doing anything. I never 
saw anything, never heard anything, and saw no sixes.
    Mr. Cummings. Would you have knowledge of that? Would that 
knowledge normally come to you?
    Mr. Stephens. Yes.
    Mr. Cummings. What about you--I'm sorry, Mr. Chaison.
    Mr. Chaison. No, I have no knowledge of any continuing 
investigations after it was shut down.
    Mr. Cummings. Mr. Allen.
    Mr. Allen. No knowledge of any investigation.
    Mr. Cummings. Thank you very much.
    Mr. Waxman. Thank you, Mr. Cummings. Let me pursue some 
questions, a few questions of the Houston police officers here 
today, to make sure I understand the facts and can separate 
them from speculation. All three of you were assigned to an 
organized crime drug enforcement task force in the summer and 
fall of 1999. Sergeant Stephens, isn't that correct?
    Mr. Stephens. 1998 is when we were assigned.
    Mr. Waxman. And Officer Allen?
    Mr. Allen. 1999, yes, sir.
    Mr. Waxman. And Officer Chaison?
    Mr. Chaison. That's correct, 1998.
    Mr. Waxman. Let's talk about what that means. My 
understanding is that this kind of assignment allows different 
law enforcement organizations, Federal, State and local, to 
cooperate in major drug investigations and to draw on Federal 
resources; isn't that correct?
    Mr. Stephens. Yes, sir.
    Mr. Waxman. So the task force was not a permanent 
assignment, was it?
    Mr. Stephens. Not for us, it was not, no, sir.
    Mr. Waxman. If you disagree, let me know, but otherwise, 
whichever one of you answers.
    Mr. Waxman. You knew that the assignment would end and you 
would eventually return to your duties with the Houston Police 
Department; is that correct?
    Mr. Stephens. Yes.
    Mr. Waxman. I think you have all testified that in 
September 1999, you and others working on the task force had a 
meeting with Special Agent-in-Charge Ernest Howard?
    Mr. Stephens. That's correct.
    Mr. Waxman. And he indicated to you at that time that he 
was pulling you off the investigation; is that right?
    Mr. Stephens. Yes.
    Mr. Waxman. My understanding is that you don't recall 
exactly what he said, but you recall that he seemed frustrated 
and that he made some reference to political pressure. Is that 
a correct statement?
    Mr. Stephens. That's correct.
    Mr. Waxman. Do any of you have a more detailed recollection 
of what Mr. Howard said?
    Mr. Stephens. Just again, about the time stamping, when 
there were questions as to why it was being shut down, because 
Agent Schumacher asked him in front of the group and started to 
get a little more in depth as to what was going on, that's when 
he looked at his watch and gave the date and time and said it's 
stopping, and didn't really go into any more detail at all.
    Mr. Waxman. Sergeant Stephens, you were the senior Houston 
police officer on the task force. Are you aware of any 
discussions between Mr. Howard and any of your superiors prior 
about pulling you and other Houston police officers back to the 
department?
    Mr. Stephens. No, sir.
    Mr. Waxman. Is it possible that Mr. Howard had discussions 
about task force staffing with senior Houston police officials 
without your knowledge?
    Mr. Stephens. Sure.
    Mr. Waxman. You've testified that in August 1999, Mr. 
Howard told you that he was, ``shutting down the investigation 
and was doing so for political reasons.'' September--but there 
are some documents that I want to bring to your attention. 
There's a September 27 memo from Special Agent James Nims, 
notes that he was instructed not to pursue a new lead until the 
Office of Professional Responsibility investigation had 
cleared, and there are e-mails were written by Mr. Howard in 
March 2000 suggesting that the investigation was ongoing as of 
that date. These documents appear to be inconsistent with any 
statement by Mr. Howard that he was shutting down the 
investigation, doesn't it? And you just know that you were 
removed from the investigation. Is that correct or do you have 
any other----
    Mr. Stephens. No. In September, if you look at the case 
file, there was no more dope that was purchased, there were no 
more surveillance sixes. There was nothing proactive done on 
that investigation following that meeting with Mr. Howard, and 
you're not going to find anything because it just wasn't done. 
How there's a contradiction there between March and September, 
I don't know. I just know what he told us.
    Mr. Waxman. Mr. Schumacher, I understand you and others in 
your enforcement group were investigated and cleared of 
wrongdoing by DEA's Office of Professional Responsibility; is 
that correct?
    Mr. Schumacher. Yes, sir.
    Mr. Waxman. You're probably aware that your former 
supervisor, James Nims, wrote a memo on September 27, 1999, I 
just mentioned it, that made its way into the Dallas Morning 
News. The memo reportedly said that Mr. Howard had instructed 
Mr. Nims not to pursue any new leads on the investigation until 
the Office of Professional Responsibility investigation 
cleared. Were you taken off the investigation at that time?
    Mr. Schumacher. September 27th?
    Mr. Waxman. Uh-huh.
    Mr. Schumacher. The investigation was shut down. There was 
no need to take me off.
    Mr. Waxman. Was it your understanding, you and others under 
Mr. Nims' supervision were taken off the investigation because 
of the Office of Professional Responsibility investigation?
    Mr. Schumacher. That wasn't my understanding.
    Mr. Waxman. Set aside the question as to whether the Office 
of Professional Responsibility investigation was warranted or 
not warranted. Do you think it's unusual for a DEA manager to 
temporarily reassign an agent a case when that agent's conduct 
on the case comes under investigation?
    Mr. Schumacher. I'm not qualified to answer that, sir. I 
think and work like a street agent, not like a manager.
    Mr. Waxman. Would it surprise you to hear from the DEA that 
its managers often reassign agents under similar circumstances?
    Mr. Schumacher. I personally hadn't seen that happen 
before.
    Mr. Waxman. On March 15, you were temporarily reassigned 
from a position as acting supervisor of an enforcement group to 
a position as the acting supervisor of a support group; is that 
correct?
    Mr. Schumacher. That is correct.
    Mr. Waxman. There have been reports in the press suggesting 
that there is some connection between this transfer and a visit 
by Vice President Gore to Brook Hollow Baptist Church on March 
12. Aside from the fact that Vice President Gore visited the 
church 3 days before the date of your transfer, are you aware 
of any evidence that Vice President Gore discussed the 
narcotics investigation during his visit?
    Mr. Schumacher. Absolutely not.
    Mr. Waxman. Do you have any information that Vice President 
Gore discussed campaign contributions with the pastor of this 
church or any one of the subjects of the investigation?
    Mr. Schumacher. No, I don't.
    Mr. Waxman. And do you have any information that the pastor 
of this church or one of the subjects of the investigation made 
campaign contributions to Vice President Gore or the Democratic 
National Committee?
    Mr. Schumacher. I have some confidential informant 
information relative to that.
    Mr. Waxman. And that is information aside from any filing 
or disclosure by the campaigns?
    Mr. Schumacher. I don't know about that.
    Mr. Waxman. You don't know about that. Do you have any 
information at all that shows that the Vice President Gore 
directly or indirectly interfered with this investigation?
    Mr. Schumacher. No, sir.
    Mr. Waxman. So what you have is some confidential 
information that there might have been contributions to either 
Vice President Gore or the Democratic Party from whom?
    Mr. Schumacher. Prince.
    Mr. Waxman. I see. And you don't know that there's any 
connection between that and the events that we're discussing 
that related to this investigation?
    Mr. Schumacher. No, sir.
    Mr. Waxman. Just for the record, there's no record of any 
contributions from James Prince or Rap-A-Lot to Vice President 
Gore or the Democratic National Committee. I just state that 
for the record. Do any of you have any additional information 
apart from speculation and rumor showing that politics played a 
role in your transfer or management decisions in this 
investigation? And I address that to anybody, all of you on the 
panel.
    Mr. Allen.
    Mr. Allen. No, I do not.
    Mr. Chaison. No, sir, I do not.
    Mr. Waxman. Mr. Stephens, sir.
    Mr. Schumacher. Other than what I was told in September by 
Mr. Howard.
    Mr. Waxman. Mr. Schumacher, let me go back to you about 
this contribution that you heard about from a confidential 
source. You are testifying under oath. If what you say is true 
and there's no filing, it may involve a criminal violation for 
not having disclosed this contribution. Would you share this 
information with the committee, your confidential information?
    Mr. Schumacher. No, sir.
    Mr. Waxman. If not the name of the source, the details that 
were related to you.
    Mr. Schumacher. It's a confidential matter, sir.
    Mr. Waxman. You're testifying before Congress. We're asking 
you about some matter that might involve a violation of 
criminal law, and it would be, I think, incumbent upon you to 
tell us the substance of what report you heard, if not the 
source. What did you hear?
    Mr. Schumacher. Excuse me for a moment, sir, while I confer 
with counsel here.
    Mr. Waxman. Yes, Mr. Schumacher.
    Mr. Schumacher. OK. It's--it's third-hand information, 
hearsay information that has not been corroborated, sir, from a 
confidential informant.
    Mr. Waxman. So it's not reliable information.
    Mr. Schumacher. It has not been corroborated.
    Mr. Waxman. I want to tell you something that you may not 
know, because I don't think you know our colleague, Maxine 
Waters, but I've known her for many, many years, and I do not 
believe that she would ever improperly interfere with law 
enforcement or an investigation, but I do know that she has had 
a very longstanding concern about racial profiling, and we can 
read from her letter to the Attorney General that she expressed 
her concern about any potential racial profiling, and I don't 
think that is in any way inappropriate.
    Mr. Schumacher. May I answer you--you raised the issue 
about racial profiling, sir. Let me explain a little bit to you 
about this case. This case involved the Houston 5th ward that 
is inner city, known as local impact case. This case does not 
involve enforcement activities where uniform cars or unmarked 
cars are set up on major thoroughfares to interdict people. 
There is no interdiction going on. OK. We have maps that we can 
show you just how inner city the 5th ward is. So I've always 
been a little confused why one of Ms. Waters complaints or 
allegations had to do with racial profiling, but thank you.
    Mr. Waxman. Well, the only thing I point out to you is I'm 
not accusing you or anyone else of racial profiling. All I'm 
saying is that Representative Maxine Waters has had a very 
longstanding concern about this issue, and if she raised it as 
a concern, I think it's perfectly appropriate for her to raise 
it as a concern. I don't know if she made any accusations or 
not. Maybe she wanted to raise it as a matter that she thought 
ought to be looked at, and I think that's quite appropriate, 
and no one should think anything other than that. I have some 
time left, and I want to yield to the gentleman from Maryland.
    Mr. Cummings. Now, Mr. Schumacher, just out of curiosity, 
you have talked about Mr. Howard, is that correct? You know 
him?
    Mr. Schumacher. I know Mr. Howard very well.
    Mr. Cummings. You understand he's going to be on the next 
panel, do you understand that?
    Mr. Schumacher. I do.
    Mr. Cummings. Is he an honorable man? Do you consider him 
to be an honorable man?
    Mr. Schumacher. Absolutely.
    Mr. Cummings. Because we're going to be listening to his 
testimony. I don't have a clue as to what he's going to say, 
but since there is a question mark that has been left as to 
what political reasons are and whatever, the various things 
that you've testified to, we're going to probably have to rely 
on his testimony, and I was just curious as to your opinion of 
him. What is your opinion of him, Mr. Stephens?
    Mr. Stephens. He was our biggest supporter in the 
beginning. This case was important to him, but he pulled the 
plug in September. He shut it down.
    Mr. Cummings. Do you still consider him--I mean, what is 
his reputation as far as you're concerned?
    Mr. Stephens. Like I said to that point and even 
afterwards, I consider him an honorable man. I don't know why 
he did what he did. I just know he did it.
    Mr. Cummings. Mr. Allen.
    Mr. Allen. I feel the same way as Mr. Stephens.
    Mr. Cummings. Mr. Chaison. I hope I'm pronouncing your name 
correctly.
    Mr. Chaison. That's fine. I guess I have great admiration 
for Mr. Howard. I think he's an honorable man. I have nothing 
bad to say about him.
    Mr. Cummings. All right. Thank you. I yield back to the 
gentleman.
    Mr. Waxman. Let me just ask one question of the Houston 
police officers. Why didn't you continue to pursue the case on 
your own?
    Mr. Stephens. You guys have got a bigger tax base than we 
do in Houston, TX, and to buy the kind of narcotics and do the 
kind of work we need to do in order to infiltrate this 
organization, it's very difficult with Houston city tax base. 
We don't have the buy money. We can't pay the informants like 
the Federal Government can, and I think, in my opinion, that's 
what OCDETF is all about, to help us out.
    Mr. Waxman. When you were successful in getting these 
convictions, we were talking about was it based on the joint 
task force work or your own?
    Mr. Stephens. Yes, it was.
    Mr. Waxman. So you felt if there wasn't this joint task 
force, you didn't have the resources, even though you had the 
lawful authority to conduct the investigation on your own?
    Mr. Stephens. That's correct.
    Mr. Cummings. Would the gentleman yield?
    Mr. Waxman. Yes.
    Mr. Cummings. Thank you, Mr. Waxman. How much time do we 
have? About half a minute. Very well. I yield back.
    Mr. Burton. We will now go to the 5-minute rounds. Would 
you just explain real quickly what the ``buy money'' means?
    Mr. Stephens. Buy money means money that we can use to 
purchase narcotics where we don't effect an arrest immediately.
    Mr. Burton. Set up an arrest.
    Mr. Stephens. Correct.
    Mr. Burton. And the amount of money sometimes is 
substantial and you don't have it in your local tax base the 
funds available to do that?
    Mr. Stephens. That's correct.
    Mr. Burton. And that's why the Federal money was important.
    Mr. Stephens. Yes, sir.
    Mr. Burton. I just want to ask two questions, and then I'll 
yield to my colleague from California. First of all, I 
understand, Mr. Schumacher, that the information you had was 
third hand, but we did have a campaign finance investigation 
going on. Can you give a little more detail on what you did 
hear from your third hand informant--you don't have to give the 
name--on what kind of funds were allegedly given?
    Mr. Schumacher. Excuse me one moment. Yes, sir. It was an 
amount over 200,000, but as I said earlier, it comes from third 
hand information and upon----
    Mr. Burton. I understand and that's fine. We just wanted to 
find out. Is there any way of corroborating that? It'd be hard 
now?
    Mr. Schumacher. Unknown at this time.
    Mr. Burton. OK. One other question and any one of the 
officers can answer. I understand that you were detailed, Mr. 
Chaison, to guard Presidents and Vice Presidents when they came 
to Houston. When Vice President Gore visited the church in 
question that Mr. Prince had made a $1 million contribution to, 
do you know, or do you have any knowledge that he met with Mr. 
Prince or do any of you have any knowledge that during that 
meeting he had a chance to talk to Mr. Prince?
    Mr. Chaison. No, I do not.
    Mr. Burton. Anybody else?
    Mr. Stephens. I do.
    Mr. Burton. Mr. Stephens.
    Mr. Stephens. One of the criminal intelligence division 
officers that was there--and I had reason to talk to her 
recently because of a case she's investigating involving me and 
a threat on my life--she said that she was present when Mr. 
Gore visited the church and that James Prince was there. Now, 
as far as any private meeting between the two, she did not see 
that. I did ask her if he was there when Mr. Gore was there and 
she said yes.
    Mr. Burton. Thank you.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I think it's been pretty 
well gone over what happened on the announcement that we're 
done that--and I just want to confirm that in one or two yes or 
noes, did any part of the DEA carry on any of the activities or 
related activities even though this was being closed down?
    Mr. Schumacher. Yes, sir.
    Mr. Horn. OK. So there was something that still was going. 
OK. How about in the case of the city of Houston's operations?
    Mr. Stephens. The only thing we did was get ready for 
trials that were upcoming.
    Mr. Horn. OK. Are any of those fulfilling themselves and do 
they have any relationship with what were talking about this 
morning here?
    Mr. Stephens. I don't understand, sir.
    Mr. Horn. Well, after the so called shutdown, the question 
is did any little pieces of it, were they salvageable so you 
could proceed, based on some information you had on Prince and 
his company?
    Mr. Stephens. There were still things that we could have 
done, yes.
    Mr. Horn. Well, let me pursue some of them, Mr. Schumacher. 
You were transferred to a desk job on March 15, 2000?
    Mr. Schumacher. That's correct.
    Mr. Horn. What do you believe was the reason for the 
transfer?
    Mr. Schumacher. I believe that someone in DEA headquarters 
called Mr. Howard and gave him a direct order.
    Mr. Horn. Is that third, second or firsthand information?
    Mr. Schumacher. Well, it is reality. I was transferred out 
of enforcement and went up to special support group, where I 
have no really qualification to be assigned.
    Mr. Horn. Did you discuss the Rap-A-Lot investigation with 
Mr. Howard during that period?
    Mr. Schumacher. No, sir.
    Mr. Horn. What did he say, nothing? Wouldn't reveal who 
told him to shut it down?
    Mr. Schumacher. I did not confront Mr. Howard with those 
issues.
    Mr. Horn. Well, Mr. Schumacher and Mr. Stephens, let me ask 
you, in your career dealing with this very difficult drug 
situation, did any political power of either the national 
level, the State level or the mayor of Houston ever try to get 
you to shut down an investigation? Did that ever happen, in 
your experience, where the mayor picked up the phone or the 
Governor?
    Mr. Stephens. No, sir.
    Mr. Horn. So, as far as Houston is concerned, you stick 
with it when you have got an investigation going and 
politicians haven't improved or accessed themselves to the head 
of it and told them to shut it down, son, or we won't give you 
a budget next year?
    Mr. Stephens. That's correct, that has never happened.
    Mr. Horn. OK. How about in your Federal experience, was 
this the first time that kind of political intrusion seemed to 
happen?
    Mr. Schumacher. Yes, sir.
    Mr. Horn. So there has been a previous time or is this the 
only time?
    Mr. Schumacher. Would you please repeat the question? I 
thought you asked me if this is the first time I have ever seen 
it happen and I said yes.
    Mr. Horn. OK. Then that's the answer, obviously, I think 
that's in the record already.
    Mr. Burton. Mr. Horn, I'll come back to you. You will have 
5 minutes after the Democrats.
    Mr. Cummings.
    Mr. Cummings. Thank you very much. Mr. Schumacher, you said 
something that was very interesting. When the chairman, I think 
it was the chairman asked you the question--could the--this 
alleged contribution of $200,000 to the Vice President from 
Prince be corroborated, you said the words, ``unknown at this 
time.'' What does that mean?
    Mr. Schumacher. That means that other than having received 
the information, we haven't had the time to go forward and try 
to develop it up to a classified as to its validity and/or to 
see if it can go any further. We just haven't had the time to 
do it.
    Mr. Cummings. Now, this is the second time in your 
testimony that you talked about a confidential situation, you 
realize that? You talked about it a little bit earlier.
    Mr. Schumacher. I haven't been counting, but it seems we 
have been talking about confidential informants quite a bunch.
    Mr. Cummings. With regard to the Vice President, I think 
you said something a little bit earlier about him, but let me 
ask you, did you do your own--I mean, say when you got this 
information from the third--I think you said third party 
hearsay, I think that's what you said, were you doing--did 
people just come up to you and tell you this stuff or were you 
going out trying to figure out what happened in the 
investigation? I mean does this--I mean, how did that come 
about?
    Mr. Schumacher. Over the years, I've developed, as any of 
these career drug officers have, rapport with many, many people 
out there, and not all of them are criminals with criminal 
records, and I receive phone calls from people with tidbits of 
information, might get as many as five a day, OK. So it's not 
unusual for folks to call.
    Mr. Cummings. And so when--and because the allegations are 
serious allegations and because you are sworn and because we 
are addressing people's reputations here, as I said when I 
first began, I'm just wondering, when you hear these tidbits of 
information, again, you've got the press writing, you have got 
the cameras rolling, do you--I mean, can you tell us in your 
mind whoever this informant was? I mean, have you gotten 
information from that person before?
    Mr. Schumacher. No.
    Mr. Cummings. No.
    Mr. Schumacher. No.
    Mr. Cummings. So this was somebody that you--did you know 
this person?
    Mr. Schumacher. In all due respect, sir, the reason I and 
other drug agents receive information is because we also have a 
reputation of whenever possible protecting their identity.
    Mr. Cummings. I'm not asking you the person's name.
    Mr. Schumacher. For me to keep going further along this 
line of questioning, I think that's where we are heading.
    Mr. Cummings. That's not--but see, we have got a situation 
here where you have presented to us some information that will 
probably be in some stories and be on the news this evening, 
and I'm not asking you for the name of somebody. I'm trying to 
figure out the reliability of the information and how reliable 
you thought it to be. That's all I'm asking you, but you said--
you just told me something that was very interesting. Although 
you had just given me this background information about how, 
you know, people call you and gotten to know them and all that 
kind of thing, but then you said you had never heard from this 
person before, is that correct? I'm not asking you who the 
person was.
    Mr. Schumacher. Let me try to explain to you or articulate 
to you my methodology. I receive information. Let us say you 
call me and you have never called me before. I'm going to 
evaluate your information. I'm going to catalog it. I'm going 
to try my best to corroborate it, to see if it helps us develop 
reasonable suspicion, and then if we can go further to probable 
cause for search or arrest warrants. So receiving information 
is really the first step in a multistep process for me.
    Mr. Cummings. But, Officer, let me--I have got to ask you 
this question if you don't mind. We have a situation here where 
you said that you received information and that you receive 
information from a lot of people, and I am sure that over the 
years as you receive information based upon who you receive it 
from and what they say depends--I mean, that has, I guess, 
something to how you look into it, and all I'm asking is you 
said to us somebody gave you some information, you cannot tell 
us, we understand that, but you also said you had never heard 
from this person before, and the only thing I was asking you 
was how reliable do you think the information was, and if you 
can't answer that, that's fine. But I think it's a reasonable 
question.
    Mr. Shays [presiding]. Mr. Cummings, if we could claim the 
floor again. I just want to state for the record that you were 
asked this question. You said it's a third source. We accept it 
as the third source information. It hasn't been corroborated, 
and therefore, I think we can leave it on that basis.
    Mr. Waxman. Point of order, Mr. Chairman. He was asking a 
question. You don't need to answer it.
    Mr. Shays. You tend to ask points of orders a lot. I just 
want to point out, I let the gentleman go on. It's a red light. 
I don't want to make a big issue. I'm just affirming to my 
colleague that this is a third source piece of information. It 
hasn't been corroborated, and I think we should accept it as 
that, and I on this side of the aisle would verify it hasn't 
been a verified source of information.
    Mr. Cummings. Would the gentleman yield for 15 seconds?
    Mr. Shays. Sure.
    Mr. Cummings. The only reason I do that is we have seen 
over and over again in my years on this committee how things, 
when they get out past here and people begin to be 
interviewed--I'm talking about Members of our Congress--the 
next thing you know we have got something that is just--I trust 
the gentleman, but I don't know whether that's always going to 
be the case. And I just wanted to make sure we cleared it up to 
the extent that we could.
    Mr. Shays. I think the gentleman has made his point and 
made it well. I think the witness responded to a question under 
oath and said it was a third source of information. It's my 
time now. I yield it to Mr. Horn for his 5 minutes--for my 5 
minutes.
    Mr. Horn. Thank you, Mr. Chairman. I'm going to have to go 
back a little bit. You got out of the job, Mr. Schumacher, in 
March 15th and you didn't know the reason for the transfer and 
you did discuss the--or did you discuss the Rap-A-Lot 
investigation with Mr. Howard during that time period 
immediately when he was saying this is going to shut down, and 
did you have a chance to discuss that operation and your 
investigation?
    Mr. Schumacher. Mr. Horn, are you referring to September 
1999 or the March 2000?
    Mr. Horn. March 15th. March 15, 2000, when you were 
transferred.
    Mr. Schumacher. No, I did not have a conversation with Mr. 
Howard that I can recall relative to that.
    Mr. Horn. So he didn't have anything to say on that?
    Mr. Schumacher. I don't recall talking to him about it.
    Mr. Horn. Did he communicate to you or others that he was 
shutting down the investigation at this point?
    Mr. Schumacher. Other than what his comments were in 
September 1999, we didn't have any more talk about that.
    Mr. Horn. Was there any investigative activity going on at 
the time that was--the shutdown occurred.
    Mr. Schumacher. Which shutdown?
    Mr. Horn. Well, the first one, and also after March 15th, 
was there any further things going on----
    Mr. Schumacher. In September 1999, we had some pending 
judicial matters, OK, reactive in nature as opposed to 
proactive investigative tactics that would generate more 
arrests, indictments and seizures of drugs and other evidence. 
You're always going to have, after you make seizures or 
arrests, you're always going to have administrative/judicial 
issues to address, and that's what was addressed after 
September.
    Mr. Horn. So did any of the Houston Department try to pick 
up the threads?
    Mr. Stephens. No, sir. After September we stopped.
    Mr. Horn. So we've got a situation that looked like it was 
going to be potentially very lucrative, and it's just stopped 
there?
    Mr. Stephens. Yes, sir.
    Mr. Horn. To what degree could it ever be picked up again 
if we didn't have somebody politically stopping it? What would 
be--is there enough information there to open up the 
investigation if you didn't have political pressure put on you?
    Mr. Schumacher. I'd have to look at what's left there and 
then try to make an educated decision from there, sir.
    Mr. Horn. And you have been aware that Mr. Howard is 
briefing--has briefed the committee staff on this case on July 
17, 2000, and did Mr. Howard tell you anything about his July 
17, 2000, briefing to this committee?
    Mr. Schumacher. No, sir.
    Mr. Horn. Let me ask you, Mr. Chaison, you stated to the 
committee staff during Agent Schumacher's transfer, ``you don't 
take experience like that away from enforcement and put it 
behind a desk.'' Could you please elaborate on that statement?
    Mr. Chaison. Yes. When I came into narcotics, Mr. 
Schumacher--I didn't know him at the time--spoke at my 
narcotics school or training program, and he told me something 
that was very profound and stays with me today. He said, 
Remember, whatever you do out there, your supervisors may want 
you to do one thing, but remember one thing, nobody can tell 
you how to dance with the devil out there when you're out there 
in the middle of it. And that was profound to me, and I found 
it to be a fact, and so I said with experience, like Jack 
Schumacher, he and I, we've had our disagreements of things and 
then cooler heads prevail. I admire him a great deal. I think 
he has great experience in this line of work, and I'm 
constantly learning from him when there are things to learn.
    Mr. Horn. That's a very moving statement.
    Officer Allen, you told committee staff that you believed a 
good case was killed because of political pressure. In fact, 
you stated that in your opinion this was the case, ``without a 
doubt,'' and that you said, ``cannot see any other reason.'' Is 
that an accurate statement?
    Mr. Allen. That is correct.
    Mr. Horn. Was there anything else you'd like to add to 
that?
    Mr. Allen. Yes. Based on when we were brought to this task 
force together, prior to this there had been investigation 
going on that we had no knowledge of. Once we got into the 
investigation, we as a group started doing a lot of good work, 
OK, and this is before--prior to, I guess, they say they'd been 
investigating maybe 12 years or 10 years in the past, and 
nothing really concrete had been done. But once we got 
involved, we made a dent into the problem that was in the 5th 
ward, and all of a sudden now it stopped, and my question to 
everyone, why, who did it, and I haven't gotten an answer yet.
    Mr. Shays. Mr. Waxman, you have the next 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. Look, Vice President 
Gore has got his hands full right now. He's got a lot of 
concerns. The election is over. We are still trying to decide 
who really won this election. Just so there'd be no further 
anxiety that somebody is talking about Vice President Gore 
having done anything with respect to this investigation, let me 
just state clearly what we know and what we don't know. 
Anything we have ever heard--the only thing we've ever heard 
about Vice President Gore was a statement by Mr. Burton, not by 
anyone else, that--and I want to quote it again.
    The statement was that he gives a million dollars to a 
church, referring to Mr. Prince. The Vice President goes to 
that church and 2 days later somebody says they're closing the 
case. Something's wrong. They're blocking us because I think 
they're afraid that this might be an embarrassment to the Vice 
President. That's an allegation made by the chairman of this 
committee a month or two ago.
    So what do we know now in this period of time? We know that 
there's no evidence of any oral or written testimony showing 
that the Vice President even discussed this case with anybody. 
There's no evidence of a campaign contribution to the Vice 
President because none has been on the record, none has been 
filed from Mr. Prince. The only evidence we have of that is a 
statement Mr. Schumacher made that he heard from an unsolicited 
phone call that somebody said that somebody said Vice President 
Gore got a contribution from Mr. Prince, and that's all we 
know.
    Mr. Schumacher, I also understand from your testimony you 
never had a chance to corroborate that information; is that 
correct?
    Mr. Schumacher. That's clear. I mean that's correct, I'm 
sorry.
    Mr. Waxman. Did you ever report it to the FBI? DEA doesn't 
do violations of campaign finance laws. If you thought there 
was a criminal problem or any other problem, did you ever 
report it to the FBI or Justice Department?
    Mr. Schumacher. Mr. Waxman, because it was made against 
Vice President Al Gore didn't mean anything special to me. I 
investigate, try to solve crimes, OK, not the names of those 
folks.
    Mr. Waxman. It shouldn't make any difference to you whether 
it's the Vice President or any other citizen, but you got an 
unsolicited tip from somebody about a campaign contribution. 
Did you ever pass it on to the people in law enforcement that 
might look into whether there was something improper if it 
happened?
    Mr. Schumacher. It was passed on.
    Mr. Waxman. To?
    Mr. Schumacher. The Houston homicide division.
    Mr. Waxman. And you don't know whether they passed it on to 
the FBI to look into it?
    Mr. Schumacher. I have no knowledge of that.
    Mr. Waxman. It just seems to me that we ought to examine 
what may be the story today of this hearing, Vice President 
Gore, based on the allegations that were made a couple of 
months ago had something to do with the possible shutting down 
of the investigation on drug charges. I think this is pretty 
flimsy, and worse than that, there's just no evidence.
    I want to yield to Mr. Tierney at this point.
    Mr. Tierney. I thank you, Mr. Waxman. I have been listening 
to this entire thing. There's very little to say because I 
think the point you just made is abundantly clear. As long as 
we continue on this discussion, questions back and forth just 
seem to drive that point home, and I think it's pretty much 
made, no need to continue on. So thank you.
    Mr. Waxman. The only thing I say, any statement about 
Representative Maxine Waters is also quite flimsy, because all 
we know about her is that she's had a longstanding concern 
about racial profiling. She raised that issue. If someone said 
they were under political pressure, maybe because it was Maxine 
Waters' letter, I see no basis for them to make that statement 
if it was stated. We'll ask later Mr. Howard whether that, in 
fact, was his statement or whether it was his belief, but I 
don't know, based on what Representative Waters had expressed 
and her concern about this case, from which anyone can reach a 
conclusion, that there's anything improper in raising those 
points. I'm going to yield back the balance of my time.
    Mr. Shays. Thank you. It's Mr. Horn's time, but I'd just 
like a minutes of that time if I could.
    Mr. Waxman. I yield back the balance of my time.
    Mr. Shays. It's Mr. Horn's time and Mr. Horn, if I could 
have a minute.
    Mr. Horn. Sure.
    Mr. Shays. Thank you. I just want to say the basis of this 
hearing is to understand why an investigation was stopped, and 
it is clear the investigation was stopped in part because of a 
complaint, however well intended, by a Member of Congress, and 
this Member of Congress ended up having the deposition taken by 
the person you were investigating in her office, and that's a 
matter of public record. And so the question is, did that have 
an impact, and Mr. Schumacher, you're telling us, and the 
ranking member has made it very clear, trying to imply, that 
maybe you were taken off while you were being put under 
investigation. The investigation was a complaint by a Member of 
Congress, and what followed was this investigation ended, and 
that's the challenge, and none of us on this side of the aisle 
have brought up the Vice President, and my colleagues on the 
other side have tended to bring this up again and again.
    Frankly, the Vice President isn't the issue. The issue is 
why did this investigation stop? Why did two men, Mr. Allen, 
Mr. Chaison and Mr. Stephens, risk their lives every day and 
get to a point where you had witnesses, you had people arrested 
who possibly could have turned evidence for you, and that 
ended. So it's an outrage and we intend to find out why this 
happened.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. Officer Stephens, do you 
believe that the Rap-A-Lot organization was finally starting to 
lose some of its infallibility and ability to evade law 
enforcement when the plug was pulled on this investigation?
    Mr. Stephens. Yes, I do.
    Mr. Horn. All of the officers, do each of you believe that 
the decision to reduce the effort going into Rap-A-Lot 
investigation has a chilling effect on law enforcement efforts?
    Mr. Allen. Yes, I do, especially after the CD came out that 
was mentioned earlier. There are a lot of people out in the 5th 
ward area that listen to these rap songs, and they're 
specifically saying that this investigation has been stopped 
and they have control over all officers and the things that 
officers do.
    Mr. Horn. Any other comments by any of the officers? Mr. 
Stephens, Mr. Schumacher, was morale just taken and going to 
the bottom after this shutdown situation?
    Mr. Schumacher. I have read the lyrics of the song. 
Sergeant Stephens and myself personally arrested Mr. Jordan, 
OK. I think that to some folks within my inner circle of family 
and friends, it caused them some concern, and they to me were 
deemed in a threatening manner.
    Mr. Horn. Was the investigative effort reduced in the Rap-
A-Lot matter in late 1999, did that just get--go off in the 
latter part of 1999?
    Mr. Schumacher. Yes, sir.
    Mr. Horn. But I think I hear that can be started up if you 
have someone that isn't always playing politics.
    Mr. Schumacher. We'd have to take a hard look at it.
    Mr. Horn. And you're convinced and others are convinced, I 
take it, that it was political pressure that was behind there?
    Mr. Schumacher. That's my personal opinion, yes, sir.
    Mr. Horn. Did Mr. Howard ever say that to you?
    Mr. Schumacher. He used the word ``politics,'' yes, sir.
    Mr. Horn. And that had never happened before because--from 
either the Houston police or the DEA that you know of?
    Mr. Schumacher. That I'm aware of, no.
    Mr. Horn. The acting chairman recently made a comment on 
our friends on the other side of the aisle. You should know 
that chairman Burton has said none of us are to even mention 
the Vice President in this hearing because we didn't want to 
have a political issue here, but my--starting with the ranking 
member who quoted something from the chairman several weeks 
ago, and then our friends across the aisle keep mentioning it, 
I find it rather interesting and wonder if they're maybe all 
secret Bradley delegates or something, but it surprised me. I 
yield back.
    Mr. Shays. Thank you.
    Mr. Tierney, I believe the time is yours. You pass. Mr. 
LaTourette, do you have other questions?
    Mr. LaTourette. I do.
    Mr. Chaison, I just have a couple of questions. You 
indicated that the artist, an artist I guess we're going to put 
in italics, artist is Brad ``Scarface'' Jordan; is that 
correct?
    Mr. Chaison. That is correct.
    Mr. LaTourette. I don't remember seeing any of his hits at 
the local music store in Ohio. Is this something that I can buy 
on Amazon.com? How would I get ahold of this CD to listen to 
what it is he has to say?
    Mr. Chaison. I would think that any of the local record 
stores would have this CD. It's very possible that you may be 
able to go on-line and hear it. I'm sure you can. The 
particular cut that I'm referring to is Last of a Dying Breed 
and it is cut No. 3 and Look Into My Eyes. That's the other 
cut.
    Mr. LaTourette. And specifically, those two cuts that you 
reference by Mr. ``scarface'' Jordan is sort of bragging that 
they beat the Houston Police Department and the DEA, did they, 
by applying political pressure and shutting down an 
investigation; is that the gist of the song?
    Mr. Chaison. That's correct. It talks about the family, 
Rap-A-Lot family and it refers to itself as a Mafia, no one can 
stop the Rap-A-Lot Mafia. It is going to live forever and ever, 
whatever. It's just, again, that we have young kids listening 
to these lyrics.
    Mr. LaTourette. Right.
    Mr. Chaison. And the impression that is made in our 
community, this--Mr. Prince has been looked at as, I guess a 
role model or icon to young rap groups, rap singers and with 
statements like these that the rap artists do and they say that 
they have freedom of speech----
    Mr. LaTourette. Did you say earlier you had been in the 
police business for 21 years?
    Mr. Chaison. That's correct.
    Mr. LaTourette. And your observation as a 21-year police 
veteran, fighting all sorts of crime, laying your life on the 
line on a daily basis, is that this artist and the message that 
he's communicating to Houston's young people is that basically 
you can beat the system and they have been beating the system, 
this Rap-A-Lot organization; is that a fair observation?
    Mr. Chaison. That's correct. That's what the statement is.
    Mr. LaTourette. That's one heck of a message, and that's 
why not all art is art, I guess. You mentioned earlier that you 
didn't have the opportunity to be a part of another 
investigation, but it was your understanding that another 
investigation of the Rap-A-Lot organization was stopped before 
this event in September 1999 due to political pressure. Did you 
make that observation?
    Mr. Chaison. That's correct.
    Mr. LaTourette. Can you tell us a little bit about that.
    Mr. Chaison. We all came together as a unit and we had 
several heads there. I don't remember who was--who all was 
there, but it is stated that there was investigation prior to 
this one that was stopped politically, and then we were assured 
that if we were to uncover anything that was relevant or 
validate any information regarding Rap-A-Lot, that we were 
assured that it would not be stopped politically, that we would 
have a full support of the Federal Government.
    Mr. LaTourette. Was that other investigation an HPD 
investigation or one that involved Federal DEA do you know?
    Mr. Chaison. That information we got, if I recollect, was 
compiled by the FBI, and so it was a Federal investigation.
    Mr. LaTourette. Mr. Schumacher, one more thing. It was your 
opinion that with Mr. McCarter, you had a big guy in this 
organization, is that correct?
    Mr. Chaison. That's correct.
    Mr. LaTourette. Mr. Schumacher, you made the observation 
when asked about what the second phase was, you were then going 
to go and receive defendant witnesses. I took that to mean you 
had arrested somebody, you were going to try to flip them and 
have them testify against somebody higher up in the food chain. 
Is that what you were referring to?
    Mr. Schumacher. Yes, sir.
    Mr. LaTourette. When was Mr. McCarter arrested relative to 
the complaint made by the Member of Congress and the closing 
down of the investigation in September 1999?
    Mr. Schumacher. McCarter was arrested January 7, 1999, and 
those other events occurred in late August, mid September, late 
September 99.
    Mr. LaTourette. Thank you. My time has expired. I will come 
back later.
    Mr. Burton [presiding]. Mr. Tierney. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. Mr. Schumacher, I 
apologize for missing the first part of the hearing. How many 
years have you been in law enforcement?
    Mr. Schumacher. 27.
    Mr. Ose. And you have made hundreds of arrests in 
narcotics?
    Mr. Schumacher. Yes, sir.
    Mr. Ose. You have got quite a few awards and citations for 
your success and your bravery and what have you in Houston; am 
I correct in understanding that? I mean, you have got a 
remarkable record, if I may say so myself.
    Mr. Schumacher. Thank you.
    Mr. Ose. The question I have is that I'm trying to 
understand, we had an individual who was identified as a 
potential violator of narcotics laws and was made the subject 
of an investigation starting in 1992, that'd be Mr. Prince?
    Mr. Schumacher. He might have been mentioned in reports 
prior to that.
    Mr. Ose. OK. So that investigation has proceeded under the 
jurisdiction of the DEA, since then in conjunction with the 
Houston PD?
    Mr. Schumacher. I may not be following you but we, myself 
and HPD, got on them in August 1998. That's when our team was 
developed. Prior to that, DEA had an open case file on Prince 
since at least 1992.
    Mr. Ose. So the DEA came to the Houston PD and asked for 
assistance?
    Mr. Schumacher. Yes, sir.
    Mr. Ose. The DEA that is serving under the current 
Department of Justice and that's the reason--I'm trying to 
understand why it is Ms. Waters wrote a letter to the Attorney 
General about the DEA's activities in Houston.
    The DEA came to you, and DEA works for the Department of 
Justice, and so presumably the Department of Justice told the 
DEA to go to the Houston PD and ask for assistance?
    Mr. Schumacher. When I was directed by Mr. Howard to work 
the case, I specifically asked Mr. Howard then for the ability 
to deputize State and local officers to assist with this case, 
and he concurred.
    Mr. Ose. OK. I apologize for my lack of understanding of 
that.
    Now, the letter that I am looking at from Ms. Waters to 
Attorney General Reno, you know, I have to say reading it on 
its facial value, it is somewhat innocuous, but it talks 
about--makes the allegation of rogue officers.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4430.001
    
    [GRAPHIC] [TIFF OMITTED] T4430.002
    
    [GRAPHIC] [TIFF OMITTED] T4430.003
    
    Mr. Ose. In terms of the activities that Houston PD 
undertook in conjunction with the DEA direction, were those 
approved by the DEA?
    Mr. Schumacher. Yes, sir. So Houston PD's activities were 
basically as the agent of the DEA, which is actually a branch 
of the Department of Justice. So I am trying to figure out, how 
do you get to the definition of a rogue officer if, in fact, 
you are operating at the direction of the DEA?
    Mr. Schumacher. I am a DEA agent, and the HPD officers that 
worked this case, three of whom are sitting here, were 
deputized as task force officers. So in response to your 
question, yes. I mean, Ms. Waters is referring to people who 
were deputized to be acting as DEA agents.
    Mr. Ose. All right. Now, your testimony earlier was that 
the scope of the investigation was targeted in Houston's fifth 
ward, so we are not out on the freeways and highways doing 
random stops and stuff like that. So the reference to having 
been stopped numerous times on dark stretches of Texas highways 
is not--are there any dark stretches of Texas highways in the 
fifth ward of Houston?
    Mr. Schumacher. Not that I am aware of, but I personally 
had not ever known of Mr. Prince being stopped.
    Mr. Ose. At all?
    Mr. Schumacher. Not to my personal knowledge.
    Mr. Ose. OK. I want to go--I want to ask a second question, 
because I don't quite understand something.
    There is a suggestion that Mr. Prince's financial success 
has been ill gotten. What I am trying to understand is, do we 
have any financial records for Rap-A-Lot Records?
    Mr. Schumacher. Yes, sir, there are some.
    Mr. Ose. We do have some. Are they financial statements, 
tax returns?
    Mr. Schumacher. There is, in the original case file, some 
documents from an investment agency company, I believe it is 
Smith Barney, that Mr. Prince had a large amount of money 
invested with that firm.
    Mr. Ose. I see my red light has come on. I will come back, 
Mr. Chairman. Thank you.
    Mr. Burton. Mr. Tierney.
    Mr. Tierney. Mr. Chairman, I yield my time to Mr. Cummings.
    Mr. Burton. OK.
    Mr. Cummings. Thank you very much, Mr. Tierney. Mr. 
Schumacher, do you know somebody named Lemuel Bond?
    Mr. Schumacher. I sure do.
    Mr. Cummings. Who is he?
    Mr. Schumacher. Lemuel Bond III, Lemuel Amon Bond III, also 
known as Bucky Bond--before we chat about him, allow me a 
moment with my attorneys.
    [Discussion off the record.]
    Mr. Ose. Mr. Chairman, one of our witnesses on this side of 
the screen has indicated a need to use the facilities while we 
are sort of taking this brief reprieve.
    Mr. Burton. I think we are going to take a break right 
after this--the only question is, we are going to have to shut 
the cameras down so they can get up. Can you shut the cameras 
down?
    Mr. Ose. He indicates he can wait now until maybe Mr. 
Cummings is finished.
    Mr. Burton. Aren't you glad the whole country knows all of 
this stuff?
    Mr. Shays. But they don't know what you look like.
    Mr. Cummings. I must admit, I feel like I am under 
tremendous pressure here.
    Mr. Schumacher, do you know him?
    Mr. Schumacher. Yes. He is a career criminal with an 
extensive record and he is currently serving a 27-year sentence 
in a correctional institute for trafficking.
    Mr. Cummings. The reason why I asked you that is you had 
contact with him, is that correct? Did you testify against him?
    Mr. Schumacher. Yes, I have.
    Mr. Cummings. OK. And has he worked with you before on 
cases, any cases like as a witness or informant?
    Mr. Schumacher. No, sir.
    Mr. Cummings. No? You said no?
    Mr. Schumacher. Yes, sir.
    Mr. Cummings. Did you--now, the reason why I want to ask 
you about this, Mr. Ose said he couldn't understand why you 
might be--somebody might call you a rogue officer; and Ms. 
Waters has based her inquiries with regard to you, with regard 
to a letter that was sent to her from Mr. Lemuel Bond where he 
made some very strong allegations. One of the allegations that 
he made in that letter, and I won't get into them, but was 
about you having used your weapon quite a few times.
    Can you just tell us about that? I mean in the line of 
duty.
    Mr. Schumacher. Excuse me one moment, please.
    Mr. Cummings. Sure.
    [Discussion off the record.]
    Mr. Schumacher. What was your question, sir?
    Mr. Cummings. How many times have you used your weapon in 
the line of duty? Shot, fired at people.
    Mr. Schumacher. Numerous.
    Mr. Cummings. How many people have you killed?
    Mr. Schumacher. I personally have not kept a record of 
that, sir.
    Mr. Cummings. You don't know how many people you have 
killed in the line of duty?
    Mr. Schumacher. I have seen that number put in the paper.
    Mr. Cummings. Officer, you realize you are under oath. You 
are saying to this panel today that you don't have a clue as to 
how many people that you have brought their lives to an end by 
using your weapon?
    Mr. Schumacher. I have been involved in probably 12 
gunfights as a police officer. Some of those gunfights have 
been involving numerous officers and numerous criminals. As 
such, there may have been more than two or three people 
shooting at the same person, and vice versa, OK? So I can think 
of several occasions where there were three officers firing at 
two different suspects. So for me to categorically tell you how 
many people I personally caused their death, I am basing that 
on the comments I just told you.
    Mr. Cummings. You said you have seen a number in the 
newspaper. How many was in the number?
    Mr. Schumacher. Six.
    Mr. Cummings. All right. I don't have anything else.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Shays has one or two more questions. Mr. Shays.
    Oh, yes. Excuse me. These people need a break. Would you 
like to take a break and then we will finish with Mr. Shays? 
Would that be all right?
    Mr. Waxman. Let me ask Mr. Shays----
    Mr. Shays. I have 5 minutes of questions is what I have.
    Mr. Waxman. I have a few questions, to wrap up.
    Mr. Burton. I think we have about 5 or 6 minutes.
    Would you shut the cameras off so that we can let these 
gentlemen take some time out, and we will break here for about 
5 minutes, and then we will finish with this panel.
    Are all of the cameras off? What is this one here? Is this 
off? The committee camera is off? Just 1 second. Just make sure 
it is off. I don't want them to have any security problems. 
Just 1 second. I hate to cause you pain. OK. We are in recess 
now for 10 minutes.
    [Recess.]
    Mr. Burton. The committee will now come to order. Before I 
yield to--who is next? Mr. Shays. Before I yield to Mr. Shays, 
let me just say that we would like to keep the officers who are 
here until tomorrow because we are going to be questioning the 
Administrator of the DEA. So I want to tell you, before I 
forget it, that we would like you to stay through tomorrow and 
of course expenses and everything will be taken care of. But 
since you are here under subpoena, we wanted to make that 
request.
    Mr. Shays. Mr. Chairman, we would like them to I hope stay 
and witness the rest of the hearing, and then if we possibly 
need to call them back--and you are referring to all four of 
them?
    Mr. Burton. Yes, that is right. And then either today or 
tomorrow, we may want to ask them some additional questions.
    Mr. LaTourette. Mr. Chairman, if they are going to stay 
until tomorrow, could we ask them to be so kind to see if they 
could get their hands on their timeless classic by Brad 
Scarface Jordan so that we could submit it for the record 
tomorrow?
    Mr. Burton. Yes. Even if you could Fed Ex a copy of this 
Rap-A-Lot tape, we would like to have it for the record, OK?
    Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Schumacher, in the deposition that was taken in Maxine 
Waters' office and included some of her staff and also included 
I think her husband, but it also included a confidential 
investigative report. I am interested to know if you are aware 
that a Houston law firm hired a private investigator to look 
into your background and lifestyle?
    Mr. Schumacher. I was not aware of that.
    Mr. Shays. Well, that is part of the record that was 
submitted.
    I would like to ask each of you if you have any question 
you wish we had asked that you would like to answer, or any 
closing statement, and I will start with you, Mr. Allen.
    Mr. Allen. Let me say that from the beginning of the 
investigation, our target was a specific person. It wasn't a 
person that was Black, White, Hispanic or anything; it was a 
target, a target that we thought was doing wrong. If someone, 
whoever it is, comes up saying it was racially profiling, I 
don't necessarily agree with that.
    Again, as I said earlier, I would like to find out why a 
good investigation has been stopped and for what reason and who 
did it.
    Mr. Shays. Thank you, Mr. Allen. I would like to find out 
the same information, the answer to the same question, from Mr. 
Chaison.
    Mr. Chaison. Yes. I would like to address the racial 
profiling. First off, I am Black, and I am just as Black as any 
Black man. No. 2, I am a police officer. No. 3, I am appalled 
that a person would look at me and think that I would let an 
injustice such as racial profiling occur in my presence. Not 
so. If I--I can state today that if I was to encounter anyone 
that I work with doing such a thing, I think Bill Stephens 
knows me well enough that I would interject, I would speak to 
him concerning this.
    So as far as racial profiling, it was not so, and I don't 
know how you validate that. If you work in a predominantly 
White neighborhood as a police officer, White police or White 
people you will be in contact with. If you are in a Black 
neighborhood, the majority people you are going to come in 
contact with are Black. We do not have a 100 Black police 
department or White police department, Hispanic or Asian. We 
have a melting pot of ethnic groups in our police department, 
and we work hard. And to say that we racial profile is not so. 
That may be--I am not as naive to say that there are not bad 
people in our walks and works of life. I am not that naive to 
say that.
    Mr. Shays. But the bottom line is on this case you were 
involved in, you know there was no racial profiling; is that 
true?
    Mr. Chaison. That is correct.
    Mr. Shays. Yes, sir. Anything else?
    Mr. Chaison. Yes. Since you mentioned the CD by Scarface, 
it was interesting when we were on our way here on the plane 
and my partner and I were looking at the Jet Magazine, and that 
album was, that CD was rated No. 16 1 week. A week later, 1 
week later it had moved in the charts to No. 7. Right now I 
don't know where it stands, but that is how well it is received 
by the paying public out there, and people listen to that, they 
listen to it.
    Mr. Shays. Thank you, sir.
    Mr. Stephens.
    Mr. Stephens. Just that when we started the investigation, 
we had high hopes and full support. We did some good work, and 
in my limited knowledge and view, a Congresswoman wrote a 
letter, an investigation was started. We were told for 
political reasons the investigation was stopped. We ceased all 
activity except for the judicial part of it, and then our 
target, the owner of the company, has one of his stars produce 
a record where they talk about ruining agents' careers and have 
a short scenario of an informant being murdered, and typically 
saying in the short scenario that it is a DEA informant. I feel 
like we have gotten set back about 10 steps from where we 
started. It was said it was shut down for political reasons, 
and that is all I can believe.
    Mr. Shays. Thank you, Mr. Stephens.
    Mr. Schumacher, any question we should have asked, any 
point you would like to make?
    Mr. Schumacher. On the issue that I find personal, very 
personal to me relative to my number of shootings. For the best 
part of the last 27 years, I have worked in greater Houston, 
Harris County. Since June 2000 through December 4, 2000, in 
Houston, Harris County, there have been three Harris County 
Sheriff deputies shot, two of them killed. The third one is 
still recovering from a bullet wound sustained to the head. The 
last officer that was killed was killed just a few days ago, 
December 4th. These officers leave families, friends, all of 
which become like the rest of us, victims of crime.
    Houston, Harris County, is a growing, booming area and 
there is a lot of violence there. I spent a lot of time for the 
best part of the last 10 years teaching a class called Agent 
Safety and Survival, because I have spent a lot of time 
researching the gunfights of other law enforcement officers on 
what happened in the hopes that, just maybe, some of my 
training or the training we are able to provide can save 
somebody's life.
    As a footnote, as of yesterday, there are 447 inmates on 
death row in the Texas Department of Correction, 447, and 147 
of those inmates were convicted of capital murder in Houston, 
Harris County, TX. Of that number, 12 of them are on death row 
for killing police officers in the line of duty. Of that 12, 7 
of them were convicted for capital murder for killing police 
officers in Harris County. Harris County has its share of 
violence. Thank you.
    Mr. Shays. Gentlemen, thank you very much.
    Mr. Burton. Mr. Ose, I think, had a comment. I am trying to 
make sure all of the Members are able to ask the questions they 
wanted and I will be happy to help your side as well.
    Who had a question, Mr. Ose?
    Mr. Ose. I do have a question, Mr. Chairman.
    Mr. Burton. Does my colleague from Ohio have questions as 
well?
    Mr. LaTourette. Not at the moment.
    Mr. Burton. OK. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Schumacher, one of the things that I keep just 
scratching my head about--well, let me back up. To the two 
officers from Houston, are there any dark, unlit, long 
stretches of Texas freeways in the fifth ward?
    Mr. Chaison. No.
    Mr. Allen. No.
    Mr. Ose. Both of you said no.
    Mr. Chaison. No. In fact, our inner city freeways are 
probably the most well-lighted thoroughfares in the city.
    Mr. Ose. OK. So we can't find any dark stretches of Texas 
highway in the fifth ward, and we know of no instances where 
Mr. Prince had been stopped by law enforcement; is that 
correct?
    Mr. Chaison. That is correct.
    Mr. Ose. That has been the testimony today?
    Mr. Chaison. That is correct.
    Mr. Ose. All right. Thank you.
    Mr. Schumacher, one of the things I keep scratching my head 
about and I can't quite understand is that in an investigation 
of that sort, somehow or another you got to get to the money. 
You got to figure out, OK, if we are laundering money, where is 
it going and what have you. I have heard no discussion of 
financial statements, tax returns, any analysis that might 
ordinarily follow on the suggestion of someone laundering 
funds.
    Did the DEA ever examine the financial dealings of Mr. 
Prince or Rap-A-Lot? Did you ask--did the DEA ask the IRS, for 
instance, to come in and help on this kind of analysis, and if 
so, what happened?
    Mr. Schumacher. Yes, sir, we did several times request the 
assistance of the IRS CID division. Members of that division 
from Houston came over for a few days. One of those agents, we 
had that agent conduct a telephonic interview of a former 
member of the church that Mr. Prince patronizes, and that 
person was interviewed by that IRS agent relative to some 
suspicious financial transactions.
    We, the DEA-HPD team, requested that IRS CID agents be 
assigned to us there, to the endeavor. We had files set up. We 
wanted to track every financial transaction Prince had done. 
For example, every time he purchased a vehicle or a residence, 
what was his methodology, just to see what is there. After a 
few weeks, the IRS CID people never came back. I asked Mr. 
Howard--Mr. Howard again was trying to assist us. He told me he 
had approached a SAC at IRS----
    Mr. Ose. The SAC is the Special Agent in Charge?
    Mr. Schumacher. Yes, sir; and that the IRS had refused to 
participate. I believe, based on what I have seen, and I am 
nowhere near trained to be a financial investigator as such, 
that Mr. Prince has a large number of money that sometimes he 
has trouble accounting for. Based on two interviews that 
Sergeant Stephens and myself conducted of a rap artist who 
worked for Prince for over 10 years, that rap artist and his 
lawyer, we interviewed those folks twice, and during those 
interviews, that particular person told us that Prince 
typically scams the IRS by just paying out cash money to the 
artist on a weekly, biweekly, bimonthly basis, and then at the 
end of the year, gives them a 1099 for a tremendous amount of 
money that they never received as such. That person also told 
us that Prince has established paper companies with paper 
employees and managers, etc., again to perpetuate this tax 
scam. And I am using the words of this person. All of what I am 
talking about is articulated in DEA reports.
    Mr. Ose. Mr. Chairman, I see my--I have a yellow light. I 
want to come back to this question, because I want to find out 
whether or not the IRS initial interest from a time category 
corresponded, for instance, with, you know, was it summer of 
1999, was it winter of 2000. And I am trying to figure out 
whether or not the IRS got the same pressure, if you will, if 
that is the right word, that the DEA got. So I see my light is 
up.
    Mr. Burton. OK. I will be happy to yield my 5 minutes to 
the gentleman. I would just like to ask one real quick question 
before I yield to Mr. Ose, and that is, did you ask anybody at 
the IRS why they did not followup with an indepth investigation 
based upon the information that you had been able to acquire?
    Mr. Schumacher. I saw that IRS agent that had been assigned 
to us for a while several times in the courthouse or courtroom, 
and I would ask him, what is going on? When can you come over? 
And it was always going to be next week, next week, next week. 
And, Mr. Chairman, we became very, very exasperated with that, 
because we felt there was really some viable investigative 
progress to be made there.
    Mr. Burton. Was he the IRS agent in charge of that area?
    Mr. Schumacher. No. No, sir.
    Mr. Burton. He was just one of the employees.
    Mr. Schumacher. One of the Special Agents that we 
understood----
    Mr. Burton. Did you ever inquire to the head of the IRS 
branch down there?
    Mr. Schumacher. I did that through Mr. Howard. I asked Mr. 
Howard to assist us in that.
    Mr. Burton. OK. Mr. Ose.
    One second. What was the month and year that you made that 
request?
    Mr. Schumacher. It may have been not long after, after the 
January arrest, because----
    Mr. Burton. What year was that January arrest?
    Mr. Schumacher. 1999, because when we arrested McCarter and 
Russell who worked there, because on the night of his arrest, 
Russell had a $10,000 personal check from Prince, or at that 
time Smith to Russell, and Russell had that in his possession.
    Mr. Burton. So shortly after January 1999.
    Mr. Schumacher. I believe so.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Schumacher, I would like to go back to that question. 
So in January 1999, you arrested an individual based on the 
information gleaned from interviewing that person, and you were 
able to establish that you had unanswered questions as to the 
financial transactions underpinning Rap-A-Lot.
    Now, interrupt me if I get off track here. From there you 
went to the IRS and asked for assistance. They came over, they 
did a telephonic interview with somebody, they looked at 
something, and then at some period of time, their interest 
waned and they stopped doing it.
    How long of a period between the arrest, their initial 
interest, and when it waned?
    Mr. Schumacher. Six weeks maybe.
    Mr. Ose. When did their interest arise?
    Mr. Schumacher. I can't recall. I would have to look at the 
date of that DEA report on that telephonic interview.
    Mr. Ose. Mr. Chairman, is Mr. Schumacher also going to stay 
in town under subpoena?
    Mr. Burton. Yes. They are all under subpoena. We have asked 
all four of them to stay.
    Mr. Ose. Perhaps between now and tomorrow you could 
followup and submit to the committee that information, if you 
could dig it out between now and then. Would that be agreeable?
    Mr. Schumacher. Yes, sir.
    Mr. Burton. The information you are talking about is who at 
the IRS they were talking to?
    Mr. Ose. I am trying to establish the chronological window 
during which time the IRS exhibited interest and then decided 
they had no interest.
    Mr. Burton. OK.
    Mr. Ose. Now, the other question I want to ask is, I want 
to examine the corporate structure of Rap-A-Lot Records, 
because my basic understanding is that you rarely catch the big 
guy, you always catch their underlings. But the issue for me is 
that if you see somebody at the top and then you have a whole 
layer of management, and I don't know if this is the case, but 
a whole layer of management that has been arrested and 
convicted and is now incarcerated for illegal activity, it kind 
of raises a red flag. So I am curious.
    Smith was the head of the company, Rap-A-Lot, and then 
there was a second level, a next level, if you will, of vice 
presidents or assistants or what have you. Some of those people 
were like Thomas Randall, Brad Jordan, Dewey Forker, Steve 
McCarter. Could you give us some sense of who these people 
were, what they did for the corporation, and their current 
whereabouts?
    Mr. Schumacher. OK. Let's use January 1999 as a reference 
date. Prince--and he uses the name Smith slash Prince, he 
changed his name from Smith to Prince about 1998, OK, sometime 
in 1998. But in any event, Prince would have been the CEO. We 
would have had Bruce Toval as his accountant or he would have 
been handling all of the business, book business and things 
like that.
    Mr. Ose. CFO? Chief financial officer?
    Mr. Schumacher. Probably.
    Mr. Ose. OK.
    Mr. Schumacher. Then you would go to Randall, McCarter, 
Russell, Forker. There was a couple of other people. But those 
four had various jobs, all of which had offices right there 
with Prince in his office--in his building, I am sorry.
    Mr. Ose. What are the current whereabouts of these people? 
I mean, are they still with Rap-A-Lot?
    Mr. Schumacher. Let's see. Russell is in FCI.
    Mr. Ose. Russell is where?
    Mr. Schumacher. In an FCI, Federal correctional institute, 
convicted on a 20-year sentence. McCarter is still in the 
greater Houston area, waiting to hear on his appeal for his 
conviction. Toval is still working, to the best of my 
knowledge, for Prince. Forker is running a record company 
called Jammin Records in the middle of the fifth ward. Randall 
is now I believe the--I guess has moved up a notch and is the 
CEO, or assistant CEO.
    Mr. Ose. What about Brad Jordan?
    Mr. Schumacher. Brad Jordan is a performer. He was never in 
the management, to my understanding. He is a performer. Brad 
Jordan, a.k.a. Scarface, was one of the original members of a 
rap group known as the Ghetto Boys that blossomed in the early 
1990's. Edward Russell is in prison.
    Mr. Ose. OK. How about Mike Harris?
    Mr. Schumacher. The Michael Harris I know, he is in TDC, 
Texas Department of Corrections.
    Mr. Ose. So of the--how many vice presidents or assistants 
do you think Smith, a.k.a. Prince or Prince a.k.a. Smith, or 
whatever his name is, had; 10 close associates?
    Mr. Schumacher. You know, it has been so long since I have 
looked at the organizational flow chart. I mean he probably had 
six or seven, and in that Federal trial of McCarter and 
Russell, Toval came in and quickly said on record that there 
were only two execs at Rap-A-Lot: himself and Prince.
    Mr. Ose. Of these six or seven lieutenants or nonexecutive 
assistants, it appears that roughly half of them are 
incarcerated on what kind of charges? What were they arrested 
for and what were they convicted of?
    Mr. Schumacher. Carter and Russell were convicted in 
Federal court for violations of 841 and 846.
    Mr. Ose. Talk to me in----
    Mr. Schumacher. OK. Possession and conspiracy, possession 
of cocaine, conspiracy to possess cocaine. Michael Harris was 
convicted of possession of cocaine. Let's see, who is left?
    Mr. Ose. They were all similar convictions?
    Mr. Schumacher. Yes.
    Mr. Ose. OK. Mr. Chairman, I see my red light is on.
    Mr. Burton. Yes. Unless there is more questions, we would 
like to move on to the next panel right now. We may recall some 
of these witnesses later.
    Does anybody else----
    Mr. Cummings. I have one statement, very quickly.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Schumacher, I just got word from Maxine Waters, Congresswoman 
Waters, that it is her understanding that Mr. Smith has been 
audited several times by the IRS in recent times. Were you 
aware of that?
    Mr. Schumacher. I personally do not know of any audit that 
has been done, particularly since I have been involved, since 
August 1998, sir.
    Mr. Cummings. OK. The other thing I wanted to just say, and 
I am going to be very brief, Mr. Chairman, but I want to clear 
up the record on something.
    I want you to understand, Mr. Schumacher, I listened to 
your statement very carefully about police officers, and we up 
here, all of us, are very concerned about every life of a 
police officer. We don't want you to get the impression that we 
are not. We also are concerned, however, about justice; that 
there is a balance in this thing. I don't know about Houston, 
but I do know about Baltimore. We have one of the highest 
murder rates in the country. And I don't know whether the 
implication is that if you are in an African American 
community, that racial profiling does not exist. That is a 
bunch of baloney, if anybody believes that. I see it every day, 
over and over again. I am the victim of it and have been the 
victim of it ever since I can remember, almost. So--and I don't 
know too many Black men, if they are honest about it, who 
haven't been the victims of it.
    So I just want you to understand that my concern, when I 
was asking you a little bit earlier about people who you, by 
firing your gun, had brought their lives to an end, my concern 
was that I just thought that would be something that you would 
be aware of. You answered the question quite well, and I just 
wanted you to be aware that it is not insensitivity with regard 
to police officers, because I mourn their deaths, I mourn when 
they are harmed, because there truly is a thin blue line and 
that thin blue line is very important that we are going to 
maintain a society that has any kind of order to it.
    I just wanted to say that for the record, Mr. Chairman. 
Thank you.
    Mr. Burton. Thank you, Mr. Cummings. I guess Mr. LaTourette 
has some questions?
    Mr. LaTourette. I do. I want to yield to my good friend 
from California, but I do want to make an observation, though. 
I was struck, however, when the fellow that wrote the letter 
complaining about Mr. Schumacher, I understand who is in prison 
for 27 years on a variety of offenses, he is a career criminal. 
And if I remembered your testimony correctly, you have been in 
law enforcement for 27 years, so I don't think that coincidence 
should be lost on anybody, that your credibility has apparently 
been impeached to a Member of Congress on the word of somebody 
who is doing a 27-year stretch, which equals the time that you 
have given to the country.
    I want to yield the rest of my time to Mr. Ose.
    Mr. Ose. Mr. Chairman, I have but one more question.
    I notice in the letter of November 2nd from Robert Raben to 
you, the suggestion that the Department of Justice and the DEA 
Administrator have assigned a joint team from the DEA and FBI 
to investigate the allegations that were made as it relates to 
the activities in Houston.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4430.004
    
    [GRAPHIC] [TIFF OMITTED] T4430.005
    
    Mr. Ose. I am curious, Mr. Schumacher, the two Houston 
police officers, have you been contacted by anybody from the 
DEA and FBI regarding this investigation that is referenced in 
the November 2nd letter from Robert Raben to Dan Burton?
    Mr. Schumacher. Yes, sir.
    Mr. Ose. You have. So the team is actually in the field 
now?
    Mr. Schumacher. Yes, sir. They were in Houston; yes, sir.
    Mr. Ose. All right. I look forward to the responses 
regarding that timeframe as it relates to the IRS interest in 
this case. So I will make myself available when and where you 
need me to be.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you. I think everyone has had all of 
their questions asked and answered. I want to thank you who 
have testified here this morning, and your counsel, for being 
so patient with us. And I want to tell you that every one of 
us, even though we may have asked you some tough questions, 
really admire and respect all of the police officers who are 
doing their job in this country and laying their lives on the 
lines for all of us and our families and our kids, and you in 
particular who are dealing with this horrible tragedy of drug 
use and the massive drug sales that are taking place in America 
and who are having to deal with some of the scum of the Earth 
in risking your lives. I want you to know that we know you are 
out there, we know you are risking your lives and we really, 
really appreciate it very, very much. With that, we will excuse 
you. We will ask the cameras to be turned off so that the two 
undercover policemen cannot be revealed. Thank you.
    We will ask the next panel to come forward now. The next 
panel consists of Mr. Howard--are you going to remain in the 
room? Would you like to remain in the room? Would you like to 
stay there? I guess you can move into a place where the camera 
won't pick you up then. If you like to, you can go into our 
lounge and watch this on television, if you like. That way, if 
you need to go to the men's room, it is right there.
    We will now welcome our second panel of witnesses: Ernest 
Howard; I think it is Julio Mercado--did I pronounce your name 
right?
    Mr. Mercado. That is correct.
    Mr. Burton. And Mr. R.C. Gamble.
    [Witnesses sworn.]
    Mr. Burton. Do any of you have an opening statement you 
would like to make?
    Mr. Mercado. Yes, I do, Mr. Chairman.
    Mr. Burton. Mr. Mercado. Would you pull the microphone just 
a little bit closer and make sure it is on?

    STATEMENTS OF JULIO MERCADO, DEPUTY ADMINISTRATOR, DRUG 
ENFORCEMENT ADMINISTRATION; ERNEST L. HOWARD, SPECIAL AGENT IN 
CHARGE, HOUSTON FIELD OFFICE, DRUG ENFORCEMENT ADMINISTRATION; 
      AND R.C. GAMBLE, CHIEF INSPECTOR, DRUG ENFORCEMENT 
                         ADMINISTRATION

    Mr. Mercado. Mr. Chairman, Mr. Ranking Minority Member and 
other members of the committee, I am Julio Mercado, Deputy 
Administrator----
    Mr. Burton. Your voice is pretty strong, so you can move 
the mic back just a little bit.
    Mr. Mercado. I am Julio Mercado, Deputy Administrator of 
the Drug Enforcement Administration. I am appearing today at 
your request, along with Chief Inspector R.C. Gamble to my 
right, and the Houston Division Agent in Charge, Ernest Howard 
to my left. I appreciate this opportunity to address your 
concerns regarding whether any DEA investigation was swayed by 
political considerations. Indeed, Administrator Marshall has 
invited the Department, Office of the Inspector General [OIG], 
to conduct a thorough, independent investigation of this 
matter. I applaud Administrator Marshall's decision, and fully 
support DEA's total cooperation in the OIG's investigation, as 
well as in today's proceeding before the committee.
    Given the recent media coverage of this inquiry, it is 
public knowledge that DEA has taken interim measures to ensure 
appropriate decisions are rendered with respect to the various 
aspects of this investigation. These measures include the 
deployment of independently supervised agents to the Houston 
Division where they can objectively assess the investigative 
potential of this case. At the request of Attorney General 
Janet Reno, this newly assigned team of DEA agents have been 
supplemented by squads of FBI Special Agents in order to 
maximize the amount of resources directed toward the 
investigative effort. The goal of this assessment process is to 
expand the scope of the case and enhance the likelihood of 
future criminal prosecution, if appropriate.
    That being said, it is my duty to remind the committee that 
as an employee of the Department of Justice, DEA personnel are 
precluded from commenting on the progress of any ongoing 
criminal investigation, on individuals not indicted or 
arrested, which are targets of past or present investigations. 
I am aware that the central focus of this inquiry calls into 
question the very existence of any active investigation on the 
part of DEA, and I anticipate that many of the questions posed 
during the course of today's hearing will seek to clarify that 
issue, or this issue.
    Public awareness of this inquiry will make any remaining 
investigative approaches more difficult to employ. 
Consequently, I respectfully request that the committee refrain 
from posing questions that will result in the disclosure of 
specific investigation methods, activities which have not been 
revealed in previous judicial proceedings. These perimeters are 
not intended to impede the factfinding nature of this hearing, 
but would instead serve two distinctive purposes. First, it 
will maximize the safety of investigative and undercover 
personnel that have previously worked or might currently be 
working on this investigation; and second, they will prevent 
the hearing from having any adverse effect on pending judicial 
actions.
    With this constraint, I will be happy to attempt to answer 
your questions, sir.
    Mr. Burton. Do any of the other witnesses wish to make an 
opening statement?
    Mr. Gamble. No, sir.
    Mr. Howard. No, sir.
    Mr. Burton. We will follow the current form of 30 minutes 
on the majority side and minority side. I will yield to Mr. 
LaTourette in just a moment, but let me just start off by 
asking a question or two myself.
    First of all, the FBI and DEA agents that came in from New 
York and elsewhere to assess this case after it had evidently 
been stopped, are they still down there?
    Mr. Mercado. No, sir. The investigation, the factfinding 
has been completed and they have reported to Mr. Marshall.
    Mr. Burton. So there is nobody on the scene down there that 
is conducting the kind of investigation that was taking place 
by the gentlemen who preceded you here today?
    Mr. Mercado. That is correct, sir.
    Mr. Burton. That is kind of curious, based upon the 
information that they gave us. They said that there were a 
great many additional individuals that they thought they might 
get indictments and convictions for, and they mentioned I think 
three or four in particular. They didn't name any names, but 
they mentioned three or four, and they said that when their 
investigation was terminated, a lot of the people that they 
were talking to on the streets were kind of left hanging out to 
dry. They felt like their investigation, which bore fruit and 
was going to bear more fruit just stopped before they got to 
the next level, I think they said. And it seems curious to me, 
curious that the DEA and the FBI who bring people in who are 
not familiar at all with the situation to review the findings 
of the previous panel and the people conducting that 
investigation, and coming back and saying that there is no need 
to be pursuing this at this time. Otherwise, they would still 
be on the ground conducting the investigation. I just find that 
very curious. Can you explain that to me?
    Mr. Mercado. Yes. Administrator Marshall's instructions 
were to go in and review the whole entire file to see exactly 
what needed to be done and to come back and report. They just 
came back this week and reported to Mr. Marshall on their 
finding of the investigation.
    Mr. Burton. Well, we will talk to Mr. Marshall tomorrow in 
detail about this, because I think it is important that the 
American people who have been told today that political 
influences was brought to bear to stop a very, very important 
investigation of major drug dealing where 20 people have been 
convicted, one of murder, many connected with the Rap-A-Lot 
organization, and they said that there was going to be more 
people that they thought they could convict, that they had some 
witnesses that they thought would turn to get the big fish, and 
all of that was stopped, and nothing is going on right now. So, 
tomorrow we will pursue this with the Administrator.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I welcome--and Mr. 
Gamble, I am sorry I can't see you because of the screen, but I 
know that you are behind there and maybe we can peek at each 
other when the chance comes.
    Mr. Howard, my questions are primarily for you, if you 
could just tell the committee briefly when you became the 
Special Agent in Charge of the Houston office.
    Mr. Burton. Mr. LaTourette, we will stop the clock. I want 
you to be able to see the witnesses. We will remove those 
screens very quickly so you can talk to the witnesses, so that 
everybody will see them.
    Thank you, guys, I really appreciate that. We will see if 
you can get some overtime for this.
    Mr. LaTourette. Nice to see you. When did you become the 
Special Agent in Charge down in Houston, Mr. Howard?
    Mr. Howard. In March 1997.
    Mr. LaTourette. At the time that you assumed that position, 
was there an operation called Smash Cookies ongoing by the DEA 
office in Houston?
    Mr. Howard. I have heard that term in the last 24 hours; 
yes, sir.
    Mr. LaTourette. You had not heard it before the last 24 
hours?
    Mr. Howard. No, sir.
    Mr. LaTourette. Was there an investigation ongoing of the 
individuals who we have been talking about for the last 3 or 4 
hours, Rap-A-Lot, Mr. Smith, that you were aware of upon you 
assuming those duties?
    Mr. Howard. There was a local impact investigation going 
on, sir.
    Mr. LaTourette. There was testimony from the previous 
panel--and you were in the committee room for the testimony of 
the previous panel, were you not?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. And you heard the Houston officers and you 
also heard Mr. Schumacher talk about the fact that you were 
highly supportive of their efforts, you offered and indicated 
that any resource they needed they could have. Was that a fair 
observation on their part of the level of support that you had 
of this investigation?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. And there came a point in time when the 
testimony was that you instructed Mr. Schumacher, or he asked 
you if he could go out and recruit Houston Police Department 
personnel to form a joint task force and you authorized that; 
is that right?
    Mr. Howard. I authorized Mr. Schumacher to make the PD 
available to work on an OCDETF case. It was an ad hoc task 
force, it was not considered a joint task force.
    Mr. LaTourette. Is it a fair observation that you had 
pretty good confidence in Mr. Schumacher as an agent of the 
DEA?
    Mr. Howard. That is correct.
    Mr. LaTourette. Had you worked with him before?
    Mr. Howard. He had worked for me.
    Mr. LaTourette. He had worked for you before?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. Is it a fair observation that you had a 
high level of confidence in his competence as a law enforcement 
officer and trusted him to do whatever task you dispatched him 
to do?
    Mr. Howard. That is correct.
    Mr. LaTourette. I want to turn your attention now to what 
has been discussed a lot during the course of this hearing. 
There came a time, I believe in August 1999, when a Member of 
the U.S. Congress wrote a letter to the Attorney General of the 
United States relative to the investigation of the Rap-A-Lot 
organization.
    Are you aware of that letter?
    Mr. Howard. Yes, sir, I am.
    Mr. LaTourette. That letter is dated August 20, 1999. Can I 
ask you when it is that you became aware of that letter?
    Mr. Howard. The same date that DEA received it.
    Mr. LaTourette. Do you remember when that was?
    Mr. Howard. I believe that was August 20th also.
    Mr. LaTourette. Oh, OK. So the letter that was dated August 
20th, as wonderful as the U.S. Postal Service is, I imagine it 
didn't go through the Postal Service, it was faxed or some 
other method of delivery was achieved?
    Mr. Howard. I would assume so.
    Mr. LaTourette. Who brought that letter to your attention?
    Mr. Howard. I believe initially it was brought to my 
attention by Felix Jimenez who is our Chief of Office of 
Professional Responsibility--I mean of Inspection; I am sorry.
    Mr. LaTourette. Did you have the chance to discuss the 
contents of the letter and the allegations made in the letter 
with Administrator Marshall?
    Mr. Howard. Yes, sir, I did.
    Mr. LaTourette. Would that have been over the telephone or 
in person?
    Mr. Howard. On the telephone.
    Mr. LaTourette. That would have been when, relative to 
August 20th?
    Mr. Howard. I believe it was also the same day.
    Mr. LaTourette. So all of this happened within 24 hours of 
this letter apparently being received by the Federal 
Government; is that right? All on August 20th?
    Mr. Howard. I would assume so.
    Mr. LaTourette. Earlier, some of the observations that are 
contained in this letter were addressed by members of the 
committee and, in particular, at one point it said, I suggest 
that he, that Mr. Prince, document his torments at the hands of 
the DEA agents and send it to you for perusal. Included in here 
are allegations that there was racial profiling, that people 
were being stopped on the basis of their race, and without any 
legitimate law enforcement purposes.
    Was that a fair understanding of your reading of the letter 
as to what the complaints were?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. Were you the direct supervisor of this 
operation? Did you have direct supervision of Mr. Schumacher?
    Mr. Howard. No, sir.
    Mr. LaTourette. Were you aware--well, first of all, when 
you received the letter--why don't you tell us what your first 
reaction was as the Special Agent in Charge of the Houston 
office?
    Mr. Howard. I was surprised and also appalled at the 
allegations.
    Mr. LaTourette. Surprised and appalled?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. What surprised you about the allegations?
    Mr. Howard. That the allegations occurred in the first 
place.
    Mr. LaTourette. Why were you appalled?
    Mr. Howard. Because I didn't believe them to be true.
    Mr. LaTourette. You have already told us that you have 
known Mr. Schumacher for a number of years. Was the fact that 
you didn't believe them to be true based upon your knowledge of 
him?
    Mr. Howard. Not particularly.
    Mr. LaTourette. Was it based upon your knowledge of the 
operation?
    Mr. Howard. Not particularly.
    Mr. LaTourette. Well, why didn't you believe them to be 
true? You had a complaint by a citizen to a Member of Congress, 
and you are appalled. Can you tell us why it is you are 
appalled? What did you base being appalled on?
    Mr. Howard. I believed that at that time, the number of 
agents that were involved in the investigation, I did not 
believe that they would conduct such activity. I knew racial 
profiling had not been done, because I had specifically 
assigned that case to that particular group.
    Mr. LaTourette. Now, there was an investigation by OPR; is 
that right?
    Mr. Howard. Yes, sir; that is correct.
    Mr. LaTourette. Did the OPR investigation commence on 
August 20th as well?
    Mr. Howard. I don't know.
    Mr. LaTourette. And, to your knowledge, the OPR 
investigation is concluded; is that right?
    Mr. Howard. It is concluded now; yes, sir.
    Mr. LaTourette. To your knowledge, did the OPR 
investigation discover any truth to the allegations or claims 
made in the August 20, 1999 letter?
    Mr. Howard. No, sir.
    Mr. LaTourette. And so in the jargon of the agency, is it a 
fair observation that the agents were cleared of the 
allegations of racial profiling, and any other misconduct that 
might have been mentioned in that letter?
    Mr. Howard. Yes, sir; that is correct.
    Mr. LaTourette. Now, how long have you been with the 
agency, Mr. Howard?
    Mr. Howard. Since December 26, 1973.
    Mr. LaTourette. I assume during the course of that time, 
this probably isn't the first time that an elected official or 
public official has contacted an agency that you have been 
associated with; is that fair?
    Mr. Howard. That is correct.
    Mr. LaTourette. It is not unusual that that would occur, 
right?
    Mr. Howard. It is not unusual, it is not usual. It has 
happened before.
    Mr. LaTourette. The observation has been made--this letter 
was received, written, and apparently things went into action 
on August 20, 1999. There was testimony by the Houston police 
officers who were here with us earlier and also Mr. Schumacher 
that in September there was a meeting of the task force, not a 
joint task force, but task force, where you made some 
observations relative to whether or not the task force was 
going to continue. Did you hear that testimony?
    Mr. Howard. Yes, sir, I did.
    Mr. LaTourette. Do you remember when that meeting was?
    Mr. Howard. It was within a day or two, if not the same 
day, that I received a faxed copy of the letter, which would 
have been August 20th, the latter part of August.
    Mr. LaTourette. Was that a meeting that you convened, you 
asked everybody to get together?
    Mr. Howard. Yes, sir, I did.
    Mr. LaTourette. And at that time, again, so we don't have 
to go back over all of the testimony of the Houston police 
officers and Mr. Schumacher, the observation was made by the 
previous panel that at that meeting, you announced that the HPD 
officers were going to return to their duties and not be in 
this task force anymore.
    Did you hear them say that?
    Mr. Howard. Yes, sir; I heard them say that.
    Mr. LaTourette. Did you make that observation at that time?
    Mr. Howard. No, sir; I did not.
    Mr. LaTourette. Why don't you tell us what you recall then 
that you made reference to relative to what the HPD officers 
were going to do in this task force?
    Mr. Howard. I did not discuss what the HPD officers were 
going to do in the task force or the OCDETF investigation. What 
I discussed was at that point in time, that particular day, as 
I walked out of this meeting, there will be no more proactive 
investigation involved in the target, the impact target 
investigation. The reason being is because we had allegations 
out there, as I indicated to the people in the room, we had a 
politician that made allegations that I was concerned about; 
whether the allegations were true or false were at that point 
irrelevant. I told them that if they went out and did something 
and they did everything right and something went wrong on the 
street, they would still be held liable as far as perception. I 
was not going to allow my agents and the officers to go out and 
be ridiculed for doing something right just because of 
perception. I was concerned about the agents and the officers.
    Mr. LaTourette. And by proactive, their testimony was that 
the cases that were in the pipeline, those people that had been 
arrested, crimes had been identified, they had been indicted, 
those activities were going to continue; is that right?
    Mr. Howard. That is correct.
    Mr. LaTourette. By proactive, you meant that additional 
leads, information that may have been developed by this group 
of officers, were not going to be pursued, at least at this 
moment in time.
    Mr. Howard. Not proactive. I meant that there would be no 
more undercover operations, there would be no more constant 
surveillances, there would be no more without approval from an 
associate SAC or higher.
    Mr. LaTourette. Other than the letter that was received 
with allegations that were eventually proven to be false by the 
OPR investigation, but other than the fact that this letter had 
been received on August 20th, was there any other reason for 
you taking that action as the SAC in Houston, TX?
    Mr. Howard. That is normal protocol whenever we have an 
allegation of that level saying that there has been misconduct 
by agents and that there is racial profiling; because racial 
profiling was very visible in the media at that time, I was 
concerned. I was going to take my agents out of that arena 
until I----
    Mr. LaTourette. Did you say that is the accepted protocol 
of the DEA?
    Mr. Howard. Did I tell them that? No, I didn't tell them 
that.
    Mr. LaTourette. No, no. Is that what you are telling me, 
that is the protocol?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. So if Chairman Burton or Mr. Cummings or 
Mr. Shays wrote you a letter today indicating that agents under 
your direction in Houston, TX were engaged in misconduct in an 
ongoing criminal investigation, you would suspend the proactive 
portions of that investigation, pending an investigation of 
those allegations?
    Mr. Howard. If a private citizen wrote and made the same 
complaints that was written in that communication saying that 
there was racial profiling going on, that there was misconduct 
by the agents of stopping and beating people unnecessarily, 
those officers involved would not be involved in that 
investigation, pending the outcome of the OPR investigation.
    Mr. LaTourette. No matter who the person was? Any private 
citizen could write to you?
    Mr. Howard. Yes, sir; that is correct.
    Mr. Burton. Would the gentleman yield for a minute, please? 
Would you yield?
    Mr. LaTourette. I would be happy to yield.
    Mr. Burton. There were people that were ready to turn, 
according to the people in this task force or whatever you call 
it, and they were ready to move up the food chain to nail some 
of the bigger fish, so to speak, according to their testimony. 
And by stopping the investigation, the whole thing just kind of 
fell apart, and the ability to nail the bigger fish, the drug 
kingpins down there, was stopped.
    I find it curious that because of an allegation of racial 
profiling, you would stop the investigation and at least not 
put somebody else on the case while the investigation of the 
allegation was taking place. Why didn't you put some other 
agent in charge, and also have the Houston police put other 
people into this investigation, instead of letting it stop, 
die, and therefore lose a lot of the leads and possible people 
who could give you information that would lead to the 
conviction of the major drug kingpins?
    Mr. Howard. Mr. Chairman, I was led to believe by Mr. 
Schumacher that the key to the entire investigation depended on 
two people. We were in the judicial process with those two 
people. They had not turned, they had not done anything; we 
were waiting to see what was going to happen in the judicial 
process for them to decide if they were going to cooperate with 
the government. Nothing had been done as far as them turning. I 
was told repeatedly up until recent weeks that was the key to 
the entire investigation.
    Mr. Burton. Well, they said--and we will bring them back 
tomorrow--but they also said that there were other people on 
the street, there were people who were evidently dope dealers 
that were giving them information, that were cutoff at the 
knees and left standing out there because the investigation was 
terminated. So you know, it just seems to me that if you have a 
chance to nail some major drug dealers that have been involved 
with--and there were 20 convictions, including one more murder, 
and many of those people working with Rap-A-Lot to stop that 
investigation, just chop it off at the knees, but nobody else 
on it because of an accusation of racial profiling makes no 
sense. Why didn't you put somebody else on the case?
    Mr. Howard. The investigation was not closed down, Mr. 
Chairman. The investigation--all proactivity involving the 
investigation could go on if I had approval, if they had 
approval from the associate SAC.
    Mr. Burton. OK. Let's put up on the screen right now e-
mails from you, Mr. Howard, and then I will go back to Mr. 
LaTourette.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4430.006
    
    Mr. Burton. Let's read what it says, and you can read it. 
This is your e-mail.
    ``I understand that the situation involving `Rap-A-Lot' and 
James Smith aka James Prince has only gotten worse. To 
eliminate any further difficulty in this matter, I have decided 
that the Houston Division will curtail any enforcement action 
against this subject.''
    Then it goes on to say, ``At any rate, it is over and we 
are closing our case on Prince.''
    Then the second e-mail of yours says, ``Now we bow down to 
the political pressure anyway. If I had known this, I would 
have never brought Jack in this case, nor would I have even 
pursued it. But it is over now. The Houston Division will 
terminate all active investigation of Rap-A-Lot, except for 
those persons who have already been arrested and indicted.''
    Now, you just said that the case wasn't closed, that you 
didn't terminate it. What does this mean? What do these e-mails 
mean?
    Mr. Howard. Mr. Chairman, I tried to contact Mr. Mercado 
and Mr. Gamble via telephone earlier that day. I was unable to 
reach them. They are two of a few people in this agency that I 
confide in, that I talk to about various things when I am 
upset. I was venting. I knew that by putting those words in 
there, they are going to call me immediately upon them reading 
that. I did not mean I was going to close the case down. They 
didn't take it as I was closing the case down. They knew better 
than that. But I knew that by putting those words in that e-
mail, they are going to call me back immediately and get me off 
the ceiling.
    Mr. Burton. OK. So the case is open now? You haven't closed 
it down? You have agents working in the field on it?
    Mr. Howard. The target of the investigation is still going 
on.
    Mr. Burton. To the degree that it was before?
    Mr. Howard. The degree that it was back a year and a half 
ago?
    Mr. Burton. Yeah.
    Mr. Howard. I have never been told until today that there 
were more leads in the investigation, other than the two 
individuals going through the judicial process, everything 
hinged on their cooperation.
    Mr. Burton. All I can tell you is the frustration I sensed 
from Mr. Schumacher and the other people that were here with 
the Houston PD, it is very evident. They were very frustrated. 
They said nice things about you, but the fact of the matter is 
they could not figure out why in the heck they closed down this 
investigation when they had a chance to nail big fish down 
there. And then they make a record knocking these guys.
    I'll yield back to Mr. LaTourette. Go ahead if you have a 
comment.
    Mr. Howard. Nobody in that city wants this target of 
investigation any more than I do, believe me. But if there were 
any leads other than what I know about today about, those two 
individuals, I have never been told about it before.
    As far as the PD goes, they had been requested to go back 
to their department prior to August because they had been there 
for over a year. They come there for 90 days.
    Mr. Burton. Excuse me, Mr. Howard. Did you hear the 
testimony of the previous panel?
    Mr. Howard. Yes, sir, I did.
    Mr. Burton. You heard them say that there were other leads, 
you heard them say there were people in the field, drug 
dealers, you heard them say they thought those people might 
turn.
    Mr. Howard. Yes, sir, I heard what they said.
    Mr. Burton. Are you telling me you did not know about that 
until today?
    Mr. Howard. No, sir, I did not.
    Mr. Burton. You did not know about that until today?
    Mr. Howard. No, sir, I did not.
    Mr. Burton. You were their supervisor.
    Mr. Howard. No, sir, I am three removed.
    Mr. Burton. I don't understand the chain of command. You 
came in and told them, we're stopping this case in essence for 
political reasons. You came in and said, we're going to stop 
this for political reasons. That's what they all said, all of 
them.
    Mr. Howard. The proactive part of the investigation.
    Mr. Burton. The proactive, that's the investigation.
    Mr. Howard. There were arrests and seizures made after 
August.
    Mr. Burton. I understand, but the point is it was pretty 
clear that you were talking to them and today you're telling me 
you just found out about additional information. I don't 
understand the lack of communication between those folks and 
you. I mean, if they were under your jurisdiction and you told 
them to stop the case, I don't understand why that 
communication wasn't there. It doesn't make any sense to me.
    Mr. Howard. I don't know why it wasn't there either.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Howard, I believe you want to see this investigation 
successfully concluded, but I think back to where I was and 
just to go back where this thing started, my understanding is 
part of this investigation started in 1992 when a car was 
seized that had a connection with the individuals that we've 
been talking to that had 76 kilos which are kilograms I guess 
of cocaine. Is that part of your knowledge in the case?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. What's the street value of 76 kilograms of 
cocaine?
    Mr. Howard. Roughly about that time it was about $13,000 a 
key.
    Mr. LaTourette. Times 76. I'm not that good at math, but 
this is a pretty major moving of cocaine in the Houston area. 
This isn't a small time seizure, 76 kilos, is it?
    Mr. Howard. That's correct.
    Mr. LaTourette. Well, back to the point, are you saying 
that if I'm under investigation by the DEA in Houston, TX, and 
my mother writes in and says that one of your agents has been 
performing badly and makes an allegation of some kind of rights 
violation and there is an OPR investigation begun that you will 
suspend the investigation into my background until that is 
concluded or remove the officers?
    Mr. Howard. No, sir. What I said was I would remove that 
officer from any proactive part of investigation.
    Mr. LaTourette. But in this case everybody was told to stop 
being proactive, not just Mr. Schumacher, everybody.
    Mr. Howard. The entire group, from being proactive without 
approval from upstairs. It did not mean that they could not do 
anything at all.
    Mr. LaTourette. I understand that. But it's not like you 
took Schumacher and the seven guys from HPD and said, you guys 
are off because you have this racial profiling, but we're going 
to bring in these new eight guys and they're going to pick up 
on the proactive stuff while you're being under investigation. 
Nobody was doing anything proactive on the basis of an August 
20 letter from a Member of Congress. And you're telling me the 
fact that she was a Member of Congress isn't a big deal. It 
could have been any citizen that wrote in and said there's 
racial profiling or something going on. You would have done the 
same thing. So not to hang it on our colleague, because 
apparently the fact than she's a Member of Congress isn't any 
big deal. Anybody could have written in and made this 
allegation and you would have pulled these guys off the case, 
at least on the proactive part. Is that what you're telling the 
committee?
    Mr. Howard. This was not the only case that we're working 
in Houston----
    Mr. LaTourette. I understand that.
    Mr. Howard [continuing]. So I didn't have anybody else to 
assign to that investigation at that time. That's why I said 
any proactive part of the investigation has to be approved. If 
they wanted to do something the next day all they had to do was 
bring it upstairs to the associate SAC.
    Mr. LaTourette. OK. But I think the Houston guys said they 
then left wherever they were operating out of and went back to 
the HPD. They took it as ``we're done'', and they left.
    Mr. Howard. They had been asked by their captain to come 
back to the HPD long prior to the August situation. They had 
been over there for a year. That's what I was told by the 
people downstairs.
    Mr. LaTourette. Let me now go--because, obviously, there 
are people inside and outside of the Department that brought 
this matter to the attention of the committee.
    Could I ask how much time I have left, Mr. Chairman, to 
sort of budget my time?
    Mr. Burton. You have 7--almost 8 minutes.
    Mr. LaTourette. I thank you.
    Obviously, this came to the attention of the committee 
before today's hearing; and did you come up over the course of 
the summer, maybe about July 17, and have an interview with 
members of the committee staff?
    Mr. Howard. Yes, sir, I did.
    Mr. LaTourette. Do you remember who you met with on that 
occasion?
    Mr. Howard. The gentleman--I think Mr. Wilson.
    Mr. LaTourette. Maybe Mr. Binger.
    Mr. Howard. And the gentleman to the left of Mr. Waxman.
    Mr. LaTourette. Was it the two of them?
    Mr. Howard. No, it was three.
    Mr. LaTourette. Maybe Mr. Binger, was he there? I don't see 
him in the room anymore. How about this fellow over my 
shoulder? Was he there, too?
    Mr. Howard. Yes.
    Mr. LaTourette. Their recollection of that meeting was--and 
the substance of that meeting was the substance of the hearing 
today, was it not? They were talking about this investigation?
    Mr. Howard. That's correct.
    Mr. LaTourette. Did they bring up allegations to you at 
that time, that in fact this investigation had been concluded, 
it was over, it was done with?
    Mr. Howard. That's correct.
    Mr. LaTourette. At that meeting of July 2000 you indicated 
to them, absolutely not, this is an ongoing investigation, it's 
not closed?
    Mr. Howard. That's correct.
    Mr. LaTourette. Has there been anything proactive since you 
shut down the proactive part in September 1999 or has it simply 
been cleaning up the cases that were in the pipeline?
    Mr. Howard. There were arrests and seizures in December 
1999.
    Mr. LaTourette. But nothing since then, nothing in the year 
2000.
    Mr. Howard. There were no arrests or seizures, but there 
has been activity going on.
    Mr. LaTourette. OK. I want to go back then to the e-mails 
that the chairman was talking to you about a little earlier and 
not those specific e-mails. Let me ask you this: After the 
letter of August 20 was received from the Member of Congress, 
did your agency have the occasion to brief her on the progress 
of the investigation?
    Mr. Howard. I don't know.
    Mr. Gamble. The answer to that question is yes.
    Mr. LaTourette. OK. Was that briefing conducted by you, Mr. 
Gamble, now that I can see you and the partition has been 
removed?
    Mr. Gamble. Yes, it was.
    Mr. LaTourette. Is that as a result of something you felt 
obligated to do as a followup or was that requested by the 
Member?
    Mr. Gamble. No, I was directed by the Administrator.
    Mr. LaTourette. Administrator?
    Mr. Gamble. Marshall.
    Mr. LaTourette. Marshall directed you to do----
    Mr. Gamble. Give the Congresswoman an update.
    Mr. LaTourette. When did that occur?
    Mr. Gamble. February 9, 2000.
    Mr. LaTourette. Was that the only time that an update was 
given after the August 20 letter that you're aware of?
    Mr. Gamble. That was the only update. I received a call 
from her on September 20.
    Mr. LaTourette. Of this year?
    Mr. Gamble. Of this year.
    Mr. LaTourette. OK. I don't know if the committee can put 
up page 6 of the e-mails. It's a letter from Ernest Howard 
dated Thursday, March 16, 2000, at 2:40 p.m.; and underneath it 
is a message from a fellow by the name of James Nims.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4430.007
    
    Mr. LaTourette. Who is James Nims, Mr. Howard?
    Mr. Howard. He is the group supervisor of group four which 
was responsible for the investigation.
    Mr. LaTourette. And this occurs after--when Mr. Waxman and 
others were asking about the Vice President's visit down to 
Houston, TX. My understanding is that the Vice President of the 
United States went down to the Brookhollow Baptist Church 
sometime in March of this year for part of running for the 
President of the United States, I would assume. Were you aware 
of that visit?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. And it caused this exchange of e-mails. Do 
you have that in front of you, sir?
    Mr. Howard. Which one is this?
    Mr. LaTourette. At the top mine says HQExchange, and the 
first message is from you to James Nims at 2:40 p.m. on March 
16, and the original message was sent at 1:10 from Nims to you.
    Mr. Howard. Yes, sir, I have it.
    Mr. LaTourette. All right. And this is an exchange of e-
mails relative to the visit by the Vice President to the 
church, is it not?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. And specifically Mr. Nims in the original 
message makes the observation that the Vice President was in 
the town and he was at the church. He asks you a question: ``I 
wonder if the Congresswoman was there as well.'' Do you see 
that question?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. In response--he's not talking about a 
Congresswoman from Texas. Because--and you don't take it to be 
that, do you?
    Mr. Howard. No, sir.
    Mr. LaTourette. And your first sentence is, no, ``the one 
from California was not there as far as I know.'' Is that a 
reference to the Member of Congress who wrote the letter on 
August 20?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. Why is there correspondence as to whether 
or not this Member is down at this church with the Vice 
President of the United States? Was this of great concern to 
you?
    Mr. Howard. No, sir. Mr. Nims just wrote me a letter an e-
mail advising me that the Vice President had been in town to 
make sure that I knew about it and he was at this church and 
that is a church that the subject matter attends, a member of.
    Mr. LaTourette. I understand that, but it goes on to talk 
about whether or not the author of the letter of August 20 is 
there as well, right?
    Mr. Howard. Yes, sir, it does.
    Mr. LaTourette. Why is that of interest to anybody in the 
DEA in March 2000?
    Mr. Howard. It wasn't of interest to me. I guess he was 
being facetious. I have no idea. I just answered his question.
    Mr. LaTourette. Is it sort of a running joke at the DEA 
because of the letter?
    Mr. Howard. No, sir, it was not a joke. We were frustrated 
about the entire situation.
    Mr. LaTourette. Why don't you describe for me what's 
frustrating? Were you frustrated because you felt political 
pressure either as a result of this communication or from your 
superiors or from within yourself?
    Mr. Howard. I was frustrated because I was the one who 
sought out Mr. Schumacher, who had brought him into this 
situation in the first place. I told Mr. Schumacher he had 
anywhere from 90 days to 6 months to ensure--to advise me 
whether there was a viable investigation or not.
    I was briefed originally in the latter parted of 1997 at 
the JD on this investigation. This investigation has been 
sitting for years without a lot of activity, and I brought that 
to a sole DEA group which is where it was placed, and I 
personally assigned Mr. Schumacher to that investigation. I 
felt frustration because of the allegations, and I felt 
responsible for putting Mr. Schumacher and the rest of the 
officers in the situation that they were in.
    Mr. LaTourette. I have more questions about the e-mails 
that I will come back to.
    Mr. Burton. If the gentleman would yield real quickly, I 
have one clarifying question I would like to ask. You said the 
police that were detailed from the Houston Police Department 
had already been asked to come back to the Houston Police 
Department before you closed down the investigation, is that 
correct?
    Mr. Howard. That's correct sir.
    Mr. Burton. Now, you're sure about that? They were asked to 
go back?
    Mr. Howard. I was told they had been requested to come back 
on several occasions prior to August.
    Mr. Burton. And that would indicate that would be the 
extent of their activity and involvement in the case?
    Mr. Howard. That's correct. I do meet regularly with Chief 
Bradford. I meet regularly with Chief Jones. They have never to 
this day said anything about them being pulled back, why they 
were pulled back or there was further things to be done in this 
situation. They have never said anything negative about this 
investigation.
    Mr. Burton. We'll come back to that in a little bit.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I thank the three of you for being here to help us in this 
hearing.
    Mr. Howard, Mr. Schumacher was transferred in March 2000, 
from an assignment as acting supervisor of an enforcement group 
to acting supervisor of a support group. Why did you reassign 
Mr. Schumacher?
    Mr. Howard. It was brought to my attention by Mr. Gamble 
that the present position Mr. Schumacher was occupying as the 
acting group supervisor of group four is not a place he should 
be since the OPR investigation was still ongoing, that it might 
be better to assign him someplace else.
    The morale of the group was already devastated. I did not 
want to demoralize Mr. Schumacher any more by moving him from 
an acting group supervisor position to a non-acting group 
supervisor position since I had one available. I moved him to 
another acting group supervisor position in charge of the 
special support group.
    Mr. Waxman. Did Vice President Gore's visit to the 
Brookhollow Baptist Church have any impact whatsoever on your 
decision to reassign Mr. Schumacher?
    Mr. Howard. No, sir, it did not.
    Mr. Waxman. Did anyone from the White House or the Gore 
campaign discuss Mr. Schumacher or this investigation with you 
after his visit to the church?
    Mr. Howard. No, sir.
    Mr. Waxman. And I assume no one from the Democratic----
    Mr. Howard. I never talked to anybody from anybody's party 
telling me to close this case down, never.
    Mr. Waxman. Some have suggested that the investigation was 
slowed or stopped because of political pressure. You've given 
testimony about that, but I would like to ask you about it 
again to clarify the record. Mr. Howard, did you ever stop this 
investigation at any time?
    Mr. Howard. No, sir, I have not.
    Mr. Waxman. Did you reduce staffing levels or resources 
available to the investigation at any time?
    Mr. Howard. Yes, sir, I did.
    Mr. Waxman. You did, however, close one or more case files 
that were a part of this investigation, isn't that correct?
    Mr. Howard. Case files have been closed, yes, sir.
    Mr. Waxman. Were those case files closed for political 
reasons?
    Mr. Howard. No, sir.
    Mr. Waxman. If not, why were they closed?
    Mr. Howard. I believe the original case file was closed in 
August 1999, but prior to that--it takes about, depending on 
the evidence involved in the investigation--this investigation 
started in, I think, 1992. There was a lot of evidence in that 
investigation. The process doesn't--you just don't go say I'm 
closing an investigation today and it's closed. There are 
certain procedures you have to follow such as all the evidence 
has to be destroyed. All the drug and non-drug evidence has to 
be destroyed. All the evidence in that investigation has to be 
completely destroyed prior to closing an investigation. That 
case started--the closing in the early part of 1999.
    Mr. Waxman. You mentioned a case file that was closed in 
August 1999. When were actions first taken to close that file?
    Mr. Howard. In the winter, late winter, early spring of 
1999.
    Mr. Waxman. Did anyone in your chain of command instruct 
you or suggest to you that the investigation should be shut 
down?
    Mr. Howard. No, sir.
    Mr. Waxman. Did anyone at the Justice Department instruct 
you or suggest to you that the investigation should be shut 
down?
    Mr. Howard. No one has ever told me to close this 
investigation.
    Mr. Waxman. Did any Member of Congress, including 
Representative Maxine Waters or anyone else, tell you to shut 
down the investigation?
    Mr. Howard. No one has ever told me to close this 
investigation.
    Mr. Waxman. Did anyone at the White House instruct you or 
suggest to you that the investigation should be shut down?
    Mr. Howard. No, sir, not at all.
    Mr. Waxman. Did anyone associated with the Gore campaign 
instruct you or suggest to you that the investigation should be 
shut down?
    Mr. Howard. No, sir.
    Mr. Waxman. Was there any political pressure of any kind 
for you to shut down the investigation?
    Mr. Howard. Political pressure as far as Washington, no. As 
far as political pressure involving the situation, the 
allegations, if you want to call that political pressure, then 
that caused us to cut the investigation back. I have never shut 
this investigation down. Today, as far as I'm concerned, this 
investigation is still ongoing.
    Mr. Waxman. Thank you very much.
    Mr. Gamble, what is the standard for beginning an Office of 
Professional Responsibility investigation into conduct by a DEA 
agent?
    Mr. Gamble. What is the----
    Mr. Waxman. What's the standard for beginning an 
investigation of professional--Office of Professional 
Responsibility into conduct by a DEA agent?
    Mr. Gamble. All allegations that come to the attention of 
the Office of Professional Responsibility regarding violation 
of standard----
    Mr. Shays [presiding]. Make sure the mic is on.
    Mr. Gamble. OK. All allegations that come to the attention 
to the Office of Professional Responsibility concerning 
violations of standard of conduct for any DEA employee or task 
force officer is investigated by that office to determine the 
merits of that allegation.
    Mr. Waxman. Did allegations made with respect to Mr. 
Schumacher and other agents in group four meet the standard for 
commencement of an Office of Professional Responsibility 
investigation?
    Mr. Gamble. Yes, it did.
    Mr. Waxman. Do you think the Office of Professional 
Responsibility investigation was appropriate in this situation?
    Mr. Gamble. I think it was appropriate, it was fair, and it 
was thorough.
    Mr. Waxman. Did you feel that improper political pressure 
played any role in the commencement or course of the Office of 
Professional Responsibility investigation?
    Mr. Gamble. No, I do not.
    Mr. Waxman. Did you feel any political pressure to find 
misconduct by Mr. Schumacher or others in his enforcement 
group?
    Mr. Gamble. No, I did not.
    Mr. Waxman. You made the observation in an e-mail to Mr. 
Howard that the Office of Professional Responsibility 
investigation had racial and political implications. What did 
you mean by that?
    Mr. Gamble. Do you have that e-mail? What is the date of 
it?
    Mr. Waxman. We'll get it to you before you answer the 
question.
    This is an e-mail dated March 14, 2000. Do you have a copy 
of it there?
    Mr. Gamble. Yeah. Is the day time 3:45?
    Mr. Waxman. Yes.
    Mr. Gamble. Yes, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4430.008
    
    Mr. Waxman. It says, From: Gamble, R.C.; Sent: Tuesday, 
March 14, 2000, 1:52 p.m.; To: Howard, Earnest L. Howard.
    It says,

    SAC, I need to discuss this matter with you, so please let 
me know if you are in office. In view of my meeting with 
Congressman and our guy's apparent failure to adhere to some 
basis administrative procedures, fact matter was referred to 
civil rights division and others, while not necessarily 
critical or essential, but of high profile with some possible 
political overtones. And as you know, all politics are local 
and somewhat sensitive here with racial profiling perceptions 
and etc. Call in questions the overall capability to be 
effective without an onslaught of allegations and 
unsubstantiated speculations on the part of our agent. 
Considerations and comments on best options, notice I need some 
options with the `S' in the bond.

    And then you've got a response to it. But what did you mean 
by that?
    Mr. Gamble. What I was saying in reference to--I had often 
spoken to Mr. Howard as I would normally do during the course 
of a week, and I was concerned about his office politics as 
well as mine. The Department, we were aware of the 
sensitivities concerning the racial profile issue. There were a 
series of issues that we were dealing with that he was not 
aware of which I had to deal with in my capacity as the Chief 
Inspector. So I was just assuring him that there were things 
that he needed to take into consideration. He doesn't have all 
the things that are influencing that I have to deal with and 
neither do I have all the things that he has to deal with. So 
the politics are local, both for what he has to deal with as 
well as what I have to deal with. I think we needed to talk 
about those issues. And the whole genesis behind this was 
because it was a safety issue that had come to my attention 
from my meeting on the 9th with the Congresswoman. All right. 
And I took it very serious, you know, that concern.
    Mr. Waxman. Thank you.
    Mr. Mercado, did you give or were are you aware of any 
instructions to Mr. Howard to close this investigation or any 
case file that was part of the investigation?
    Mr. Mercado. No, sir, at no time did I instruct Mr. Howard 
to close any of the cases.
    Mr. Waxman. Are you aware of any improper political 
interference in this case by the White House?
    Mr. Mercado. No, sir.
    Mr. Waxman. Or the Gore campaign?
    Mr. Mercado. No, sir.
    Mr. Waxman. Or any Member of Congress?
    Mr. Mercado. No, sir.
    Mr. Waxman. Are you aware of any management decisions made 
in this investigation on account of improper political 
pressure?
    Mr. Waxman. No, sir.
    Mr. Waxman. Mr. Howard, let me ask you this, because I 
think you testified and I just want to make sure this is the 
case. You had a complaint from a Member of Congress.
    Mr. Howard. That's correct.
    Mr. Waxman. If you had a complaint from any other citizen, 
would you have treated it the same way?
    Mr. Howard. If it would have been a similar complaint, I 
would have done the same thing. I have to worry about my agents 
who I was very concerned about, the allegation which I did not 
believe was true. But I also have to worry about the citizens 
of Houston, TX. I was also worried about, if the allegations 
are true, then I don't want agents out there doing what they 
were alleged to have been doing. So I was wearing two hats.
    Mr. Waxman. So the allegation was serious enough and you 
took it seriously and whether those allegations had come from a 
Member of Congress or another person you would have treated it 
the same.
    Mr. Howard. I would have treated it the same. The only 
difference is because it was a Member of Congress certainly 
makes it a higher calling. It's like if my mom tells me to do 
something I'll listen to her, but if my grandmother tells me to 
do something I'll really listen to her. It's a higher calling.
    Mr. Waxman. OK. I appreciate that.
    I yield back the balance of my time. Thank you all very 
much for your answers.
    Mr. Shays. Thank you very much.
    Mr. Burton is next, and I guess I'll just take my time.
    I would like to just make an observation, Mr. Howard, that 
I feel amazed by all your responses to the questions. For you 
to say no political pressure and yet you allowed the subject of 
an investigation to have a deposition taken in a Member's--
Congressman's office.
    Mr. Howard. No, sir.
    Mr. Shays. Excuse me. You didn't allow that. The 
investigation took place in her office. And you responded by 
taking your men off the case. That's what you did. And I don't 
believe for a minute that you would do that in other 
circumstances. I don't believe for a minute that someone who 
has been involved in potential drug dealing and possible 
contract murders, that you would allow that person to make a 
complaint about racial profiling and then take your men off the 
case. I don't believe it. So I just want to state it for the 
record. Now, tell me why I should believe it.
    Mr. Howard. Mr. Shays, it was not just racial profiling. 
They had been accused of beating people. They had been accused 
of illegal activity. I had concern for my agents. I had to 
remove them not only for the sake of the people in Houston, but 
I was concerned about these agents' careers. That was the first 
thing that went through my mind.
    Mr. Shays. Wait a second. If you're concerned, if you think 
they beat someone, why are you concerned about their careers, 
wouldn't you want to get them off the force?
    Mr. Howard. I felt responsible for these agents being 
involved in case. I don't believe the allegations. But whether 
I believe them or not is moot right now because there's an OPR 
investigation that has to prove them one way or the other.
    Mr. Shays. Who made the charge?
    Mr. Howard. Who made the allegations?
    Mr. Shays. Yes.
    Mr. Howard. A Congresswoman.
    Mr. Shays. Based on what? That the subject, the person 
under investigation made that claim? Did she present to you any 
information that would have suggested from other sources that 
this was happening?
    Mr. Howard. I didn't interview her, no, sir. I was only 
read a letter that she wrote. I knew an OPR investigation was 
started. I knew my agents were accused of conducting illegal 
activity.
    Mr. Shays. Mr. Howard, you are under oath.
    Mr. Howard. Yes, sir.
    Mr. Shays. You are under oath. Are you telling me that if 
someone else makes a complaint that your agents have been 
involved in some activities like this that you would take them 
off the case?
    Mr. Howard. Of that magnitude----
    Mr. Shays. Of that magnitude. Explain magnitude for me.
    Mr. Howard. They were alleged to have been involved in 
racial profiling. They were alleged to have been involved in 
beating citizens.
    Mr. Shays. And the allegation were made by the subjects 
being investigated through a Congressperson.
    Mr. Howard. Yes, sir.
    Mr. Shays. So the person who is being looked at, who 
possibly was involved in drug dealing and possibly contract 
murders has made an allegation against your individuals, people 
that worked for you, and you're saying to me that that's enough 
to take them off the case.
    Mr. Howard. Yes, sir. Had they have gone out and done 
something else and everything being perfect, they went out and 
they were following a subject----
    Mr. Shays. Was there any basis for you to believe these 
allegations?
    Mr. Howard. No, sir.
    Mr. Shays. Why didn't you just dismiss them out of hand, 
given that they were being by the person who was being 
investigated?
    Mr. Howard. Can I explain?
    Mr. Shays. Sure.
    Mr. Howard. Had everything been perfect and they had gone 
out the following day after I was made aware of these 
allegations, they were following a suspect around that was 
involved in this investigation, this individual gets stopped 
for a traffic violation, he gets out of his car and has a gun, 
the officers return fire and kill this individual, at that 
point the media is going to blast DEA and everybody else for 
misconduct because we were already made aware----
    Mr. Shays. We have a simple solution. The simple solution 
is basically to tell the individuals who are under your command 
that these allegations have been made and to make sure they 
don't stop this guy in the car. I mean, you had lots of 
solutions other than taking them off the case.
    Now you also said something else that I think is very 
inaccurate. You tried to imply to us that the police force in 
Houston wanted these three individuals off the case. And that's 
simply not true. And I want to know if you are making the 
statement that they were being asked to be off this case by the 
Houston police.
    Mr. Howard. I was told by Jack Schumacher, by Jim Nims, by 
the ASAC that the police department had requested their 
officers to return back to their parent unit prior to August.
    Mr. Shays. To return back to the office but not to drop 
this case, isn't that correct? Were they ever asked by the 
Houston police to stop investigating this case?
    Mr. Howard. I don't know.
    Mr. Shays. So you're not making that claim. They just were 
moved.
    Mr. Howard. That's correct.
    Mr. Shays. They were moved, but they were still on the 
case.
    Mr. Howard. They were not on the case. They were removed.
    Mr. Shays. Isn't it a fact that you were the one that took 
them off this case?
    Mr. Howard. No, sir, that's not true.
    Mr. Shays. So the meeting and the description that came 
before us was not accurate. You were here earlier. You did not 
order them, you did not look at your watch, and you did not 
take them off the case.
    Mr. Howard. I did not tell the police department officers 
that you are off the case. What I said was there would be no 
more proactive part of this investigation without approval from 
an associate SAC or higher.
    Mr. Shays. And that in your judgment is leaving them on the 
case.
    Mr. Howard. They had been asked to go back previous to 
this.
    Mr. Shays. No, no.
    Mr. Howard. I did not tell them to leave, no, sir. We still 
have judicial matters to do in this case. I am led to believe 
by Jack Schumacher that the key to this investigation all 
hinges on two people cooperating.
    Mr. Shays. Mr. Howard, this is painful, but my time has 
run.
    Mr. Cummings, you have the time.
    Mr. Cummings. Thank you very much.
    Mr. Howard, I have been listening to your testimony. I 
heard part of it in the other room there, and I have been 
watching the monitor. And Mr. Shays has asked some questions 
which I got to tell you when I heard your testimony I have to--
I was kind of surprised. You know, you heard all the testimony, 
did you not, of the witnesses on the panel that came before 
you?
    Mr. Howard. Yes, sir, I did.
    Mr. Cummings. And would you agree that there is apparently 
some key--there was some major differences in what you're 
testifying to and what they testified to?
    Mr. Howard. Yes, sir.
    Mr. Cummings. I got the impression that these were some 
officers who really believe in you, think that you're an 
honorable man but believe that it wasn't your doing but you 
were frustrated that the investigation--that they had to be 
taken off of the case. Would you agree? You heard them. Did you 
get that impression that they were frustrated? They thought 
that you were frustrated. You may not have agreed with it 
completely, but you felt kind of frustrated. That's the 
impression that I got up here.
    Mr. Howard. That's correct. I was frustrated.
    Mr. Cummings. OK. And your frustration I take it did not 
come from them having necessarily done anything wrong, that is 
the officers, but just I guess--and you tell me if I am wrong--
but just basically from the process, that there were concerns 
about what they--allegations about what they had possibly 
done--allegations, I emphasize that--and you were just trying 
to basically protect your people.
    Mr. Howard. That's exactly correct.
    Mr. Cummings. Now, one of the things--I think the thing 
that kind of got next to me was when I heard the testimony that 
we had a murder situation here and that there were very serious 
crimes going on. And the question then becomes, and I think 
somebody on the other side alluded to this a little earlier, 
how do you make sure that you don't lose--don't lose the 
momentum you've got?
    I take it people have to kind of--you know, when you get 
folk in a certain position you want to stay right on it because 
you made time and time may cause you to lose something. I am 
trying to figure out, how did you get the impression this it 
was just depending on two people?
    But you heard the testimony of these folks. They're saying 
somebody said Schumacher said we were about to go into the 
second phase. You heard everything they said. I guess what 
would help all of us is for us to understand how that gap 
occurs. In other words, with the group of officers who are on 
the case saying we're right on the verge of moving into some 
big stuff and then we're snatched and you're saying that you 
thought--that you had been told that there were two people who 
were apparently up for trial, you were waiting for them, you 
said waiting for them to turn, is that right?
    Mr. Howard. That's correct.
    Mr. Cummings. I think that would help all of us.
    Mr. Howard. I was told by Mr. Schumacher and Mr. Nims that 
our entire investigation into the local impact target hinged on 
the two lieutenants as identified by them in the organization. 
Those two lieutenants had been arrested. Everything we were 
trying to go forward depended upon these individuals 
cooperating. I have never been told to this date that there 
were additional leads at that time that they had not followed.
    Mr. Cummings. I may have missed this, but is there some 
type of criteria that is used to determine when you pull 
someone off the case? In other words, you mention here in 
answering a question a little bit earlier that there was 
alleged racial profiling, and you name a number of things. I 
think you said somebody had alleged been beaten. Is there some 
kind of criteria that is either written or is basically 
understood policy as to when you pull people, say, when you do 
whatever you did in this case, that is, pull people off the 
case? Is there a policy?
    Mr. Howard. The seriousness of the allegations.
    Mr. Cummings. And----
    Mr. Howard. Those allegations were significant enough for 
me to believe that if these officers went out and did something 
again and everything turned out right as I explained earlier 
and for some reason something went wrong, the perception in the 
media, the perception on everybody would be that they--we knew 
about it ahead of time; we should have stopped it ahead of 
time. I was worried about my own people.
    Mr. Cummings. Just one other question, Mr. Chairman.
    Well, I guess this is what is troubling me, and I am sure 
it is probably troubling other members of the committee, in 
almost everything we do there has to be some kind of balancing 
act, and I am sure you had to do some kind of balancing when 
you came to that conclusion. Where does the balance--how do you 
strike a balance between what they may allegedly be doing and 
the fact that people may be being murdered, more drugs coming 
into a community? You following what I am saying? I know you 
want to protect your officers. I got that. What about the other 
side? That's where our frustration comes from.
    Mr. Howard. As I said, again I was told at that time, and 
as I have been consistently since that time, that the key to a 
successful investigation in the local impact target depended on 
two people. When I said we're not going do any more proactive 
activity, that meant until the end of the OPR investigation. If 
the OPR investigation was terminated in 60 days, whatever they 
had going on before, whatever they could do without getting 
approval from upstairs could have been done anyway.
    Mr. Cummings. Last question, so the information that you 
found out today, if you had that information that you heard 
would you have done the same thing?
    Mr. Howard. As far as those two individuals----
    Mr. Cummings. No, listen to me. Listen to my question. I'm 
talking about the officers that testified a little bit earlier, 
all the frustration they voiced. If they had said, look, 
Howard, look, man, we are about to go into the second phase. 
We've got--you heard what they said. If they had presented that 
to you on that day that this determination was made to pull 
them off, would you have done the same thing?
    Mr. Howard. It would have been assigned to somebody else.
    Mr. Cummings. OK.
    Mr. Burton. [presiding.] Let me say to you Mr. Howard, Mr. 
Mercado and Mr. Gamble, you're all under subpoena, I believe. 
Is that correct? We would like for you to be back here 
tomorrow. The reason--and we've asked the police officers and 
all of the others on the first panel to be back tomorrow. The 
reason for that is because there's some inconsistencies in the 
testimony we're hearing from you, Mr. Howard, and what the 
policemen have told us. We want to resolve that through further 
questioning tomorrow, and we want to make absolutely sure we 
get at the truth. And you will remain under oath, and you know 
how important that is, that the truth be told.
    Mr. Horn. Mr. Chairman, if I might suggest, we need a chart 
that goes up the hierarchy. Mr. Waxman has mentioned that. Some 
of us believe when you look at a bureaucracy----
    Mr. Burton. Chain of command.
    Mr. Horn. Who decides? Unity of command or chain of 
command? And get it from the group that was working--obviously, 
to Mr. Howard and then all those people above him and the same. 
I would like to hear from the Office of Professional 
Responsibility on your case load and how you do it.
    Mr. Burton. We'll see if we can't get that information.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman; and I want to thank 
you for conducting today's hearing to help clear the air about 
these serious allegations of possible political influence over 
DEA drug-related criminal investigation in Houston.
    We welcome the examination of DEA's performance which some 
fear may have been influenced by this kind of political 
pressure and the case being prematurely concluded. This charge 
is serious. It's worthy of a careful, objective examination by 
the Congress.
    The e-mails we've read from the DEA office in Houston raise 
serious questions about just what was going on there as well as 
the Washington headquarters when they came in. E-mail messages 
cry out for an explanation about any alleged political 
pressure.
    It's hoped that this case which we're examining today isn't 
different from the long outstanding history of the independence 
of our outstanding DEA whose men and women all around the globe 
daily risk their lives for the benefit of all of our children 
and communities.
    My staff and I have known and have worked closely with DEA 
administrator Donnie Marshall and his predecessor Tom 
Constantine in the crucial war against illicit drugs. Mr. 
Marshall is the first career DEA agent ever appointed agency 
administrator and to our knowledge has always done an 
outstanding job and one that's important to the rank and file. 
And that's why we've been looking forward to today's testimony 
and tomorrow's testimony.
    Let me ask Mr. Howard, has the Rap-A-Lot drug case ever 
been officially closed?
    Mr. Howard. The target impact investigation--there are 
multiple cases that are going on a local impact target.
    Mr. Gilman. I'm talking about the Rap-A-Lot investigation.
    Mr. Howard. There are multiple investigations on that local 
impact target.
    Mr. Gilman. Have you ever closed that investigation?
    Mr. Howard. The one that was originally opened in 1992 has 
been closed, yes.
    Mr. Gilman. You closed it?
    Mr. Howard. It was closed, yes, sir.
    Mr. Gilman. Yes, I'm am looking at your March 14 e-mail to 
Mr. Mercado. You said, at any rate it's over and we're closing 
our case on Prince.
    Mr. Howard. That isn't the same--the 1992 case was closed 
in August 1999. That was the original case that I had been 
briefed on.
    Mr. Gilman. I'm looking at March 14, 2000, e-mail to the 
headquarters.
    Mr. Howard. Yes, sir.
    Mr. Gilman. You're saying in that, ``at any rate it's over. 
We're closing our case on Prince.'' Does that end the Prince 
investigation?
    Mr. Howard. No, sir, it does not. I wrote that e-mail 
because I was venting. Mr. Mercado and Mr. Gamble are two of a 
few people in this agency that I talk to about my feelings and 
about things that are going on. I wanted them to call me 
immediately. I had tried to talk to them earlier. I had been on 
travel for a couple of weeks before.
    Mr. Gilman. From that e-mail are we to believe that the DEA 
Special Agent in Charge of Houston is misleading everybody with 
a March 1999, e-mail about political influencing closing the 
case?
    Mr. Howard. I'm not trying to mislead anybody, Mr. Gilman. 
All I'm telling you is that I tried to call Mr. Mercado. I had 
tried to call Mr. Gamble. They were not in. I wanted to talk to 
somebody because I was frustrated about this entire situation. 
I was totally frustrated.
    Mr. Gilman. And yet you state you're closing out your 
investigation?
    Mr. Howard. Yes, sir, I did. And, Mr. Gilman, the reason I 
put in there is because I want them to call me. If I just put 
in call me, I know they will call me sometime.
    Mr. Gilman. Did anyone call you? Did you have a subsequent 
conversation?
    Mr. Howard. Yes, sir, they got me off the ceiling.
    Mr. Gilman. What occurred after that conversation? Did you 
reopen the case or did you leave it closed?
    Mr. Howard. It never was closed. These words are not meant 
like they're stated in there. These words are me begging out to 
Mr. Gamble and Mr. Mercado to call me and get me off the 
ceiling because I'm frustrated.
    Mr. Gilman. What did you say to reopen the case then once 
you stated it was closed?
    Mr. Howard. It wasn't closed, Mr. Gilman. The case was not 
closed.
    Mr. Gilman. But you made a public statement in your e-mail, 
you made a statement to your headquarters you're closing the 
case. What did you do to reopen the case?
    Mr. Howard. The case was not closed, Mr. Gilman. I'm 
reaching out, venting. I'm asking Mr. Mercado and Mr. Gamble as 
two people that I trust and that I talk to about many, many 
things to get me off of the ceiling.
    The weekend before Vice President Gore was in town at the 
church, and I know from the church that I attend who is like 
other sister church to the church that the Vice President 
attended that the word in the street and the word in the church 
is that a target, the local impact target was at the church 
with the Vice President. To me, that was him slapping me in the 
face, saying ha-ha. Here I am. You can't touch me.
    I was totally frustrated about this entire scenario because 
I know that this guy, this individual, this local impact target 
is doing everything possible to keep from getting tied up in 
the investigation.
    Mr. Gilman. Mr. Howard, if I might interrupt you. On March 
15 you sent a further e-mail to Mr. Mercado saying,

    All that is of concern with me is the fact that Tom 
Constantine and Greg Williams were both briefed on this case 
and the potential political pressure associated with it because 
the major player is a prominent pastor and a major pro tem. Now 
we bow down to the political pressure anyway. If I had known 
this I would have never brought Jack in this case nor would I 
have ever pursued it. But it's over now. The Houston Division 
will terminate all active investigation of Rap-A-Lot except for 
those persons who've already been arrested and indicted. If any 
information comes to the investigation of agents in the Houston 
Division regarding Rap-A-Lot or James Smith it will be vetted 
through headquarters prior to any action taken here.

    Now, what does that tell us? What are you telling us?
    Mr. Howard. Mr. Gilman, I am venting with Mr. Gamble and 
Mr. Mercado. I am just totally venting. We did not close the 
investigation into the impact--local impact target.
    Mr. Gilman. Let me interrupt you again, Mr. Howard. Did 
anyone at DEA headquarters in Washington ask you what the 
political influence was that you were concerned about?
    Mr. Howard. No, sir.
    Mr. Burton. The gentleman's time has expired.
    Let me just admonish the witness, Mr. Howard. I want you to 
be very clear. We will send criminal referrals to the Justice 
Department, the new Justice Department, after January 1 if we 
find out there's been false testimony given to this committee 
by anybody. I want you to be very clear about this. And 
prosecution can take place if we find out that there is not 
accurate statements being made, and I'm talking about anyone 
who testifies, and I want you to know that. And we're going to 
have you come back tomorrow after we have the policemen come 
back and your associate and ask them questions regarding your 
testimony today. So I want you to be very clear about that, if 
you have any corrections you want to make today or tomorrow.
    Who is next?
    Mr. LaTourette or Mr. Shays, do you have any questions?
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Gentlemen, when the other panel was here we were talking 
about an artist that is apparently known to some but not to me, 
a guy named Scarface; and I've been handed a magazine that I 
don't read on a regular basis called Alpha and Omega. And in 
that interview Mr. Scarface, I don't know if his name is Mr. 
Scarface but Scarface anyway, talks about a song that he has 
written and it's now jumped to No. 7 on some billboard chart 
that I'm not familiar with. It's ``Look Into My Eyes.''
    It has to do with the testimony which was--Mr. Schumacher's 
name was mentioned in it, and this investigation is named to 
it. And the Houston police officers that testified, one of 
the--a 21-year veteran, was indicating that the shame of this 
song and the way that this was handled is that it brags about 
the fact that, basically, if you're under investigation and you 
get people to intervene on your behalf and you beat it, you not 
only become somehow invincible but it also talks about knocking 
off and killing a confidential informant who helped law 
enforcement participate in that investigation.
    The officer who testified from Houston said what an awful 
message it is to send not only to the young people of Houston 
but to the young people across the country who may be thinking 
about what path they should follow. Should they steer clear of 
drugs as we tell them to do and the money that can be illegally 
gotten during drug transactions or should we do something more 
productive with our lives?
    Thanks to the technology of the committee, the wonderful 
staff here has been kind enough to run up to the local music 
store and purchase this classic for us, and they've cued it up, 
Look In My Face. With the consent of the chairman, it's 3 
minutes and 36 seconds, which should take most of my time, but 
I'd like to play Look Into My Eyes for the gentlemen from the 
DEA here and invite your comments on what message you think 
this closing down of the investigation and giving the rap 
artist the opportunity to brag about it sends to the young 
people of America. Is that all right with you, Mr. Chairman?
    Mr. Burton. That's fine. Without objection.
    Mr. Shays. The transcriber doesn't have to copy this down, 
please.
    Mr. LaTourette. It's got a good beat, but I don't think we 
can dance to it.
    [Tape played.]
    Mr. Burton. I see some of the people from various official 
agencies laughing at this. Do you really find it that funny? I 
don't find it funny at all, and that's No. 6 or 7 on the 
charts? My God.
    Mr. LaTourette.
    Mr. LaTourette. If I could just ask a question about it. 
Although I didn't catch all the lyrics, I certainly heard Mr. 
Schumacher's name. There's also the mention of an individual 
who I understand was a confidential informant for the DEA 
mentioned in these lyrics. I guess the question I have is the 
unintended consequence I guess of the activities that took 
place in Houston as a result of an unsubstantiated complaint 
lodged with a Member of Congress by the target of an 8-year 
investigation has apparently emboldened an artist to produce a 
song that's now No. 7 on the charts that specifically names a 
DEA officer and encourages the killing of a DEA confidential 
informant. And I guess I'd be interested from you gentlemen 
just to your reaction to that set of circumstances.
    Mr. Mercado. Sir, I've been in law enforcement for 28 
years, first as a New York City police officer, now at DEA for 
the last 22 years. This is disgraceful. Now, we never told 
anyone that the cases were closed. So for him to say that the 
cases were closed, if you give me the date--can you tell us 
when was that tape--on the back of the tape it should tell you 
the date the tape was published.
    Mr. Burton. Would the gentleman yield real quickly?
    Mr. LaTourette. I will be happy to.
    Mr. Burton. The policeman and the DEA agent said that Mr. 
Howard came in, looked at his watch and the date and says it 
stops as of now. Just a minute, Mr. Mercado. He said it stops 
as of now.
    Now, I'm going to bring them back in here tomorrow, and 
they're going to testify, so don't tell us that the case wasn't 
closed. They were very clear. Mr. Howard told them, it stops as 
of now. Now they're going to tell us that again tomorrow. So 
you're saying that the case wasn't closed. Were those people--
did they have their head in a sack? Were they not paying 
attention? This isn't one person, two persons, three persons. 
It was three Houston policemen and a DEA agent in charge of 
investigation, so come on.
    Mr. Mercado. Sir, can I answer you, sir. What I am trying 
to say is that at no time did DEA come out public and say that 
the case was closed for these individuals to know that the case 
is closed.
    Mr. Burton. How would--you know they might have been told 
by somebody who had inside information.
    Mr. LaTourette.
    Mr. LaTourette. If I could reclaim my time, I really think 
that that question begs the question, and the observation is 
that at least this artist who works for the principal subject 
of the investigation was under the impression that as a result 
of political pressure or something else that this thing had 
been deep sixed, Mr. Schumacher was taken off the case, he's 
now riding a desk someplace. The seven HPD officers are back 
doing whatever they were doing before this; and whether there 
was an announcement by DEA or not, they think it's dead, and he 
thinks it's dead to the point that he feels confident to 
produce a record that basically not only exposes the DEA 
officer and makes fun of him, sort of in your face, but 
threatens to kill a snitch, a confidential informant for the 
DEA, and when Mr. Stephens, Sergeant Stephens was testifying 
before, somebody was testifying before, they said what 
concerned them was when this thing was closed down, at least in 
their understanding, that CIs were left to twist in the wind 
and were caused to believe that they had no backup anymore, 
that their lives were in jeopardy, even though they tried to 
help either for good reasons or bad reasons.
    And this guy, this artist, Mr. Whatever-his-name-is, feels 
confident making a threat record, threatening the confidential 
informant's life, and more than that, and why this issue of 
whether it's closed or not, and the date really doesn't make a 
spit's worth of difference to me, is the Houston guys said that 
this has risen to No. 7 on the charts and kids, teenagers, 
young people in Houston are listening to it. And it's now OK 
because the stars say it's OK to diss the DEA and threaten the 
lives of confidential informants. And I want to know what you 
think about that. You think it's disgusting. How do you feel 
about it, Mr. Gamble?
    Mr. Gamble. I agree. I think it's also disgusting. I have a 
20-year-old son who listens to rap music, and of course I don't 
appreciate it. I don't appreciate a lot of the lyrics when you 
listen to a lot of the rap songs, and one of the things he has 
often said, it's not the lyrics that they're listening to, it's 
the music, it's the beat, and that's what they dance to and 
that may be an explanation as to why the chart is moving the 
way it is. I heard it had a nice beat. I'm not saying that is 
the reason. I really don't know but I would agree that the 
lyrics and the special--the specific reference to our agent and 
to our sources of information is distasteful, very distasteful.
    Mr. LaTourette. How about you, Mr. Howard, and the question 
is, do you see any responsibility here on the part of your 
agency that created this set of circumstances that has led to 
what you now call disgusting, distasteful, horrendous, 
horrible, I mean, any responsibility at all for creating this 
mess?
    Mr. Howard. I don't know why that was written. I don't know 
why they did what they did, but I did find it very, very 
disturbing. I find it extremely disturbing in that it mentions 
Jack Schumacher and Chad Scott by name, and they were the case 
agents on this investigation.
    Mr. LaTourette. I agree with you and I--well, I don't know, 
you know, there was a movie, Apollo 13, we have a problem, 
Houston; I think we have a problem, Houston, and I yield back 
my time.
    Mr. Burton. Gentleman yields back his time.
    Mr. Shays.
    Mr. Shays. Mr. Howard, would you tell me how taking your 
people off the case improved your opportunity to get those so-
called two lieutenants to talk? In other words, it's known on 
the street that the very people doing the investigation have 
been removed and you're saying that somehow hope lies in 
getting these two lieutenants of the subject person under 
investigation to turn against their own employer. Tell me the 
logic of that one.
    Mr. Howard. I don't know anything about it being on the 
street that these officers were no longer working on this 
investigation, but I was led--I was told----
    Mr. Shays. Excuse me, sir. The person being investigated, 
Mr. Prince, was aware they were taken off the investigation.
    Mr. Howard. I don't know that, no, sir, I don't know.
    Mr. Shays. You under oath are going to testify that you 
believe that would not be known?
    Mr. Howard. I don't know if Mr. Prince knew that or not. I 
have no way of knowing what Mr. Prince knew.
    Mr. Shays. The rap singer knew.
    Mr. Howard. Yes, sir, I guess he did.
    Mr. Shays. I guess he did. I mean there's a point where 
being honest and candid crosses a line, and you ask us to see 
that the lights are off when I know the lights are on, and so I 
react the way I do. You said to Mr. Waxman, there was no 
political pressure, but we know for a fact there was, and it 
was Maxine Waters, and we know that she was so powerful that 
she could get the subject of the investigation to come to her 
office and get your people, Mr. Gamble, to come to her office, 
the very person we're investigating, and it's Stephen Delgado, 
William Dodge and Felix Jimenez. Is he a chief inspector under 
you, Mr. Gamble?
    Mr. Gamble. I preceded him in that capacity.
    Mr. Shays. So is he under you?
    Mr. Gamble. Oh, no. He moved to become the Special Agent in 
Charge of the Philadelphia office.
    Mr. Shays. And you fulfilled his office?
    Mr. Gamble. Yes, I do.
    Mr. Shays. And Veroniique Pluviose-Fenton, legislative 
assistant for Congresswoman Waters; Bruce Toble, general 
manager, Rap-A-Lot Records, very person who puts this music on; 
Honorable Maxine Waters; Ambassador Sydney Ramsey, who I 
believe is Ms. Waters' husband; Cheryl Ziegler, lawyers 
committee for civil rights under law.
    Now we start out, this deposition, excuse me, the words are 
coming from Mr. Delgado, this interview is being conducted in 
reference to the letter from Maxine Waters, U.S. Congresswoman, 
35th District, California, to Janet Reno, Attorney General of 
the United States, Department of Justice dated August 20, 1999.
    On page 39, Chief Inspector Jimenez says, ``fine, we will 
take a look at the situation. I just want to put it on the 
record that we feel that the information provided by Mr. 
Prince, it's insufficient at this point for us to, you know, we 
will take a look at it, but it has not pinpointed any civil 
rights violation. It's not identifying specific acts of 
wrongdoing of DEA agents and so on.''
    Now the date of this was when, Mr. Gamble?
    Mr. Gamble. I believe it was August.
    Mr. Shays. 24th, correct, 1999. Would you tell me when this 
investigation of your agents was ended?
    Mr. Gamble. May 29, 2000 we concluded it and sent our 
facts----
    Mr. Shays. In October?
    Mr. Gamble. In March, on March 29th.
    Mr. Shays. It ended?
    Mr. Gamble. We completed our factfinding, yes, sir.
    Mr. Shays. And then what happened?
    Mr. Gamble. And then it goes to a board of review, which is 
a Board of Professional Conduct.
    Mr. Shays. So this mindless investigation without substance 
goes from August 1999 basically to October 19, 2000, and you, 
Mr. Howard, during this time, have not allowed these agents to 
basically be involved in this case.
    Mr. Howard. That's not true, no, sir. I said that they 
could not conduct any more proactive part of the investigation 
without approval from the associate SAC or the SAC.
    Mr. Shays. Right. So that means what to you? It means 
something to me. What does it mean to you?
    Mr. Howard. That means if they had any substantial leads, 
they had to go through the chain of command and get appropriate 
instructions back.
    Mr. Shays. How did they get leads if you're not allowing 
them to investigate?
    Mr. Howard. They get leads from cooperating witnesses.
    Mr. Shays. But they have been taken off the case. You know 
that and I know that. And isn't it true that Mr. Schumacher was 
actually assigned an administrative job.
    Mr. Howard. In March he was assigned as the acting group 
supervisor of the special support group.
    Mr. Shays. Right, he was taken off the case.
    Mr. Howard. In March he was still involved in the judicial 
process.
    Mr. Shays. No. He's involved in maybe some court cases. 
He's taken off the case. I know that there are people who do 
investigative work who are watching now and laughing at you, 
laughing because they see through it. Now I may not be an 
investigator, but I at least have enough common sense to know 
they had been taken off the case, they have told us they have 
been taken off the case. They have told us that. We have e-
mails from you that say it ended because of political reasons. 
They say it's political reasons. Why should we believe you?
    Mr. Howard. Because I'm telling the truth. Mr. Schumacher 
was still----
    Mr. Shays. Telling the truth when you met them, telling the 
truth when you wrote the e-mail, or telling the truth now 
because they don't agree? They don't agree. You can even 
acknowledge they don't agree.
    Mr. Howard. That's correct, they do not agree.
    Mr. Shays. So you lied to them and you lied in your e-
mails, but you're telling the truth now?
    Mr. Howard. I lied to who, sir, I'm sorry?
    Mr. Shays. Well, you said they don't tell the truth, 
they're in conflict.
    Mr. Howard. I didn't say that they lied. I told them during 
the meeting in August there will be no more proactive 
investigation going on.
    Mr. Shays. We read your e-mails. We heard about their 
comments that they said it was for political reasons. Their 
statement to us corresponds with your e-mails. There's nothing 
different to them. They're the same, and now you're telling me 
that this e-mail is not the truth. Isn't that correct?
    Mr. Howard. That's correct, Mr. Shays.
    Mr. Burton. Gentleman's time has expired.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. Mr. Gamble, what 
communications did you have, if any, with Congresswoman Waters 
with regard to this case?
    Mr. Gamble. Nothing with regard to the Rap-A-Lot case but 
with regards to the OPR investigation, I did--I did speak to 
her on that.
    Mr. Gilman. And what communication did you have with her 
with regard to that?
    Mr. Gamble. I provided her a status of the investigation 
since--that was in February.
    Mr. Gilman. And did you have any communication from Ms. 
Waters with regard to the case.
    Mr. Gamble. Any?
    Mr. Gilman. Any letter, any communication.
    Mr. Gamble. No letter, no, sir.
    Mr. Gilman. Was there any inquiry made by Ms. Waters with 
regard to this case to your office or to the DEA headquarters?
    Mr. Gamble. Following my meeting with her on the ninth.
    Mr. Gamble. Yes.
    Mr. Gilman. What was your substance of your meeting on the 
ninth?
    Mr. Gamble. To update her on the investigation that was 
ongoing.
    Mr. Gilman. What did you tell her?
    Mr. Gamble. I told her that we were still conducting the 
investigative phase. There were several witnesses that had not 
yet been interviewed, had yet to be interviewed and until such 
time we will continue to move forward.
    Mr. Gilman. And what was the necessity of your keeping her 
up to date on that case?
    Mr. Gamble. Administrator Marshall had asked that I update 
her on the status of the OPR matter.
    Mr. Gilman. And is that OPR matter concluded?
    Mr. Gamble. Yes, sir.
    Mr. Gilman. What did you tell Mr. Howard about Ms. Waters, 
and what did you suggest that he do?
    Mr. Gamble. I did have a conversation relative to my 
meeting with her and some of the comments that she had made 
during that meeting.
    Mr. Gilman. What comments are you referring to?
    Mr. Gamble. Well, one was a joking one. Of course, Mr. 
Jimenez is Hispanic, and when I appeared there and she saw me 
for the first time, she just jokingly said, now, they have a 
brother on the case and she talked about the necklace that had 
been taken from one of the subjects, I believe it was a Mr. 
Simon.
    Mr. Gilman. What kind of a necklace?
    Mr. Gamble. It was a gold medallion that he was wearing at 
the time.
    Mr. Gilman. Which indicated what?
    Mr. Gamble. It indicated that it may have some evidentiary 
value.
    Mr. Gilman. What evidentiary value?
    Mr. Gamble. It turned up to have none, or it wasn't 
processed as any.
    Mr. Gilman. Was the necklace indicative that he was a 
member of a gang?
    Mr. Gamble. I do not know that.
    Mr. Gilman. Was that ever told to you?
    Mr. Gamble. No, sir.
    Mr. Gilman. Were you ever informed of that?
    Mr. Gamble. There was some conversation that it was, the 
reason it was taken because they thought it may have been some 
indication.
    Mr. Gilman. Of what?
    Mr. Gamble. Of some gang association.
    Mr. Gilman. And do you know whether it was or was not----
    Mr. Gamble. No, I do not.
    Mr. Gilman [continuing]. An indication of any gang 
association?
    Mr. Gamble. No.
    Mr. Gilman. Did anyone ever indicate that to you?
    Mr. Gamble. No, sir.
    Mr. Gilman. What other information did you discuss with 
her?
    Mr. Gamble. She wanted to know if it would be feasible to 
explore, if it had no evidentiary value, would--to show good 
faith on the part of the government and the service to the 
public to return that necklace.
    Mr. Gilman. What did you tell her?
    Mr. Gamble. I told her I didn't know whether it had any 
evidentiary value, but if it did not, I would explore that.
    Mr. Gilman. Was that necklace ever returned to her?
    Mr. Gamble. Yes, it was.
    Mr. Gilman. When was that?
    Mr. Gamble. It was returned on March 8th of this year.
    Mr. Gilman. Who made that decision?
    Mr. Gamble. I told Mr. Howard that if it had--to us, as far 
as OPR matter, it had no evidentiary matter. It had been taken 
inconsistent with administrative procedures for taking and 
safeguarding personal property and had not been processed 
accordingly, and consequently, it should be returned.
    Mr. Gilman. You instructed Mr. Howard to return the 
necklace?
    Mr. Gamble. Yes, I did.
    Mr. Gilman. Did he do that?
    Mr. Gamble. It was returned I believe by Mr. Joura.
    Mr. Gilman. To Congresswoman Waters?
    Mr. Gamble. No, no. It was to--I believe it was to Mr. 
Simon, the rightful owner.
    Mr. Gilman. Mr. Mercado, is it standard practice to 
interview an alleged target in a congressperson's office?
    Mr. Mercado. It's hard to say, sir. Normally----
    Mr. Gilman. Not whether it's hard to say. Is that standard 
practice by the DEA?
    Mr. Mercado. It's not standard practice, sir.
    Mr. Gilman. Has that ever been allowed before?
    Mr. Mercado. Not to my knowledge no, sir.
    Mr. Gilman. Thank you. No further questions.
    Mr. Waxman. Would the gentleman yield to me on that point?
    Mr. Gilman. I'd be please to yield.
    Mr. Waxman. Whose idea was it to have the deposition there? 
Was it DEA's, if you know?
    Mr. Gamble. I do not know.
    Mr. Waxman. That is what I understood, that she was asking 
for--that she wanted to be present and they scheduled it there. 
It wasn't, as far as I know, at her request.
    Mr. Gilman. What I'm seeking, is that a permissible 
practice? Mr. Gamble, does your office set forth any standards 
with regard to that kind of an interview?
    Mr. Gamble. We have not since I've been the Chief 
Inspector, and to my knowledge, it has not happened before.
    Mr. Gilman. Thank you.
    Mr. Burton. Mr. Cummings, did you have more questions?
    Mr. Cummings. Yeah. Mr. Howard, first of all, I want you to 
understand that when I listened to the chairman, I'm--sometimes 
he gives me chills because I know he's very serious about this 
referring matters for criminal investigations, and so I want to 
see if I can't just ask you all a few questions. By the way, a 
lot of them are very frivolous if I might add in my opinion, 
and also in the Justice Department's opinion, but let me ask 
you this: Mr. Mercado, what impression did you have? You had 
the impression that the investigation was ongoing?
    Mr. Mercado. Yes, sir. First time I got involved in the 
investigation was back in February, beginning of February when 
I was called into Donnie Marshall's office. Present was Mr. 
Gamble. At the time, Mr. Marshall directed Mr. Gamble to go 
meet with Ms. Waters, and at no time discuss any of the current 
investigation, just advise her on the OPR process. That gave me 
the impression that the cases were open. That's the first time 
I got involved in this investigation.
    Mr. Cummings. Now, Mr. Gamble, you--it was your impression 
that it was ongoing also?
    Mr. Gamble. Yes, sir. I was only--I'm the Chief Inspector, 
so I was only concerned about the Standard of Conduct 
violations, and I was not really concerned that much about 
operationally what was going on, just from the safety and the 
welfare of the public as well as our agent, our employees.
    Mr. Cummings. Now, it seems to me that the officers--
clearly they came to a conclusion that there was nothing to 
be--that their tenure with regard to this investigation was 
over. Now, if they, Mr. Howard, you said that if they found 
some other evidence, that you kept the door open for them to 
take some action; is that right?
    Mr. Howard. If there was additional leads or other 
evidence, they had means to bring them forward, yes, sir.
    Mr. Cummings. And in the discussion that you all had, that 
discussion that you all had when they claimed investigation was 
brought to an end, were there any protests by the officers, do 
you remember, saying why are you doing this to us, we're really 
in good shape? And I mean, was there any kind of, you know, 
expressions of frustration?
    Mr. Howard. Everybody was frustrated, yes, sir. Everybody 
was demoralized.
    Mr. Cummings. And all of you all were having this 
discussion? How many of you all were in that meeting, do you 
know? Was Mr. Schumacher there?
    Mr. Howard. Yes, sir. Probably 10 or 12 people.
    Mr. Cummings. And all you said was what, political reasons?
    Mr. Howard. What I said was that we had an allegation from 
a politician that indicated that there was misconduct, 
inappropriate conduct, racial profiling, beatings and so forth, 
and that we could not continue any more proactive part of the 
investigation. I was suspending as of, I looked at my watch, 
and I gave them a time what was on my watch, as of that time, 
no more proactive part of the investigation would be done 
without approval from upstairs.
    Mr. Cummings. What was the response to that that you can 
recall?
    Mr. Howard. They weren't happy, but they weren't happy with 
the allegations because they knew they were unfounded, untrue, 
or they believed they were untrue and unfounded.
    Mr. Cummings. You said in answer to somebody's question 
over on the other side that one of the reasons why you were 
upset about the allegations is because you were the one who 
assigned this to Schumacher.
    Mr. Howard. That's correct.
    Mr. Cummings. And were you aware of any past allegations 
against Mr. Schumacher with regard to racial profiling and 
things of that nature?
    Mr. Howard. No, sir.
    Mr. Cummings. So you felt--and why did you select him for 
this assignment?
    Mr. Howard. He had just finished an assignment in east 
Texas on an investigation, and I wanted a senior competent 
investigator involved in this. It had been in the hands of 
another senior agent for several years and nothing had been 
done. I wanted to find out if we had an--if we could do 
anything with an investigation.
    Mr. Cummings. Does it bother you that there is such a 
difference in what they perceived and what you perceived to 
have been said in that meeting or what their impression was?
    Mr. Howard. Yes, sir, it bothers me because they perceived 
that the investigation was closed down forever. What I said was 
the proactive part of the investigation is closed down pending 
the outcome of the OPR investigation.
    Mr. Cummings. And so just so we're clear, what you wrote in 
the e-mail, you're saying that's not a lie.
    Mr. Howard. What I wrote in the e-mail in March?
    Mr. Cummings. Yes, sir. Yes, sir.
    Mr. Howard. The March e-mail is me talking about closing 
the case down and so forth. Everything in that e-mail was for 
two purposes. One, I was venting. No. 2 was, I wanted Mr. 
Mercado and Mr. Gamble to call me back to get me out of my 
frustration.
    Mr. Gilman. Will the gentleman yield a moment?
    Mr. Cummings. Certainly.
    Mr. Gilman. Did they ever call you back?
    Mr. Howard. Yes, they did.
    Mr. Gilman. And what was said?
    Mr. Howard. They got me off the ceiling, asked me why I was 
upset, what's going on, calm down, everything will be OK, let's 
continue on, we're not closing anything down.
    Mr. Gilman. Did they talk about any political influence at 
all or did you raise it with them?
    Mr. Howard. No, sir.
    Mr. Gilman. Thank you for yielding.
    Mr. Cummings. Is that your recollection, Mr. Mercado?
    Mr. Mercado. Yes, sir.
    Mr. Cummings. Is that yours?
    Mr. Gamble. Yes, it is.
    Mr. Cummings. All right. Thank you very much.
    Mr. Burton. Yes, Mr. Shays.
    Mr. Shays. Mr. Howard, I think that you and I have a big 
disagreement, but I would never want to call a witness a liar. 
And so for that implication, I would apologize, but we have two 
conflicting statements. You seemed to modify your statement in 
responding to Mr. Cummings, and I'm going to ask that that be 
read back tomorrow, and I'm going to get it, but you described 
your meeting with your investigators saying that the proactive 
investigation had concluded pending decisions from higher-ups, 
and the reason why I think I heard you say was because a 
political problem with the Congressperson. That's what I heard. 
Am I hearing you correct?
    Mr. Howard. What happened was I had a meeting with the 
people in that group. I told them that we had received a letter 
or complaint from a Congressperson. I think I even named the 
Congressperson and that there were allegations of a substantial 
nature against people in the group, and I think I went over a 
couple of the allegations. I said we will suspend any proactive 
part of this investigation pending the outcome of the OPR 
investigation.
    Mr. Shays. Thank you. So were you monitoring that 
investigation, eager to get these men back on to a proactive 
effort?
    Mr. Howard. Excuse me, am I monitoring?
    Mr. Shays. Were you monitoring the investigation? You were 
telling me it had to wait until it was concluded.
    Mr. Howard. I was talking to Jack Schumacher almost every 
day I was in the office.
    Mr. Shays. No. They weren't the people--I'm talking about 
monitoring the investigation, the OP, the issue--OPR 
investigation. That's what--the proactive part of your 
investigation was being suspended.
    Mr. Howard. Correct.
    Mr. Shays. Pending the OPR, the conclusion of the OPR case 
that had been initiated by Ms. Waters.
    Mr. Howard. That's correct.
    Mr. Shays. Were you monitoring that case, eager to see it 
conclude and eager to put your men back on the case in a 
proactive way?
    Mr. Howard. Yes, sir, I was advised periodically by OPR as 
the case progressed.
    Mr. Shays. And who would you be in contact with?
    Mr. Howard. Usually Bill Brown.
    Mr. Howard. Now Mr. Gamble wasn't involved in this part of 
it?
    Mr. Howard. Not at that time, not until this year, sir.
    Mr. Shays. What I'm trying to understand is in August 1999, 
you had the deposition taken of the very person who's the 
subject of the investigation in which in that deposition, the 
investigator says we don't see much here, but Mr. Gamble, I've 
not seen it concluded until October. What happened from March 
when the decision was made to October?
    Mr. Gamble. It goes to the Board of Professional Conduct 
who review all the facts. I believe it was six volumes, I could 
be wrong, but I believe it was six volumes that they had to go 
through that five people that sit there, and this is just one 
of many cases that come to them, and I guess when it got its 
turn, they reviewed it and they made their recommendations to 
the deciding official as to what those actions were, one of 
which was a clearance and one of which was a reprimand.
    Mr. Shays. And they were totally cleared.
    Mr. Gamble. One was a reprimand. That's not totally clear.
    Mr. Shays. And that was the medallion issue?
    Mr. Gamble. I believe that was the medallion issue yes, 
sir.
    Mr. Shays. So I'd like to have you explain, Mr. Howard, if 
there was no proactive effort in this case from the time they 
were taken out until I don't know when, because now they have 
been cleared, what do you mean the case is open? Define to me a 
case being open if it's not proactive.
    Mr. Howard. I had repeatedly been told by the group 
supervisor and Mr. Schumacher that the whole case--that our 
target, the local impact target hinged on two individuals 
cooperating.
    Mr. Shays. That's a different issue. You know that they had 
not concluded their investigation. You had taken them off the 
investigation because of the OPR case?
    Mr. Howard. That's correct.
    Mr. Shays. So there was more to be done, you know that, 
because they weren't allowed to be proactive. That's your 
testimony?
    Mr. Howard. No, sir.
    Mr. Shays. So you think they had concluded their proactive 
part?
    Mr. Howard. I had not been told of any other leads in 
August. I had never been told of any other leads. I was led to 
believe that this entire investigation hinges on two people.
    Mr. Shays. Who told you that?
    Mr. Howard. Mr. Schumacher and Mr. Nims.
    Mr. Shays. It is your testimony that they said and that's 
it, and they didn't need to do any more proactive effort? Are 
you saying to us in addition, that they had gotten all the 
information they needed from their informants? Are you claiming 
that they said they had completed the proactive part of their 
investigation?
    Mr. Howard. What I'm saying is, it was never brought to my 
attention about any other leads.
    Mr. Shays. That's not what I ask, because you make an 
assumption without being able to back it up, and I don't want 
you to mislead us and that's where I kind of feel----
    Mr. Howard. I'm not trying to mislead you, Mr. Shays.
    Mr. Shays. Well, I feel you are. I feel that you are 
playing a word game with me here.
    Mr. Howard. No, sir, I'm not.
    Mr. Shays. The reason I feel you're playing a word game is 
you said the case is open, but in response to Mr. Cummings, you 
said the proactive part of the case had been closed. OK. That's 
what you said, true?
    Mr. Howard. Yes, sir, the proactive part of the 
investigation had to be approved upstairs, that's correct.
    Mr. Shays. Why did it have to be approved upstairs?
    Mr. Howard. It's just a further check and balance to ensure 
that whatever they're trying to do is not going to cause any 
additional allegations.
    Mr. Shays. And who's ``they,'' because now it seems to me 
we're talking politics?
    Mr. Howard. The public, whoever's out there. If something 
goes wrong, as I explained before----
    Mr. Shays. Who's ``they?''
    Mr. Howard. The agents are going to do a reverse 
operation----
    Mr. Shays. Who has to give you permission to do the 
proactive part of the case?
    Mr. Howard. Give me permission?
    Mr. Shays. Yes.
    Mr. Howard. Nobody.
    Mr. Shays. I thought you said they couldn't get involved 
because----
    Mr. Howard. The agents and officers, the street agents have 
to get approval from an associate SAC or higher.
    Mr. Shays. Why?
    Mr. Howard. Because of the original allegations. I did not 
want them put in a situation to where management would not know 
what was going on.
    Mr. Shays. Tell me who is higher. I want to know who they 
are. What person are you waiting to hear from that would allow 
this case, which basically, in my judgment, is put on hold----
    Mr. Howard. I wasn't waiting to hear from anybody. They had 
to get approval.
    Mr. Shays. Who's ``they?''
    Mr. Howard. The agents, the street agents, the police 
officers, Jack Schumacher, that entire group.
    Mr. Shays. They needed to jump over you to get approval?
    Mr. Howard. No, sir. No, sir. They report to a group 
supervisor. The group supervisor reports to an Assistant 
Special Agent in Charge.
    Mr. Shays. But you're the one that took them off the case?
    Mr. Howard. Yes, sir.
    Mr. Shays. OK. So you're the one who took them off the 
case, so why wouldn't they go to you to put them on the case?
    Mr. Howard. I'm not in the office every day Mr. Shays.
    Mr. Shays. That's irrelevant because you took them off the 
case.
    Mr. Howard. I didn't.
    Mr. Shays. So I mean, the fact you weren't in the office 
didn't prevent you from taking them off the case. What wouldn't 
have prevented you from putting them on the case?
    Mr. Howard. To do an operation--all I am saying is to do an 
operation, whatever that operation may be, I wanted them to 
have approval from an associate SAC or from myself.
    Mr. Shays. Or from yourself. So now they could get it from 
you?
    Mr. Howard. Yes, sir.
    Mr. Shays. OK. That's important because we were getting 
this word game where you were implying that you weren't really 
involved--hear me out. You said you weren't in the office, so 
therefore it sounded like you weren't relevant, but you are 
relevant. You could have put them back on the case, correct?
    Mr. Howard. If they had a proactive part of the 
investigation to do, they could have come to me. They could 
have come to an associate SAC.
    Mr. Shays. No, you took them off the case. If you took them 
off the case how could they be proactive?
    Mr. Howard. The group still, as I explained to them that 
day, the proactive part of the investigation is put at a halt 
unless--pending the outcome of the OPR investigation. 
Proactive, you come forward to us and ask for permission to do 
an operation.
    Mr. Shays. So I'll just conclude. The bottom line is that 
basically while that investigation was going on, there really 
was no proactive--while the OPR case was going on and it 
dragged on a long, long time, there really wasn't any proactive 
effort, and that fits my definition of a case, kind of being 
maybe not closed but being put on hold, and it seems to me, and 
this is my observation, that if you want to turn people against 
someone, they need to know the case is hot, but since they knew 
it was on hold, you took away the incentive for those two 
lieutenants.
    Mr. Howard. Mr. Shays, there were five arrests made in 
December of last year and seizures that are part of the 
umbrella case.
    Mr. Shays. Did those two lieutenants turn against their 
employer?
    Mr. Howard. They're still in the judicial process.
    Mr. Shays. They didn't, did they?
    Mr. Howard. I was led to believe that right now they're not 
found guilty of anything and everything pends--there's no 
hammer on them.
    Mr. Shays. Mr. Howard, this has been painful for you but 
it's been painful for us, too.
    Mr. Burton. The gentleman's time has expired. Do we have 
more questions?
    Mr. LaTourette. I guess I have the time now. I think 
Chairman Gilman has one question. Let me get--and I'll yield to 
him then I'll yield to Mr. LaTourette, and hopefully we can 
wrap this up.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Howard, you stated that the proactive part of the 
investigation was stopped pending the OPR investigation; is 
that correct?
    Mr. Howard. Yes, sir, it is.
    Mr. Gilman. So from August 1999 to October of this year, 
this one letter shut down this case; is that correct?
    Mr. Howard. Is what correct, sir?
    Mr. Gilman. Well, is it correct that there was no action?
    Mr. Howard. No, sir, it's not.
    Mr. Gilman. Listen to me. From August 1999 to October 2000 
while the OPR investigation was going forward, was there any 
proactive investigation in this case?
    Mr. Howard. There were arrests made in December 1999 and 
seizures. There's also another investigation I believe that was 
opened up in----
    Mr. Gilman. With regard to this case?
    Mr. Howard. Yes, sir.
    Mr. Gilman. Go ahead. When else?
    Mr. Howard. There was another investigation with a source 
that's being developed I think 2 months ago.
    Mr. Gilman. Is that still in the process of being 
developed?
    Mr. Howard. Yes, sir, it's an active investigation.
    Mr. Gilman. In this case?
    Mr. Howard. Yes, sir. There are multiple cases. It's not 
just one case.
    Mr. Gilman. Well, coming out of these allegations, it 
involved the whole Prince organization?
    Mr. Howard. Yes, sir.
    Mr. Gilman. So there has been some ongoing activity?
    Mr. Howard. Yes, sir.
    Mr. Gilman. Despite the OPR investigation?
    Mr. Howard. That activity was approved by the associate SAC 
for December, I would assume, because it happened in December 
of last year. The case that just was initiated in the last 
couple of months, yes, sir, we knew about that case also.
    Mr. Gilman. Were you involved in these further 
investigations?
    Mr. Howard. I was made aware of it yes, sir.
    Mr. Gilman. Were you involved in them, directly involved, 
not just made aware?
    Mr. Howard. Did I say go down and say open this case, no, 
sir, I don't do that on cases.
    Mr. Gilman. Well, how were you made aware of the cases that 
were ongoing? Is that in the Houston area?
    Mr. Howard. Yes, sir, it's all in Houston.
    Mr. Gilman. And how were you made aware of those ongoing 
investigations then?
    Mr. Howard. I go down to the group--to the enforcement base 
on a regular basis when I'm in town and I talk to people. I'm 
also briefed by my associate SAC and the ASAC.
    Mr. Gilman. And did anyone say to you well, how come we're 
doing this despite the fact you closed down this investigation?
    Mr. Howard. No, sir.
    Mr. Gilman. There was no----
    Mr. Howard. The case was not closed.
    Mr. Gilman. Never any objection?
    Mr. Howard. Mr. Gilman, in my opinion, the case has not 
been closed. What I say is closed is not what the committee 
understands as being closed. When I say not closed, the 
committee doesn't understand that terminology.
    Mr. Gilman. Well, we don't--I for one do not fully 
understand when you say the case is closed, and yet in your 
mind it's still active. I have trouble understanding that, Mr. 
Howard.
    Mr. Burton. Let me reclaim my time.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Burton. Let me just say, we'll try to get all this 
ironed out tomorrow. We would like for this panel to be back 
here at 11, as well as the other panel. We'll start at 11.
    Mr. LaTourette, you have the balance of my time.
    Mr. LaTourette. Would it be all right with the chairman if 
I claimed 5 minutes in my own right since I don't know how much 
time you have left? Would that be a big problem?
    Mr. Burton. I have 2 minutes, but if you'd like, I yield 
back the balance of my time and yield to you so we can expedite 
this. So I yield back the balance of my time.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I appreciate the 
courtesy. Mr. Howard, just a couple of housecleaning matters if 
I may. The meeting that has been the subject of extensive 
testimony, the September meeting, when you called the task 
force together to give them instructions and basically, 
according to you, the instructions were that stop the proactive 
part, you guys are going to go do something else while this 
complaint gets ironed out. Do you specifically recall telling 
the Houston police officers and the DEA agents that were 
present at that meeting, but that doesn't mean if you have an 
active lead, you shouldn't come to the SAC or ASAC to get 
permission to pursue it?
    Mr. Howard. No, sir. The GS was unsure of what--I don't 
think he participated in the entire meeting. He came to my 
office at a later time and asked for a clarification, and I 
clarified that with him.
    Mr. LaTourette. The GS is who?
    Mr. Howard. Jim Nims.
    Mr. LaTourette. I want to, in the 5 minutes that I have, 
talk a little bit about the Vice President's visit on March 
12th, and ask you again a question about the e-mails and 
whether or not--maybe you can explain, you can't see me over 
the court reporter's head, so I'll lean this way--what 
happened. When the complaint is registered from the Member of 
Congress, you take the guys off the case, and I would hope that 
the agency would at least go back and look at the policy that, 
I mean, if you have a great agent, and I think you said Mr. 
Schumacher was a really good agent, and you selected and 
handpicked him for this assignment, that somebody could write 
in and make your complaint against him, and you pull the best 
guy off the team while you iron out what proves to be a 
worthless allegation, but be that as it may, he's pulled off 
the team, but he's still part of this enforcement group four, 
is he not, in September?
    Mr. Howard. In September, yes, sir, he was still a part of 
group four.
    Mr. LaTourette. Then we go on, and the investigation goes 
on and they are looking into whether or not Mr. Schumacher is 
engaged in racial profiling, and the other guys from Houston 
have done such a thing, and eventually we find out that they 
haven't, but then there comes a time in March, and if we fast 
forward to March 12th, the Vice President of the United States 
is visiting the church without walls. I think you indicated 
that you got intelligence that Mr. Prince was there and you 
thought that was in your face, that here's this drug dealer 
showing up, or who you believe is a drug dealer, showing up 
with the second most powerful guy in the country, and you say, 
boy, that's in your face.
    And then there's a flurry of--ceiling flurry of e-mails. 
You describe yourself as being on the wall or in the ceiling. 
There's a flurry of e-mails in the days following the Vice 
President's visit between you and Mr. Gamble where you're on 
the ceiling, you want him to call you, you say the thing's 
closed; it's really not closed, it's just to sort of juice a 
telephone call which later takes place. But even though Mr. 
Schumacher has been part of enforcement group four, since that 
complaint was lodged by Congresswoman Waters on March 15th, 
he's shipped out, he's taken out of enforcement group four and 
he's put behind a desk someplace in a position that he says he 
doesn't have any experience in or doesn't have the 
qualifications to handle.
    What happened from September when you make the decision 
that he needs to be pulled from the case because of this 
worthless complaint to March when now he not only needs to be 
pulled off, but now he needs to be reassigned? What happened?
    Mr. Howard. In January, Mr. Schumacher was made the acting 
group supervisor of that enforcement group because I had 
vacancy at the ASAC level and I moved Mr. Nims up as the acting 
ASAC. It was brought to my attention by Mr. Gamble in February 
that perhaps Mr. Schumacher should not be the acting group 
supervisor of that group while the OPR investigation was 
ongoing. I thought that was reasonable, and I said rather than 
to even further demoralize Mr. Schumacher since everybody knew 
he was an acting GS at that time, to put him in the acting GS 
position that I had vacant, which was special support group.
    As far as qualifications go, it's an 18-11 position. 
Whether it be an enforcement group or whether it be a special 
support group supervisor, he was still in an 18-11 position.
    Mr. LaTourette. In that flurry of e-mails back and forth 
following the Vice President's visit, and then if you had been 
asked about this while I was out of the room, I apologize, but 
I understand that the investigation concerning this fellow has 
gotten worse. Have you been asked about that sentence during 
the course of this hearing?
    Mr. Howard. No, sir, I have not.
    Mr. LaTourette. What got worse?
    Mr. Howard. Just the idea, the whole thing was getting 
frustrating with the target of the investigation with the Vice 
President at the church that weekend, that the investigation, 
the OPR investigation was dragging out. It was just the 
totality of the entire situation. Nothing in particular.
    Mr. LaTourette. And in that e-mail, you also talk about 
this bow-down to political pressure. What political pressure 
were you referring to?
    Mr. Howard. Political pressure of the whole circumstances 
involved in the whole mess, everything. It wasn't any one 
particular thing. Just the local political pressure from the 
media, from what was going on worldwide with racial profiling, 
with me bringing Jack in the case. I felt responsible.
    Mr. LaTourette. And going back to the reprimand that was 
issued for the fellow that improperly handled the medallion 
case, I understand that was the one substantive finding of this 
OPR investigation that started on August 20th. This van was 
originally stopped because your agency had information that the 
driver of the van had issued a threat and was going to kill a 
confidential informant of the DEA; is that right?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. And we're having a problem with that? I 
mean, did you have any difficulty with protecting your 
confidential informants or stopping individuals who were going 
to kill your confidential informants?
    Mr. Howard. I don't have any problem with that, no, sir.
    Mr. LaTourette. Mr. Gamble, you got a phone call basically 
from a Member of Congress saying I thought I straightened this 
out in September, but now you guys are taking the medallion off 
a guy's neck, why don't you give it back? Did that happen? How 
did you become aware of this medallion thing?
    Mr. Gamble. From reviewing the OPR investigation at the 
stage that it was before I went to brief the Congressperson.
    Mr. LaTourette. I don't have anything further. Thank you so 
much.
    Mr. Shays [presiding]. Going to Mr. Cummings and come back 
to you.
    Mr. Gilman. I just wanted a clarification of that last 
question, if I could.
    Mr. Shays. Go ahead.
    Mr. Gilman. Just on that necklace there had been an 
allegation that these people were in the process of affecting a 
confidant of the DEA, of wiping him out; is that correct? Was 
there a threat to the informant by this group?
    Mr. Gamble. That I do not have any personal knowledge of.
    Mr. Gilman. Well, who did you check with before you 
released the necklace? Did you check with any of the 
prosecutors or any of the legal staff?
    Mr. Gamble. No.
    Mr. Gilman. Or did you just do it at Ms. Waters' request?
    Mr. Gamble. No, I didn't do it at her request. One of the 
things when the item was taken from the individual, there are 
certain administrative requirements that we have to follow. One 
is that we safeguard personal property. We put it in evidence, 
chain of custody. These rules were violated. These procedures 
were violated.
    Mr. Gilman. Was that necklace taken in the course of an 
investigation of a possible hit?
    Mr. Gamble. Now that I don't know.
    Mr. Gilman. Did you look into that to find out if that was 
the case?
    Mr. Gamble. No, because I was looking into the conduct of 
the agent relative to the taking of that necklace.
    Mr. Gilman. What about the substance of the investigation? 
Did you review whether there was any substantive allegations 
with regard to the taking of that necklace?
    Mr. Gamble. No, I did not.
    Mr. Gilman. No further questions.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much. Mr. Howard, I was 
looking over a document that the majority, I guess--I know it's 
in the record and it's dated September 27, 1999, and it's a 
memorandum and it looks like it's to Donnie Marshall, and I 
guess it's from Mr. Nims. Are you familiar with that document 
at all?
    Mr. Howard. Yes, sir.
    Mr. Cummings. Well, I will tell you, I have been asking you 
a lot of questions, but I think I finally found some additional 
corroboration for what you have been saying. First of all, 
certainly there's a corroboration of the two witnesses who are 
sitting beside you. Now, who is Mr. Nims?
    Mr. Howard. He's the group supervisor of group four, the 
group that had the responsibilities for this investigation.
    Mr. Cummings. Who pays him? I mean does he work for 
Houston----
    Mr. Howard. He's a DEA supervisor.
    Mr. Cummings. DEA supervisor?
    Mr. Howard. Yes, sir.
    Mr. Cummings. So he was in charge with regard to this 
investigation?
    Mr. Howard. He was a supervisor that everybody in that 
group reported to, including Mr. Schumacher and the police 
officers.
    Mr. Cummings. And so he would have--so you would be in 
close contact with him; is that right?
    Mr. Howard. Occasionally, yes, sir.
    Mr. Cummings. In other words, he was in charge of 
Schumacher's group?
    Mr. Howard. That's correct.
    Mr. Cummings. And you were over him or was there somebody 
between you and Mr. Nims?
    Mr. Howard. Two people between me and Mr. Nims.
    Mr. Cummings. OK. Now, it's interesting that in this memo, 
and it's a very interesting piece and it's also--it says here--
and now this is from Mr. Nims. It's dated September 27, 1999. 
It says, I have recently been instructed by Houston field 
division Special Agent in Charge Ernest Howard not to pursue 
any new leads regarding, and it's blacked out, et al., and I 
guess that's somebody's name, until the OPR investigation is 
cleared. And it clearly says until the OPR investigation is 
cleared. However, we are clear to talk to any witnesses and 
participate in any judicial proceedings. So he seems to be 
saying what you said.
    Mr. Howard. Yes, sir.
    Mr. Cummings. That you did not want them to pursue any new 
leads. Then it says the word ``until.'' So it sounds like 
there's something that is still ongoing, but you're kind of 
suspending it for a moment until you can--until the 
investigation, OPR investigation is cleared, and that's what 
you've been saying?
    Mr. Howard. Yes, sir.
    Mr. Cummings. Did you tell anybody else other than these 
two gentlemen--I know that they were sort of your sounding 
boards--other than Mr. Nims, I'm probably not giving him his 
right title, is it officer, sergeant, major?
    Mr. Howard. Group supervisor.
    Mr. Cummings. Group Supervisor Nims. Anybody else you told 
that to?
    Mr. Howard. The ASAC at the time was Keith Bodine, he was 
aware of it. Bob Jurab was aware of it. I'm sure I discussed it 
with Felix Jimenez when he was a chief inspector.
    Mr. Cummings. Why was this memo written, do you know?
    Mr. Howard. Out of frustration by Mr. Nims on the 
allegations. He wanted to make sure that everybody up the chain 
of command knew that nothing had been done.
    Mr. Cummings. And the way it's written, it seems as if he 
was having an issue with you stopping the investigation. I 
guess--he seems to be very straightforward here. I think he 
would have said it, with you personally.
    Mr. Howard. Yes, sir.
    Mr. Cummings. All right. That's all. I yield back.
    Mr. Shays. Thank you very much.
    Mr. Cummings. I think it's part of the record, but I 
think----
    Mr. Shays. If not, we will make sure it's part of the 
record without objection.
    Mr. LaTourette, are you done or should we go to Mr. Ose.
    Mr. Ose. We're going to go to both you and then we're going 
to go to counsel. Without objection, we're going to do counsel.
    Mr. Wilson. Mr. Howard, I just wanted to followup on the 
memorandum that Representative Cummings was just reading from. 
First, I wanted to fully understand what you had said earlier. 
Congressman Shays asked you a question about whether you knew 
of any other leads in August 1999 when you had the meeting with 
the Houston Police Department officials and the DEA agents and 
you said, ``I had not been told of any other leads in August;'' 
is that correct?
    Mr. Howard. Yes, sir.
    Mr. Wilson. OK. And Congressman Shays, when he further 
mentioned the name Schumacher and Nims, and you agreed that 
they had not told you of any other leads, correct?
    Mr. Howard. That's correct.
    Mr. Wilson. Now in the section that Congressman Cummings 
just read, the very next sentence is of some interest because 
maybe we can go through it slowly. It says I have recently been 
instructed by HFD SAC Ernest Howard not to pursue any new leads 
regarding, there's a name that's redacted, Rap-A-Lot et al., 
until the OPR investigation is cleared. However, we are clear 
to talk to any witnesses and participate in any judicial 
proceedings. And the next sentence is the most important one, 
perhaps because it says this is unfortunate because there are 
still many investigative leads and enforcement operations to 
carry out. Now, there's a direct conflict between--you're 
telling us that you didn't know of any leads and the fact that 
you just told Congressman Cummings that you'd seen this 
memorandum. So if you can try and reconcile----
    Mr. Howard. I saw this memo and I asked about the leads. 
The only leads that were left out are the two individuals that 
we discussed before as I've been told repeatedly. They're not 
leads. The whole investigation hinges on those two guys.
    Mr. Wilson. So we have heard testimony today from the 
Houston Police Department personnel and the agents that they 
thought there were other avenues to investigate, but from your 
perspective--did you talk to them, did you ask them----
    Mr. Howard. The police officers?
    Mr. Wilson. Yeah.
    Mr. Howard. No, sir, I did not talk to the police officers.
    Mr. Wilson. And what was Mr. Nims talking about when he 
wrote this sentence in the memorandum?
    Mr. Howard. I don't know.
    Mr. Wilson. Because he's talking about how it's 
unfortunate.
    Mr. Howard. He never brought it to my attention that there 
were any other leads other than the judicial process and those 
people cooperating.
    Mr. LaTourette. Would counsel yield to me for just a 
second?
    Mr. Wilson. Yes.
    Mr. LaTourette. On further reading, and Mr. Howard, this 
memo causes me some concern, too, and I'm glad Mr. Cummings put 
it into the record, because I think it gives us a hand, because 
the next sentences, I think, spell out exactly what the leads 
are. They say that there's a possibility that we could obtain 
grand jury, not grand July, subpoenas to obtain financial 
records. They were informed by a reliable source that Mr. Smith 
either participated or directed a physical beating of one of 
their main--it happens to be our friend ``Scarface,'' the 
fellow that wrote that stirring tune that we listened to 
before.
    Another defendant also gave a statement that Mr. Smith 
directed him to receive a beating because of disrespect. There 
are a number of witnesses who have provided valuable 
information and intelligence, and it's my belief that he can 
and will be a viable candidate for a rico charge, which is, of 
course, an organized crime charge.
    So I think we not only have Mr. Nims, and maybe he's 
frustrated as you were, you testified, indicated that he's 
instructed by you not to pursue any new leads except to take 
care of the judicial proceedings. He says it's unfortunate. But 
then he goes on to say what the leads are, and the conclusion, 
I guess, because this is written to the director who, I guess--
the administrator who we're going to see tomorrow, he's asking 
Administrator Marshall, please look at this case because it 
appears to him that this guy is using his manipulative tactics 
to influence our decisions, and he's obviously using his 
influential power to further insulate himself and continue his 
illegal operations.
    So maybe you and I read this differently and--but it seems 
to me that he not only says you gave him some instructions to 
just finish up the court stuff, he thinks that's a mistake, and 
here's why it's a mistake, because here's all these great leads 
where this guy is having people beat up. Do you not read that 
that way, sir?
    Mr. Howard. Again, I asked Mr. Nims about these leads. 
These leads were uncorroborated. Everything in the 
investigation from what I was being told and had been told 
repeatedly is it hinged on two individuals.
    Mr. LaTourette. And it hinged on them rolling and turning 
State's evidence and otherwise nothing to do?
    Mr. Howard. Yes, sir.
    Mr. LaTourette. That answers my questions and I thank 
counsel for yielding.
    Mr. Shays. Counsel has the floor.
    Mr. Wilson. Just following Congressman LaTourette's 
question, you just stated then that these leads were 
uncorroborated, the ones that Congressman LaTourette was just 
talking about.
    Mr. Howard. I would assume that they are, counsel.
    Mr. Wilson. But by cutting off people from proactive 
investigation, they could not ever be corroborated; is that not 
correct?
    Mr. Howard. No, sir, that's not true.
    Mr. Wilson. How could they be corroborated if you'd taken 
off the seven Houston police officer employees, the two DEA 
agents and prevented any proactive investigation, because it 
would be the proactive investigation that would lead to the 
corroboration?
    Mr. Howard. They are not the only agents in that office. 
There have consistently been attempts to get informants, to get 
witnesses to work on this local impact target consistently over 
the last 10 years. It is not just one, a one-time shot. In my 
experience, 28 years of experience, a conspiracy is not sought 
today and not available tomorrow. Conspiracy investigations 
take a long time to make and to prove. The investigation, the 
proactive part of the investigation was put on suspense pending 
the OPR investigation. If there was a conspiracy investigation 
to be made, it still could be made at the end of the OPR 
investigation.
    Mr. Wilson. Well, I think perhaps people can followup on 
that later. I have two short questions. One is, the e-mails 
that we read earlier and that were put up on the screen were a 
product you have said of your venting.
    Mr. Howard. Yes, sir.
    Mr. Wilson. We've never fully understood what you were 
venting over. The whole September 1999 meeting was in response 
to a congressional letter, but we have fast-forwarded about 
half a year to March 2000. Why were you venting in March 2000 
with such force?
    Mr. Howard. Because at that time, I realized that I had put 
Mr. Schumacher in even more danger, as far as his career goes, 
by leaving him in the acting GS position for that enforcement.
    Mr. Wilson. What was the triggering event that led to your 
venting though? What was----
    Mr. Howard. You mean in that position in January or in 
March?
    Mr. Wilson. Why did it happen in March? I mean suddenly----
    Mr. Howard. In March, Mr. Gamble had brought to my 
attention that I should not have had Mr. Schumacher in the 
acting GS position for group four because there was an OPR 
investigation going on naming Mr. Schumacher, and particularly 
allegations against the group. Rather than demoralize Mr. 
Schumacher anymore, I removed him from that position and put 
him in an acting GS position. I was frustrated about the entire 
situation.
    Mr. Wilson. If I could interrupt for a moment, the OPR 
investigation had been ongoing for many months at that point; 
is that correct?
    Mr. Howard. That's correct.
    Mr. Wilson. Why would you not have vented in that way when 
the OPR--I mean, we're just trying to get at what was the 
triggering event in March 2000 that caused you to write these 
two very severe e-mails.
    Mr. Howard. Mr. Counsel, I cannot tell you any one 
particular thing that caused me or that triggered anything. 
Here I had been--we had had--I had been out of the office for a 
couple of weeks on vacation and on business. I come back into 
the office that week. That's the same week that the impact 
target, local impact target had been with the Vice President. 
He's slapping that in my face. The OPR investigation is still 
ongoing. I'm tired of that situation. I'm tired of being 
handcuffed because of the OPR investigation. I want to get on 
with whatever we're going to get on with.
    The two guys that I'm being told that we're dependent to 
further the investigation, a lot has not progressed to push 
them to cooperate with us. I'm just tired of the entire 
situation, and I just--one of those days to where you just had 
had enough, but I'm reaching out for my colleagues and they 
weren't available and I'm just crying out, please come and just 
calm me down, tell me we are going to get through this, it's--
you know, get me off the roof.
    Mr. Wilson. But there was no specific trigger?
    Mr. Howard. No, sir, not just one thing, no, sir, just 
totality of everything.
    Mr. Wilson. We can followup on that tomorrow. Just very 
last question. In August 1999, there were a number of Houston 
Police Department personnel, there were two DEA agents that 
were prevented from going forward with proactive investigation. 
Had they been productive employees up until that time?
    Mr. Howard. Had the agents been productive?
    Mr. Wilson. Had they been achieving?
    Mr. Howard. Yes, sir, they had been achieving. Can I go 
back to your question once?
    Mr. Wilson. If they were achieving in August 1999, 
notwithstanding the OPR allegation, why not simply replace 
them? Because if they were producing work product for you and 
suddenly you didn't have people producing work product, you 
would have a problem. So why not simply replace them?
    Mr. Howard. I had been told from January when we first 
approved the reverse operation on the two individuals in 
January 1999, I had been told from about that time that the key 
to everything, to any furtherance of this investigation to the 
local impact target, these individuals were the key to that. 
That's why we approved the reverse operation. That was in 
January. I had been told repeatedly, regardless of anything 
else that went on, that they're the key. The reason we 
continued on some other venues is because there was some 
allegations of corruption on the police department. We were 
trying also to investigate that part of it. But as far as 
August came, I knew of no----
    Mr. Wilson. It just sounds like you're saying that as of 
August, you don't think they are really performing a function. 
Is that a correct characterization?
    Mr. Howard. They were doing their job, sir.
    Mr. Wilson. Right, and if they were doing their jobs, that 
implies they were doing something.
    Mr. Howard. That's correct.
    Mr. Wilson. And that something, according to them, was a 
valuable thing to do?
    Mr. Howard. That's correct.
    Mr. Wilson. And after they were removed, there was nobody 
doing whatever that thing was.
    Mr. Howard. As far as what was supposed to be done, they 
were still doing what they should be doing from what I was 
told. I was told repeatedly, the key for us to getting to the 
local impact target was getting to----
    Mr. Shays. Mr. Howard, could I interrupt a second here?
    Mr. Howard. Yes, sir.
    Mr. Shays. This is where I think we're getting 
disingenuous. You did take them off the case. It was no longer 
proactive and they were producing. So please don't dig a deeper 
hole.
    I mean, that is the fact. And you said it earlier; isn't 
that true?
    Mr. Howard. Mr. Shays, I am not trying to dig a hole; I am 
just telling you how I felt at the time and why I did what I 
did.
    Mr. Shays [presiding]. I know, but your testimony is 
conflicting even in this hearing, and it is getting a little 
frustrating. These men had been moved from--they had changed 
their location, but they were actively pursuing a case, and you 
were frustrated when you met with them because you were taking 
them off an active case, and you were suspending the case. It 
is still open, but it is suspended. That is the fact; isn't 
that true?
    Mr. Howard. The case was suspended pending the outcome of 
the OPR investigation.
    Mr. Shays. Right. And it is suspended, and that is the 
fact; that is true, and that is what your testimony is. And you 
still may have had hopes that in spite of the suspension, that 
two people might talk, but it was a suspended case. That is 
true, isn't it?
    Mr. Howard. The way that you are viewing it, yes, sir, I 
guess so.
    Mr. Shays. And the way you told it.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Acting Chairman. I am trying to 
figure out, who is it that has jurisdiction amongst the three 
of you over internal investigations?
    Mr. Gamble. I do.
    Mr. Ose. Such as the one involving Rap-A-Lot or Mr. Prince 
or Mr. Smith, or whatever his name is, how many such 
investigations generate allegations of misconduct?
    Mr. Gamble. I can only tell you that in the first quarter 
of this year, we have 121 allegations that have come in 
concerning agent conduct, or violations of conduct.
    Mr. Ose. So you have full-time work.
    Mr. Gamble. It is gainful employment, yes, sir.
    Mr. Ose. How long does it typically take to resolve the 
allegations?
    Mr. Gamble. Depending on the witnesses, the availability of 
the witnesses--and that was one of the problems in this case, 
getting in touch with them and getting the appropriate 
interviews scheduled and conducted, and then compiling all of 
the data, so it was quite involved.
    Mr. Ose. Well, as I recall the deposition here, I mean we 
had a letter from a Member of Congress dated such-and-such, and 
4 days later we had a deposition being taken of the person 
making the allegation, so I am not so sure that someone is 
unavailable.
    In terms of the investigation, the 121 that you have 
pending, for instance, do such investigations typically merit 
the attention of a Member of Congress?
    Mr. Gamble. From time to time we get congressional 
inquiries by letter concerning ongoing matters. It all depends 
on the constituencies and what they choose to write about. So 
it does from time to time.
    Mr. Ose. Besides this one, have you ever taken a deposition 
in the office of a Member of Congress regarding----
    Mr. Gamble. No, I have not.
    Mr. Ose. So this is a singular event, so to speak?
    Mr. Gamble. To my knowledge, it is.
    Mr. Ose. OK. Were there followup calls from any 
congressional offices regarding the status of your 
investigation?
    Mr. Gamble. There was a meeting that I had with the 
Congressperson in February.
    Mr. Ose. February of?
    Mr. Gamble. February 9 of this year.
    Mr. Ose. 2000.
    Mr. Gamble. Yes, sir.
    Mr. Ose. OK. So we have the letter in August, we have the 
deposition in August, we have the investigation that commences 
afterward. You had an actual meeting in February 2000.
    Mr. Gamble. Yes, I did.
    Mr. Ose. Did you have phone calls?
    Mr. Gamble. I had a phone call on September 20th of this 
year.
    Mr. Ose. OK. Anything else?
    Mr. Gamble. That was my only contact with the office.
    Mr. Ose. So you have a singular event from your career 
history in terms of the deposition, and then you have an 
ongoing interest in the resolution of the case, which is not 
atypical for a Member of Congress to maintain an interest in 
casework for people who live in their district, but it occurs 
to me that Mr. Prince doesn't live--Mr. Prince lives in 
Houston.
    Mr. Gamble. I believe that is correct.
    Mr. Ose. Is that correct?
    Mr. Gamble. I believe that is, yes.
    Mr. Ose. If I might, if I might ask Mr. Howard, we had some 
interesting testimony earlier, in terms of the suggestion or 
the thought that Rap-A-Lot might be laundering funds from 
illegal activity. It seemed pretty basic to me that you would 
investigate the financial underpinnings of Rap-A-Lot and the 
like, asking assistance, I think the phrase was from IRS CID. 
And yet the testimony we had earlier this morning was that 
interest was at best nominal and shortly thereafter terminated. 
Can you give me some sense of why IRS didn't followup on that 
interest?
    Mr. Howard. I was told by the IRS SAC that they had looked 
into the investigation, that the local impact target they 
looked into several times, and there were no IRS violations 
there.
    Mr. Ose. OK. Maybe we can followup with a written inquiry 
to the committee on that.
    I want to go back to Mr. Gamble for a moment.
    You have 121 pending cases.
    Mr. Gamble. No. That was just in the first quarter of this 
year that came in. I was asked to bring tomorrow what my total 
caseload is, and I can get that and give you some more 
definitive numbers.
    Mr. Ose. So this would have been from January through----
    Mr. Gamble. Through March 31st of this year.
    Mr. Ose. So of those 121 allegations, did any of them 
result in an investigation being halted?
    Mr. Gamble. Not to my knowledge.
    Mr. Ose. Did any of them result in the agent involved in 
the allegation being taken off a case?
    Mr. Gamble. Yes.
    Mr. Ose. How many?
    Mr. Gamble. I will have to get that information for you, 
sir.
    Mr. Ose. Well, roughly, 10 percent, 100 percent?
    Mr. Gamble. I can't give you an accurate number.
    Mr. Ose. OK. You can get back to us on that?
    Mr. Gamble. I will have that information for you tomorrow.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. We are in the process of recessing 
this hearing until 11 tomorrow, but the request that was made 
about you having that tomorrow, that will be our expectation. 
And I know it has been a long day for everyone. I thank you for 
being here, and we will see you all tomorrow. Thank you. We are 
recessing until 11 o'clock tomorrow.
    [Whereupon, at 4:07 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4430.009

[GRAPHIC] [TIFF OMITTED] T4430.010

[GRAPHIC] [TIFF OMITTED] T4430.011

[GRAPHIC] [TIFF OMITTED] T4430.012

[GRAPHIC] [TIFF OMITTED] T4430.013

[GRAPHIC] [TIFF OMITTED] T4430.014

[GRAPHIC] [TIFF OMITTED] T4430.015

[GRAPHIC] [TIFF OMITTED] T4430.016

[GRAPHIC] [TIFF OMITTED] T4430.017

[GRAPHIC] [TIFF OMITTED] T4430.020

[GRAPHIC] [TIFF OMITTED] T4430.021

[GRAPHIC] [TIFF OMITTED] T4430.022

[GRAPHIC] [TIFF OMITTED] T4430.023

[GRAPHIC] [TIFF OMITTED] T4430.024

[GRAPHIC] [TIFF OMITTED] T4430.025

[GRAPHIC] [TIFF OMITTED] T4430.026

[GRAPHIC] [TIFF OMITTED] T4430.027

[GRAPHIC] [TIFF OMITTED] T4430.028

[GRAPHIC] [TIFF OMITTED] T4430.029

[GRAPHIC] [TIFF OMITTED] T4430.030

[GRAPHIC] [TIFF OMITTED] T4430.031

[GRAPHIC] [TIFF OMITTED] T4430.032

[GRAPHIC] [TIFF OMITTED] T4430.033

[GRAPHIC] [TIFF OMITTED] T4430.034

[GRAPHIC] [TIFF OMITTED] T4430.035

[GRAPHIC] [TIFF OMITTED] T4430.036

[GRAPHIC] [TIFF OMITTED] T4430.037

[GRAPHIC] [TIFF OMITTED] T4430.038

[GRAPHIC] [TIFF OMITTED] T4430.039

[GRAPHIC] [TIFF OMITTED] T4430.040

[GRAPHIC] [TIFF OMITTED] T4430.041

[GRAPHIC] [TIFF OMITTED] T4430.042

[GRAPHIC] [TIFF OMITTED] T4430.043

[GRAPHIC] [TIFF OMITTED] T4430.044

[GRAPHIC] [TIFF OMITTED] T4430.045

[GRAPHIC] [TIFF OMITTED] T4430.046

[GRAPHIC] [TIFF OMITTED] T4430.047

[GRAPHIC] [TIFF OMITTED] T4430.048

[GRAPHIC] [TIFF OMITTED] T4430.049

[GRAPHIC] [TIFF OMITTED] T4430.050

[GRAPHIC] [TIFF OMITTED] T4430.051

[GRAPHIC] [TIFF OMITTED] T4430.052

[GRAPHIC] [TIFF OMITTED] T4430.053

[GRAPHIC] [TIFF OMITTED] T4430.054

[GRAPHIC] [TIFF OMITTED] T4430.055

[GRAPHIC] [TIFF OMITTED] T4430.056

[GRAPHIC] [TIFF OMITTED] T4430.057

[GRAPHIC] [TIFF OMITTED] T4430.058

[GRAPHIC] [TIFF OMITTED] T4430.059

[GRAPHIC] [TIFF OMITTED] T4430.060

[GRAPHIC] [TIFF OMITTED] T4430.061

[GRAPHIC] [TIFF OMITTED] T4430.062

[GRAPHIC] [TIFF OMITTED] T4430.063

[GRAPHIC] [TIFF OMITTED] T4430.064

[GRAPHIC] [TIFF OMITTED] T4430.065

[GRAPHIC] [TIFF OMITTED] T4430.066

[GRAPHIC] [TIFF OMITTED] T4430.067

[GRAPHIC] [TIFF OMITTED] T4430.068

[GRAPHIC] [TIFF OMITTED] T4430.069

[GRAPHIC] [TIFF OMITTED] T4430.070

[GRAPHIC] [TIFF OMITTED] T4430.071

[GRAPHIC] [TIFF OMITTED] T4430.072

[GRAPHIC] [TIFF OMITTED] T4430.073

[GRAPHIC] [TIFF OMITTED] T4430.074

[GRAPHIC] [TIFF OMITTED] T4430.075

[GRAPHIC] [TIFF OMITTED] T4430.076

[GRAPHIC] [TIFF OMITTED] T4430.077

[GRAPHIC] [TIFF OMITTED] T4430.078

[GRAPHIC] [TIFF OMITTED] T4430.079

[GRAPHIC] [TIFF OMITTED] T4430.080

[GRAPHIC] [TIFF OMITTED] T4430.081

[GRAPHIC] [TIFF OMITTED] T4430.082

[GRAPHIC] [TIFF OMITTED] T4430.083

[GRAPHIC] [TIFF OMITTED] T4430.084

[GRAPHIC] [TIFF OMITTED] T4430.085

[GRAPHIC] [TIFF OMITTED] T4430.086

[GRAPHIC] [TIFF OMITTED] T4430.087

[GRAPHIC] [TIFF OMITTED] T4430.088

[GRAPHIC] [TIFF OMITTED] T4430.089

[GRAPHIC] [TIFF OMITTED] T4430.090

[GRAPHIC] [TIFF OMITTED] T4430.091

[GRAPHIC] [TIFF OMITTED] T4430.092

[GRAPHIC] [TIFF OMITTED] T4430.093

[GRAPHIC] [TIFF OMITTED] T4430.094

[GRAPHIC] [TIFF OMITTED] T4430.095

[GRAPHIC] [TIFF OMITTED] T4430.096

[GRAPHIC] [TIFF OMITTED] T4430.097

[GRAPHIC] [TIFF OMITTED] T4430.098

[GRAPHIC] [TIFF OMITTED] T4430.099

[GRAPHIC] [TIFF OMITTED] T4430.100

[GRAPHIC] [TIFF OMITTED] T4430.101

[GRAPHIC] [TIFF OMITTED] T4430.102

[GRAPHIC] [TIFF OMITTED] T4430.103

[GRAPHIC] [TIFF OMITTED] T4430.104

[GRAPHIC] [TIFF OMITTED] T4430.105

[GRAPHIC] [TIFF OMITTED] T4430.106

[GRAPHIC] [TIFF OMITTED] T4430.107

[GRAPHIC] [TIFF OMITTED] T4430.108

[GRAPHIC] [TIFF OMITTED] T4430.109

[GRAPHIC] [TIFF OMITTED] T4430.110

[GRAPHIC] [TIFF OMITTED] T4430.111

[GRAPHIC] [TIFF OMITTED] T4430.112

[GRAPHIC] [TIFF OMITTED] T4430.113

[GRAPHIC] [TIFF OMITTED] T4430.114

[GRAPHIC] [TIFF OMITTED] T4430.115

[GRAPHIC] [TIFF OMITTED] T4430.116

[GRAPHIC] [TIFF OMITTED] T4430.117

[GRAPHIC] [TIFF OMITTED] T4430.118

[GRAPHIC] [TIFF OMITTED] T4430.119

[GRAPHIC] [TIFF OMITTED] T4430.120

[GRAPHIC] [TIFF OMITTED] T4430.121

[GRAPHIC] [TIFF OMITTED] T4430.122

[GRAPHIC] [TIFF OMITTED] T4430.123

[GRAPHIC] [TIFF OMITTED] T4430.124

[GRAPHIC] [TIFF OMITTED] T4430.125

[GRAPHIC] [TIFF OMITTED] T4430.126

[GRAPHIC] [TIFF OMITTED] T4430.127

[GRAPHIC] [TIFF OMITTED] T4430.128

[GRAPHIC] [TIFF OMITTED] T4430.129

[GRAPHIC] [TIFF OMITTED] T4430.130

[GRAPHIC] [TIFF OMITTED] T4430.131

[GRAPHIC] [TIFF OMITTED] T4430.132

[GRAPHIC] [TIFF OMITTED] T4430.133

[GRAPHIC] [TIFF OMITTED] T4430.134

[GRAPHIC] [TIFF OMITTED] T4430.135

[GRAPHIC] [TIFF OMITTED] T4430.136

[GRAPHIC] [TIFF OMITTED] T4430.137

[GRAPHIC] [TIFF OMITTED] T4430.138

[GRAPHIC] [TIFF OMITTED] T4430.139

[GRAPHIC] [TIFF OMITTED] T4430.140

[GRAPHIC] [TIFF OMITTED] T4430.141

[GRAPHIC] [TIFF OMITTED] T4430.142

[GRAPHIC] [TIFF OMITTED] T4430.143

[GRAPHIC] [TIFF OMITTED] T4430.144

[GRAPHIC] [TIFF OMITTED] T4430.145

[GRAPHIC] [TIFF OMITTED] T4430.146

[GRAPHIC] [TIFF OMITTED] T4430.147

[GRAPHIC] [TIFF OMITTED] T4430.148

[GRAPHIC] [TIFF OMITTED] T4430.149

[GRAPHIC] [TIFF OMITTED] T4430.150

[GRAPHIC] [TIFF OMITTED] T4430.151

[GRAPHIC] [TIFF OMITTED] T4430.152

[GRAPHIC] [TIFF OMITTED] T4430.153

[GRAPHIC] [TIFF OMITTED] T4430.154

[GRAPHIC] [TIFF OMITTED] T4430.155

[GRAPHIC] [TIFF OMITTED] T4430.156

[GRAPHIC] [TIFF OMITTED] T4430.157

[GRAPHIC] [TIFF OMITTED] T4430.158

[GRAPHIC] [TIFF OMITTED] T4430.159

[GRAPHIC] [TIFF OMITTED] T4430.160

[GRAPHIC] [TIFF OMITTED] T4430.161

[GRAPHIC] [TIFF OMITTED] T4430.162



   THE DRUG ENFORCEMENT ADMINISTRATION: WERE CRIMINAL INVESTIGATIONS 
                  SWAYED BY POLITICAL CONSIDERATIONS?

                              ----------                              


                       THURSDAY, DECEMBER 7, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:20 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Shays, Horn, 
LaTourette, Ose, Waxman, Norton, Cummings, and Kucinich.
    Also present: Representative Jackson-Lee.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Sean Spicer, director of communications; M. 
Scott Billingsley and Andre Hollis, counsels; Thomas Bowman and 
Kristi Remington, senior counsels; Pablo Carrillo, 
investigative counsel; S. Elizabeth Clay and Nicole Petrosino, 
professional staff members; Marc Chretien, senior investigative 
counsel; Gil Macklin, professional staff member/investigator; 
Robert A. Briggs, chief clerk; Robin Butler, office manager; 
Michael Canty and Toni Lightle, legislative assistants; Josie 
Duckett, deputy communications director; Leneal Scott, computer 
systems manager; John Sare, deputy chief clerk; Corinne 
Zaccagnini, systems administrator; Phil Schiliro, minority 
staff director; Kristin Amerling, minority deputy chief 
counsel; Michael Yeager, minority senior oversight counsel; 
Ellen Rayner, minority chief clerk; and Jean Gosa and Earley 
Green, minority assistant clerks.
    Mr. Burton. OK. Is everybody in? Good morning. A quorum 
being present, the Committee on Government Reform will come to 
order. And you're welcome to turn your cameras back on now if 
you would like. We're continuing our hearing from yesterday on 
the DEA Rap-A-Lot investigation. First we'll be recalling our 
two panels from yesterday, and then we'll hear testimony from 
DEA Administrator Donnie Marshall.
    Yesterday--I'm not going to make an opening statement. My 
colleague Mr. Waxman can if he likes. I'd like to get to the 
questioning as quickly as possible. But yesterday we heard 
answers from the Houston PD and Mr. Schumacher, who was in 
charge of the investigation, as well as Mr. Stephens and the 
other gentlemen from the Houston PD. And then we heard from Mr. 
Howard. And there were--appeared to be some inconsistencies. 
And so today what we want to do is get all that cleared up as 
much as possible, and that's the purpose of bringing the two 
panels back and then of course we'll get into Mr. Marshall and 
ask him questions about his role in this whole thing.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. I am pleased we're 
going to have the two panels back again to see if we can 
reconcile apparent inconsistencies. But I just want to point 
out that sometimes people have different understandings of what 
might have been said in a conversation. It's not unusual. And I 
know Mr. LaTourette, as an experienced lawyer, knows that 
people can be very sincere and feel they're telling the truth 
but they have different recollections of the same conversation.
    A good example of that from our committee is when we had 
the Bruce Babbitt hearing and we had Bruce Babbitt talking 
about a conversation he had with a man by the name of Eckstein 
and they had different versions of the conversation. Now 
because people have different versions of the conversation 
doesn't mean one is lying and the other is telling the truth. 
And I mention that situation because when this committee looked 
at the issue the majority of the committee felt that Mr. 
Babbitt was not being truthful, and that ended up becoming the 
basis for an independent counsel's review of the whole thing, 
which went on and on and on, spent a lot of taxpayers' dollars. 
And the end result was that the independent counsel decided 
that there was no offense, that nobody had done anything wrong. 
The issue that was before the independent counsel was 
exclusively whether Mr. Babbitt had committed perjury.
    I say this because it's really troubling to us on the 
minority side if witnesses say something and if Members don't 
like what they say because it's not consistent with what they 
think might have happened, to think that maybe they're telling 
us a lie and in fact committing perjury, because that's such a 
serious matter. I don't think it ought to be frivolously ever--
anybody ever ought to be accused of that. I know this 
committee--sometimes members of the committee think that maybe 
someone is committing perjury, but I just want to point out 
that inconsistencies don't mean that.
    We want to work together, Mr. Chairman, my colleagues, and 
I'm not addressing this to C-SPAN because this is not a C-SPAN 
audience. I am really addressing this to my Republican 
colleagues. We on the minority side do want to work together in 
this new Congress and it's already in my mind starting in, 
because the election is over, in a nonconfrontational way as 
best we can to minimize what partisanship that we've seen. I 
would--I think we have legitimate questions to explore. But I'm 
trying to portray to you so you will understand that sometimes 
we on this side of the aisle get really infuriated if we think 
that people are being accused of lying because what they have 
to say doesn't fit in with some preconceived notion of what the 
truth may be.
    So having said that, Mr. Chairman, I think you've done the 
right thing in bringing these two panels together back. Let's 
question them again, see if we can--sometimes inconsistencies 
can be reconciled and if they can, they can, and if they can't, 
they can't. But let's dig a little bit more. And if there are 
different versions it's doesn't mean one is telling the truth 
and the other is not telling the truth. Sometimes it may just 
be different versions as people understand it.
    So I am looking forward to the testimony, and I want to 
thank you for letting me express myself.
    Mr. Burton. Just for the record though, the independent 
counsel did conclude that Mr. Babbitt misled the committee. He 
decided not to prosecute but they did conclude that he was not 
truthful when he testified. And of course that's one of the 
concerns we have. Because you and I, all of us, want to make 
sure we get the facts so that we can make decisions that are 
accurate and direct. If necessary, and I think I said that to 
Mr. Howard and others yesterday, if necessary, if we find that 
there has been deliberate misrepresentations to the committee, 
then we have no alternative but to pursue that.
    Mr. Waxman. Could you let me say, I disagree with your 
conclusion as to what the independent counsel said about Mr. 
Babbitt because that's neither here nor there. But if someone 
has a version of what they think happened, it doesn't mean 
they're lying if that version doesn't fit in with a theory that 
you may think really happened or I may think really happened. 
Every time someone says a different statement doesn't mean 
they're lying and it certainly doesn't mean it's perjury, 
because that's a very serious criminal matter. Thank you.
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. LaTourette.
    Mr. LaTourette. If I can just briefly, Mr. Chairman, I want 
to agree with Mr. Waxman. We used to have an expression in my 
practice, if five people could see the same car collision and 
come up with five different versions of how that collision 
occurred, that doesn't mean that any one of them was not 
relating their perceptions appropriately. I do want to make the 
comment, yesterday I think Mr. Horn mentioned in our hearing 
yesterday in terms of getting along and trying to lower some of 
the rhetoric of the last or the waning days of this Congress. 
We had a meeting on our side where we specifically indicated we 
weren't going to mention the Vice President's appearance down 
in Houston and we weren't going to mention the Member of 
Congress who sent the letter. It wasn't until those comments 
became apparent in questioning by the minority that went into 
the record. And I think beyond truth telling or anything else, 
yesterday's hearing is personally disturbing to me because the 
unintended consequence--I don't care who's telling the truth or 
not or is relating a different remembrance, the unintended 
consequence of a complaint, an unfounded and unjustified 
complaint in the end of racial profiling by a group of officers 
who testified--they're back here today with over 150 years of 
experience in law enforcement, unblemished service--was the 
pulling of those officers from an investigation that started in 
1992 with the seizure of about $1 million of cocaine off the 
streets of Houston and investigation that's had 20 indictments 
and arrests and convictions, the beating of confidential 
informants, murders and drug trafficking to the young people of 
Houston.
    So I'm not really interested in, you know, somebody wants 
to give their version of the truth. I'm very concerned, 
however, that we find ourselves in this position with this set 
of facts. I thank you.
    Mr. Burton. Any other comments? Mr. Cummings.
    Mr. Cummings. Mr. Chairman, first I wasn't going to have an 
opening statement, but the more I've heard from Mr. Waxman, Mr. 
LaTourette, I must say this: That I agree with Mr. Waxman, Mr. 
Chairman. One of the reasons, I had a lot of things I had to do 
yesterday, but I stayed here for this entire hearing and I 
wanted to make sure that I was back here today. Because one of 
the things that I've discovered is that a lot of times I feel 
the witnesses that come before this committee--I don't know 
whether they are unaware of it before they get here, but I get 
the distinct feeling that some of them are placed in a position 
of serious jeopardy of being referred for some type of criminal 
investigation. And as a lawyer I know what that means. I 
understand the significance of it. I understand what it means 
to have to hire an attorney. Even if you--I know what it's like 
too because I have represented so many people who have their 
reputations tarnished. And that's why I try to be very careful 
and reiterate to our witnesses to be careful in what they say.
    I think that I agree with Mr. LaTourette that we are 
hopefully here for the truth and trying to get to some matters, 
because this is the Government Reform Committee. And sometimes, 
to be frank, with us over the 4\1/2\ years that I've been on 
this committee I really don't know how much reforming we've 
done, but I do believe that it is important that we get 
testimony and that testimony be truthful.
    But going back to Mr. Waxman, as we went through the 
hearing yesterday I could see where the differences could arise 
in how one person may have interpreted things and another may 
have interpreted them differently. And I understand now that we 
are going to--I think this is probably good, Mr. Chairman, that 
we are having the witnesses back. Because I don't want one 
single person to be unfairly and unjustifiably tarnished when 
they are doing the public's work, trying to protect the public, 
and then to come here and to have to undergo scrutiny that 
could lead to investigations and whatever. You know, if 
something is warranted, that's one thing, but if it's not, 
that's a whole another thing.
    So I am looking forward to this new term when hopefully the 
rhetoric will be toned down, that we will get to the business 
of government reform and making this government the very best 
it can be. And I yield to Mr. Waxman.
    Mr. Waxman. Thank you for yielding. I want to address this 
to Mr. LaTourette because I think we're now talking to each 
other for the future. One of the things that we were told on 
this side of the aisle is that this committee would investigate 
the Clinton administration, the Democratic Party, and the 
campaign finance issue, but if it ever came to a Member of 
Congress we wouldn't be going into hearings on a Member of 
Congress. If I had thought any of our colleagues had done 
anything wrong, we would send it to the Ethics Committee.
    Now, this hearing had to involve the accusation by Vice 
President Gore because that was already in the press. It also 
had to involve the fact that our colleague Maxine Waters had 
registered a concern about racial profiling. And she has strong 
feelings about it. And she raised the concern and it was enough 
of a concern to have it investigated, and then it turned out 
after that investigation that it was found that there was no 
racial profiling involved. But if the issue of in hearing is 
whether she acted improperly in asking for that investigation, 
well, that's a very strange notion to me. And it also is 
selectively deciding we'll investigate some Members of Congress 
but not others. From our point of view we see a Democrat being 
singled out when the Republican we had raised over and over 
again the last year we thought had been involved in some of 
these things was not even a subject for our consideration.
    I don't say that really for debate. I say that really to 
express the way we're looking at things from their side of the 
aisle.
    Mr. LaTourette. Could I ask Mr. Cummings to yield to me on 
that point? I didn't take yesterday's hearing to be an 
investigation into Congresswoman Waters' activities. I think 
what I said I find troubling is that in response to that letter 
the Federal agency has taken experienced officers, brought a 
case to a stop, whether it's officially closed, partially 
closed, kind of closed. That's what's disturbing to me, not her 
activities.
    I think I used the word ``unintended consequence.'' I don't 
think she would have wanted such a thing to occur. She wanted 
her complaint investigated but I don't think she wanted an 
investigation into a drug dealership done. So I didn't consider 
yesterday's hearing to focus on her activities but more on the 
activities that the agency undertook once they received their 
complaint.
    Mr. Cummings. Yes.
    Mr. Waxman. I thank you very much for that clarification. I 
think it's a good one. There are other unintended consequences. 
For example, Secretary Babbitt had to go through the turmoil of 
an independent counsel investigating him, hiring lawyers, 
others had to go through the same thing. They're eventually 
cleared. And sometimes they're cleared because there wasn't 
enough evidence to do anything even though they might have done 
something wrong, and sometimes they're cleared because they 
never did anything wrong.
    Again I started with if one of our witnesses tells us a 
version of his understanding of what happened, to tell him he's 
got to then possibly face perjury charges is to again repeat 
the same process again because he's going to have to go out and 
fight a legal fight.
    In my mind there's no question that he didn't do anything 
illegal or even, quite frankly, anything wrong unless he's in 
fact misleading the committee. But if he just had a different 
version, that is not perjury, that is not falsehood. It's just 
the way things are. But thank you.
    Mr. Chairman, I want to express my appreciation for your 
tolerance for those of us on this side to express our feelings 
because it has been a sore subject with us, among others, for 
this last couple years. And perhaps if you're listening to us 
and I see that you are, maybe we won't run into these problems 
again.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Waxman. Mr. Cummings, Mr. 
LaTourette, any more questions? If not, we'll start our 
questioning of witnesses now. We'll be under the 5-minute rule 
for this panel and the next panel. Let me start off by saying 
to the officers that are here today, or asked this question, in 
addition to the four officers that are here today, the three 
from the Houston Police Department and the agency, were there 
other officers present at the September 1999 meeting with Mr. 
Howard?
    Mr. Stephens. Yes, sir, there were.
    Mr. Burton. Can you give us a number of how many were 
there?
    Mr. Stephens. At least 9 or 10, maybe 12 or 13.
    Mr. Burton. To your knowledge would they all agree with 
your statements concerning the shutdown of the case by Mr. 
Howard?
    Mr. Stephens. Yes, I believe they would.
    Mr. Burton. At this September 1999 meeting Mr. Howard said 
he never told the group the investigation was closed. He 
testified that he told the group that proactive steps could 
only be taken if they were approved by the associate special 
agent in charge. Do you agree with that?
    Mr. Stephens. No, sir, I don't.
    Mr. Chaison. No, sir, I don't.
    Mr. Allen. No, sir, I do not.
    Mr. Schumacher. No, sir, I don't.
    Mr. Burton. Did he suggest at any time that new leads could 
be followed?
    Mr. Schumacher. I don't recall him saying that, sir.
    Mr. Stephens. No, sir.
    Mr. Chaison. No, sir.
    Mr. Allen. No, he did not.
    Mr. Burton. Did Mr. Howard sound receptive at this meeting 
for any new leads to be followed or did he give you a sense of 
finality? Did he say this is the end of it, this is it?
    Mr. Schumacher. I perceived it as a sense of finality, sir.
    Mr. Stephens. The same.
    Mr. Chaison. I understood it to be over.
    Mr. Allen. The end.
    Mr. Burton. Do you take issue with anything else that you 
heard about that meeting yesterday? Can you go into any details 
about the meeting that you think you have a differing opinion 
of what happened?
    Mr. Schumacher. I don't recall ever hearing the word 
``proactive,'' Mr. Howard using that word.
    Mr. Burton. So what he said, he looked at his watch and 
said as of this time and date this is it, it's over. You all 
agree with that?
    Mr. Schumacher. Yes.
    Mr. Stephens. Yes.
    Mr. Burton. There was no indication that there would be any 
other avenues followed to go after anybody in this case?
    Mr. Allen. That's correct.
    Mr. Chaison. That's correct.
    Mr. Burton. Following your testimony on this matter 
yesterday, Mr. Schumacher, did you listen to the testimony 
given on panel two which featured Mr. Howard and Deputy 
Administrator Mercado and Mr. Campbell.
    Mr. Schumacher. Some of it, yes, sir.
    Mr. Burton. Yesterday--and I think you all listened to it 
as I recall, is that correct?
    Mr. Allen. That's correct.
    Mr. Chaison. That's correct.
    Mr. Burton. Yesterday you testified there was no new 
investigative activity concerning Rap-A-Lot after September 
1999. However, Mr. Howard stated there were arrests made in 
this case in December. Are you familiar with those arrests?
    Mr. Schumacher. I now am, yes, sir.
    Mr. Burton. I believe it involved Cedric Rogers and 
McCarter on a crime committee in November 1998 with all the 
work in the case done prior to the letter that we heard before 
that was sent on August 20th by the Congresslady.
    Mr. Schumacher. Probably for the most part what happened to 
McCarter and Cedric Rogers in December 1999 is that they were 
finally federally indicted for offenses they committed in 
November 1998.
    Mr. Burton. So as far as--so as far as you know, no other 
persons were arrested or indicted or convicted in this case 
after that time other than those who had already been indicted 
or convicted?
    Mr. Schumacher. There was some individuals--yes, sir. But 
there were some other individuals that I later learned were 
arrested that on a separate file had been opened but at some 
time somehow it was covered under the Rap-A-Lot OCDETF 
umbrella. But to my knowledge they had no direct links to Rap-
A-Lot.
    Mr. Burton. Is that what you gentlemen understand as well?
    Mr. Allen. That's correct.
    Mr. Chaison. That's correct.
    Mr. Stephens. We did no more Rap-A-Lot investigation 
following September 1999.
    Mr. Burton. Were there any other arrests or indictments--
well, I already asked that question. I guess Mr. Singleton was 
arrested but you said that was a separate case not immediately 
related to the Rap-A-Lot case, correct?
    Mr. Schumacher. Yes, sir.
    Mr. Burton. Do you still contend that no investigative work 
was done on this case after September 1999? I want to make that 
clear.
    Mr. Schumacher. No active investigation that I'm aware of.
    Mr. Stephens. Only judicial going to court testifying, but 
no active investigation.
    Mr. Burton. Is that the same with you gentlemen?
    Mr. Allen. No active investigation.
    Mr. Chaison. That's correct.
    Mr. Burton. Would you have been aware if any investigative 
work were being done?
    Mr. Schumacher. I think so.
    Mr. Stephens. I think so.
    Mr. Chaison. Yes.
    Mr. Allen. Yes.
    Mr. Burton. Now, the Houston police were removed from the 
task force. This is--oh, my time has expired. Mr. Waxman, do 
you have questions at this time? Mr. Waxman, we'll yield to 
you. Then we'll go down the line here.
    Mr. Waxman. Mr. Howard testified yesterday that prior to 
temporarily pulling off Houston police officers and DEA agents 
from proactive investigation he had learned from Mr. Schumacher 
that the Houston Police Department wanted to put back its 
officers for regular assignment. That's what he told us. And we 
received an unsolicited letter last night from James Nims, who 
is Mr. Schumacher's supervisor. And his letter says the same 
things. He writes,

    I can honestly say, however, that when Mr. Howard came to 
address the group, the HPD members had already physically 
relocated back to their own headquarters. We were still working 
together, however, at this time. It was mainly regarding 
judicial proceedings. And I know that Sergeant Stephens had 
been under pressure for some time for him and his squad to 
return to HPD headquarters as his captain wanted them back 
there. I am quite sure of this; however, I have checked with 
two other members of Group 4 who corroborate this time line. At 
no time was it my understanding that Mr. Howard pressured nor 
implied the HPD squad to leave or terminate this investigation.

    Now, I would ask unanimous consent that this letter be 
entered into the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4430.163
    
    [GRAPHIC] [TIFF OMITTED] T4430.164
    
    Mr. Waxman. Mr. Schumacher, do you recall telling Mr. 
Howard about the Houston Police Department's interest in 
pulling its officers back for regular duty?
    Mr. Schumacher. No, sir.
    Mr. Waxman. Do you think Mr. Howard is lying when he says 
that he recalls that the Houston Police Department wanted to 
pull its officers back for regular duty?
    Mr. Schumacher. Sir, I think he may be referring to some 
information he was privy to and I wasn't. OK. I remember--and 
Sergeant Stephens can better address more accurately the 
details concerning his conversations with his superior at HPD. 
But it was never about--it was about relocation physical, but 
it was always HPD always wanted to make sure that Bill and his 
team were being productive. That's what I recall.
    Mr. Waxman. Sergeant Stephens, you were the senior Houston 
police working on the task force. Have you ever heard directly 
or indirectly that your captain or anyone else in the Houston 
Police Department had discussed pulling you back to the Houston 
Police Department prior to the meeting with Mr. Howard in late 
August or September 1999.
    Mr. Stephens. On moving our offices, yes. On terminating 
the investigation or anything to do with the criminal aspect of 
the case, how my UC is working it informants wise, no. Our 
actual logistical location of being at DEA was a temporary 
thing and I wanted us to office back at HPD. That's what 
happened. And I believe we went back, actually moved our 
offices back to our main headquarters in Houston prior to 
September. But I'm not positive on that, but I think it was 
prior to that meeting in September.
    Mr. Waxman. Mr. Howard has testified that he closed down 
the proactive portion of the investigation pending completion 
of the Office of Professional Responsibility investigation and 
would only allow it to proceed if he or one of his associate 
special agents in charge gave permission for it to proceed. Mr. 
Nims, Mr. Nims has that same recollection. Mr. Schumacher, did 
you ever ask Mr. Howard or one of his associate special agents 
in charge for permission to conduct any proactive 
investigation?
    Mr. Schumacher. No, sir.
    Mr. Waxman. Are you aware of anyone else asking for such 
permission?
    Mr. Schumacher. I don't recall--no, sir. And I never recall 
that statement being made.
    Mr. Waxman. It may not have been made to you then.
    Mr. Schumacher. I'm sorry, I didn't hear you, sir.
    Mr. Waxman. It may not have been made to you. Mr. Nims 
seems to corroborate what Mr. Howard said yesterday.
    That's all I have to ask, Mr. Chairman, and yield back the 
balance of my time.
    Mr. Burton. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you 
for continuing this important review of what occurred at 
Houston. I'd like to address my question to the Houston 
officers. Did you know you have been recalled from the joint 
task force, as Mr. Howard stated yesterday, because your chief 
wanted you to come back? Were you informed of that?
    Mr. Allen. That was never provided for us. We were told 
that we were going back to our home location.
    Mr. Gilman. But no explanation.
    Mr. Allen. No.
    Mr. Burton. Would the gentleman yield? But when you went 
back, you relocated, as I understand it, they did not say you 
were going to be taken off this case in any way. I mean, the 
continuing of the case was going on. I mean you weren't going 
to terminate that until you heard from Mr. Howard?
    Mr. Allen. That's correct.
    Mr. Chaison. That's correct. Our--as I remember, our going 
back to our office was logistical purposes. We had just 
received a new captain. Our old captain was gone to another 
division. And being a new captain that he wanted all his people 
in his office, which is understandable. And I remember our 
concern was that we would have to go to our office and report 
and then go to the DEA office, and we just thought it wasn't 
feasible because of the traffic problem that we would incur 
because of where the DEA administration office is based.
    But as far as the investigation, that was never terminated. 
It was obvious that we did not want to relocate, the DEA had 
put us up in their building, we were assigned phones, cubicles 
to work, and it was more of an inconvenience for us to go back 
and forth. Again, the investigation was never terminated. That 
was never a factor in that.
    Mr. Gilman. Thank you, Mr. Chairman. Did you know you had 
been recalled from the joint task force for any reason at all?
    Mr. Allen. Could you repeat that, please?
    Mr. Gilman. When you were withdrawn from the task force, 
did anyone state any reason to you why you had been withdrawn 
from the task force?
    Mr. Chaison. No, sir. The only time that we knew that we 
were--we actually were never taken from the task force. The 
investigation was halted.
    Mr. Gilman. Well, when you returned to your police 
department, were you told you were no longer needed for the 
task force?
    Mr. Chaison. No. I don't remember that, no, sir.
    Mr. Allen. We were told that we weren't going to be 
investigating the Rap-A-Lot.
    Mr. Gilman. Mr. Howard indicated there weren't many leads 
to follow, just the need to wait and see if some indicted 
individual might cooperate. Was that where you left the case? 
Was that your understanding where the case was at when you 
left?
    Mr. Allen. No, we were still doing the investigations. 
Again, like I said yesterday, we had a couple of informants 
that were out there still beating the bushes. So it was still 
ongoing.
    Mr. Gilman. Were you following up those leads then when you 
were withdrawn from the task force and asked to return to your 
headquarters?
    Mr. Allen. No. Mr. Howard--it was stopped. It was stopped.
    Mr. Gilman. When did he tell you to stop?
    Mr. Allen. In the meeting that we all were discussing.
    Mr. Gilman. What meeting was that?
    Mr. Allen. On----
    Mr. Gilman. September?
    Mr. Allen. Yes.
    Mr. Gilman. Where did that meeting take place?
    Mr. Allen. In the DEA building.
    Mr. Gilman. What did Mr. Howard tell you?
    Mr. Allen. Basically that the investigation was going to 
stop. And, again, we were all sitting around talking and kind 
of inquiring why. That's when the times that was given as of 
this time there will be no more investigation.
    Mr. Gilman. Did you ask why and what was the response?
    Mr. Allen. Well, basically, myself and my partner, that's 
not our jurisdiction. We're just officers. It's up to the 
supervisor to discuss that.
    Mr. Gilman. Were you asked why it was stopped?
    Mr. Allen. Among ourselves we were asking each other, yes.
    Mr. Gilman. Did you get any response?
    Mr. Allen. We didn't know. Again, it comes from--that type 
of answer would probably come from our supervisor, our 
immediate supervisor, Mr. Stephens.
    Mr. Gilman. Did the supervisor inform you why it was 
stopped?
    Mr. Chaison. Let me say this: During that particular 
meeting in September, let me try and paint you a picture. If 
you're all sitting in chambers here, and your boss, the head 
boss comes in and say you're no longer going to investigate 
this complaint that we're doing today, then you start to murmur 
between one another like what happened, what brought this 
about? This is the type of discussion. That brought the time 
check. Because I felt at that point that Mr. Howard did not 
want to entertain any questions concerning what caused him to 
close the----
    Mr. Gilman. Was Mr. Howard present at that meeting?
    Mr. Chaison. Yes, he was.
    Mr. Gilman. Who was your head boss at that time?
    Mr. Chaison. Sergeant Stephens is my boss.
    Mr. Gilman. He didn't make any explanation, is that 
correct?
    Mr. Chaison. Again someone inquired and that brought about 
the time check to see that no more questions. Once that was 
made, I mean it was just understood if I told you I'm not going 
to ask any more questions as of this date and time and I walk 
out that door, that's it. It's finished. And that's how it was.
    Mr. Gilman. So neither Mr. Stephens nor Mr. Howard told you 
why the investigation was stopped at that point in September 
1999, is that right?
    Mr. Chaison. Mr. Howard stated that for political reasons 
this case was being closed and the time checks signified I 
don't want to hear anything else.
    Mr. Gilman. Mr. Howard said for political reasons this case 
was being closed?
    Mr. Chaison. That's correct.
    Mr. Burton. Mr. Gilman, your time has expired.
    Mr. Gilman. Could I have one more question, Mr. Chairman?
    Mr. Burton. Yes. Go ahead.
    Mr. Gilman. Mr. Schumacher, it's alleged that your March 
transfer to a desk job was for your benefit and security. Were 
you ever told that's why DEA leadership wanted you moved?
    Mr. Schumacher. No, sir.
    Mr. Gilman. Why do you believe you were transferred then?
    Mr. Schumacher. I believe personally that DEA headquarters 
succumbed to political pressure and notified the front office 
management, DEA Houston, to have me taken as far away from the 
Rap-A-Lot investigation as humanly possible.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Cummings.
    Mr. Cummings. Mr. Schumacher, yesterday the----
    Mr. Burton. Excuse me just 1 second. We have in the past 
allowed Members who are not on the committee to participate by 
unanimous consent. And today we have a Member of the minority, 
Ms. Sheila Jackson-Lee, who would like to ask some questions. 
So without objection we will allow that to take place. Thank 
you.
    Mr. Cummings. Yesterday Mr. Howard said that he selected 
you for this job and he felt very confident about you and he 
seemed to have a tremendous amount of respect for you. And then 
you heard--I think you were in the room most of his testimony I 
think, yesterday, and I guess we're still back to this 
difference of what was--what his interpretation was and what 
all your interpretation was. And I'm saying this to all of you. 
It seemed like I got the impression that all of you are very 
concerned about making sure that we address this drug problem 
in Houston. And anywhere else. But the question still remains, 
I mean you all said yesterday Mr. Howard is an honorable 
person. And you really believe in him. And I'm just wondering 
what do you think accounts for this difference? I think you 
just said that you think there was some politics, but you also 
said he was an honorable man. And we're in a situation where it 
appears that somebody may have a different recollection or is 
not being truthful with us. So the question is, is how do you--
what do you think the difference is here? I mean, is there room 
for misinterpretation, do you think? Do you understand my 
question?
    Mr. Schumacher. I'll try, Mr. Cummings. And I am sure it's 
quite obvious to yourself and to other members of this panel 
this is rather agonizing and tough on all of us here.
    Mr. Cummings. I can imagine.
    Mr. Schumacher. As I've expressed to Mr. Howard, not many 
weeks ago, I thanked him for his support privately, publicly, 
inside and out of DEA. And I do respect him and do believe that 
he delivered a message he was told to deliver. He didn't like 
it, he was uncomfortable with it. And I told him when we talked 
that there would never ever be any bad blood between he and I. 
But it was going to be a long time before I could forgive DEA 
headquarters for what they did. And it's tough on all of us. 
Because I believe everybody here carrying a badge and the ID 
really wants to do the right thing.
    Mr. Cummings. What about you, Mr. Stephens?
    Mr. Stephens. I think everybody wants to do the right 
thing. Like I said yesterday, he was our biggest supporter up 
to September. But after September he told us to stop. And I 
don't remember anything about proactive, I don't remember 
anything about a chain. I just remember stop. And prior to that 
we didn't have a bigger fan or a bigger supporter. That's why 
it surprised us so much.
    Mr. Cummings. Mr. Chaison.
    Mr. Chaison. Again I will just reiterate the sentiment of 
Mr. Schumacher and my sergeant. Mr. Howard was very supportive. 
And I think he wants to be supportive today. I can't get into 
his mind and tell you what's going through his head or why he's 
taking a stance that he's taken. My integrity has been 
questioned. I have children. I teach Sunday school, Bible 
study, I have people that look up to me as well. I'm sitting 
here today to convey to you that the truth is the truth. And 
that's the bottom line.
    Mr. Cummings. Mr. Allen, I'm going to have to come back to 
you but--I'm running out of time but I got to ask Mr. Stephens 
this question: One of the things--and I'm trying to find things 
that are consistent, OK. One of the things that Mr. Howard said 
yesterday was something about that there were two cases. Do you 
remember that? He talked about that there were two cases, two 
defendants that needed to turn? You remember that?
    Mr. Stephens. Yes, sir.
    Mr. Cummings. Then there was testimony a few minutes ago 
that McCarter and Rogers were apparently indicted. Is that in 
December? I mean that's what you all learned?
    Mr. Stephens. From what Jack said and I'll have to go off 
of him for the date, McCarter and--Cedric Rogers was the 
Houston police officer indicted for civil rights violation. 
That came up in the Rap-A-Lot investigation. And McCarter was 
indicted with him.
    Mr. Cummings. With your indulgence, Mr. Chairman, maybe Mr. 
Schumacher, do you know--I don't know who would be better to 
answer this question--do you remember any discussions with Mr. 
Howard going back to what he said now, that they were waiting, 
that it was his understanding that you all were waiting for 
somebody to possibly turn of two people? And I'm assuming--I'm 
assuming that he's talking about these same two people--I may 
be wrong, I don't know, but it's just interesting that we had 
two people that were indicted allegedly in December 1999. I'm 
just wondering did you ever have any discussions with him or 
any of you saying something to the effect that you know, we 
need to see what happens in these cases and if these guys turn, 
then we have some things that we can accomplish with regard to 
possibly pulling in other people to be arrested and indicted 
and arrested? Do you remember that?
    Mr. Schumacher. Mr. Cummings, Steven McCarter was first 
arrested along with Everett Russell, along with two others, 
Ballard and Bradley, by the team here January 7, 1999. McCarter 
was subsequently, as the others, indicted federally for that 
offense. In December 1999 McCarter was again indicted on a 
separate charge of conspiring with Houston police officer 
Cedric Rogers, acting under cover of law, civil rights 
violation, to steal drugs and drug money from drug traffickers. 
That was two separate indictments.
    Reference your question about comments to Mr. Howard, I had 
numerous, many conversations with Mr. Howard because he was 
constantly asking us about the progress of the case. And 
numerous times I told him we really need McCarter to roll over 
because McCarter is close and based on the support that Prince 
had demonstrated inside and outside the courtroom for McCarter, 
we believed, the team believed, that Prince had a lot of 
exposure behind McCarter. And what also reinforced that theory 
to us was back in 1988, when Anthony Price went down with 76 
kilos of cocaine and he was driving a vehicle that was licensed 
under Mr. Smith's auto sales at that time, Prince was going by 
the name of Smith then, that then Prince had demonstrated the 
willingness to really support those that take a fall for him 
both financially and otherwise. But at no time did I ever say 
that unless McCarter or Russell roll over the case is dead.
    Mr. Burton. The gentleman's time has expired.
    Mr. Cummings. Thank you. I would hope at some point--it 
looks like Mr. Stephens wanted to answer that but maybe it will 
come up later.
    Mr. Burton. Would you care to elaborate real quickly, Mr. 
Stephens?
    Mr. Stephens. Real quickly, I was present for discussions 
about McCarter. We do feel like he held a key to the case, not 
the only one. But the only way we could continue investigating 
him and possibly our having leverage on him in it was to keep 
working like we were prior to September.
    Mr. Cummings. Mr. Chairman, thank you for your indulgence.
    Mr. Burton. You're welcome.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. Some of this will be 
repetitive but we're trying to get at it from various points of 
view. This is for Mr. Schumacher. Did you recall that Special 
Agent in Charge Howard saying yesterday that he was told that 
there were just two key people to get in order to make a case 
against Prince?
    Mr. Schumacher. Yes, sir.
    Mr. Horn. So that two people and no more is what you 
needed, is that it?
    Mr. Schumacher. Are you asking me what I believe or what I 
heard yesterday?
    Mr. Horn. Saying yesterday that he was told, yeah, that 
there was just two key people to get in order to make a case 
against Prince. And you're saying yes, that you could make the 
case on those two or were there other people? And was Mr. 
Howard knowledgeable of that or wasn't he?
    Mr. Schumacher. I believe Mr. Howard was talking about 
McCarter and Russell. And I would call it--style it as Sergeant 
Stephens did. They were a means, not the only means of pursuing 
or going forward with this investigation.
    Mr. Horn. In your talk with Mr. Howard you didn't say it's 
just two, or did you?
    Mr. Schumacher. I don't recall ever saying that unless 
McCarter rolls over this case is dead. No, sir. I don't recall 
ever using those words or something to that effect.
    Mr. Horn. What else occurred in that conversation? What 
else occurred in that conversation besides those two witnesses 
that he's talking about? Was there anything else in that 
particular conversation?
    Mr. Schumacher. Mr. Horn, myself and SAC Howard had 
numerous conversations concerning ongoing enforcement 
activities, projected enforcement activities recommended to 
this case. So for me to sit here and articulate the actual 
words and details, I'm sorry, that's beyond my capacity.
    Mr. Horn. During that conversation were there others 
present when you told him that and could there be anybody with 
you today that was standing there when you and Mr. Howard were 
talking about this? Was there anybody around?
    Mr. Schumacher. Mr. Howard and I spoke numerous times, 
sometimes Sergeant Stephens was there, sometimes other agents 
were there. I mean we spoke weekly.
    Mr. Horn. Were they always personally or were they over the 
phones or what?
    Mr. Schumacher. Speaking with Mr. Howard?
    Mr. Horn. Yeah.
    Mr. Schumacher. Usually he would come down from the 6th 
floor to the 4th floor where the enforcement groups are, and 
walk down and we would chat.
    Mr. Horn. Well, I think we've had this from various angles. 
And I want to now go with the visit of Vice President Gore and 
Gore's meeting with Prince. That was on March 12, 2000. And for 
all of the Houston police officers, we'd be curious, were you 
aware that Vice President Al Gore visited Houston in March of 
that year?
    Mr. Stephens. Yes, I am.
    Mr. Horn. Yes.
    Mr. Chaison. Yes.
    Mr. Allen. Yes.
    Mr. Horn. All of you have. You mentioned to the committee 
staff you heard that when the Vice President was in Houston he 
traveled to the, ``Church Without Walls,'' a church which had 
received large sums of money from the head of the Rap-A-Lot 
organization. Is that accurate?
    Mr. Allen. Yes.
    Mr. Chaison. That's correct.
    Mr. Stephens. Yes.
    Mr. Horn. All three of you are saying that. You also 
mention that you heard that the Vice President had a private 
meeting with the minister of the church and the head of Rap-A-
Lot. Is that correct?
    Mr. Stephens. I heard that he was present in the church, 
yes, at the time that Mr. Gore was there.
    Mr. Horn. Was that from Houston police officers or----
    Mr. Stephens. Yes.
    Mr. Horn [continuing]. The papers or what?
    Mr. Stephens. Recently it was a Houston police officer 
assigned to security detail there.
    Mr. Horn. Two or 3 days after the Vice President's visit, 
Agent Schumacher was transferred from a law enforcement 
position to a desk job. Did you consider this move of Agent 
Schumacher to be the final nail in the coffin of the Rap-A-Lot 
investigation?
    Mr. Stephens. The final nail? We had been shut down in 
September. It was very curious to me, personally, that it came 
so shortly after Mr. Gore visited the church, but I have no 
substantial facts to back up that there was any influence. It's 
just because of the timing was very curious.
    Mr. Horn. Mr. Schumacher, did you discuss the Rap-A-Lot 
investigation with Mr. Howard during the March 2000 time 
period?
    Mr. Schumacher. I think Mr. Howard and I talked briefly 
about the fact that Vice President Gore had visited Mr. 
Prince's church and anything we would have talked about 
probably had to do with the visit there to the church.
    Mr. Horn. Did Mr. Howard communicate to you or others that 
he was shutting down the investigation at this point? We're now 
talking about the March 2000 time period.
    Mr. Schumacher. No, sir.
    Mr. Horn. Did he communicate to you and others that he was 
shutting down the investigation at this point?
    Mr. Schumacher. Are you talking about March?
    Mr. Horn. March, yeah.
    Mr. Schumacher. No, sir.
    Mr. Horn. Was there any investigative activity at this time 
to shut down?
    Mr. Schumacher. Not to my knowledge.
    Mr. Horn. Were you aware that Ernie Howard briefed 
committee staff on this case on July 17, 2000.
    Mr. Schumacher. I was subsequently told that, yes, sir.
    Mr. Horn. Did Mr. Howard tell you anything about his July 
17, 2000 briefing to this committee?
    Mr. Schumacher. No, sir.
    Mr. Burton. The gentleman's time has expired. We have our 
guest with us now, Ms. Sheila Jackson-Lee. Do you have some 
questions you would like to ask?
    Ms. Jackson Lee. Mr. Chairman, if there is another round I 
would like to wait for a moment.
    Mr. Burton. That's fine.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Schumacher, we 
learned yesterday from Mr. Howard that he received or there was 
a discussion between he and Mr. Gamble that perhaps while the 
OPR investigation was going on it was not appropriate for you 
to be a GS. That's a group supervisor in enforcement division 
four. Is that what GS is?
    Mr. Schumacher. Yes, sir.
    Mr. LaTourette. You were transferred from that, as Mr. Horn 
just indicated, on or about March 14 or 15, 2000. When were you 
made the group supervisor of that organization?
    Mr. Schumacher. I was designated as an acting group 
supervisor, as I have been in the past several times, but for 
that particular timeframe around January 5th, maybe, 2000.
    Mr. LaTourette. So just so we have our chronologies 
correct, there's this meeting in September where we have some 
disputed testimony or testimony that doesn't fit that this 
investigation is going to be closed down, the Houston officers 
go back to their postings in January, you're elevated to acting 
group supervisor. And during that entire time the OPR 
investigation is going on it was apparently open on August 20, 
1999, and it was still pending apparently in March 2000. So it 
took about 14 months, is that right?
    Mr. Schumacher. That's my understanding, yes, sir.
    Mr. LaTourette. So you served as the acting group 
supervisor from January to March 15th without any difficulty; I 
mean nobody said this isn't appropriate because of the OPR 
until March 15th? Is that a fair statement of where we were 
then?
    Mr. Schumacher. Yes, sir, it is.
    Mr. LaTourette. Let me ask all of you, I would assume an 
investigation of this sort you need to use confidential 
informants, snitches, people who provide information to you, 
some of those people do it for patriotic reasons, some people 
do it for money, some people do it to get out of mischief. But 
somebody made the observation yesterday that when the 
investigation was effectively stopped, that all of the people 
that had served as confidential informants were sort of left 
twisting and without backup and support. Is that a fair 
observation of what happened to your confidential informants?
    Mr. Allen. I would think that when we first started it was 
a close knit group in the 5th ward area. It was somewhat hard 
to get into them. Once we got into them things started 
loosening up. But once the investigation was shut down it was 
more like they started excluding themselves again because they 
were afraid they were back to the way it first started.
    Mr. LaTourette. What's the life expectancy of a 
confidential informant or a snitch in the major narcotics 
information when the law enforcement agency pulls out? 
Sergeant, do you have an opinion on that?
    Mr. Stephens. We hope as long as possible. I don't know 
that there's a time where I could say that they would become in 
grave danger. It's always better when we're involved with the 
case.
    Mr. LaTourette. Yet when Mr. Howard was testifying he was 
talking about the visit by the Vice President, the fact that 
this Prince fellow showed up at the church. I'll come back to 
you, Mr. Chaison, because this question goes exactly to you. He 
indicated when he got that report this fellow that was under 
investigation for a variety of things was with again the second 
most powerful political figure in the country. Do you consider 
that to be a stick in the eye, a slap in the face that he was 
laughing at him?
    Mr. Chaison, when you were informed that your investigation 
was being closed down for political reasons, as a 21-year 
veteran of the Houston police department can you tell me how 
that made you feel? Did you have similar feelings to the one 
that Mr. Howard expressed yesterday?
    Mr. Chaison. Yes, I did. I made the statement that it was a 
slap in the face. And it still is. Because it's unresolved. I 
also made the statement concerning confidential informants that 
we had confidential informants that were out there doing things 
for us. Again this investigation was in full swing. And we had 
confidential informants that were doing things and making 
themselves--you know getting close to certain people. We had an 
agenda at that point. So we could--whatever resources we needed 
to assist them in getting close was pulled away. So now you 
have people playing roles, getting next to people, and then all 
of a sudden it's yanked.
    Now the question comes, well, in the beginning from the bad 
guys, we're talking about doing deals, you know, what has 
changed your mind, what has happened. And that's what I'm 
talking about. We had informants that were doing things. By no 
means was this investigation near any closure.
    Mr. LaTourette. Thank you. My time has expired.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I asked yesterday, Mr. 
Schumacher, the timeframe during which the IRS assistance was 
initially provided and then rescinded. Were you able to dig 
that information out?
    Mr. Schumacher. Yes, sir. Reference that telephonic 
interview we were referring to, it seems it occurred on about 
September 9, 1998. And the report wasn't written until about 4 
weeks later. So now we would be in obviously October 1998. And 
somewhere in that timeframe, that was the last involvement to 
my recollection.
    Mr. Ose. So the IRS, the lack of interest by the IRS, the 
interest and then the loss thereof from the IRS actually 
precedes any letter from any Member of Congress or anything 
like that? I mean, so you can't--it's awful hard to draw a 
connection in that regard, if there is any connection at all. 
If I recall, the letter that went to the Attorney General was 
dated in August 1999.
    Mr. Schumacher. Yes, sir. But I do remember now that you 
said that it seems like in February 1999 or January 1999 that 
an IRS agent was at our office going through some documents 
that we had seized via a search warrant we had done on Mr. 
McCarter's residence. But in any event, prior to our--the IRS--
to my knowledge IRS involvement was over probably prior to the 
Federal trial starting in July 1999.
    Mr. Ose. Let me just develop into something here a little 
bit I was interested in. Mr. Gamble yesterday talked about the 
121 referrals in the first quarter of this year to OPR. You've 
been in law enforcement 27 years. Has an instance similar to 
this ever--have you ever been involved in an instance similar 
to this where you're in the middle of an investigation, a 
referral gets made, an investigation gets stopped and you get 
put on a different desk?
    Mr. Schumacher. Not under these circumstances, no, sir.
    Mr. Ose. OK. Sergeant Stephens, how about you?
    Mr. Stephens. No, sir, not that I can remember, not like 
this.
    Mr. Ose. Officers?
    Mr. Chaison. No, sir.
    Mr. Allen. No.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Burton. Would the gentleman yield to me because I may 
need more than the 5 minutes I have coming.
    Mr. Ose. I would be pleased to yield.
    Mr. Burton. I want to make sure we have everything clear 
because in the course of questioning we get yes and no answers 
instead of elaboration. What I want to make sure is that I 
understand clearly what transpired at the meeting when the 
investigation was shut down. Mr. Howard said that he does not 
indicate the investigation was shut down completely but it was 
not going to be proactive anymore. You said that you--I think 
all of you said that you don't recall the word ``proactive'' 
ever being used. And the only thing that you remember was that 
Mr. Howard said the investigation was over, that there was 
political pressure, and he looked at his watch after some 
discussion took place and said it's over as of this time and 
this date. Now, am I incorrect or is that correct? I don't want 
to put words in your mouth.
    Mr. Schumacher. That's correct, sir.
    Mr. Stephens. That's correct, sir.
    Mr. Chaison. That's correct.
    Mr. Allen. It is correct.
    Mr. Burton. And there was no further discussion, as I 
understand it. Mr. Howard then in a short period of time left 
the room, is that correct?
    Mr. Allen. That's correct.
    Mr. Schumacher. That's correct.
    Mr. Chaison. Yes.
    Mr. Stephens. Yes.
    Mr. Burton. I want to make sure because we're going to have 
Mr. Howard up here in a moment and I want to make sure we've 
got this correct. All four of you agree and you said I believe 
earlier, Sergeant Stephens, that there were other people in the 
room that we could call forward who would agree with what you 
were saying----
    Mr. Stephens. Yes, sir.
    Mr. Burton [continuing]. That No. 1, political pressure was 
brought to bear; No. 2, that the investigation was being shut 
down as of a certain time and date?
    Mr. Stephens. That's correct.
    Mr. Burton. And No. 3, there was no discussion to your 
knowledge of any further investigation taking place or any 
mention of proactive. Is that correct?
    Mr. Stephens. That's correct.
    Mr. Burton. You all agree with that?
    Mr. Chaison. Yes.
    Mr. Allen. Yes.
    Mr. Burton. I want to make sure I've got that clear because 
we're going to be asking Mr. Howard about that and we're going 
to be getting very specific.
    Now I want to talk about threats on your lives. As I 
understand it, Sergeant Stephens, there have been some 
contracts allegedly put out on Mr. Schumacher and some of the 
other officers, is that correct?
    Mr. Stephens. That's correct.
    Mr. Burton. Start the clock. I'll take my 5 minutes now. 
Start the clock. I understand that contracts from some reliable 
sources have been put out on Mr. Schumacher and others to kill 
him. Is that correct?
    Mr. Stephens. Yes, sir.
    Mr. Burton. And the Rap-A-Lot music that we heard yesterday 
talked specifically about that kind of activity?
    Mr. Stephens. Yes, sir.
    Mr. Burton. So their lives have been in jeopardy since this 
investigation or at least some time during the investigation, 
according to an informant?
    Mr. Stephens. Yes, sir, the informant came forward 
recently, but yes.
    Mr. Burton. OK. I want to go to this IRS thing real 
quickly. The IRS, according to you, Mr. Schumacher, did a 
cursory investigation, gave you some kind of a report and then 
they did not followup any further, is that correct?
    Mr. Schumacher. The report they gave us was we by design, 
we being the investigative team, had the IRS agent speak with 
this source of information who was providing information 
relative to the church. And we felt that because it was a 
financial nature, that the IRS agent might be better equipped 
and better trained to conduct this telephonic interview. As 
such, the agent made notes and subsequently wrote a DEA--a 
report on DEA letterhead or report. So it was a DEA report that 
was submitted. And after that, I seem to remember, February for 
some reason sticks in my mind, that agent had come back and was 
looking through some of the items we had seized and then slowly 
thereafter just--there was not any more feedback, any more 
presence, any more assistance.
    Mr. Burton. Did you pursue this with this IRS agent? I 
think you indicated yesterday that you had run into him at 
court and elsewhere. And you said are you doing anything on 
this or what did you say?
    Mr. Schumacher. Well, it was--it appeared to me that he was 
preoccupied with other matters and did not want to take the 
time or did not have the time to discuss it with me. As I said 
yesterday, I did appeal to Mr. Howard to please contact someone 
in management at the IRS because we were in dire need, I felt, 
in some sort of assistance from him.
    Mr. Burton. If it's possible--you don't need to give us 
preferably right now--we would like to know who you talked to 
at the IRS. We would like to know the reasons why they didn't 
followup on that investigation.
    Mr. LaTourette. Mr. Chairman, would you yield for just 30 
seconds?
    Mr. Burton. I will be happy to yield to my colleague.
    Mr. LaTourette. Mr. Waxman earlier put into the record, and 
I'm glad he did, the letter from Mr. Nims, who is the group 
supervisor down at section four. I would point to page 2 where 
he says the same thing, and that is, we would have needed the 
support and commitment of the U.S. attorney's office and the 
Internal Revenue Service. During the course of the substantive 
stage of this investigation, it was apparent to me that neither 
of these two agencies were anxious to assist us. And he 
indicates he spoke to his counterpart at the IRS without 
success. I just wanted to point that out.
    Mr. Burton. I'm glad you pointed that out for the record.
    I guess the main thing we wanted to find out today, and I 
appreciate you're staying over to come back to us, is that 
after that specific date when you met with Mr. Howard and a 
number of other people, there was no further action, to your 
knowledge, taken on the Rap-A-Lot investigation. It was 
completely stopped. Now, Mr. Howard said there were two 
convictions, but those were already in process, those 
indictments, as I understand it, or they were unrelated to the 
Rap-A-Lot case. So as far as you know, there was no further 
action taken after he pointed into his watch and said, this is 
it, this time and date it's over with; is that correct?
    Mr. Schumacher. Yes.
    Mr. Burton. You all agree with that?
    Mr. Chaison. That's correct.
    Mr. Allen. Yes.
    Mr. Burton. I wanted to be clear on that. I just wanted to 
make sure. And there were other individuals in the room from 
the DEA and the police department that heard this statement; is 
that correct.
    Mr. Stephens. That's correct.
    Mr. Chaison. That's correct.
    Mr. Allen. Yes.
    Mr. Burton. They all agree with that.
    I think that pretty much covers my questioning. Do any of 
the other colleagues have questioning? If not, I was going to 
yield my time to either one of you if you needed it. No.
    Well, I'll yield back the balance of my time. Mr. Cummings, 
I think you're next, and then we'll go to Ms. Jackson Lee.
    Mr. Cummings. Mr. Schumacher, where does Mr. Nims fit in 
the chain of command?
    Mr. Schumacher. Mr. Nims is a group supervisor and up until 
my transfer out of group four was my supervisor.
    Mr. Cummings. If an investigation were going to be called 
off, would he--I mean, is it pretty logical that he would know 
that?
    Mr. Schumacher. In my mind?
    Mr. Cummings. Yes, sir. I mean, just from the way your 
operation and the things you've done in the past, your 
experience with the police department. I mean, if he's your 
supervisor, he's your immediate supervisor, and he seems to 
recollect that the investigation wasn't called off--I guess 
what I'm trying to figure out is how reliable would you think 
his--I mean, wouldn't he be a logical person to know that it 
was being called off?
    Mr. Schumacher. Yes, sir, you would think so.
    Mr. Cummings. So he had the impression, based upon his 
letter, that it was--his letter is pretty much consistent with 
what Mr. Howard said as far as it not being completely called 
off, but sort of ongoing. What do you account for that 
difference? Here's your immediate supervisor. He has one 
opinion, and you have another. Did you ever discuss it with 
him?
    Mr. Schumacher. Can you allow me a minute?
    Mr. Cummings. Sure.
    Mr. Schumacher. Some of the comments that Mr. Nims made in 
this letter, that's the first I've ever heard, if indeed he 
wrote that letter. I have no reason to doubt that he did. But 
he has never made those comments to me.
    Mr. Cummings. And you had talked a little bit earlier about 
how often you would talk to Mr. Howard. Would you talk to Mr. 
Nims often, too?
    Mr. Schumacher. Frequently Mr. Nims would come up after Mr. 
Howard departed and say, what did the SAC say.
    Mr. Cummings. So you would, would you have more 
conversations with Mr. Howard than you would have with Mr. 
Nims?
    Mr. Schumacher. No, I would have more with Nims.
    Mr. Cummings. OK. So in other words, the instructions 
coming down, it doesn't have to necessarily flow through Nims 
to you? There was a lot of direct contact with you?
    Mr. Schumacher. Between?
    Mr. Cummings. I'm sorry. Between you and Howard.
    Mr. Schumacher. Yes.
    Mr. Cummings. OK. To Mr. Chaison and Allen, Officer, to all 
of you, I want to thank you all for being with us today and for 
staying over. I'm particularly concerned about your safety, and 
I was wondering if you're concerned about it. It seems as if 
it's my understanding that there was an article this morning in 
the local newspaper, and I'm sure--and we've had a lot of 
discussion here about money flowing, big money flowing, and I 
was just wondering did you all request more anonymity than what 
you have here today? I'm just curious.
    Mr. Chaison. We've asked questions; however, we understand 
that's a matter of public record. As for me, God is my 
provider. He's my protector, so I'm not concerned about what 
man can do to me.
    Mr. Cummings. Well, I am.
    What about you, Mr. Allen? I understand. I got you. Mr. 
Allen.
    Mr. Allen. Again, God is my provider, and basically when 
I'm here, I believe in the people I'm with. And when I get back 
home, I believe in the people I work with. So I focus on that 
and just pray and hope that nothing ever happens to any one of 
us.
    Mr. Cummings. I just want to, again, thank you all, all of 
you, for your testimony. I think it has left all of us a bit 
concerned about you because we seem to have two--as I said a 
little bit earlier, we have very dedicated folk, people who are 
trying to make a difference and putting your lives on the line 
every day, and that certainly includes Mr. Howard and the other 
witnesses, and these differences of recollection certainly 
concern us. We'll hear from Mr. Howard again in a moment.
    But, again, I want to thank you, and I wish you all the 
best. Thank you.
    Mr. Chaison. Thank you.
    Mr. Allen. Thank you.
    Mr. Cummings. I yield back.
    Mr. Burton. I thank the gentleman.
    The gentleman from Connecticut has 5 minutes.
    Mr. Shays. Mr. Chairman, given that I wasn't here for the 
questions, I think it probably would be a little inappropriate 
for me to get into territory that may have already been 
covered. I would just once again thank our DEA official Mr. 
Schumacher and Mr. Stephens and Mr. Chaison and Mr.----
    Mr. Allen. Allen.
    Mr. Shays. Allen. I'm sorry, I was about to say it.
    I was particularly moved yesterday, Mr. Chaison, when you 
described to me--all of you have moved me, but after the 
hearing you reminded me of the fact that one of people that you 
served with, a fellow officer, I believe a woman who was 
serving with you, maybe you could just tell me and tell this 
organization the circumstance.
    Mr. Chaison. Yes. I'm sure all of you heard the situation 
with a female HPD officer. She and I were working undercover, 
and she and I was engaged in a shoot-out with a drug dealer, 
and she's paralyzed today. Of course, she never has the 
opportunity to marry or bear children, which she'll never have 
now. I mean, she has the opportunity to marry, but she'll never 
be like some of the ladies here that's mothers. She'll never be 
a mother in that sense.
    So we take our job very serious, very seriously. Of course, 
I've been involved in several shooting incidents again. In our 
work you have to have a head. God has to be the head of your 
life. He has just has to, because we're in--as undercover 
officers we're in situations where supervisors aren't. We're 
the ones in the dope house with the dope man and has to come up 
with the correct answer at the right time. An error on our part 
could be our demise. So we take it very seriously.
    Mr. Shays. When you described that, the officer shooting 
before, I didn't realize it was someone you had actually been 
serving with and involved in that same fight. But I am in awe 
of individuals who can go undercover and risk their lives every 
day and say goodbye to their families in the morning. I'm sure 
you give them an extra hug. I'm sure they give you an extra 
hug. But all of you are heroes, in my mind, and I hope we 
ultimately resolve this and get all the answers we need. So I 
thank you. Thank you, gentlemen.
    Mr. Horn. [presiding]. I thank the gentleman from 
Connecticut. I think the views of Mr. Cummings and the 
gentleman from Connecticut, we all agree on that. Whether 
you're undercover or working back on the DEA or the police 
departments around the country, you're brave people, and we 
probably ought to be getting a few medals out of Congress for 
those who are on the firing line all across America because the 
scum that they have to deal with and the hurt of our families 
are just unbelievable.
    We now yield 5 minutes to the gentlewoman from Texas, Ms. 
Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Horn. Let me 
thank the chairman and the Members.
    Mr. Shays. Is your mic on?
    Ms. Jackson Lee. I'm not close enough to it. I also have a 
cold.
    I am not a member of this committee, as I said. I'm a 
member of the Judiciary Committee, which has oversight on the 
DEA, and I started out by saying I thank the ranking member and 
the chairman for their courtesies, and I will likewise be 
courteous.
    Let me ask Mr. Schumaker or Schumacher?
    Mr. Schumacher. That's close enough. Thank you.
    Ms. Jackson Lee. Thank you very much.
    What is it in what we're doing here today that you like to 
see come out of these 2 days of hearings?
    Mr. Schumacher. Ms. Lee, I've been subpoenaed here as a 
witness to give testimony. That's what I have done. And I'm 
trying to fulfill my obligation.
    Ms. Jackson Lee. So you have no goals or desires for what 
may ultimately come out of this hearing, what results or 
actions?
    Mr. Schumacher. No personal goals or desires whatsoever.
    Ms. Jackson Lee. Thank you.
    Mr. Stephens.
    Mr. Stephens. No personal goals. I would like to have 
definitive answers as to why the case was stopped when it was.
    Ms. Jackson Lee. So informal responses to providing you 
back with at least an explanation. Would that be capturing what 
you're saying?
    Mr. Stephens. That we understand why the case was stopped, 
yes, ma'am.
    Ms. Jackson Lee. I do want to acknowledge that I have had a 
longstanding relationship with the Houston Police Department. 
I'm from Houston. I have served as an associate judge. I am 
very much a supporter of the officers that I worked with on a 
regular basis. I know the officers that are here, and I have a 
great deal of respect for them. I would add my interest and 
concern on your safety. So I want to acknowledge that as much 
as I want to acknowledge that I know the Prince family. I have 
a great deal of respect for the contributions that many of them 
are still making in the fifth ward area. It's important to give 
balance here.
    And then I'd like to pose a question to you, Mr. Stephens. 
You commented on the visit of the Vice President to the Brook 
Hollow Church family. Were there wired officers present during 
that service?
    Mr. Stephens. Not to my knowledge.
    Ms. Jackson Lee. So do you have any wire evidence of 
meetings of Mr. Prince and the Vice President?
    Mr. Stephens. No, ma'am, not to my knowledge, I don't.
    Ms. Jackson Lee. Do you have any direct evidence that there 
was a meeting between Mr. Prince and the Vice President?
    Mr. Stephens. No, ma'am.
    Ms. Jackson Lee. Do you have any direct evidence for the 
reason for the Vice President to have visited that church?
    Mr. Stephens. No, ma'am.
    Ms. Jackson Lee. So any suggestion of any actions being 
taken on the basis of the Vice President's visit to the church, 
is there any direct information you have on that?
    Mr. Stephens. No, ma'am.
    Ms. Jackson Lee. I note the name of a Brad Jordan in a 
letter, a.k.a. Scarface. Is that person living in our area?
    Mr. Stephens. He was. He may still be. He did have a house 
in the west part of Houston.
    Ms. Jackson Lee. You don't have any reason to believe that 
any actions not taken against him or taken against him had--was 
there any knowledge of political influence, any actions not 
being taken against him; do you have any knowledge of that?
    Mr. Stephens. No, ma'am.
    Ms. Jackson Lee. There is a letter that we have that 
suggests that some actions were not taken against him by the 
U.S. attorney's office, and I was wondering whether you might 
be familiar as to why that had not occurred?
    Mr. Stephens. I do not know why it did not occur.
    Ms. Jackson Lee. So we can't, through you at least, 
attribute any political actions that kept him from being 
pursued?
    Mr. Stephens. That's correct.
    Ms. Jackson Lee. I think it's important, and I think you 
have answered very forthrightly that you are subpoenaed here, 
and you are providing information. I, too, have respect for the 
responsibilities of Members of Congress to get to the bottom of 
issues. I abhor drug use and the sales of drugs. I'm trying to 
protect our children. But I also think you are also sensitive 
to the concept of representative government. We elect 
individuals, and they work on our behalf. Is that something 
that you at least adhere or are familiar with?
    Mr. Stephens. I hope so, yes, ma'am.
    Ms. Jackson Lee. You support and are familiar with the idea 
that when Members of Congress or others are asked about issues 
of racial profiling, do you think it's worthy of them to 
inquire of such?
    Mr. Stephens. I'm not following you.
    Ms. Jackson Lee. Do you think it's worthy when Members of 
Congress or elected officials are approached on issues by their 
constituents or others about, say, something like racial 
profiling, do you think it's important to have them look into 
it?
    Mr. Stephens. Yes, ma'am.
    Ms. Jackson Lee. I see the light is on, and I simply want 
to say to the two, Mr. Allen, Mr. Chaison, you know that I have 
known you and seen you. I want you to continue to do your work 
in safety and in honesty. My position is let us get all the 
information out on the table.
    And I want to close with the indulgence of the Chair by 
simply saying that I know the Brook Hollow Church family, and I 
also know the concept of redemption and baptism. So that church 
offers membership to anyone who will come, and it offers its 
pulpit to anyone who will come and offer words. And I will 
offer to say to you that was the only role the Vice President 
had on March 12 was visiting with those constituents in a 
church service and worshipping with them.
    But, again, I thank all of you for the information 
provided, and I will certainly be persistent in following this 
matter and working as I can work on my committee. And I again 
thank the chairman. I'm not sure if we're ending on this line 
of questioning, but I thank the chairman for his very kind 
indulgence.
    Mr. Burton [presiding]. Thank you, Ms. Jackson Lee.
    I think unless there's any more questions, we will excuse 
this panel and have the other panel brought forward. I want to 
thank you very much for your perseverance and your patience. 
You've been very, very helpful.
    Mr. Shays. Turn off the cameras.
    Mr. Burton. Can you shut the cameras off so we can let the 
police officers leave?
    According to the rules that we agreed to yesterday, we will 
now go back to the half-hour questioning on each side, and then 
we'll go to the 5-minute rule. And we will now--excuse me. On 
this panel it is the 5-minute rounds. We will go to the half-
hour when Mr. Marshall comes in.
    Mr. Shays, would you like to proceed.
    Mr. Shays. Mr. Howard, do you still contend that this case 
was not shut down by any common understanding of that term?
    Mr. Howard. Yes, sir, I do.
    Mr. Shays. Yesterday you said there were several arrests in 
December 1999. Were these arrests or indictments?
    Mr. Howard. They were arrests.
    Mr. Shays. Were the indictments you mentioned in 
yesterday's testimony the results of work that had been done 
prior to your receipt of Congresswoman Waters' letter of August 
20, 1999?
    Mr. Howard. Which indictments?
    Mr. Shays. I'm sorry. These would have been arrests, I'm 
sorry.
    Mr. Howard. Were there arrests preceding that letter?
    Mr. Shays. Yes.
    Mr. Howard. No, sir.
    Mr. Shays. Let me read it again. Were the arrests you 
mentioned in yesterday's testimony the result of work that had 
been done prior to receipt of Congressman Waters' letter of 
August 20, 1999?
    Mr. Howard. These arrests were the result of a case that 
started after October 1, 1999.
    Mr. Shays. And who was this work done by?
    Mr. Howard. I received the information from a memorandum 
that Chad Scott had given to me in March 2000.
    Mr. Shays. Do you recall how many individuals were present 
at your September 1999 meeting?
    Mr. Howard. In the August meeting? The latter part of 
August?
    Mr. Shays. Was it August or September? Yeah, you've 
maintained it was August, but it was a September meeting.
    Mr. Howard. It was approximately 9 to--9 to 12, 15. It was 
most of the people that were assigned to group four.
    Mr. Shays. Could you give us some of the names of the 
people present there, the ones that you remember?
    Mr. Howard. I'm sure the gentlemen that were here.
    Mr. Shays. So it would have been the four of them?
    Mr. Howard. Yes, sir. I couldn't tell you. It was the 
majority of the people in that group.
    Mr. Shays. If there were 9 or 12, you would know there were 
others. Let's do this. Let's ask you to submit the names of the 
other people present.
    Mr. Howard. I'll have to go back and find out who was in 
that group at that particular time, yes, sir.
    Mr. Shays. If we were to issue a subpoena to every last one 
of them, and every one of them contradicted your account, would 
you concede that perhaps you have been mischaracterized in your 
account?
    Mr. Howard. What I recall, sir, is what I said yesterday, 
that I said to them at that meeting that we will do no more 
proactive investigation at this time, because I was concerned 
about the issues, the allegations.
    Mr. Shays. In light of the testimony concerning the Houston 
Police Department officers returning to the Houston Police 
Department at your insistence, would you like to revise your 
statement?
    Mr. Howard. No, sir, I would not. I did not ask them to go 
back to their department.
    Mr. Shays. If you still believe their removal of this case 
was at the insistence of the HPD, who exactly told you this 
from the HPD?
    Mr. Howard. I didn't talk to anyone from the HPD about them 
being removed. I was told they were going back to their parent 
department by the ASAC, which was Keith Boden and Mr. Nims and 
Mr. Schumacher. This had been ongoing for some time as of 
September.
    Mr. Burton. Would the gentleman yield on that point?
    Mr. Shays. Sure.
    Mr. Burton. The Houston Police Department officers who were 
here said that they went back only because the new captain that 
took over that division wanted to have all of his officers in 
one location, but there was no way, any indication whatsoever, 
that they wanted them to curtail their activities as far as the 
investigations were concerned in the Rap-A-Lot case. Did you 
know that?
    Mr. Howard. I had not talked to the captain. I didn't know 
what their status was.
    Mr. Burton. You knew they were continuing on with the case; 
did you not?
    Mr. Howard. I thought they were, yes, sir.
    Mr. Burton. Thank you.
    I thank the gentleman.
    Mr. Shays. Is it possible in light of the testimony today 
that you never uttered the phrase ``proactive'' at this 
meeting, but instead ordered all work to cease except for the 
cases currently in the court system?
    Mr. Howard. I recall what I said. Anything is possible, 
yes, sir. But I do recall also that Mr. Nims came to my office 
shortly thereafter and asked for clarification on what I said.
    Mr. Shays. And you believe what you said was what?
    Mr. Howard. I believe what I said was there are 
allegations, and that the proactive part of this investigation 
has to stop pending the outcome of the OPR investigation.
    Mr. Shays. Was Mr. Nims one of the people who had attended 
the meeting in September?
    Mr. Howard. No, sir. I believe he was in his office.
    Mr. Shays. Why do you believe he was in his office?
    Mr. Howard. I just believe he was in his office. I had my 
back toward his door. I don't recall seeing him at all, and I 
know he came up for clarification, so I would assume that he 
must not have understood what I said earlier.
    Mr. Shays. He wanted clarification for a meeting----
    Mr. Howard. He wanted clarification on what I said at the 
meeting, so either he was there and he didn't understand----
    Mr. Shays. So he was either there and he didn't understand, 
or he wasn't there and he didn't understand?
    Mr. Howard. I said either he was there or he wasn't there. 
I don't recall exactly who was there. I walked down into the 
bay area, and I simply said, would everybody gather around.
    Mr. Shays. Who were the people at that meeting that spoke 
with you?
    Mr. Howard. That spoke directly with me?
    Mr. Shays. Who were the people that responded to what you 
said?
    Mr. Howard. Probably everybody in the bay area that was 
there. They all were frustrated as was I. They were asking, 
why, why. I could not go into a lot of detail at that time. I 
said, we have to suspend this pending an OPR investigation.
    Mr. Shays. It's hard for me to imagine a meeting of some 
consequence that the only people you would remember there are 
the people who happened to be here.
    Mr. Howard. No, sir, I didn't say that the only people 
there were the only people here. We've had numerous changes in 
that group in the last 2 years of personnel as we have 
throughout the entire office. There are people in that group 
that may not be in that group now. I don't recall the exact 
names. I have several hundred people that work for me. On any 
given date I can't tell you except for certain positions who 
was in which group. I can go back and look at the roster and 
see who was in the group.
    Mr. Shays. Thank you.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Howard, let's go back to March 2000. As of that time, 
the OPR investigation was still ongoing, wasn't it?
    Mr. Howard. Yes, sir, that's correct.
    Mr. Waxman. And the status of the agents working on the 
case had not changed? They were off proactive investigation 
unless they got permission to go forward from you or one of 
your associate special agents in charge; is that correct?
    Mr. Howard. Yes, sir, that's correct.
    Mr. Waxman. But something did happen in March that made you 
angry. On March 9 and 10, 2000, there was a Houston management 
conference; isn't that correct?
    Mr. Howard. Yes, sir, that is correct.
    Mr. Waxman. And Mr. Gamble and Mr. Mercado, whom you've 
known for many years, were at that conference; is that correct?
    Mr. Howard. That's correct.
    Mr. Waxman. Some of us here have quibbled with you about--
excuse me. During that conference you all got to talking about 
the OPR investigation; is that right?
    Mr. Howard. Mr. Gamble and I have talked about the OPR 
investigation along with Mr. Peiro and Mr. Adura.
    Mr. Waxman. Mr. Gamble was relatively new on the matter and 
was not aware that Mr. Schumacher was still assigned to the 
same enforcement group and still technically supervised the 
agents working on this investigation; is that correct?
    Mr. Howard. That's correct.
    Mr. Waxman. Mr. Gamble didn't think it was appropriate for 
Mr. Schumacher to occupy that position during the pendency of 
the investigation; is that right?
    Mr. Howard. That's correct.
    Mr. Waxman. And he suggested that you move Mr. Schumacher 
to another group, one that did not have the enforcement 
activities; is that right?
    Mr. Howard. Yes, sir.
    Mr. Waxman. Mr. Gamble did not believe that Mr. Schumacher 
should still be supervising members of that group while they 
were subject to an ongoing investigation?
    Mr. Howard. That's correct. Can I reiterate, sir?
    Mr. Waxman. Yes.
    Mr. Howard. In January 2000, when I made Mr. Schumacher the 
acting GS of group four, I had three ASAC vacancies in my 
division, I had nine GS vacancies in my division. At that 
particular time I had severe manpower shortages. I determined 
at that time improperly that Mr. Schumacher should be the 
action supervisor of that group because he is one of the senior 
agents.
    Mr. Gamble at a later time in March advised me that I was 
wrong in assigning Mr. Schumacher as the acting group 
supervisor of group four. At that time I did not want to 
demoralize Mr. Schumacher or anybody else in that group. I 
moved him to be the acting group supervisor of a nonsupport 
group. Also at that time I still had nine group supervisor 
vacancies and three ASAC vacancies in the entire division.
    Mr. Waxman. Mr. Gamble, the line of questioning, is that 
consistent with your recollection?
    Mr. Gamble. Yes, it is.
    Mr. Waxman. Mr. Howard, did it make you angry?
    Mr. Howard. Yes, sir, I was very angry. I was angry about 
several things. I had just come back off extended travel for 
the prior 2 weeks. For the last month, ever since the articles 
came out with my name being blasted every day in the paper 
about this situation, I have been trying to figure out what 
triggered me to send the e-mails.
    At 3 a.m., I woke up thinking about HIDTA. I got my diary 
out and I looked back at the dates preceding the March issues. 
A lot of things were on my mind at that time; a lot of things 
came to surface in 24 hours beginning on that Monday, whatever 
Monday would have been prior to the 14th and 15th. I was on a 
panel on a committee to restructure the southwest border HIDTA. 
We had some problems with that. We were trying to restructure 
that. That was meeting resistance. I had been told that upon my 
return from extended travel.
    I had also been told that I was losing in excess of 20 task 
force officers from my Laredo office. They were going to be 
involved in money-smuggling and money-laundering. I am severely 
short of manpower.
    I am also concerned that I have been trying to get Mr. 
Schumacher promoted. I had been told by Mr. Mercado that I 
cannot promote Mr. Schumacher or get him promoted at that time 
because of the OPR investigation. I am trying to get another 
individual in my division promoted, but I can't.
    Mr. Waxman. My time is running out.
    Did you feel strongly that Mr. Schumacher was taking a hit 
because of an investigation that you believed had no merit?
    Mr. Howard. That's correct.
    Mr. Waxman. When you sent your e-mail saying that you were 
bowing down to political pressure, you were referring to this 
whole situation?
    Mr. Howard. I was referring to everything I was going 
through at that time.
    Mr. Waxman. Is it still your testimony that it was 
appropriate for the Office of Professional Responsibility to 
conduct an investigation?
    Mr. Howard. Yes, sir. They had to.
    Mr. Waxman. And it's still your testimony that it was 
appropriate to take Mr. Schumacher off the case and off the 
group to which he was then assigned?
    Mr. Howard. Yes, sir.
    Mr. Waxman. Mr. Mercado or Mr. Gamble, do either of you 
have different recollection of events or anything else to add?
    Mr. Mercado. No, sir.
    Mr. Gamble. No, sir.
    Mr. Waxman. Some of us here have quibbled with you about 
how much you knew about the details of this investigation. 
You're the special agent in charge of Houston field division; 
isn't that correct?
    Mr. Howard. Yes, sir, I am.
    Mr. Waxman. And how many DEA agents are part of that field 
division?
    Mr. Howard. Approximately 300 DEA agents, but a total task 
force officers and everybody, it's over 400.
    Mr. Waxman. If the chairman--I just have one more.
    Mr. Burton. Sure.
    Mr. Waxman. Just looking at the task force investigation, 
for example, Officer Allen who testified here earlier reported 
to Sergeant Stephens. Sergeant Stephens, while he was deputized 
on this investigation, reported to Special Agent Schumacher. 
Special Agent Schumacher reported to his group supervisor, and 
that group supervisor reported to an assistant special agent in 
charge. That assistant special agent in charge reported to an 
associate special agent, and that associate special agent in 
charge then reported to you. Is that the way it was?
    Mr. Howard. Yes, it was.
    Mr. Waxman. With this many levels of bureaucracy separating 
you from the people on the ground, it's not particularly 
shocking that you and they had different information or 
different impressions about this investigation; isn't that 
correct?
    Mr. Howard. That is correct.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Howard, for the second day in a row now 
we've had the policemen and Mr. Schumacher testify very vividly 
and very clearly that you pointed to your watch and said, this 
case is shut down as of now. They also very vividly remember 
you saying it was because of political pressure. And none of 
them recall you saying anything like proactive, or if you're 
going to do anything further with this investigation, you have 
to get permission.
    Now, you said that Mr. Nims came over and talked to you 
later to get more clarification, and you may have told him, but 
as far as those officers who were the mainstays of the 
investigation of Mr. Schumacher, they didn't know, they weren't 
told. And the only thing they got from you was that you were 
shutting down the investigation.
    Now, as a matter of fact, there was nothing more done by 
them. They testified here just a minute ago that there were no 
more investigations taking place, no more street contacts 
taking place. The informants were left twisting in the wind, 
and then there were death threats on Mr. Schumacher and some of 
the other Houston policemen. In addition to that, your e-mail 
is very clear saying that there was political pressure; not one 
e-mail, but two. And so everything in the e-mails and what you 
told those officers indicated you were closing down the case as 
of a specific time and date, and then there was nothing else 
that took place.
    Now, you said that the Houston police officers were going 
to be sent back. And Mr. Nims's letter to Mr. Waxman said they 
were being sent back to the police department. That was only 
for location purposes. It had nothing to do with the 
investigation because they continued on after that, and they 
were told by their officers in charge and the new captain that 
they could go ahead and do the investigating as part of that 
task force, or whatever you call it.
    Now, what I don't understand is there's this divergence 
between what you're saying and what those officers said, and 
they said all the other officers that were in the room at the 
same time would verify what they said, and then the e-mails 
verify what they said. And yet you're telling us today and 
yesterday that there was proactive and get permission. Nobody 
remembers that except possibly when you went and talked to Mr. 
Nims. Now, how do you explain that?
    Mr. Howard. Mr. Chairman, I can only tell you what I 
thought that I said, and then I clarified it with Mr. Nims at a 
later time.
    Mr. Burton. Well, you said the investigation was ongoing, 
that it went on after that. But as far as they're concerned, 
and as far as the records that they have access to, there was 
no further investigation. And the convictions that you talked 
about, as I understand it, and correct me if I'm wrong, one of 
those was from an investigation that had been going on, and the 
other was from another indictment that took place after that on 
an unrelated subject. Now, is that correct?
    Mr. Howard. Mr. Chairman, that's not true.
    Mr. Burton. Explain it.
    Mr. Howard. I asked for a status on the entire umbrella 
investigation on the local impact target in March 2000. Mr. 
Chad Scott, who was also the co-case agent along with Mr. 
Schumacher, sent me a memo indicating all the arrests that had 
occurred in the umbrella investigation of the local impact 
target. There was a case taken out under the name of Mr. 
Singleton where he was arrested along with four or five other 
people, and seizures were made in December. I don't have all 
the details of that investigation. I only know what was in the 
memo that was given to me in March 2000.
    Mr. Burton. According to them--and we'll check further and 
find out if there were any more arrests or convictions or what 
else transpired as far as the continuing investigation of the 
Rap-A-Lot--to their knowledge and to the records they have, 
there was nothing further done.
    Mr. Howard. Mr. Chairman, the police department doesn't 
have access to our records. They would not know.
    Mr. Burton. Mr. Schumacher does, doesn't he?
    Mr. Howard. Yes, sir, he does.
    Mr. Burton. OK. Now, the other thing that you said was that 
you were told by Schumacher, that the case against Rap-A-Lot 
and Mr. Prince in all probability would turn on two witnesses. 
Now, they just testified here that there were a lot of other 
avenues; that those two were important to their case, but that 
wasn't the only thing that they were concerned about, that 
there was a lot of other avenues they could pursue through 
their snitches on the street, but that you chopped them off at 
the knees.
    Mr. Howard. Mr. Chairman, I was not told about any other 
leads. If there were any informants utilized in this 
investigation, they had to be used under DEA guidelines.
    Mr. Burton. Mr. Schumacher was your man in charge?
    Mr. Howard. Mr. Schumacher was not my man in charge. Mr. 
Schumacher was the case agent.
    Mr. Burton. He was the case agent.
    Mr. Howard. Yes, sir, he was the case agent.
    Mr. Burton. The thing is I don't understand how you can say 
to them, as they understand it, we're going to shut down this 
investigation as of this time. They don't remember proactive. 
They don't remember getting permission. They don't remember 
anything else. They were all upset because they were being 
chopped off, they thought, at the knees, and then you said that 
the case was going to turn on two witnesses that they thought 
would turn on Mr. Prince. And yet they--you had told them to 
shut down the case, according to them, and they had other 
avenues to investigate through snitches and other people out 
there in the district, and you didn't know about it. If you 
didn't know about it, did you ask them? Did you talk to them 
about it at all?
    Mr. Howard. I had discussed this with Mr. Nims. Mr. Nims 
never told me about any other leads. Neither did Mr. 
Schumacher, never told me about any other leads. There are no 
other leads put on paper. I don't know where they are.
    Mr. Burton. Mr. Schumacher said he talked to you on a 
weekly basis, and what he said, according to the testimony here 
today, as I understand it, those two were important, and they 
were going to try to turn them; that those weren't the only 
leads and those weren't the only avenues they were going to 
pursue to try to get more convictions and indictments.
    The thing that brothers me is 20 people were convicted of 
drug trafficking or murder, and yet this case was stopped. And 
you say it wasn't stopped, but we have no indication that it 
didn't go forward, and your e-mails are pretty clear.
    Mr. Howard. Mr. Chairman, I said the case would be put on a 
hold. No proactive part of the investigation would be done 
pending the OPR investigation. The only way we were going to 
get the target of this investigation, the local impact target, 
was through conspiracy. Conspiracy can be done today, it can be 
done next month, it can be done 6 months from now. You need 
witnesses, you need people that are close to it. I was led to 
believe by everybody that knew about the investigation that the 
key to getting to the local impact target was these two 
individuals.
    Mr. Burton. That's not what we heard from them today, and I 
find that very unfortunate, and they say that a lot of people 
who could turn and be witness and who were snitches out on the 
street, who were drug dealers that could give them some 
additional information, many of them are no longer available as 
far as a possible conviction at this time.
    Mr. Howard. Mr. Chairman, can I say something else? We 
talked about the contract on Mr. Schumacher. The contract is 
also on me.
    Mr. Burton. Yes, I knew that. I knew that. I didn't want to 
mention more than I had to in this public hearing. I understand 
it's a very volatile situation that you're faced with. But the 
main thing that concerns us is what we saw in these e-mails, 
the investigation apparently being closed down at least during 
the duration of that investigation. And they're writing rap 
songs that are No. 6 or 7 on the hit list about killing police 
and how they can get away with bloody murder. I think it's 
really tragic.
    Mr. Howard. I agree.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Howard, let me just ask you a few questions. Mr. Nims 
seems to--as I said yesterday, seemed to have devised some 
corroboration to your recall of the--of that meeting when the 
officers alleged that you terminated this investigation. Mr. 
Nims was Mr. Howard's immediate supervisor.
    Mr. Howard. Mr. Nims is? Mr. Schumacher.
    Mr. Cummings. I'm sorry. I apologize.
    Mr. Howard. OK.
    Mr. Cummings. And did you--you said he came to you and 
asked for clarification; is that right?
    Mr. Howard. Yes, sir, that's correct.
    Mr. Cummings. Now, would you normally tell him--I mean, if 
he's the supervisor of the group, would you normally go to the 
supervisor first, or would you go to the group first?
    Mr. Howard. Under normal circumstances I would not have 
been involved directly in this case in the first place. I'm the 
one that brought this case to that group because it had been 
stagnant since--well, 1992 to 1997. I wanted to see what could 
be done with this investigation. I don't normally get involved 
with cases at this level.
    Mr. Cummings. So, but in this instance, go back to my 
question now with regard to Mr. Nims, although you may not get 
involved on this level, you were involved here.
    Mr. Howard. Yes, sir.
    Mr. Cummings. And this was an ongoing investigation; is 
that correct?
    Mr. Howard. That's correct.
    Mr. Cummings. Did you have conversations off and on with 
Mr. Nims?
    Mr. Howard. Yes, sir, I did.
    Mr. Cummings. And here we were at a point, a very critical 
point of the investigation, where you had apparently received 
some news that you weren't too happy about, and I'm just asking 
you do you recall going to Mr. Nims first before going to the 
group?
    Mr. Howard. No, sir, I did not. I went down to the bay 
area, and everybody that was in there, I just said, I need to 
talk to you all right now.
    Mr. Cummings. All right. And you don't recall Mr. Nims 
being in that meeting; is that right?
    Mr. Howard. I don't recall. I don't know whether he was 
there or that he wasn't there.
    Mr. Cummings. You do recall, however, that there came a 
time when he came up to you, or you all met; is that right?
    Mr. Howard. That's correct.
    Mr. Cummings. Do you know whether that was the same day of 
the so-called termination meeting?
    Mr. Howard. I believe it was the same day.
    Mr. Cummings. Do you remember what his demeanor was? Was he 
upset? Was he saying, what the hell are you doing this for? Do 
you recall what he said?
    Mr. Howard. He was frustrated like everybody involved in 
the situation was. He asked me what was going on and what did I 
mean by what I had said in the meeting, and I clarified it.
    Mr. Cummings. And what did you say to him?
    Mr. Howard. I told him that no proactive part of the 
investigation could be done without approval from an associate 
SAC or myself.
    Mr. Cummings. So you're telling us that conversation took 
place somewhere not too long after your conversation with the 
officers; is that correct?
    Mr. Howard. That's correct.
    Mr. Cummings. Now, is it possible--and I've been trying to 
figure this out over the last 24 hours--is it possible that you 
would have told the officers a limited amount of information 
and would have told Nims more detailed information? Is that----
    Mr. Howard. Not only possible, it is probable.
    Mr. Cummings. It's probable.
    Mr. Howard. Yes, sir.
    Mr. Cummings. Why do you say that?
    Mr. Howard. Because Mr. Nims is a supervisor, I probably 
would have gone into a little more detail and asked him some 
questions more so than I would have the officers and agents 
involved, because the officers and agents involved were the 
ones that were accused of allegations.
    Mr. Cummings. So I take it that you--would you have felt 
more comfortable going into more detail with Mr. Nims?
    Mr. Howard. It's not a matter of comfort. It's just a 
matter of he's the supervisor, and I need to know--I'm 
concerned about what had happened about the allegations.
    Mr. Cummings. The reason I asked you that is that you would 
be talking to some officers. Nims wasn't accused of anything; 
is that right?
    Mr. Howard. It was the group; no, sir, it wasn't Nims.
    Mr. Cummings. The reason why I asked you about the comfort 
level is that you were talking to some officers, at least some 
in the bunch who had been accused of something that you didn't 
think they had done, but you certainly, I take it, didn't want 
to necessarily go into a lot of detail there.
    Mr. Howard. I'm not permitted to, that's correct, sir.
    Mr. Cummings. That's why I asked you about the comfort 
level. I know you may not be able to recall exactly how you 
felt at the moment, but do you think you would have felt more 
comfortable telling more detail to Mr. Nims than you would have 
to the officers?
    Mr. Howard. Definitely.
    Mr. Cummings. Was this a very unpleasant experience when 
you went to the officers?
    Mr. Howard. It was very unpleasant. I was frustrated 
because I was responsible for the officers having gotten in the 
situation whether or not it was true or false. I did not 
believe the allegations, but I felt responsible because I'm the 
one that put them in that situation.
    Mr. Cummings. Just two more questions. How long did that 
meeting take place, the one with the officers; do you remember?
    Mr. Howard. It was very short. It was very, very short.
    Mr. Cummings. That doesn't tell me anything. What does that 
mean? Does that mean a minute, 2 minutes, 3?
    Mr. Howard. Not more than 2 minutes. I went down there. I 
said what I had to say in very short sentences. They wanted to 
ask questions. They wanted to know why. I told them--I looked 
at my watch. I said as of this time, this date, that's it.
    Mr. Cummings. So you wanted to get it over with as fast as 
you could?
    Mr. Howard. I didn't want them to have to ask questions. I 
knew they were frustrated and totally demoralized. I did not 
want to have to answer questions regarding why I took the 
action that I took.
    Mr. Cummings. Do you know how long the conversation took 
with Mr. Nims?
    Mr. Howard. It was probably about 15, 20 minutes.
    Mr. Cummings. All right. I see. Thank you very much.
    Mr. Shays. [presiding]. Thank you very much.
    Mr. Horn, you have the floor.
    Mr. Horn. Thank you very much, Mr. Chairman.
    You said in answer to one question that nothing was 
happening between 1992 and 1997 on this particular case, and 
that you had assigned it to Mr. Schumacher and his group after 
1997.
    Mr. Howard. By that I didn't mean entirely nothing was 
going on. There was not a lot of progress in the investigation 
from 1992 to 1997. In 1997, it was assigned to group four. This 
is before Mr. Schumacher was in the group. They were working on 
this investigation on the local impact target for a period over 
several months prior to me assigning it to Mr. Schumacher. The 
original case agent from 1992 to 1997 was assigned also to 
group four when I initially assigned it to group four. The case 
still was not making a lot of progress.
    At that time Mr. Schumacher had just finished a project I 
had him involved in earlier in east Texas. I wanted to know 
whether this local impact target investigation could proceed. I 
assigned it to Mr. Schumacher, I think, in the summer or early 
fall of 1998.
    Mr. Horn. You mentioned in the course of a response to 
another question about 20 people being taken away from the 
Laredo station?
    Mr. Howard. Yes, sir.
    Mr. Horn. That certainly upset you.
    Mr. Howard. Yes, sir, it most certainly did.
    Mr. Horn. I can understand that. I wondered how many people 
were cut in the Drug Enforcement Agency in your region.
    Mr. Howard. These weren't DEA agents. They were task force 
officers from local departments.
    Mr. Horn. I see. But the Laredo 20 were what? What were 
they doing?
    Mr. Howard. They were all task force people. They were task 
force officers from the local departments assigned to my 
enforcement groups in Laredo. There were several--I have four 
enforcement groups down there. With 20 people leaving, that 
really hampers or restricts the number of investigations we 
could conduct.
    Mr. Horn. Well, those individuals are dealing with border 
matters, aren't they?
    Mr. Howard. No, sir, they're not.
    Mr. Horn. What is the range of geography that they would be 
looking at big drug deals then?
    Mr. Howard. We have investigations that are not only local 
impact cases, but they're national cases and international 
cases. Without going into specific cases, we have an 
investigation going on there now that is an international case 
involving several countries and many, many cities in the United 
States.
    Mr. Horn. Well, getting back to this particular situation, 
you mentioned that they gave approval of leads and so forth to 
the assistant special agent in charge.
    Mr. Howard. Associate SAC, yes, sir.
    Mr. Horn. Is it called associate?
    Mr. Howard. Yes, sir.
    Mr. Horn. Did they ever go to them and say, we want to 
lead--we want to follow it up?
    Mr. Howard. I don't know.
    Mr. Horn. So, then, the realistic thing of this is 
everything stopped once you came in and said, we're out of it, 
or whatever. And it just seems to me did the Houston police 
pick that up?
    Mr. Howard. Did they pick up the investigation?
    Mr. Horn. Yeah, the investigation.
    Mr. Howard. I don't know.
    Mr. Horn. So it's just sitting out there.
    Mr. Howard. Mr. Horn, I don't know what the Houston Police 
Department Narcotic Unit--I don't know what they're 
investigating. I have no way of knowing.
    Mr. Horn. Well, we've poured millions into DEA.
    Mr. Howard. Yes, sir.
    Mr. Horn. So I'm really upset when I hear 20 agents are 
pulled out of a very hot situation in Laredo and things like 
this with one letter from a Member of Congress. I was in a 
Cabinet office for years, and I would be curious if the 
Attorney General personally read that and then referred it Mr. 
Gamble, to your organization. Is that what happened?
    Mr. Gamble. That is what happened. That's what I understand 
happened.
    Mr. Horn. How long did it take from the August 20--isn't it 
on the thing? How long did it take that to get down to your 
office?
    Mr. Gamble. I don't know the exact time, but I know----
    Mr. Horn. I will tell you in a bureaucracy there is a date 
stamp on everything, and I would think your office has a date 
stamp. And I would be curious how long did it take to go from 
the Attorney General of the United States down to you. And did 
you--did they have any directions to give you with that, 
whether this was a friend of the Attorney General or whoever; 
did you get any directions from the Attorney General's Office? 
Do you even know she saw it, or was it one of her 11 political 
appointees up there?
    Mr. Gamble. I don't have any information about that. I was 
not the chief inspector during that time.
    Mr. Horn. Well, I would like to have, Mr. Chairman, the 
trail of where that letter went and what time was it. I don't 
think most agencies really work very fast when a congressional 
letter comes. Now, I would be--if I was in that situation as 
assistant to the Cabinet officer, I would be very irked when a 
letter from Congress did make certain particular things----
    Mr. Shays. Mr. Horn, if I could point out, 4 days 
afterwards, though, an investigation was commenced in that 
Congressman's office with an OPR interrogating the very 
individual who was being investigated for potential crimes.
    Ms. Jackson Lee, let me just defer to our member of the 
committee, and then we will come to you. You will get equal 
time, it's just in terms of order.
    Mr. Horn. I will finish my minutes. How many minutes do I 
have there?
    Mr. Shays. Your red light was on, unfortunately.
    Mr. Horn. OK.
    Mr. Shays. You will be able to come back for another 5 
minutes.
    Mr. LaTourette.
    Mr. LaTourette. Mr. Horn, would you like a couple minutes?
    Mr. Horn. No, go ahead. I just want to pick up on the 
routine here, and I'm assuming that you would do that.
    Mr. LaTourette. I did have in my notes, gentlemen, the time 
indications that Mr. Horn was just talking about, and I think 
when we were talking to Mr. Howard yesterday, he indicated that 
you received the letter on August 20--I mean, the letter dated 
August 20 came to your attention August 20; isn't that what you 
told me yesterday?
    Mr. Howard. I believe that was the date, yes, sir. I have 
not gone back and looked, but I believe that was the same date 
that I was notified.
    Mr. LaTourette. And so we have a letter, thanks to Mr. 
Horn's question, that comes in to the Attorney General, makes 
it to somebody else, and makes it to you all in the same day. 
We also indicated that the letter is dated the 20th, and it 
didn't go through the mail, so it was faxed. So this letter not 
only had a pretty direct route through our government, but 
then, as Mr. Horn indicated, on August 24th there is an 
interview in a Member of Congress' office with a fellow who is 
the subject of a Federal drug investigation for 8 years. 
Anybody in your lengthy careers ever experience anything like 
that fact pattern before? You ever seen anything like that 
before?
    Mr. Mercado, you ever see anything like that before?
    Mr. Mercado. Sir, I receive requests from Congress which we 
respond immediately on several occasions.
    Mr. LaTourette. OK. Well, let me ask you now about the fact 
that this complaint turned out to be baseless except for the 
reprimand on the basis of mishandling of a piece of evidence or 
a piece of private property, the medallion, where there was a 
reprimand. But at the end of the day, this complaint by this 
individual in Houston was found to be without merit. It took 14 
months to reach that conclusion. Can anybody tell me why, if 
you move so expeditiously to consider the complaint including 
interviewing the fellow making the complaint 4 days after it 
was received, what the heck took 14 months to sort it out?
    Mr. Gamble. What I understand is there were 37 witnesses to 
be interviewed, some of which were not readily available, some 
of which we never got to interview and we just made a 
determination they were not going to make themselves available. 
And it was not all people within DEA that we would have access 
to that we could have compelled to come and have an interview. 
So it's just the investigative process, it just took a long 
time.
    Mr. Howard. Mr. LaTourette, one additional comment that you 
might need to know, too. Also during the process of the OPR 
investigation, there was a member of that group, group four, 
who also said that the allegations did happen, so that did 
occur, which resulted in him----
    Mr. LaTourette. Let me bounce this off you. You're all 
experienced law enforcement officers. Here you have an 
investigation that was laying dormant since 1995. Mr. Howard 
comes into Houston and he says, we really ought to take a look 
at this because anybody who is able to move $1 million in the 
trunk--of cocaine--in the trunk of a car is someone worthy of 
our Federal attention, and thanks to your good work, Mr. 
Howard, and the good work of Mr. Schumacher and the HPD 
officers, 20 arrests are occasioned, indictments up, 
convictions go, and you work your way up to the No. 3 man, as I 
understand, in this organization. That's how Mr. McCarter has 
been described; is that right?
    Mr. Howard. Yes, sir. But can I explain how this 
investigation is in chronological order or really in order of 
what we do in Houston?
    Mr. LaTourette. I also understand your observation that the 
RICO case or a conspiracy case can be brought today tomorrow or 
anything else.
    Mr. Howard. Yes, sir.
    Mr. LaTourette. But what you have after you get to the No. 
3 man--maybe you can explain it to me. If I'm the No. 1 man, I 
see you worked your way up my organization, you come to No. 3, 
and if I can convince somebody--and you said it didn't have to 
be a Member of Congress, it can be any citizen--to send you a 
letter or apparently the Attorney General a letter saying there 
is racial going on or some other violation of the law, as 
alleged that for 14 months, which is the effect of the 
suspension, and if I read Mr. Nims's letter and we don't get 
into this thing called--Mr. Nims said you suspended it.
    Well, that simple filing of a complaint when you're this 
close you're nipping at the heels of Mr. Big, you can cause the 
suspension of a Federal drug investigation of someone who has, 
at least according to your information, a pretty big sway down 
in the Houston area of poisoning their children at least with 
cocaine, but for 14 months--so while you're right that you can 
come back and do a RICO case any time you want, the 
confidential informants and others who have helped you get 
information on this organization, they've not only seen one 
investigation called off for political pressure, as was the 
quotation, but Officer Chaison testified this was the second 
time that this fellow went to his friends and said, they're 
being mean to me, or they're violating something, and it was 
the second time. So how many times are these confidential 
informants going to have faith in you all that you're going to 
stand up for them and not take a walk the next time a complaint 
is made? And I welcome any comments you have.
    Mr. Howard. First of all, this local impact case is not Mr. 
Big. It is a local impact target. It is not a major case that 
we get involved in in Houston. We are a target-rich 
environment. We had reached--as far as what I was told, we had 
reached a stalemate on going any further pending the 
cooperation of two people. That's what I was repeatedly told. I 
know at that time nothing can be done with these two 
individuals. We can go back at any time and go to grand jury, 
as Mr. Nims had said. This is not a major investigation. It's a 
local impact case.
    Mr. LaTourette. Well, with the indulgence of the Chair, in 
Ohio where I'm from, a guy that can move $1 million of cocaine 
in a trunk is an amazing case.
    Mr. Howard. We seize 1,000 kilos or 1,000 pounds of cocaine 
or marijuana every month in my division. That's a lot more than 
76.
    Mr. LaTourette. How many kilos of cocaine was Rap-A-Lot 
moving, according to the information that you've received?
    Mr. Howard. I don't know. I couldn't tell you off the top 
of my head.
    Mr. Shays. Thank you.
    Ms. Jackson Lee, you have 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Shays.
    Again, coming to the microphone, let me thank again the 
ranking member and the chairman. I think it's important here, 
as I indicated, as a member of the House Judiciary Committee 
and in the oversight of the DEA, Mr. Howard, to thank you very 
much for the leadership you have given, the danger that you 
have put yourself in place or in front of along with your 
agents in our area and across the country. I think it's 
important. The knowledge and respect that I have for the 
Houston Police Department, I frankly believe that our community 
is safer for some of the excellent work that has been done by 
DEA agents.
    I am particularly glad that you clarified my colleague's 
question about the fact that you have a lot of big fish that 
you have caught and still are looking toward. Is that my 
understanding? You have major operations that are going on?
    Mr. Howard. That's correct.
    Ms. Jackson Lee. And in the scheme of things, though I am 
ready to get rid of any that were threatening our lives as it 
relates to drug usage, that in the scheme of things this does 
not--or this series of investigations at least, I understand 
your words, is not one of those major targets, but it is a 
target. Is that my understanding?
    Mr. Howard. That's very correct.
    Ms. Jackson-Lee. My legal knowledge suggests that 
conspiracy has no statute of limitations?
    Mr. Howard. That is correct.
    Ms. Jackson-Lee. And today, tomorrow, you can bring an 
action?
    Mr. Howard. That's correct.
    Ms. Jackson-Lee. I want to acknowledge Mr. Nims's point of 
view that he understood that Sergeant Stephens had been under 
pressure for some time for he and his squad to return to the 
HPD, so they were headed back, their resources were needed?
    Mr. Howard. Yes.
    Ms. Jackson-Lee. You indicated that you had been on 3 weeks 
of travel, and I know--being a manager and having to worry 
about people being pulled from investigations, would you have 
considered yourself under office pressure to make sure that 
things were balanced?
    Mr. Howard. When I came back on that Monday, I had the 
normal 2 weeks of inbox. There are a lot of things that you 
have to do in a short period of time.
    Ms. Jackson-Lee. A lot of decisions?
    Mr. Howard. A lot of decisions.
    Ms. Jackson-Lee. Let me refer you to some conversations, so 
I can see whether--maybe you were talking to one group when you 
thought you were talking to another.
    You think you and Mr. Nims talked shortly after you talked 
to the officers in the bay. I am wondering, given the 
discrepancies in your recollection and the other officers', if 
you might be mixing the conversations. You need to think about 
it.
    Is it possible, for instance, that you used the phrase 
``proactive'' with Mr. Nims and maybe not the officers? Is it 
possible that you used shorthand phrases when talking with the 
officers that might account for differences in interpretation?
    Mr. Howard. I can't tell you word for word what I said. I 
was trying to make it as short, but still get the meaning out 
to the officers because I was frustrated, as well; I knew that 
they were totally demoralized at that point.
    Ms. Jackson-Lee. How long have you been a DEA agent?
    Mr. Howard. Since December 26, 1973. I have had 12 
transfers.
    Ms. Jackson-Lee. Have real commitment to your work?
    Mr. Howard. I took a cut in pay to come on this job. I was 
a Vietnam vet. I wanted to work in a problem area or with kids. 
I certainly consider this a problem area. I have been 
transferred because I have had my life threatened in the past.
    Ms. Jackson-Lee. Wouldn't be part of any cover up?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. Don't consider yourself weak-kneed?
    Mr. Howard. This is my last year on this job, and I am 
disturbed about my name being in the press. Everything that I 
say, it is like I am being told I am a liar.
    I know what the truth is. My integrity has been out there 
in these papers almost weekly since October. I know what the 
truth is here and I know what I did and what I didn't do.
    Ms. Jackson-Lee. So, as I said, I am concerned about that 
as well, Mr. Howard. So this term that you could have used, the 
phrase ``proactive'' with Mr. Nims and not the officers, you 
may have used it with Mr. Nims and not the officers?
    Mr. Howard. That is very possible.
    Ms. Jackson-Lee. Did you get a direct call from the 
Attorney General of the United States to tell you to stop this 
case?
    Mr. Howard. No, ma'am, I did not.
    Ms. Jackson-Lee. Did you get a direct call from anyone to 
stop this case?
    Mr. Howard. I have never been told to stop this case by 
anyone.
    Ms. Jackson-Lee. Do you have a concept of what you meant by 
``political?''
    Mr. Howard. I was talking about the total environment, the 
press, the OPR investigation, just everything going on. 
Everything is political. Everything involving our job is 
political. It has ramifications on the community. It has 
ramifications on the agents and officers who work these cases. 
It has ramifications on the laws and throughout our society. 
That is all political as far as I am concerned.
    Ms. Jackson-Lee. Mr. Howard, I assume, Mr. Gamble and Mr. 
Mercado and Mr. Howard, you are under oath?
    Mr. Howard. Yes, ma'am.
    Ms. Jackson-Lee. And as you have indicated when you 
explained the word ``political,'' you have given us the truth?
    Mr. Howard. I have given you the truth.
    Ms. Jackson-Lee. Do you know Dr. Ralph Douglas West 
personally?
    Mr. Howard. Yes.
    Ms. Jackson-Lee. Do you have any cause to have invited him 
in for any questioning about any involvement in any activities 
that would have been illegal or untoward.
    Mr. Howard. No, ma'am, I have not.
    Ms. Jackson-Lee. Is he a respected person in our community?
    Mr. Howard. Very much so.
    Ms. Jackson-Lee. Is his church a well-known church?
    Mr. Howard. Yes, ma'am.
    Ms. Jackson-Lee. Would you presume it unlikely that people 
of stature would want to come and worship at his church?
    Mr. Howard. I believe anybody in the community would go to 
his church.
    Ms. Jackson-Lee. Did you get any calls from the Vice 
President or his assistants talking about this particular case?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. Do you have any knowledge that the Vice 
President had any influence about your decision?
    Mr. Howard. No, ma'am, he did not.
    Ms. Jackson-Lee. Mr. Howard, knowing the outstanding 
leadership of Pastor West and his church, do you have any 
reason to know why he is in the press or being speculated to be 
involved in any way in these activities?
    Mr. Howard. Only because somebody goes to his church. That 
is the only reason. There is no other reason.
    Ms. Jackson-Lee. You saw no reason to pursue him or his 
church members?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. And you believe in God?
    Mr. Howard. Yes.
    Ms. Jackson-Lee. And you believe in rebirth and the right 
for people to attend church?
    Mr. Howard. I go to Brentwood.
    Ms. Jackson-Lee. I am quite aware of the leadership of that 
church.
    Mr. Chairman, you have been so kind again with the emphasis 
for the work that these individuals do; and whatever we can do 
to add to the protection of their lives, let us do so, and 
conclude as well that we as Members of Congress have our 
responsibilities. And I would hope, Mr. Howard and others that 
you know, that whatever we do, we do not do it in the intent to 
do anything but represent the constituents and issues that we 
have the responsibility for.
    We thank you for your service.
    Mr. Howard. Yes, ma'am, thank you.
    Mr. Shays. Thank you, Ms. Jackson-Lee for your presence 
here. It has been very helpful. I am going to yield myself time 
and try to cover a few different points.
    First, Mr. Howard, I believe you to be a very honorable man 
and have a distinguished service, and any time someone can 
point out that they served in Vietnam they should--and they 
should be congratulated for that.
    But we are here for things that you did that frustrate you, 
but also frustrate the committee. We didn't write the e-mails; 
you did. We didn't say, ``I understand that the situation 
involving Rap-A-Lot, a.k.a. James Prince, has gotten worse. To 
eliminate any further difficulty in this matter, I have decided 
that the Eastern Division will curtail any enforcement action 
against this subject. At any rate, it is over, and we are 
closing our case on Mr. Prince.''
    I didn't write that; you did. I didn't write, nor anybody 
up here or any of the people before, ``Now we bow down to the 
political pressure anyway. If I had known this, I would never 
have brought Jack in the case, nor would I have even pursued 
it. But it is over now. The Houston Division will terminate all 
active investigation of Rap-A-Lot except for those persons who 
have already been arrested and indicted.''
    That is what you did. So be frustrated and we understand 
your frustrations; but you wrote this, and because you wrote 
it, we are here today. Had you not written it we might not be 
here today.
    Mr. Howard. I agree.
    Mr. Shays. Had you put other officers on active 
investigation instead of putting this on a stall for 14 months, 
we might not have been here. I mean, so those are the realities 
of it.
    Yesterday was not a good day for the DEA. It was not a good 
day for a whole host of reasons. It wasn't a good day in part, 
Mr. Gamble, because it is clear that someone can put political 
pressure on the DEA, and that someone can be the subject of an 
investigation and then you will allow it, the DEA will allow 
it, to be suspended, and good men and women for 14 months are 
under a cloud. Why the hell it should take 14 months is beyond 
me, especially when the discovery and the determination was 
made in March, and from March until October, incidentally, only 
when people started to focus on it, did we then learn that the 
March clearing was going to be valid.
    Yesterday, Mr. Waxman began these hearings asking that we 
not complicate or undermine the Inspector General's 
investigation of this case. I don't think that we have. What 
has become clear to me over the past 2 days is how easy it is 
for the target of a DEA investigation to complicate and 
undermine that investigation.
    All a criminal target needs to do is lodge a complaint or 
ask a Member of Congress to lodge a complaint against a DEA 
agent; isn't that correct, Mr. Howard?
    Mr. Howard. No, sir, that is not true. If I had known there 
were additional leads, other agents would have been put on that 
case. I didn't know that there were additional leads.
    Mr. Shays. Well, shame on you for that.
    Mr. Howard. I was never told by the GS that there were 
additional leads.
    Mr. Shays. If it was your testimony that the Rap-A-Lot case 
was stalled, or suspended anyway, pending the two key witnesses 
in custody helping, why were you so frustrated in September and 
in the March vetting e-mails about having to suspend the 
proactive aspect of the case if you have just said what you 
said? Why be frustrated? There were leads.
    Mr. Howard. Why was I frustrated in March?
    Mr. Shays. September you were frustrated.
    Mr. Howard. I was frustrated in September about the 
allegations.
    Mr. Shays. But not frustrated that you had to suspend the 
investigation?
    Mr. Howard. I was the one that brought Jack Schumacher into 
this situation. I solely, nobody else, brought Jack Schumacher 
into the situation. He is being named as doing improper----
    Mr. Shays. Mr. Howard, if the target of an investigation 
had not successfully gotten DEA to do an investigation, an OPR 
investigation, would you have suspended this case?
    Mr. Howard. No, sir, I would not have done anything.
    Mr. Shays. You wouldn't have, so the case would have 
continued. Right?
    Mr. Howard. Yes, sir.
    Mr. Shays. It would have continued and been an active case, 
a proactive case?
    Mr. Howard. Yes, sir.
    Mr. Shays. So let's not get into these mindless games of 
saying that there was no reason to continue. There was every 
reason to continue. The only reason you suspended it was the 
criminal in the case, the target in the case, succeeded in 
getting DEA to do an OPR investigation. That is the only reason 
why you suspended this case; isn't that correct?
    Mr. Howard. Yes, sir.
    Mr. Shays. Now give me your explanation.
    Mr. Howard. As far as what I was being told by Mr. 
Schumacher and also by the group supervisor, Mr. Nims, the only 
leads, everything hinged on the cooperation of two individuals. 
That is all I can go on is what I was told.
    Mr. Shays. Why not followup with the IRS?
    Mr. Howard. I asked the IRS SAC to get involved in the 
investigation. He told me that they had already looked at this 
case several times. There was nothing there.
    Mr. Shays. Who is he?
    Mr. Howard. The SAC of IRS.
    Mr. Shays. Special Agent----
    Mr. Howard. His first name is Jack, Special Agent in 
Charge.
    Mr. Shays. So you thought there were some leads?
    Mr. Howard. No, sir. I was asked by the supervisor, Jim 
Nims, to ask the SAC of IRS, would he have his people come over 
and look.
    Mr. Shays. So you were asked to ask the IRS to come over?
    Mr. Howard. I didn't review the case file.
    Mr. Shays. How persuasive could you be to IRS if you hadn't 
read the case, to ask the IRS to come get involved?
    Mr. Howard. Mr. Shays, I do not review case files. I have 
hundreds of cases open.
    Mr. Shays. A gigantic interest in this case would occur to 
me if I were in your shoes if the subject of the investigation 
was the one that succeeded in getting the investigation 
suspended. I would drop everything else and I would go into it 
overtime because once you let the subject of an investigation 
suspend a case, you are dead.
    Mr. Ose, you have 5 minutes.
    Mr. Ose. Thank you, Mr. Shays.
    Mr. Gamble, we talked yesterday about the 121 cases in the 
first quarter of this year that OPR is dealing with, and I 
asked how many have resulted in the stoppage of an inquiry or 
removal of agents from active investigation; and I think you 
were going to get back to us with that information today.
    Mr. Gamble. Yes, sir.
    Mr. Ose. Do you have that information?
    Mr. Gamble. Yes.
    In 1998, we had a total of 248 investigations that we 
conducted; 37 mandated that people be removed from the job, 
taken off, out of the office and not able to perform any 
duties, two of which were put on limited duty, meaning put in 
another assignment other than the job that they were in. Six 
resulted in indefinite suspensions and 13 terminations.
    Then we go to 1999 and we had 314 investigations that were 
conducted, 37 of which again individuals were placed on 
administrative leave, which means that they were not able to 
come to work and perform any of their official duties. Seven 
were placed in limited duty status, 10 were indefinite 
suspensions and 17 were terminations.
    And then fiscal year 2000, 366 investigations were 
conducted, 31 of which were placed on administrative leave, 9 
in limited duty status, 6 were placed on indefinite suspension 
and 33 were terminations.
    If I can just--Mr. Shays pointed out the 14 months. It took 
us 7 months to conduct our phase of the investigation, which 
ran from August 24 through March 29. Once we conduct our fact-
finding, it then goes to another board of review which all of 
these cases go to, in which all of them have to be reviewed; 
and they look at them in terms of priority. Some are more 
serious than others, and that is something not under my 
purview. I don't know how they do their workload.
    From there it goes to a deciding official who supports the 
action that is being proposed.
    Mr. Ose. Is it my understanding--I want to make sure that I 
have this correct--that the allegation that was made by Mr. 
Prince was judged at the end of this process to be without 
merit?
    Mr. Gamble. It was in the case of Mr. Schumacher, yes. And 
in the case of Mr. Chad Scott, there was a letter of reprimand.
    Mr. Ose. So Schumacher, there was no letter of reprimand, 
nothing?
    Mr. Gamble. He got a letter of clearance.
    Mr. Ose. And Chad Scott got a reprimand?
    Mr. Shays. A letter of reprimand, not on racial profiling?
    Mr. Gamble. The initial allegation was harassment, civil 
rights violation, illegal seizure and conduct unbecoming an 
agent. Those were the allegations.
    Mr. Shays. Made by the subject of the investigation?
    Mr. Gamble. Some of them were. The subject didn't say 
``conduct unbecoming''; that is something that we determined 
when we looked at the merits of the allegation. They wouldn't 
know what that is. So that was a phrase that we put in there. I 
mean, that's----
    Mr. Shays. Mr. Gamble, Mr. Jimenez at the deposition said, 
``I just want to put it on the record that we feel that the 
information provided by Mr. Prince is insufficient at this 
point for us to--you know, we will take a look at it, but it 
does not pinpoint any civil rights violation. It is not 
identified, specific acts of wrongdoing of DEA agents and so 
on.'' That was the deposition taken by the person who brought 
the charge.
    So tell me how you get from there to there?
    Mr. Gamble. From?
    Mr. Shays. Tell me, how do you pursue a case when the 
initial deposition of the person making the charge has no 
validity?
    Mr. Gamble. I don't know what all--here again, I was not 
the chief inspector at that time. The only thing I know is the 
information that----
    Mr. Shays. I just was trying to clarify one point. The 
letter of reprimand happened to be a medallion?
    Mr. Gamble. Yes, sir.
    Mr. Shays. Taking a medallion and not reporting it. That 
was the extent of the reprimand, correct?
    Mr. Gamble. To my knowledge, yes.
    Mr. Ose. Reclaiming my time, given the OPR investigations, 
how many of these cases in these respective years ended up in 
the termination of an active investigation?
    Mr. Gamble. None, to my knowledge.
    Mr. Ose. Zero?
    Mr. Gamble. None.
    Mr. Ose. Except for this one? This one with Mr. Prince was 
the only one where you could conceivably draw a line which led 
to the termination of an investigation?
    Mr. Gamble. Here again there are two separate things. There 
is the OPR matter and the operation matter. I am responsible 
for conducting the allegations against employees for violations 
of our standards of conduct. That is all I know. That is all we 
do.
    The consequences of that, an individual being removed or 
other disciplinary action being taken against an individual, I 
don't know how to translate into----
    Mr. Ose. As it relates to Mr. Smith.
    Mr. Gamble. As it relates to any ongoing investigation.
    Mr. Ose. In terms of the ones that you cited here, am I 
correct in understanding your testimony that none of these 
investigations resulted in the ending of an active 
investigation?
    Mr. Gamble. I wouldn't have that knowledge. I wouldn't know 
that. I don't think they would have. This is about the 
individual, it is not about--and it is about the individual and 
the individual's conduct in the performance of his duties. I 
wouldn't know and I wouldn't think that translated into the 
termination of an investigation.
    Mr. Ose. My time is up.
    Mr. Burton. You are saying, no investigation of an agent, 
to your knowledge, had terminated an active, ongoing 
investigation of a subject out there in the field?
    Mr. Gamble. That's true.
    Mr. Burton. Is that what you wanted to know, Mr. Ose?
    Mr. Ose. Would you chairman repeat his comment.
    Mr. Burton. What I said was, no investigation of an active 
agent for misconduct, to his knowledge, ever resulted in the 
termination of an active ongoing investigation in the field.
    Mr. Ose. You are far more eloquent than I.
    Mr. Burton. I know. Doesn't it scare you sometimes?
    Mr. Ose. I do have one question of Mr. Mercado.
    Mr. Mercado, you are No. 2 at DEA. Can you recall any other 
case where an active inquiry was ended in this fashion?
    Mr. Mercado. No, sir. We have had allegations, but we have 
had to hold an investigation pending an outcome. We have one in 
progress that is pending the end of the OPR investigation 
before we can continue.
    Mr. Ose. Where the agent has been removed, but the 
investigation is continuing?
    Mr. Mercado. Because of the nature of the investigation, 
the investigation is on hold and both agents have been put on 
leave pending the investigation.
    Mr. Ose. But you know of none that have been terminated?
    Mr. Mercado. None have been terminated.
    Mr. Ose. And you have been with DEA----
    Mr. Mercado. Over 22 years.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Is a Member of Congress the agitator for this 
particular case or is it like this one?
    Mr. Mercado. No, this was an internal investigation, sir.
    Mr. Burton. I believe we have a few more questions of this 
panel, and I would like to wrap this up as quickly as possible 
because of time constraints.
    We want to bring Mr. Marshall out, the DEA administrator.
    Mr. Horn. Just to wind it up, Mr. Gamble, you mentioned 
local politics in regard to your response yesterday to a 
question. You said that you told Mr. Howard that he had to deal 
with his local politics and you had to deal with yours. What 
were the local politics that you had to deal with at the Drug 
Enforcement Agency?
    Mr. Gamble. Office politics. There are a lot of competing--
we are asked to do a lot of things with limited resources. We 
have--you know, as I indicated, the total number of OPR 
investigations going on, we only have 52 agents to do these. 
How do they get done? So there are a lot of things----
    Mr. Horn. How it gets done is when the powers that be in 
your agency talk to the budget people at the Department of 
Justice to get the resources you need.
    Mr. Gamble. Yes, sir.
    Mr. Horn. Well, I mean, you know, when you talk about local 
politics, you are using Speaker O'Neill's great quote.
    Mr. Gamble. That's true.
    Mr. Horn. That is the most overworked phrase we have in 
this building.
    You heard about the 20 people from Laredo; that was 
upsetting Mr. Howard. I don't blame him. He mentioned also that 
this case, I think germs of it, Mr. Howard, between 1992 and 
1997, wasn't going anywhere; isn't that correct, what you said? 
And then you put Mr. Schumacher in charge, and things started 
to happen?
    Mr. Howard. There were very little things going on prior to 
1998, yes, sir.
    Mr. Horn. But it started in 1992; is that not right?
    Mr. Howard. That's correct.
    Mr. Horn. Was that because they didn't have the resources 
or the leadership?
    Mr. Howard. I wasn't there in 1992. I didn't go there until 
1995, so I don't know.
    Mr. Horn. What made you then recommend that we need to 
focus on this issue?
    Mr. Howard. Because the investigation was open since 1992. 
When I got briefed it was 1997. I got briefed with the Houston 
Police Department and various other agencies. The investigation 
was assigned at that time to my HIDTA task force, and no 
progress had been made over the past 5 or 6 years. I wanted to 
see, should the investigation be closed or pursue the 
investigation. That is when I brought it up to group four.
    Mr. Horn. When you talked to the team that was working on 
it and said it was going to shut down, who was ahead of you in 
the hierarchy? To whom did you report at that time?
    Mr. Howard. In Houston I don't report to anybody.
    Mr. Horn. Never?
    Mr. Howard. In Houston?
    Mr. Horn. In Houston, who is the person that signs your 
paycheck?
    Mr. Howard. Operational, at that time it was Richard Fiano, 
chief of operations.
    Mr. Horn. He is positioned where, in Houston?
    Mr. Howard. In Washington.
    Mr. Horn. What would his title be?
    Mr. Howard. Chief of operations.
    Mr. Horn. Did he tell you to close it down?
    Mr. Howard. No, sir.
    Mr. Horn. Who told you? Is there a little tooth fairy up 
there that says, close it down?
    Mr. Howard. Nobody told me to close this investigation 
down, Mr. Horn. Nobody has ever told me to close this 
investigation down.
    Mr. Horn. Well, either it was going to evaporate or the 
personnel were going to go somewhere else, but what else could 
it be when you've had five members discuss this with you and--
on the staffing and all. They had staff at that time. They were 
ready to do something, and then you said, close it down, and if 
there is something to be done, talk to the Associate Special 
Agent in Charge; is that right?
    Mr. Howard. That's correct.
    Mr. Horn. So you are the one and you are taking the heat 
for all of these people, is what frankly a lot of us----
    Mr. Howard. I am not taking any heat. I am telling the 
truth. Nobody ever told me to close this investigation down. I 
closed the private part of the investigation down because I was 
concerned about my people. I was concerned about the 
allegations that were going on involving my people. Further, I 
was concerned about if the allegations were true, they were 
true against minority people in my city.
    I know what police brutality is. I know what driving while 
Black is. I have had it happen to me before. I am sensitive to 
that, and I am sensitive to the idea that I brought Jack 
Schumacher in this investigation. I feel responsible to him for 
having put him in this situation.
    Mr. Horn. Is it your knowledge of Ms. Waters' letter to the 
Attorney General?
    Mr. Howard. Excuse me?
    Mr. Horn. When you closed this operation down, was it based 
strictly on Representative Waters' letter to the Attorney 
General?
    Mr. Howard. It was on the allegations, sir.
    Mr. Burton. The gentleman's time has expired.
    Let me make one comment. If there was an allegation of 
racial profiling, if there was an indication of illegal 
activities, beatings or whatever, you knew that this was a very 
important investigation.
    Why did you not put somebody else on the case? Why did you 
not replace Mr. Schumacher and replace the Houston Police 
Department? Nothing was done.
    Mr. Howard. Mr. Chairman, I have never been told there were 
any more leads. First of all, this is a local impact 
investigation. This is not a major investigation in the scheme 
of things in Houston, TX.
    Mr. Burton. Thank you. We have heard that before. We heard 
just the opposite from the law enforcement officers from 
Houston and Mr. Schumacher. Thank you.
    Mr. Shays.
    Mr. Shays. Someone asked you to close down the case or at 
least not make it proactive; and the person who asked you, 
using the instrument of a Member of Congress, was Mr. Prince, 
who was the target of the investigation. That is the fact.
    And the fact is yesterday you gentlemen left me with the 
impression if there is OPR, we take them off the case. That is 
the fact. You said that was standard practice.
    And, Mr. Gamble, you have given us statistics today that 
show us that isn't standard practice. You have given us 
statistics today that show us 20 percent of the people who are 
going to have an OPR are taken off the case. That is what you 
have done. So what I learned yesterday is different from what I 
learned today.
    Mr. Gamble. These are all employees of DEA, not agents 
necessarily. They are all employees of DEA. And I--if that is 
what you understood yesterday, that is not what I was 
indicating.
    Mr. Shays. So it isn't the practice to take someone off the 
case if there is an OPR.
    Mr. Gamble. That is not the practice.
    Let me indicate----
    Mr. Shays. That is not the practice?
    Mr. Gamble. That is not.
    Mr. Shays. If it is not the practice which we thought it 
was yesterday and accepted it and now we learn that it is not 
the practice, that is why we want to know why they in 
particular were taken off the case. Particularly when your 
predecessor said there really is nothing substantial, Mr. 
Prince, that we have heard about your complaint? He said it in 
front of a Member of Congress.
    Tell me these statistics. Tell me how many times when the 
person making the complaint is the target of the investigation 
that you all have mindlessly acquiesced and taken them off the 
case? Tell me who?
    Tell me another example of someone who is the target of an 
investigation who can go to a Member of Congress and get a 
Member of Congress to ask for an investigation, or even not go 
to a Member of Congress, because as you pointed out it is 
irrelevant whether it is a Member of Congress? Tell me?
    Mr. Gamble. I can't recall.
    Mr. Shays. No. This might be the first time.
    Mr. Mercado, tell me? Tell me an example of when a target 
of an investigation has gotten you to take the agents off and 
stop the proactive investigation of the case?
    Mr. Mercado. I don't recall one, sir.
    Mr. Gamble. Mr. Shays, if I can say why in my conversation 
with Mr. Howard, why I thought that Jack Schumacher should be 
taken out of the enforcement arena pending completion of the 
OPR investigation, and it was based on the fact that there 
was--in light of some of the things that----
    Mr. Shays. Finish the sentence. There was a what?
    Mr. Gamble. He had 19 allegations when he was with the 
Houston PD and disciplinary actions over a 6-year period of 
time. Since coming with DEA in 1994, there were several 
allegations that were reported, conduct unbecoming.
    Mr. Shays. And how were they resolved?
    Mr. Gamble. Most of them were in a letter of caution. But 
there was--unjustified or a letter of caution.
    Mr. Shays. Let's put it on the record.
    Mr. Gamble. So my concern----
    Mr. Shays. No, no, no. Tell me exactly. Tell me why you 
decided to take him off specifically?
    Mr. Gamble. Yes. I am specifically looking at what was 
going--the ongoing OPR matter, looking at his prior history of 
conduct, and the issues that were raised about civil rights 
violations that had gone to the Department. We had not heard 
whether it was----
    Mr. Shays. Had he had any other case before the complaint 
about a civil rights violation?
    Mr. Gamble. Since coming to DEA, no.
    Mr. Shays. How many years has he been at DEA?
    Mr. Gamble. Thirteen years.
    Mr. Shays. For 13 years. Was this not a civil rights 
complaint?
    Mr. Gamble. We reported to the----
    Mr. Shays. Was it a civil rights complaint?
    Mr. Gamble. Was it?
    Mr. Shays. What was Mr. Prince alleging, a civil rights 
complaint, isn't that true?
    Mr. Gamble. In the letter, yes.
    Mr. Shays. That was his charge. He went to the head of the 
Black Caucus who then contacted the Attorney General. Is there 
any case against Mr. Schumacher preceding this that involves 
civil rights?
    Mr. Gamble. Not to my knowledge, no.
    Mr. Shays. Right. So tell me why, if that was the complaint 
and he had no previous one, why you would have taken him off?
    Mr. Gamble. Because I was concerned, one, about safety. 
There were a lot of issues there about threats, and we have 
heard a lot of testimony about threats. I was concerned about 
his safety and whether or not someone would seek an opportunity 
to put him in a situation where he could be hurt or hurt----
    Mr. Shays. Because the person making the charge--who made 
the charge, Mr. Gamble?
    Mr. Gamble. The initial allegation came from Mr. Prince.
    Mr. Shays. Was Mr. Prince the target of the investigation?
    Mr. Gamble. I have learned that he is a local impact----
    Mr. Shays. You knew he was the target of the investigation. 
Stop saying local impact. He was the target of the 
investigation, is that not true? Mr. Gamble, is it not true 
that he was the target of the investigation?
    Mr. Gamble. That's what I know. That is what I have now 
learned.
    Mr. Shays. You didn't know it until now?
    Mr. Gamble. I was not in this job until February. We are 
only dealing with the conduct of our agent. I am not concerned 
about----
    Mr. Shays. Mr. Gamble, you do not have to tell me it is 
your fault, but stop giving me excuses for your organization. 
You told me that you took him off the case. I didn't invent 
that, so I think you are involved. If you didn't take him off 
the case, I wouldn't be asking the question. Did you take him 
off the case?
    Mr. Gamble. No, I did not.
    Mr. Shays. Did you recommend that he be taken off?
    Mr. Gamble. I talked about placing him in----
    Mr. Shays. You are involved. So don't wash your hands of 
it. The question that I just want to know is, you recognize the 
person who made the charge was Mr. Prince who was the target of 
an investigation. You have acknowledged that in most cases you 
don't take someone off a case because of an OPR, isn't that 
true?
    Mr. Gamble. That's true.
    Mr. Shays. So we have a lot more questions. I hope, Mr. 
Burton, that it doesn't end today.
    Mr. Burton. Mr. Shays, you can rest assured that we are 
going to follow this diligently as far and as long as it takes.
    I am going to yield to my colleague, but we want to bring 
Administrator Marshall--and some of the members have time 
constraints, as does Mr. Marshall. So, briefly, we would like 
to yield to you.
    Mr. Ose. My question is, having done the OPR investigation 
and clearing Mr. Schumacher, once the investigation was done, 
having cleared Mr. Schumacher, why was he not put back on the 
case? Why was the investigation--excuse me, that is two 
questions. Why was the investigation not continued? I guess 
that would fall to Mr. Howard.
    Mr. Howard. The investigation is still in group four. There 
are leads being investigated as we speak. We started the case 3 
or 4 weeks ago. A new case has been initiated by another member 
of that group.
    Mr. Burton. I think we have pretty much exhausted the 
questions of Mr. Howard.
    Ms. Jackson-Lee, I understand that you have one or two 
questions.
    Ms. Jackson-Lee. I do. Thank you very much.
    As I understand the process and your understanding of it, 
when a Member of Congress wrote a letter to the AG--I asked you 
before, did the AG call you directly?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. And it is your understanding that the AG 
referred it to OPR?
    Mr. Howard. Yes, ma'am.
    Ms. Jackson-Lee. As I read the Member of Congress's letter, 
there is no request in the letter--did you see the letter?
    Mr. Howard. Yes.
    Ms. Jackson-Lee. And there is no request in the letter to 
shut the investigation down?
    Mr. Howard. You are correct.
    Ms. Jackson-Lee. Does it simply ask for an inquiry and 
investigation?
    Mr. Howard. Yes, ma'am.
    Ms. Jackson-Lee. It is important for us who are African 
American or come from the minority community to insist that 
people don't take lightly this concept of racial profiling, 
although we want the truth as well and I appreciate your 
passion on it.
    Has the DEA Administrator indicated to you that you acted 
improperly in this matter?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. Wrongly?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. Have you had that said to you?
    Mr. Howard. I have never been told that I acted improperly.
    Ms. Jackson-Lee. And the Administrator is a pretty straight 
fellow?
    Mr. Howard. Yes, ma'am.
    Ms. Jackson-Lee. Have you heard anything--and I think you 
have been in this hearing room for 2 days?
    Mr. Howard. Yes, ma'am.
    Ms. Jackson-Lee. Have you seen any documentation that there 
has been a $200,000 donation to Mr. Gore from Mr. Prince?
    Mr. Howard. No, ma'am.
    Ms. Jackson-Lee. You have heard nothing in this room today?
    Mr. Howard. I heard it yesterday.
    Ms. Jackson-Lee. Seen any documentation on it?
    Mr. Burton. It was made clear yesterday that was secondhand 
information and it was unsubstantiated. That was given to one 
agent, but it was unsubstantiated.
    Ms. Jackson-Lee. Thank you for your indulgence, and again 
thank you for your service.
    Mr. Howard. Yes, ma'am.
    Mr. Burton. I understand that we are going to have a vote 
at 2:30; and I would like to get on to the next panel, Mr. 
Marshall. I would like to thank the witnesses. You have been 
very patient.
    I recognize Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    I have been sitting here and something is missing. Let me 
ask you a few questions, Mr. Gamble.
    Did you have an opportunity to look into Mr. Schumacher's 
background?
    Mr. Gamble. Yes, I did.
    Mr. Cummings. What did you find?
    Mr. Gamble. Disciplinary actions, that would be the only 
thing that I would be concerned with. While he was with the 
Houston Police Department, there were 19 allegations, 
complaints filed against him, and four since he has been at 
DEA.
    Mr. Cummings. What about shootings? He seemed to be unclear 
about shootings and killing people.
    Mr. Gamble. There were a total of about eight--just 1 
second and I can tell you.
    There were a total of nine shootings--two, four, six, eight 
with the PD and one with DEA.
    Mr. Cummings. Did they occur in the Houston area?
    Mr. Gamble. Yes.
    Mr. Cummings. Did there a time when you shared the 
information that you just shared with us with Mr. Howard?
    Mr. Gamble. I talked in general. I didn't go into great 
deal. I just said I had a lot of concerns about his safety. I 
did share this with him.
    Mr. Cummings. About whose safety?
    Mr. Gamble. Mr. Schumacher's safety.
    Mr. Cummings. Why?
    Mr. Gamble. And also I was concerned from the agency 
liability standpoint. We have an officer that is out there, 
there is an allegation about harassment, about inappropriate 
conduct at his behest, and I was concerned until this OPR 
matter is resolved that we should safeguard his safety as well 
as that of the agency.
    Mr. Cummings. I knew something was missing. It is becoming 
a little clearer to me----
    Mr. Burton. Mr. Shays, and that will be it.
    Mr. Shays. Mr. Gamble, in March they concluded the 
investigation.
    Mr. Gamble. Yes.
    Mr. Shays. So you knew in March that these were fallacious? 
You had access to the investigative report. The OPR had not 
cleared him.
    Mr. Gamble. To the investigative report.
    Mr. Shays. You had access to the investigative report. It 
was completed by March----
    Mr. Gamble. March 29.
    Mr. Shays. At the point that they clear him in the 
investigation, not the board, cleared him, you decided to 
remove him. I find that very curious.
    Mr. Gamble. No, sir, I think your dates are wrong.
    Mr. Shays. By a few days?
    Mr. Gamble. The OPR investigation concluded March 29. It 
then went to the board of review. We just sent the facts over. 
We just gathered the facts and sent it to the board. We don't 
make a determination on guilt or innocence.
    Mr. Shays. But you know that the facts--if you saw the 
investigative report, would that have substantiated the 
charges?
    Mr. Gamble. That is not for me to say.
    Mr. Shays. Did you look at the report?
    Mr. Gamble. I did.
    Mr. Shays. Did it encourage the board to find him guilty of 
the charges or clear him? Was that information substantiating 
his clearance, his innocence or his guilt? The answer is 
obvious, isn't it?
    Mr. Gamble. No, it is not to me because I am not part of 
that review process. They look at a series of factors that 
determine whether or not----
    Mr. Shays. Is there anything in the investigative report at 
the end that made you disagree with the decision of OPR? The 
review board?
    Mr. Gamble. The review board does issue decisions that I 
disagree with.
    Mr. Shays. That is not what I asked. When you looked at the 
investigative report, was there anything in the investigative 
report that made you disagree with the decision of the review 
board in October which cleared Mr. Schumacher?
    Mr. Gamble. My personal opinion is that I think he should 
have gotten a letter of reprimand at the least.
    Mr. Shays. For what?
    Mr. Gamble. Because he was the case agent that was 
responsible for the matter that we were investigating relative 
to taking the medallion from the officers, taking them back to 
our office, knowing full well that there are certain 
processes----
    Mr. Shays. So there was nothing at all involving the racial 
charge?
    Mr. Gamble. That wasn't a racial charge.
    Mr. Shays. That was the whole argument. Your complaint was 
with the medallion and how he handled the medallion?
    Mr. Gamble. How he handled the DEA evidence, yes, sir.
    Mr. Shays. Thank you.
    Mr. Burton. Mr. Horn.
    Mr. Horn. I am curious, Mr. Gamble, when did you first see 
the Waters' letter? What date did you see that?
    Mr. Gamble. I can't say because I came to this job----
    Mr. Horn. How many months before March 29?
    Mr. Gamble. Several months. Probably in January-February.
    Mr. Horn. And you must have known that Mr. Prince was the 
target of the investigation because the final page of Ms. 
Waters' letter is, ``After listening to Mr. Prince's concerns 
and that of his customers, I suggested that he document his 
torments at the hand of DEA agents and send it to you for your 
perusal.'' Usually when we get a letter like this when we try 
to help someone we would say ``alleged'' torments. It just 
seems to me that it should have been very open that there is a 
game being played here and that individual won the battle.
    Now you are a staff officer, not a line officer, right?
    Mr. Gamble. Yes.
    Mr. Horn. In DEA. And you went to Mr. Howard and gave him 
some of your views on the subject, is that correct?
    Mr. Gamble. On the OPR matter, yes.
    Mr. Horn. He doesn't have to follow your recommendation 
because it hadn't gone to that point yet, you just were 
briefing him, is that correct?
    Mr. Gamble. That's correct.
    Mr. Horn. Mr. Howard, why do you let a staff officer, a 
line officer and a darn good one and a tough one, why do you 
even listen to them? I have had personnel people in my 
organization, I say, gee, that is an interesting thing. Why 
didn't you write up a nice memo on that or something? But you 
don't let them tell you what to do. Would you say that Mr. 
Gamble's information to you led you to this and that is why you 
don't have anybody above you that you checked with?
    Mr. Howard. Mr. Gamble is the chief of inspection. I 
respect his opinion as far as those matters go. His suggestion, 
because he made that recommendation, I took it very highly. I 
thought that it was a reasonable suggestion.
    I was concerned also about Mr. Schumacher. Mr. Schumacher 
could have gone out and been at the grocery store and just so 
happened to run across somebody in this thing and the guy was 
robbing the grocery store. I was worried about Mr. Schumacher. 
I wanted him promoted and put in the safest possible place. It 
sounded like a reasonable request at that time, sir.
    Mr. Horn. It seems to me you should ask Mr. Schumacher if 
he wants to be taken off this; and given the professional that 
he is, I believe he would say, don't tell me, I will take my 
own chances on this. He wasn't doing anything out of order. All 
of the things that she says on racial profiling, not one bit of 
truth is in it.
    Mr. Howard. I did not know that at that time, Mr. Horn.
    Mr. Horn. It just seems to me most line officers call in 
somebody when the personnel types come through the door and say 
tell me about it.
    Mr. Howard. Mr. Gamble is not a personnel type.
    Mr. Horn. I am saying that is the personnel group. They 
don't have line authority at that point in the case. It is 
stringently one staff member's view, and I am amazed you 
wouldn't talk to Mr. Schumacher before making that decision.
    Mr. Howard. No, sir, I would not talk to Mr. Schumacher 
before making that decision.
    Mr. Mercado. Mr. Horn, may I answer?
    Mr. Horn. Sure.
    Mr. Mercado. Mr. Horn, as Deputy Administrator, the staff 
reports to me, and Mr. Gamble and I had discussed it at the 
time. And we felt to protect Mr. Schumacher, protect the 
agency, the best thing was to put him in a nonenforcement group 
until the investigation was completed.
    Mr. Horn. That sounds like a punishment to me. The heat is 
on the important people above, so you stop.
    Mr. Mercado. Sir, I have been doing this for 22 years. 
Sometimes you have to protect your team. At the time we were 
concerned if Mr. Schumacher did get into another shootout, we 
would be here today saying that Mr. Schumacher had shot someone 
or killed someone and we knew about it and we left him in the 
investigation. We were protecting Mr. Schumacher.
    Mr. Burton. Let me just say this is regarding racial 
profiling and a possible civil rights violation. It had nothing 
to do with shooting or anything else, so I don't think that 
argument washes.
    I would like to bring out the head of the DEA, Mr. 
Marshall.
    Mr. Marshall, would you stand and raise your right hand.
    [Witness sworn.]
    Mr. Burton. Do you have an opening statement?
    Mr. Marshall. I have some opening comments.
    Mr. Burton. Make sure your mic is on, please, sir.

     STATEMENT OF DONNIE R. MARSHALL, ADMINISTRATOR, DRUG 
                   ENFORCEMENT ADMINISTRATION

    Mr. Marshall. Mr. Chairman, members of the committee, I 
appreciate the opportunity to appear here today. I wish that I 
could say that it is a pleasure to be here, which most of the 
time it is a pleasure to testify in front of this committee, 
but this has been a difficult time for DEA. It has been a 
difficult time for me, and I am very troubled by this entire 
matter. I want you to know that I am committed to full 
cooperation with the committee, and I have been committed to 
that type of cooperation all along.
    I haven't submitted a prepared formal statement for the 
record, but I do want to just summarize my own personal 
knowledge of these events and my personal involvement in these 
events and then try to answer any questions that the committee 
might have.
    I do want you to know that I am committed to ensuring that 
DEA fights the drug trafficking and drug abuse with all of the 
tools that we have available to us, and some of the most 
important tools that we have are 9,000 courageous and dedicated 
DEA employees and the integrity of those employees and the 
integrity of my agency. In order to preserve the integrity of 
that agency and the public confidence in the agency, we have to 
be objective as an agency and we have to be free of political 
influence.
    I have read a lot of the news accounts of this matter. I 
have seen many of the documents, probably most of the documents 
which have been provided to the committee, and I share many of 
the same concerns that the committee has. That is why I 
requested an inspector general investigation a few weeks ago. 
That is, I sent an independent team to review certain 
investigative issues and to make recommendations to me on those 
matters.
    My overriding goal here is probably not too much unlike the 
committee's. I want to determine whether anybody within DEA 
succumbed to outside pressure in connection with an official 
investigation; and, if so, I want to take appropriate action. 
If not, I want to ensure that the record is correct and 
accurate. Either way, I want to preserve the integrity of DEA 
and our employees.
    Now I would like to summarize my personal involvement in 
the matter.
    I first became aware of the investigation around May or 
June 1999. I am not sure exactly what time it was because I 
don't have notes of that, but it was around the May or June 
1999, timeframe.
    I was briefed on an upcoming trial that was going to be 
taking place in Houston, and that was the investigation in 
which there were 20 or so people arrested and, ultimately, 
there were court cases. I know that there was at least one 
trial in July 1999. It is my recollection that some of those 
defendants were convicted and at least one, my recollection is, 
acquitted.
    I knew that there were some prominent local people who were 
associates of some of those defendants and showed up at at 
least one of those trials. At least one prominent person showed 
up at one of those trials.
    After that timeframe I next heard about this investigation 
on or shortly before August 20, 1999. That day I got a call 
from the Attorney General saying that there was an inquiry 
about this case, that there were allegations that DEA was 
harassing a particular person and that particular person was in 
fear of his life at the hands of DEA.
    Later that day, or later August 20th at least, I saw a 
letter that made those same allegations. That letter was short 
on details, but there was one allegation in there that was 
potentially serious, and I will quote from the letter that the 
individual referred to, quote, believes his life is in danger 
from rogue agents.
    Now, I advised the Attorney General of some of the details 
of that investigation. I wrote the Attorney General a memo 
dated August 20. I believe the committee has a copy of that 
memo. I recommended against briefing that person making the 
inquiry. I recommended against briefing that person on the 
details of that criminal investigation. Rather, I advised for 
us to tell that person that it was simply a legitimate 
investigation supported by credible information.
    I then referred the matter to DEA OPR because of the 
allegations contained in the letter. I have to tell you frankly 
that I did not put much stock in the allegations at that time, 
and there were very few details in that letter. But I will say 
that a referral to OPR is standard procedure in DEA. When we 
receive allegations against our employees, we need to prove or 
disprove those allegations in order to maintain the integrity 
of the agency. The majority of our allegations that we receive, 
approximately 60 to 75 percent depending on which fiscal year 
you are looking at, are cleared as unsubstantiated, but we 
investigate all of the allegations.
    I was briefed periodically on that OPR investigation. I 
discussed--in the early weeks of that investigation, I 
discussed that investigation with my then Chief Inspector Felix 
Jimenez. I discussed it with the SAC of the Houston office, 
Ernie Howard.
    In the early stages of that investigation there appeared to 
be some corroboration of some of the allegations that were 
ultimately given--corroboration of stolen items, some early 
corroboration that there may have been some defendants that 
were beaten up. We determined that there was no paperwork on 
some of the arrests that had taken place; and at that time, 
because of that partial corroboration, we didn't know what the 
facts were.
    Ultimately, I will say that we conducted that OPR 
investigation; and it led to a letter of reprimand for one 
employee and a letter of clearance for another employee.
    Now, while I was talking about that OPR investigation, and 
kind of gathering facts about the criminal investigation, I had 
a number of conversations with Ernie Howard. And during one of 
those conversations he became very frustrated with the 
allegations and all of the activity surrounding this, the need 
to answer a lot of questions. And at one point Ernie became 
very frustrated. It was clear he was very frustrated. And he 
told me it was, ``not worth the hassle, maybe I should shut 
this investigation down.''
    I advised that no, you can't do that. It's a viable 
investigation, it has to continue. We cannot let something like 
this derail a legitimate investigation. I advised Mr. Howard to 
put up with what he termed the hassle, let the OPR 
investigation run its course and continue the criminal 
investigation. I remember one of my sentences was, ``There's no 
way you can close down a legitimate investigation.''
    Mr. Howard at one point in that conversation took a deep 
breath, he sighed, and he agreed. And he said, ``Look, I am 
just frustrated. I'm just blowing off steam. Of course you're 
right; we cannot do this.''
    Now, in some of those conversations we also discussed a 
range of options for the duty status of the agents that the 
allegations were made against. And that's pretty standard 
procedure during these types of OPR investigations. We 
discussed possibility of limited duty, paid leave, unpaid 
leave. We discussed temporarily assigning this case to a 
different case agent in the same group under the same 
supervisor until that OPR investigation was completed. We 
discussed that, I think, for the protection of the agent who 
the major allegation was made against.
    Now, I didn't dictate that course of action to Mr. Howard 
but we did talk about it. And our concern there was that this 
was perceived to be a very violent criminal organization. We 
felt that there was a very real possibility of officers or 
agents becoming involved in some of that violence and we were 
afraid that if the particular agent that the allegation was 
made against did become involved in such an incident, that he 
would automatically be assumed guilty and even that the agency 
would be accused of negligence in action. And I really did 
believe that the possibility of violence was there.
    Now, I was under the impression that Mr. Howard had made 
that change in case agents and was continuing the investigation 
and I was under the impression that he had done that around the 
late August or early September 1999 timeframe.
    Now, over the next several weeks, I had several general 
conversations with Mr. Howard. I got routine briefings from the 
chief inspector, Felix Jimenez, and later on briefings from 
Chief Inspector R.C. Gamble on the status of that OPR 
investigation. And that was in the routine course of business. 
It was not only this investigation, but other OPR 
investigations that I was being briefed on.
    Now, following that initial few weeks after the initial 
allegation came through, I didn't really place any special 
focus on this matter after September, October, possibly as late 
as November 1999, because I knew that the OPR investigation was 
proceeding and I believed that the criminal investigation was 
proceeding with the new case agent in the same group under the 
same supervisor. So it kind of dropped off of my radar screen.
    The matter came to my attention next on January 13, 2000 
during a meeting with the Attorney General. I have periodic 
meetings, the Deputy Attorney General biweekly meeting, the DAG 
Biweekly they're called. And during the meeting on January 13, 
2000, the Attorney General asked me the status of that OPR 
investigation. She asked me if the person making--writing the 
original letter had been given a status report and, if not, 
would I please give that person a status report. I told the 
Attorney General I would check on the details of the 
investigation and that I would give that person a status 
report, if not already done.
    Now, when I checked, I was told by Mr. Gamble that there 
had been no recent contact with the complainant. I asked R.C. 
Gamble to give her a status report. And in preparation for that 
status report, I advised Mr. Gamble that he was to give no 
details on any ongoing criminal investigation, that he was to 
describe the OPR process and procedures and where in that 
process we were, but no factual details, even regarding the OPR 
investigation, and certainly no details regarding the criminal 
investigation. Now, Mr. Gamble later on advised me that he had 
done that.
    Now, he told me also in the process that there was a 
suggestion from that person that the agent be transferred out 
of Texas. Mr. Gamble advised that that was not possible. He 
told me that there was an inquiry on the status of an item 
taken from one of the defendants. It was a necklace, gold 
necklace. Mr. Gamble later on determined that that necklace--we 
had already determined that it was in our possession. Mr. 
Gamble determined that it was not evidence in either the OPR 
investigation nor the criminal investigation, and he arranged 
for that property to be returned to its owner.
    Now, I want to assure the committee that at no time did I--
did anybody tell me that the criminal investigation was closed 
down, and at no time did I have any reason to believe that 
criminal investigation had been closed down.
    Now, my next involvement in this whole matter was when I 
got your letter, Mr. Chairman, dated June 29th, I believe it 
was. And when I got that letter, as I recall, that letter 
requested a briefing on this matter and you named a couple of 
the defendants in that letter. And I advised Mr. Howard to come 
up from Houston and brief the staff fully on everything that 
was already public record in this case. And that would be the 
trials that had already arrived at disposition, the criminal 
action, anything that was public record in the court I advised 
him to brief the committee staff fully on.
    I advised Mr. Howard to avoid any details of any ongoing 
investigation. And then later on I was told that he did that 
and that his briefing clarified the matters that were in 
question by the committee staff.
    My next involvement with this matter was in October 2000 
and, as you know, we received further communication from the 
committee, and you requested additional documents in that 
letter. It was at that time when we were gathering material to 
respond to that letter that I saw for the first time some e-
mails and a memorandum from a group supervisor in Houston, none 
of which I had ever seen before. I directed at that time full 
compliance with the committee request. I directed that my staff 
give up all the documents that we found. I discussed our 
cooperation with you, Mr. Chairman. I assured that we would 
cooperate.
    Now, by then, I want to tell the committee, it was apparent 
to me that there were some discrepancies between what I had 
been told and the apparent content of some of those e-mails and 
memos. And it was confusing to me exactly what was going on 
here. So for that reason, I refrained from discussing this 
matter with any of the individuals involved. And I requested 
very shortly thereafter that Inspector General investigation. 
And as you know, there is an Inspector General investigation 
going on.
    Now, going further, the committee subsequently requested 
more interviews with--or, not more interviews, but interviews 
with many, many of the people involved, DEA employees, and more 
documents. I did recommend in Department discussions that we 
cooperate with those requests. I believed that we could 
cooperate with the committee and have the Inspector General 
investigation go on a parallel track. But the subsequent 
decision was to defer the cooperation with the committee to the 
Inspector General investigation because of concerns of some 
other DOJ components.
    Now, that pretty much from a very broad brush perspective 
summarizes what my involvement has been and what I knew about 
this investigation pretty much up until this moment. And again, 
it's a broad-brush, just to sort of put things in perspective 
here. It's my hope and I think it's my belief that the 
Inspector General investigation and perhaps this hearing will 
help answer a lot of the remaining questions, because I still 
have a lot of questions. Once I know the full details of what 
happened here, I assure the committee that I will act 
appropriately. And I will--my actions will be with a view 
toward protecting the integrity of DEA, the public confidence 
in DEA, and I assure the committee that I will try to do that.
    I want to close by just commenting to the committee, I'm 
sure you're aware of this, but all of the people, the witnesses 
that have appeared here, DEA employees, Houston police 
officers, all of them, have in fact put their lives on the line 
for the American people. They have difficult jobs, all of them. 
They do many things day to day which requires judgment calls 
and they have a very difficult job, all of these people. If we 
have made mistakes in the agency, I assure you that those 
mistakes will be corrected. And I hope that the members 
appreciate how difficult this is for DEA and for all of the 
people here that are involved. I will be happy to try to answer 
any questions that you might have.
    Mr. Burton. Thank you, Mr. Administrator. We have 30 
minutes on each side for initial questioning. We probably will 
have a vote, Mr. Shays, here pretty quickly. If we do, what 
I'll do is I'll continue, then let you come back and pick up 
where I leave off.
    First of all, this was a major investigation. As I 
understand it, 20 people were convicted, one of murder, many 
for drug trafficking and related crimes. And an allegation was 
made by the principal target of the investigation, Mr. Prince, 
that there was racial profiling and civil rights violations. Do 
you know of any investigation that has been closed down because 
a target of the investigation made some kind of charge like 
this?
    Mr. Marshall. No I don't, Mr. Chairman. I would be very 
upset if we closed down investigations in response to issues 
like this. I will also comment that my concern in this, in the 
allegations, was not so much the racial profiling issue, 
although that is an issue with DEA and it's an issue that I 
have to be concerned about, it's an issue in the police 
profession now days in our country, and I am concerned about 
that. But my overriding concern here was the fact that we had 
an allegation that a person was in fear for his life at the 
hands of rogue DEA agents, again quoting from the letter. And 
there were certain things in the early stages of our OPR 
investigation that corroborated other allegations here.
    Mr. Burton. But they were later found to not be accurate; 
is that correct?
    Mr. Marshall. One agent received a letter of reprimand and 
the other received a letter of clearance. The more serious 
allegations were unfounded.
    Mr. Burton. They were unfounded. You talked to Mr. Howard 
about the allegations and about the letter from Ms. Waters, 
Congresswoman Waters. And you told him he should not close down 
an investigation, as long as it was legitimate, because of 
political pressure. That's correct, is it not?
    Mr. Marshall. That's correct, yes.
    Mr. Burton. I don't know if you heard or not, but the 
Houston police and Mr. Schumacher when they testified, they 
said that--and there were about 10 other people, 9 other people 
in the room at the time who will verify if we want to subpoena 
them and bring them up. What was said, according to them, Mr. 
Howard said because of political pressure--and I'm paraphrasing 
it but--which is the--just because of political pressure this 
investigation is being shut down, and there were some questions 
and murmuring about it, and he said it's being shut down now 
and he gave the time and this date. And those people who 
testified said that there was no further investigating going 
on. It was shut down. The e-mails to which you referred are 
very clear, and I think, Mr. Shays, when quite a bit of 
detail--when he said the e-mails said, you know, we're closing 
this down. It's over, it's over. And the investigation was 
closed down.
    Now, when you talked to Mr. Howard and you said it 
shouldn't be shut down because of political pressure, you 
followed up on the OPR investigation. But did you followup on 
the investigation itself into Mr. Prince? Because it seems to 
me that the political pressure was brought to bear, or it 
appeared to be brought to bear, and the investigation, 
according to Mr. Howard, was shut down for that reason as of 
that time and date. And you, as the DEA Administrator, went 
ahead and pursued the investigation, as did the AG, the 
Attorney General, regarding Mr. Schumacher and the possible 
violations that may have occurred by the employees, but you 
didn't followup on the actual investigation of the target of 
the investigation, Mr. Prince. Why?
    Mr. Marshall. Well, Mr. Chairman, there are about--at any 
given time, about 14,000 DEA investigations that are active.
    Mr. Burton. Let me interrupt.
    Mr. Marshall. If I might, please.
    Mr. Burton. This is very important. I don't want you to 
miss what I'm pointing at. I mean, if it was so important to 
followup on allegation of improprieties on the part of an 
official of the DEA, brought by the target of an investigation, 
Mr. Prince, then why wouldn't you make that a cause celebre? I 
mean, you paid attention and the AG paid attention to Mr. 
Schumacher. But Mr. Prince is over here writing rap songs 
that's No. 6 or 7 on the rap chart, and talking about killing 
police and how political influence can get the DEA off their 
back. And I don't understand, if you're talking about the 
morale of the DEA and the credibility of the DEA, how you can 
say we were looking at Mr. Schumacher, and the AG was asking 
questions about Mr. Schumacher, yet the target of the 
investigation that brought the charges is running around on the 
street, bragging about getting the investigation stopped, which 
was stopped and you didn't followup on that. Why?
    Mr. Marshall. If I may, sir, we have a system for handling 
both criminal investigations and OPR investigations. I directed 
a certain course of action with regard to the criminal 
investigation. I assumed that was being followed. The OPR 
investigation was in the normal process. And I did not pay any 
particular special attention to that OPR process. I believed 
that process to be working. And I got periodic briefings on 
that. And I had every reason to assume that my direction had 
been carried out with regard to the criminal investigation as 
well as the OPR investigation.
    Mr. Burton. This was not just 1 of 14,000 investigations. 
You had a murder conviction, you had 19 drug convictions or 
related drug convictions. This wasn't just some small case of 
one drug dealer. This was a major drug operation. It wasn't 1 
of 14,000. This was a major one. The target of the 
investigation, Mr. Prince, brings a charge through a 
Congresswoman and the investigation is shut down, and DEA pays 
attention to going after the agent that was involved in the 
alleged wrongdoing, but they let the guy off and don't even 
investigate him who committed--who allegedly was in charge of 
the drug empire. I just don't understand it. You've answered 
the question.
    Mr. Marshall. If I might comment further, Mr. Chairman, 
with all due respect, there are many of our investigations that 
have drug-related violence, drug-related homicides. As you 
know, we have a program that focuses a lot on the drug-related 
violence. And this is not an unusual case in the grand scheme 
of things. And actually, this case in terms of the amount of 
drugs that were being moved and the importance of this 
particular violator in the national and global scheme, frankly, 
was not a major investigation in terms of the drug 
investigations that we conduct.
    I understand your point, I understand your confusion, but 
again I would just reiterate I had every reason to believe that 
this investigation was continuing and saw no reason to give any 
special followup on it.
    Mr. Burton. Mr. Schumacher and the police and the entire, 
probably, Houston Police Department have been demoralized 
because they had people out there who were snitches that were 
willing to give them additional information, and they had a 
couple witnesses that might turn, and all of them were left 
hanging out to dry, and there were contracts put out on Mr. 
Schumacher and Mr. Howard and others. And the investigation was 
stopped. I just cannot figure that out. And not only that, Mr. 
Prince was going around bragging about it and even has a rap 
song out about it. I don't understand it.
    Mr. Marshall. I agree. I think that's despicable and I 
think it shows what a vicious bunch of thugs that we were 
dealing with here. I hope that--I wish that those kind of 
lyrics were a crime that we could deal with.
    Mr. Burton. Who asked you to transfer Mr. Schumacher out of 
the State of Texas?
    Mr. Marshall. It is my understanding that--nobody asked me 
to do that. It's my understanding in a meeting that 
Congresswoman Waters made that request of Mr. Gamble.
    Mr. Burton. So we had a Congressperson requesting that a 
DEA agent be transferred out of Texas before the investigation 
had been completed. Was that the reason he was given a desk job 
and taken completely off the case?
    Mr. Marshall. I didn't know that he was given a desk job. 
By the time I found that out--as I've said, I refrained from 
talking to my staff so I don't know why he was given a desk 
job.
    Mr. Burton. Is it routine procedure for DEA to take the 
requests of Congresspersons about transferring people who work 
at DEA to different jobs in different States?
    Mr. Marshall. No, it's not. We didn't transfer him and we 
told her it wouldn't be possible to do that.
    Mr. Burton. But you did put him on a desk--but somebody 
did.
    Mr. Marshall. That's what I'm told. I didn't know about 
that until October this year.
    Mr. Burton. There was a sign on Harry Truman's desk. It 
says, the buck stops here. You're the head of DEA. And you keep 
saying ``not to my knowledge,'' again. And I know you've done a 
lot of good things and I hope to work with you in the future, 
but the fact of the matter is, you were concerned about and the 
AG, Janet Reno, was concerned about this case regarding Mr. 
Schumacher and alleged civil rights violations. But the target 
of the investigation and the Congressperson who brought this 
information to your attention, the target of the investigation 
walked around scot-free knowing that he was no longer being 
under surveillance, was not being investigated for criminal 
activity, and he was bragging about it and you weren't even 
following up on that.
    You say you weren't aware of it. You talked to Mr. Howard 
about it. You told him you knew he was upset. He said that he 
wanted to do the whole thing. You said, ``Oh, no you can't do 
that.'' He said, ``I guess you're right,'' and you didn't 
followup on it. I think something of this significance should 
have been followed up on.
    I have a couple more questions then I'll be happy to yield 
to my colleagues for some of my time. I did talk to you early 
on and you were cooperative. I want to make that clear because 
you were trying to cooperate with us. And then I called you 
about additional information and you were not able to call me 
back. And I was told that you had been told by the Attorney 
General not to talk to me or anybody on the committee. I'd like 
to know about that.
    Mr. Marshall. When that came about, I believe that was 
around the end of October, first of November, this year. There 
was a long series of events there. If I can just look at my 
notes here. We discussed your request in a meeting at DOJ. I 
recommended that we should go ahead and provide the material 
that you had requested. Because of concerns of other elements 
of the DOJ, it was determined that we would defer that 
cooperation in deference to the Inspector General 
investigation.
    Now, with regard to your call, I was told--we had a series 
of conversations between myself and Justice Department, and I 
was ultimately told that the Attorney General would return your 
call.
    Mr. Burton. She didn't. Let me just say this. It seems 
curious to me that a charge is brought by the target of an 
investigation, a man who is associated with and works with and 
has in his employ many people who were convicted and went to 
jail. He's an associate, knows the man who was convicted of 
murder, a contract hit, and he stops--he's able to stop an 
investigation. And the Congresswoman who was very--is a very 
important Congresswoman, who does a lot of good things, she 
makes a request that he be transferred out of State. The 
Attorney General of the United States tells her people and you 
not to cooperate with our committee and our investigation. And 
then the Attorney General starts asking the progress of an 
investigation into the alleged violations by Mr. Schumacher, 
because she's paying attention to that particular case. How 
many cases that involve agents does the AG ask you about? I 
mean, whenever there's a question about an AG doing something 
they shouldn't, does she take all that into consideration and 
ask you about them?
    Mr. Marshall. Yeah, we cover a lot of topics in these 
biweekly meetings and informal conversations. And, she asks a 
lot of questions about a lot of issues, ongoing cases, OPR 
matters that sort of stuff.
    Mr. Burton. Does she ask about specific cases, about Mr. 
Schumacher's?
    Mr. Marshall. When there are serious issues, yes, she did.
    Mr. Burton. This was that one she considered serious.
    Mr. Marshall. Apparently so.
    Mr. Burton. Did she ask about the target of the 
investigation, Mr. Prince, and how that investigation was 
going?
    Mr. Marshall. She did, and I gave her a status of that.
    Mr. Burton. You did. Did you tell her that the 
investigation was shut down by Mr. Howard?
    Mr. Marshall. No, sir, because I didn't know it at that 
time.
    Mr. Burton. How could you tell her how the case was 
progressing if you didn't know?
    Mr. Marshall. Because I was told in the August-September 
1999 timeframe that the investigation was continuing and----
    Mr. Burton. Who told you that?
    Mr. Marshall. Mr. Howard.
    Mr. Burton. Mr. Howard told you it was continuing?
    Mr. Marshall. Yes, sir.
    Mr. Burton. Do you think he lied to you?
    Mr. Marshall. I have not talked to him about it. I have 
only looked at his e-mails and the memo from Mr. Nims. And I 
have the same questions that you have. And I hope that the 
hearing and the Inspector General investigation will help us 
get to the bottom of that.
    Mr. Burton. Mr. Marshall, I find it very difficult for you 
to be able to respond to the Attorney General about a personnel 
matter involving an alleged rogue policeman or DEA agent which 
was not substantiated, and at the same time she asks you about 
an ongoing case and you say it's ongoing and you really don't 
know, and Mr. Howard is out there saying, saying in e-mails 
that the whole world knows about now that we're shutting this 
thing down and we're not going to go back to it. It's over. 
It's over. It's over. And you're telling the AG it's going on. 
I just don't understand it.
    Let me go to one other subject then I'll yield to my 
colleagues. You know I like you, Mr. Marshall, I talk to you 
privately, I think you're a good manager. I think you're well-
intentioned. But I really feel bad about this case. I think the 
ball has been dropped and a lot of information that could have 
led to some convictions and put people who are really risking--
the lives of people in this country have been--the ball has 
just been dropped. It really bothers me.
    Did you or any of your agents pursue the IRS to have Mr. 
Prince really investigated as far as Internal Revenue 
violations, tax evasion and so forth?
    Mr. Marshall. Mr. Chairman, if I might suggest, I am 
reluctant to comment on the investigation past, present, or 
future because I am considering what actions we need to take to 
ensure that that investigation is appropriately done.
    If we want to get into that aspect of it, I would request 
an executive session.
    Mr. Burton. We might ask you to come back for an executive 
session another time. I understand the sensitivity of that kind 
of information being in the public domain so I will not pursue 
it. But that is one thing I'm sure many members of the 
committee--you have heard other questions that have been asked 
today--would like to ask. I mean, if we have a major drug ring 
going on in Texas or anyplace else, it seems to me that one of 
the ways to nail them is to take a look at their bank records 
and tax returns.
    Mr. Marshall. I understand that, sir. That's why I sent the 
team to see what happened on it and what future actions could 
be done. And I would be happy to share that with you in 
executive session.
    Mr. Burton. Who told you at the meeting over at DOJ that 
they would defer cooperating with the committee until after the 
IG investigation? Who told you that?
    Mr. Marshall. That was at a staff meeting on November 1st 
and that was ultimately the Attorney General's decision.
    Mr. Burton. So the Attorney General said to defer or don't 
cooperate with this committee that has legitimate oversight and 
investigative powers, to not cooperate with us until after the 
IG investigation.
    Mr. Marshall. It's my recollection that it was articulated 
that it was DEA policy or practice not to cooperate and give 
information like this to a committee as long as an Inspector 
General investigation was ongoing.
    Mr. Burton. You told us about a memo from you to the 
Attorney General, Janet Reno. Do you know why the Justice 
Department has withheld this memo from us?
    Mr. Marshall. Memo from me to the Attorney General?
    Mr. Burton. Yeah. You mentioned a memo from you to the 
Attorney General. And we've asked for it and have not received 
it.
    Mr. Marshall. I was under the impression that we had given 
you that memorandum. If I could consult with staff, please.
    Mr. Burton. Sure.
    Mr. Marshall. Mr. Chairman, I was told that the request for 
that memo was not part of the request from your committee, and 
it's my mistake. I thought that had been provided.
    Mr. Burton. OK. Well, I thought our request from Justice 
and DEA was all inclusive, was it not? Well, we will officially 
request that right now. If you need a subpoena or anything for 
that, we'll be glad to give it to you. But we'd like to have 
that information.
    Now, DEA and DOJ said they did not want to cooperate with 
this committee of Congress during this investigation. But you 
had somebody on staff giving a briefing to a Member of 
Congress, I believe, Ms. Waters. Can you explain that 
discrepancy to us? Why is a legitimate committee of the 
Congress that has requested information couldn't get the 
cooperation of DEA and Justice, but a Member who brought these 
charges against Mr. Schumacher and others to your attention 
does get a briefing? Why is that?
    Mr. Marshall. We did not brief Congresswoman Waters on the 
criminal investigation. I specifically ordered that we not do 
that. I have been told that we did not do that. I also gave 
instructions that we not brief the Congresswoman on the details 
of the OPR investigation; rather, described how the process 
works, where we are in the process, but with no details about 
what we had found.
    Mr. Burton. Just 1 second.
    The OPR investigation, they at least did talk to her and 
gave her some kind of a briefing. And the investigation that's 
going on right now, they said, you know, the AG--or the IG's 
investigation, they said that you weren't to cooperate with us. 
I mean, you are now and we appreciate that. But they initially 
said you weren't to cooperate with us. I just don't understand 
that discrepancy. Can you explain that?
    Mr. Marshall. I was told that there was a precedent that 
when we had an ongoing investigation that we waited until that 
investigation was completed and then moved into the 
congressional phase of it. That's what I was told. I'm not 
familiar with those policies.
    Mr. Burton. I understand. But at the same time that's going 
on, the investigation into Mr. Schumacher and the other 
allegations of racial profiling and so forth, there was a 
meeting with the DOJ employee, with Ms. Waters, wasn't there, 
to at least give her an update as much as you could?
    Mr. Marshall. On the process and where we were in the 
process, but not the details of the investigation.
    Mr. Burton. Is an OPR investigation different than the IG 
investigation as far as your ability to cooperate with?
    Mr. Marshall. No, we would not normally differentiate in 
terms of giving details of an investigation.
    Mr. Burton. Well, it seems like, and I may be incorrect, 
but it seems like there's an inconsistency here. What I would 
like to do is stop the clock now. Oh, Mr. Shays is back. Mr. 
Shays, would you take the chair so I can go vote? I'll let Mr. 
Shays continue with questioning on my time.
    Mr. Shays [presiding]. Mr. Marshall, just give me a second.
    Mr. Marshall. If I may clarify my previous answer, I am 
told that that briefing to Congresswoman Waters, while it was a 
process briefing, as I've said, and it was not details of the 
actual investigation, it did take place before the Inspector 
General investigation was initiated.
    Mr. Shays. Mr. Marshall, my name is Christopher Shays. I'm 
from Connecticut. And I'm very interested in this case. And I 
did hear your statement and I would describe it as allowing 
you, frankly, to take whatever happens and roll with the 
punches.
    I am intrigued by the fact that--let me just preface it by 
saying I visited your agency over the past 14 years, I've gone 
to sites overseas where I've had contact with your agents, 
particularly Columbia. I was given a DEA hat. I wore it a few 
times until a law enforcement officer said, are you crazy, 
wearing a hat like that around in public? And I didn't take it 
off because of the challenges that are facing DEA now. Your 
agency doesn't look good. I'm not saying that Congress looks 
good, but your agency doesn't look good at all. And it doesn't 
look good because it looks like a very viable investigation was 
suspended, not closed, but suspended; not an active case, 
proactive case, in other words, because the subject of the 
investigation was able to go to a Member of Congress, and when 
the Member of Congress issued this complaint and concern to the 
Justice Department, you all jumped overboard to accommodate. 
And I want to first ask you how many times have you allowed an 
OPR investigation to be done in a Congressman's office?
    Mr. Marshall. This is the only time that I know of, sir.
    Mr. Shays. Did that have your approval?
    Mr. Marshall. I believe I knew it was going to be done that 
way, yes.
    Mr. Shays. Why did you think it was important to have Mr. 
Prince, who was the subject of the investigation, appear with a 
legislative assistant, appear with a Member of Congress, appear 
with a Congressman's spouse, appear with another member of Mr. 
Prince, a staff person of Mr. Prince, and a lawyer for the 
committee of civil rights and the law. Why did you think it was 
important that that happen that way?
    Mr. Marshall. I didn't think it was important that happen 
that way. In fact, I had concerns about it happening that way. 
I thought it--I didn't think that was the proper way to do it.
    It is my understanding, my belief, I was told by Mr. 
Jimenez that we tried several other arrangements for that 
interview and that we requested that interview be done in DEA 
headquarters. We offered to go to Houston for that interview. 
It is my understanding that the subject, the complainant 
himself said that he would only meet with us under those terms. 
And rather than forego the opportunity to hear what his actual 
allegations were, so that we could prove or disprove, and 
because that was the only conditions under which he was willing 
to talk to our OPR people, we very, reluctantly accepted those 
conditions.
    Mr. Shays. Do you think you would do that again in the 
future?
    Mr. Marshall. If that was the only choice that I had, yes, 
I would.
    Mr. Shays. I'm sorry to hear you answer that way.
    Chief Inspector Jimenez said on page 39--first off, looking 
at the transcript of this deposition, Mr.--Inspector Delgado 
said this interview is being conducted in reference to the 
letter from Maxine Waters, U.S. Congresswoman of the 35th 
District of California, to Janet Reno, Attorney General of the 
U.S. Department of Justice, dated August 20th.
    So the letter was on August 20th and 4 days later the 
deposition begins. On page 39 Chief Inspector Jimenez says in 
response to some comments made by--well, basically in response 
to the deposition, and we're already on page 39, he says: 
``Fine. We will take a look at the situation. I just want to 
put it on the record that we feel that the information provided 
by Mr. Prince, it's insufficient at this point for us to--you 
know, we will look at it, but it has not pinpointed any civil 
rights violation. It's not identified specific acts of 
wrongdoing of DEA agents and so on.''
    Then Ms. Waters makes some comments. Then Chief Inspector 
Jimenez says, ``Well, we will take a look and we will interview 
the investigator.''
    Congressman Waters: OK.
    And then this is what Chief Inspector Jimenez says. ``But 
with all honesty, I thought that I was going to hear a more 
formal complaint of facts. You know, this is what happened, 
this date, I was here, DEA did this, A, B, C, D, so you know, 
we will have more facts. Right now, the information that I am 
hearing is very general. We will investigate, but unfortunately 
it's not as specific as I thought. You know, when you initially 
told me civil rights violations, suspending agent so-and-so 
from employment, all that, I mean, you've been sitting here and 
we haven't heard any wrongdoing of these agents. I mean, we've 
been sitting here and we haven't heard any wrongdoing of these 
agents.''
    So you basically decided to allow a deposition to be taken 
in a Congresswoman's office, not in your office, first time. 
And you're now telling me that if a subject of an investigation 
demands that it be somewhere like in a Member's office, you are 
going to allow that to happen. But given that your chief 
inspector says, ``I mean, we've been sitting here and we 
haven't heard any wrongdoing of these agents,'' what was your 
reaction to that?
    Mr. Marshall. When Mr. Jimenez came back and characterized 
that meeting, that interview, to me after that, I agreed 
totally with his characterizations.
    Mr. Shays. What was his characterizations?
    Mr. Marshall. Pretty much what I've said there.
    Mr. Shays. I want you to tell me what he said to you.
    Mr. Marshall. He said that Mr. Prince--there were no 
specific allegations of wrongdoing. However, he also returned 
from that meeting--or within a very short time after that, 
received a report from a private investigator that had been 
hired by Mr. Prince. And in that report there were a couple of 
very specific allegations that we could prove or disprove, and 
we felt obligated to investigate those allegations. Those two 
allegations were that DEA agents had stolen a gold chain with a 
medallion. The other allegation was that Special Agent 
Schumacher had beaten up several of the defendants during one 
arrest. Those were concrete things that we could investigate 
and prove or disprove.
    Mr. Shays. How----
    Mr. Marshall. Frankly, I thought that we could disprove 
those. Because the rest of that, I thought, had so little 
substance, that I thought we would very quickly disprove those 
and they would be over with. Instead what happened was that we 
learned that the gold necklace had in fact been taken and was 
in the possession of an agent in the Houston office. We had 
another agent who corroborated that Special Agent Schumacher 
had--I believe the words, in his words, ``had slapped around 
some of the defendants one night.'' And we felt like with that 
partial corroboration, we were obligated to go further and 
continue the investigation.
    We did that. Ultimately, the beating up the defendants was 
disproven. It was not substantiated. And Special Agent 
Schumacher received a letter of clearance. The other agent who 
took the gold chain without properly processing it, we 
determined that there was no proof, no substantiation that he 
intended to steal it. Nonetheless, he mishandled evidence, he 
received a letter of reprimand. We have a process for 
investigating these things. That process worked. And the agents 
were dealt with accordingly.
    Mr. Shays. Where was the gold chain in the possession of 
the agent?
    Mr. Marshall. It was my recollection it was in the desk 
drawer of an agent by the name of Chad Scott.
    Mr. Shays. Was he the gentleman who was reprimanded?
    Mr. Marshall. Yes, sir, he was.
    Mr. Shays. Was that a chain medallion that actually was the 
identification of a gang? Was it just a gold chain or was it a 
medallion that identified gang members?
    Mr. Marshall. I am not sure I understand--all I know, it 
was a chain with a gold medallion on it.
    Mr. Shays. Now, what interests me is--were you up for 
confirmation during this time?
    Mr. Marshall. I was up for confirmation in the timeframe of 
May or June 2000. I would have to refer to my records back at 
the office to figure out exactly when those hearings were. 
Spring of 2000.
    Mr. Shays. So, in other words, you were up for 
reconfirmation.
    Mr. Marshall. I was up for initial confirmation.
    Mr. Shays. So you were acting--you were in acting capacity 
for how long?
    Mr. Marshall. I was acting from July 1999 until I was 
confirmed in May 2000.
    Mr. Shays. Does that process in any way compromise your 
position to stand up to Members of Congress?
    Mr. Marshall. I don't think it did, no.
    Mr. Shays. Did you at any time contact any one in your 
bureaus to ask if there was anything of a political nature or a 
particular hot spot or something that you needed to know before 
your confirmation?
    Mr. Marshall. I worked on and had my staff work on a wide 
variety of issues that might come up during my confirmation 
process; yes, I did. And I was prepared a briefing book, two 
briefing books actually, a stack of material about this high. 
This issue was not among those issues that I prepared myself 
for, because by that time it was off of my radar screen. I 
assumed that the criminal investigation was continuing, the OPR 
investigation was running its course, and it was not an issue 
with me at that time.
    Mr. Shays. Well, first off, I would think that it would be 
very logical to know where you have your trouble areas. And in 
your judgment, this was not an issue that might present a 
problem for you?
    Mr. Marshall. I didn't think that this would present a 
particular problem for me. And the reason I didn't think that, 
as I said, was because I had been assured back in the 
September-October timeframe that this investigation was to 
continue. It's--you know, that's a course of action. I have 
special agents in charge, field commanders that do that. I knew 
that the OPR investigation was proceeding according to our 
established process. And no, I didn't believe at that time that 
it would be an issue.
    Mr. Shays. I'd like to request at this time you provide--I 
just want to interrupt to say I request that you provide a copy 
of your August 20 memo to the Attorney General that you 
mentioned in your statement. If you would provide a copy of 
that statement. If you have it now, we would like to see that. 
Also the briefing books as well, I would like you to submit to 
the committee as well.
    Mr. Marshall. I'm sorry, the briefing books?
    Mr. Shays. Yes, sir.
    Mr. Marshall. If they are still intact, I will do so.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4430.166
    
    [GRAPHIC] [TIFF OMITTED] T4430.165
    
    [GRAPHIC] [TIFF OMITTED] T4430.167
    
    [GRAPHIC] [TIFF OMITTED] T4430.168
    
    [GRAPHIC] [TIFF OMITTED] T4430.169
    
    Mr. Shays. Thank you. Now we'll make copies of that. Thank 
you.
    Mr. Marshall. Please, if we're going to discuss that I 
would like to have a copy.
    Mr. Shays. I will not ask you questions about it until we 
have a chance to look at it. Tell me, who is Marty Fanning?
    Mr. Marshall. I'm sorry?
    Mr. Shays. Who is Marty Fanning?
    Mr. Marshall. He's an agent that was in Houston, assigned I 
believe to this group. I believe that he probably worked, in 
fact I know he worked this investigation. He was the agent who 
initially provided the corroboration that Special Agent 
Schumacher had ``slapped around''--his words--some of the 
defendants. That was later discredited.
    Mr. Shays. He was the agent who--I'm sorry?
    Mr. Marshall. He was the agent who initially provided 
corroboration that that event had happened. That was later 
disproven because his credibility--basically he was not 
credible because he himself was under OPR investigation, I 
believe for theft of some property from a defendant and he was 
dismissed. He was terminated from his job as a special agent. 
And for that reason, his testimony was not considered credible. 
And on that basis, the letter of clearance was ultimately 
issued to Special Agent Schumacher.
    Mr. Shays. How long did it take for Mr. Fanning's OPR 
investigation to be initiated and concluded?
    Mr. Marshall. I don't know. I don't have those dates with 
me.
    Mr. Shays. OK. Did you in the past year and a half give Mr. 
Ernest Howard any so-called merit pay? Did you make a decision 
that Mr. Howard receive a merit pay?
    Mr. Marshall. I'm not sure if it was in the last year and a 
half, but if I could stretch that out to the last 2 years, yes, 
I did.
    Mr. Shays. Was that a significant----
    Mr. Marshall. It was, yes; it was a Presidential Rank 
Award.
    Mr. Shays. How much would that be?
    Mr. Marshall. I don't recall if that was the Distinguished 
Award or the Meritorious Award. I don't know. I could look that 
up for you.
    Mr. Shays. You don't know when that happened?
    Mr. Marshall. It would have been 2 years ago perhaps. 
Perhaps a bit less.
    Mr. Shays. OK. Did you have any conversations with Mr. 
Howard about this case, the Rap-A-Lot case?
    Mr. Marshall. Oh, yes.
    Mr. Shays. How many conversations have you had with him?
    Mr. Marshall. I had several conversations in the August, 
late August and then September-October 1999 timeframe, possibly 
into November. Since that time, I to the best of my 
recollection haven't had any conversations with him on the 
case.
    Mr. Shays. I'm just going to ask another question. Mr. 
Cummings, I'll give you time to prepare. I'll just keep going. 
Mr. Cummings, you tell me when you're ready and then I'll stop.
    I'd like to ask you about the OPR review board. Is it a 
coincidence that their decision took place, that the 
investigation took place before you were confirmed and not 
rendered until after you had been confirmed?
    Mr. Marshall. Is it a coincidence? I guess it's a 
coincidence. We have a process that it goes through. The OPR 
investigators investigate the allegations. They provide a 
report to what is called a Board of Professional Conduct. That 
Board of Professional Conduct reviews the case and either makes 
disciplinary recommendations or clears the employee. If they 
make disciplinary recommendations, it goes to a deciding 
official who reviews the case again, gives the employee an 
opportunity to respond and then makes a final decision. And 
that's pretty much a set process. I do not interfere in that 
process.
    And so, yeah, that process was working independently of all 
the rest of this.
    Mr. Shays. What initiates an investigation? Who decides 
that there's going to be an investigation? In other words, you 
just don't take every frivolous complaint.
    Mr. Marshall. If we have an allegation of misconduct, that 
triggers an OPR investigation.
    Mr. Shays. It has to go to the boards, no matter what?
    Mr. Marshall. No. There can be a process by which, if the 
allegations are just disproven right off the bat and there is 
no credibility to them, the OPR office itself, the initial 
investigators can administratively close that and say there are 
simply no facts to support this.
    Mr. Shays. Right. You had that option after Mr. Jimenez 
came back and said there's just no substance here.
    Mr. Marshall. I had that option? No, I didn't have that 
option. Mr. Jimenez may have had that option.
    Mr. Shays. Right. But then he decided, based on an 
investigative report requested by the law firm of Mr. Prince, 
that you would look into those allegations and that 
investigator----
    Mr. Marshall. Yes, because there were specific allegations 
in that report that we felt could be proven or disproven.
    Mr. Shays. But at what point when you start that 
investigation does someone have the ability internally to just 
close it because they think there's no substance, and at what 
point does it then have to go to the Board to resolve?
    Mr. Marshall. Well, I think that Mr. Jimenez, or now Mr. 
Gamble, if I'm remembering the process correctly, I believe 
that they have the opportunity to administratively close that 
if there is no corroboration and the allegations are shown on 
the face to have no credibility. In this case, that didn't 
exactly happen. There was certain corroboration. There was 
certain facts that basically led them to take the investigation 
further. And then I'm not sure in the process exactly when the 
chief inspector loses his ability and it has to go to the 
Board. But this one obviously they thought should go to the 
Board.
    Mr. Shays. But, see, the irony is that the work was 
completed in March and the decision wasn't rendered, made 
public until October.
    Mr. Marshall. It is my understanding on that, there were 
several things that were going on. At some point in there, this 
was sent to either the DOJ Civil Rights Division or the Public 
Integrity Section for review, which is standard procedure. Mr. 
Gamble could explain that, I hope, better than I. There was 
also in that timeframe in the Board of Professional Conduct, 
they had a pretty high workload at that time. We had in that 
fiscal year, in this general timeframe, 6, 8 months, either 
side of this, there were some 30 cases that resulted in the 
dismissal of DEA employees. They have a way of prioritizing 
what they look at first. And some of the first things they look 
at are serious cases where the employee is on limited duty, 
paid leave, or unpaid leave. And they prioritize those. And 
that wasn't the case in either of these. And it simply didn't 
float to the top of their priority list. And I'm told that it 
took that long largely because of that, because of high 
workload and because of there were--was a member or two of that 
Board that was missing during part of that time.
    Mr. Shays. I will jump back, talking to the Board. I want 
Mr. Cummings to go and then Ms. Jackson Lee, but I would ask 
you this last question. You keep saying the OPR process works. 
Do you really think it worked in this case, or might it have 
been manipulated to the detriment of a DEA investigation, a DEA 
agent, and the agency's reputation?
    Mr. Marshall. Well, I believe that the process worked. We 
received allegations, we investigated those allegations. One 
employee was cleared, one employee received minor disciplinary 
action. I believe that we discovered the facts about those 
allegations, and I believe that we properly dealt with him. So 
I believe it worked.
    Mr. Shays. You left out one gigantic part. During this 
whole 14 months, the proactive nature of the investigation was 
suspended, wasn't it?
    Mr. Marshall. I cannot say because I have not heard Mr. 
Howard's testimony. It appears from his e-mails and it appears 
from Mr. Nims' memo that it was. I understand that Mr. Howard 
contends that it wasn't. If it was shut down----
    Mr. Shays. Mr. Howard is on record as saying it was an open 
case, but it was not a proactive case.
    Mr. Marshall. If it was shut down, it shouldn't have been. 
And if it was shut down, it was done counter to my orders.
    Mr. Shays. It was suspended. The proactive nature of the 
investigation was suspended. We get these little fine 
differences. It was not proactive. The case was suspended; it 
was not closed.
    Mr. Cummings, you have a generous 5 minutes.
    Mr. Marshall. My order to Mr. Howard was to continue the 
investigation, the active investigation. I thought that was 
being done.
    Mr. Shays. You have 30 minutes, I'm sorry, without 
question. If you want to share it, you may.
    Mr. Cummings. Thank you, Mr. Chairman. And Administrator 
Marshall, I want to thank you for being with us. And I know 
these must not be the most pleasant circumstances but we do 
appreciate what you do every day. You have a very important 
job.
    Let me just go back for a moment to the beginning of your 
contact with this matter. You said you got notice of it on, 
what, August 20th.
    Mr. Marshall. It was August 20th to the best of my 
recollection. It's possible it was August 19th, but within a 
day or so.
    Mr. Cummings. Now, when you got--you got a memo at some 
point, you got Ms. Waters' memo, letter; is that right?
    Mr. Marshall. I first got a letter from the Attorney 
General telling me that she had talked to Congresswoman Waters 
and she had these complaints; that a letter was to follow. And 
then either later that same day or the next day, the letter did 
follow and I saw the letter.
    Mr. Cummings. Now, how soon after that did you have 
conversation with Mr. Howard?
    Mr. Marshall. That same day.
    Mr. Cummings. Same day.
    Mr. Marshall. Yes, sir.
    Mr. Cummings. And would you have--to your knowledge, would 
you have been the first one to bring to his attention that 
there was an issue here with regard to this case?
    Mr. Marshall. To the best of my knowledge, probably so, 
yeah. I have no indication otherwise.
    Mr. Cummings. And during that discussion, you had him brief 
you on what he knew about the case?
    Mr. Marshall. That's correct.
    Mr. Cummings. And was a decision made at that moment as to 
what should be done with regard to the case in light of Ms. 
Waters' letter?
    Mr. Marshall. No. I was simply gathering facts.
    Mr. Cummings. All right. Now, did you have occasion to talk 
to him again that day?
    Mr. Marshall. I talked to him probably several times that 
day and I talked to him several times over the ensuing days and 
weeks after that initial----
    Mr. Cummings. Can you tell us what day it was that you had 
the conversation where he--you said he was a bit upset and that 
he wanted to end the investigation, I think you said, but you 
said that would be going a bit too far. Can you tell us what 
day that was?
    Mr. Marshall. No, I can't, Congressman. I don't have notes 
of that conversation. But that would have been--for sure, it 
would have been after the August 24th interview with Mr. 
Prince, because that was a part of his frustration was the 
allegations that Mr. Prince was making.
    Mr. Cummings. Now, did you--do you know whether your 
conversation took place--I don't know if you know, there came a 
time--I understand that you haven't heard the testimony from 
Mr. Howard, but there came a time when he allegedly made--when 
he had a conversation with the agents in Houston, telling them 
the status of the investigation and what he wanted done. That's 
where all the controversy is, whether it was ending or not. You 
know about that, right?
    Mr. Marshall. I know about that, but I don't know the dates 
of that.
    Mr. Cummings. Which is what I'm trying to get to. I'm 
trying to figure out your conversation where you gave the 
instructions to not end it but--the criminal investigation--but 
to allow it to go on. I'm trying to figure out whether you knew 
that came before he had that meeting with the Houston officers 
or after?
    Mr. Marshall. I don't know.
    Mr. Cummings. Now, when you had your conversation with him 
where you had instructed him as to continuing the 
investigation, did he tell you anything about any conversation 
that he may have had, and did it sound like he had already made 
a decision with regard to the criminal investigation?
    Mr. Marshall. No, he didn't tell me about any 
conversations. And he said, ``You're right, I can't close it 
down, we'll keep going with it.''
    Mr. Cummings. So you were--were you of the impression that 
he had not announced that to the Houston officers, that the 
investigation had been closed down?
    Mr. Marshall. That's correct. I had no reason to believe 
that that announcement had taken place. I had no reason to 
believe these e-mails existed. I had no reason to believe that 
the Nims' memo existed. None of that came to my attention until 
October of this year.
    Mr. Cummings. Now, so all of this time since back there in 
August, August 20, 1999, you were thinking that this was an 
ongoing investigation; is that not correct?
    Mr. Marshall. That's absolutely correct, sir.
    Mr. Cummings. Now, in answer to the chairman's question, 
one of the chairman's questions I think you said that you did 
not figure this to be a major investigation. Is that what you 
said, that is, a criminal investigation?
    Mr. Marshall. No, I said when you look at this organization 
in the context of the large national and global organizations 
that we consider to be the cartels, as it were, this was not 
one of those types of investigations. This was certainly an 
important, very important investigation in Houston, TX.
    Mr. Cummings. Now, when you found out about Ms. Waters's 
inquiry, I think you said when you looked at the allegations, 
you said, ``I didn't put much stock in the allegations,'' is 
that right?
    Mr. Marshall. That's correct.
    Mr. Cummings. What did you base that opinion on?
    Mr. Marshall. Well, basically I--if I can get a copy of Ms. 
Waters' letter here, I looked in the letter and there was 
really no details in here about specific allegations. There 
were things about long stretches of highway, there were things 
about the Department of Justice must intercede into the 
questionable practices of DEA. There was nothing really 
specific here in terms of allegations, so I didn't really think 
that there was enough detail here to tell whether there was 
really something here. The one thing that grabbed my attention 
here was the quote, ``believes his life to be in danger at the 
hands of rogue officers.''
    Now, I looked at that as something that we have to look at 
and find out if Congresswoman Waters has specific information 
regarding that or if she has specific allegations regarding the 
harassment and intimidation, if she has specific details about 
the racial slurs, the illegal search of his automobile. None of 
those details were contained in this letter. And that's what I 
felt like we had to get at in terms of further interviews and 
get from Ms. Waters why is it you think this. So at this point, 
no, I didn't have enough details to put much stock in this.
    Mr. Cummings. So is there a, I take it that you could get, 
it's possible that a congressperson or citizen could write you 
a letter, make certain allegations that would not bring it to 
the level of you even having a discussion with an agent in 
charge with regard to whether to shut down an investigation. In 
other words, I'm trying to get to where do you draw the line. 
You just named several things. You said ``life threatening.'' 
You went on and said what you just said, but is there a point, 
either in writing or is there a point where just from the 
common practice within the agency where you then refer 
something for further investigation, whether it would cause you 
to have this kind of discussion, or making you feel as if there 
is a major problem.
    Mr. Marshall. Well, you--at the seriousness of each 
allegation, and if it is--if it's a mistake that somebody has 
made on the job that's a violation of procedures or rules or 
something like that, you treat that one way. If it's an 
integrity violation or a criminal violation, I certainly treat 
that much more seriously. Now, the words in here, the 
descriptions in here of the conduct would have indicated that 
these would have serious integrity, if not criminal violations. 
And yet those were generalized words that were here with no 
details to back them up. So because the general allegations 
were so serious but there were no details, I mean, the next 
logical step is what are the details, Congresswoman Waters, 
that you have to substantiate these allegations, and that's 
what we set out to do.
    Mr. Cummings. Now as I listened to some of the questions 
that were asked by the other side, it seems to be an 
implication as to your believing that when a congressperson 
makes a call or whatever, that an investigation should be shut 
down, you don't believe that, do you?
    Mr. Marshall. Absolutely not. I never believed that. I 
think it's clear from the memo that I sent to the Attorney 
General that my mindset here was that basically we shouldn't 
even brief Congresswoman Waters on this investigation. And I 
told the Attorney General on August 20 in this memo, this is a 
legitimate investigation and we shouldn't even brief her on it.
    Mr. Cummings. So we're real clear, when you told Mr. 
Howard, Officer Howard, about what you wanted him to do in the 
case, did he express any objections to that? That is, when you 
said ``I want this case to continue'' and you may--I think you 
said ``you may have to pull the officers off, but I want it to 
continue.'' Did he express any objection to that?
    Mr. Marshall. No, no. In that conversation he was clearly 
frustrated with all of this. He used the words, ``it's too big 
a hassle, I think I'll just close their investigation, it's not 
worth it.'' When I said no, you can't do that, you need to 
continue. As I said he took a deep breath, he audibly sighed, 
he said, ``you're right. I'm just blowing off steam. Obviously, 
I just can't discontinue the investigation.''
    Mr. Cummings. How long have you been working with Officer 
Howard, Agent Howard?
    Mr. Marshall. Gosh, I have probably--I've known him for 20 
years, worked closely with him for 10, 12 years, just a guess, 
but quite a while.
    Mr. Cummings. So you've had many conversations with him and 
worked with him?
    Mr. Marshall. Yes.
    Mr. Cummings. And you find him to be a truthful and honest 
man?
    Mr. Marshall. Yes, I always have.
    Mr. Cummings. Now, you said something that was very 
interesting. You said one of the reasons why you wanted the 
agents pulled off, the Houston folks pulled off and Schumacher, 
is that you were----
    Mr. Marshall. If I may, sir, I hate to interrupt you. I did 
not say I wanted the Houston agents pulled off.
    Mr. Cummings. I'm sorry. One of the things you did say that 
you were concerned about, negligent action. Does that sound 
familiar?
    Mr. Marshall. That's correct.
    Mr. Cummings. What does that mean?
    Mr. Marshall. Our concern, the concern that Mr. Howard and 
I discussed were that, they were in the context of we have 
allegations from Mr. Prince, and we have a report from this 
private investigator that gives us specific acts that were 
committed by Chad Scott and Jack Schumacher alleged to have 
been committed, I'm sorry. We, by that time, had gotten far 
enough in the investigation that we knew that the gold 
medallion was in DEA's possession. We knew that there was one 
person that corroborated the mistreatment of, the alleged 
mistreatment subsequently not substantiated. We knew that was 
there. We knew that these people had been taken into custody, 
taken to the DEA office, no reports had been done. There were 
procedural violations there.
    At that point, we simply didn't know what we had from a 
standpoint of an OPR investigation. We looked also at the 
serious nature of this and the fact that Maxine Waters had 
characterized Jack Schumacher as a killer cop, as a rogue cop. 
He did, in fact, have several shootings that he had been 
involved in, and I hasten to add all were ruled as justified, 
but we simply looked at it at that time and not knowing the 
full extent of what we did or did not have here, and we felt 
for Mr. Schumacher's own protection that he should not be the 
point agent, the lead agent, the case agent on this, because if 
he goes out into of the 5th ward now and gets into a life-
threatening situation and has to kill Mr. Prince or some of the 
other defendants in here, he's going to be automatically 
assumed guilty.
    We're going to be perceived as not having taken action, and 
I'm going to be sitting in front of this committee or some 
other committee explaining those actions. And we felt it was 
prudent for the agency and for Mr. Schumacher's own protection 
for him to take him off as the case agent and reassign another 
agent in the same group with the same supervisor until OPR 
investigation was completed.
    Mr. Cummings. Now, you take it, you aren't aware of any 
improper political interference, are you, with regard to this 
case?
    Mr. Marshall. No, I'm not.
    Mr. Cummings. Are you aware of any improper political 
interference by Vice President Gore?
    Mr. Marshall. No, I'm not.
    Mr. Cummings. Are you aware of any improper political 
interference by any Member of Congress?
    Mr. Marshall. Well, you've got to get a definition of 
``interference.'' I think it's obvious that some Members here 
consider the mere writing of this letter was interference. It's 
obvious that Ms. Waters wrote this letter. But as far as 
interference or pressure on me to shut down this investigation, 
there was none.
    Mr. Cummings. Are you aware of any management decisions 
made in this investigation on account of improper political 
pressure, any?
    Mr. Marshall. I am aware that there are allegations of 
that, and I am still very confused in the light of what I 
thought was going on juxtaposed against the e-mails and the 
Nims memo. I am still confused as to whether or not you know 
exactly what action was or was not taken with regard to 
shutting down the investigation. And I want to get to the 
bottom of that through these hearings and the inspector general 
investigation. I'm still unsure about that, Congressman.
    Mr. Cummings. But you never--I just want to correct one 
thing. I made a mistake a minute ago and I had asked you about 
taking folks off of the investigation, a criminal 
investigation. When you talked to Agent Howard, did you have 
any discussions about personnel and personnel on who would be 
either left on the case, taken off the case? Did you discuss it 
at all? The Houston police officers? The DEA?
    Mr. Marshall. No, we have only talked about agent 
Schumacher.
    Mr. Cummings. All right. Why is that, because you didn't--
--
    Mr. Marshall. Because Agent Schumacher was the one that 
these most serious allegations were being made against, and we 
were concerned that he would be assumed guilty if there was an 
incident there. That was the sole reason. It was for the 
protection of Agent Schumacher and DEA, it was never intended, 
in my mind, that you take all the agents off.
    Mr. Cummings. So there was never any discussion with regard 
to the Houston police officers, none whatsoever. Is that right? 
When you left that conversation you were under the impression 
that Schumacher would be taken off of this criminal 
investigation, and that the investigation would continue. That 
was your impression; is that right?
    Mr. Marshall. Absolutely, yes.
    Mr. Cummings. That was your impression up until this 
committee contacted you and you began to look into the matter?
    Mr. Marshall. That's correct.
    Mr. Cummings. Thank you. I'll yield to Ms. Jackson Lee.
    Ms. Jackson-Lee. I thank Mr. Cummings very much and again, 
as I proceed to ask questions, I do want to acknowledge the 
kindness of the chairman and ranking member, and now Mr. Shays. 
I am a member of the Judiciary Committee and not a member of 
this committee.
    Mr. Marshall, as you well know, the judiciary has oversight 
over the DEA and its capacity of its responsibilities 
differently from this present committee, so I appreciate very 
much your presence. And let me say what I have said in the 
past, that this hearing, my appreciation and respect for the 
day-to-day front line action that the DEA takes. You are aware, 
Mr. Marshall, that your officers who were here previously were 
under oath; is that correct?
    Mr. Marshall. Since I was sworn in, I assume they were too.
    Ms. Jackson-Lee. And being law enforcement officers, you 
are quite aware that in being sworn, you're sworn obviously 
under oath to tell the truth?
    Mr. Marshall. Absolutely.
    Ms. Jackson-Lee. And aware as well of the penalties of the 
subject to do?
    Mr. Marshall. Correct.
    Ms. Jackson-Lee. Do you have any recollection of the 
Attorney General speaking to you and asking for a transfer of 
Mr. Schumacher?
    Mr. Marshall. No.
    Ms. Jackson-Lee. Anyone in OPR asking for a transfer of Mr. 
Schumacher.
    Mr. Marshall. No.
    Ms. Jackson-Lee. So therefore, you gave an earlier 
explanation to my colleague, Mr. Cummings, I believe, and any 
movement, it seemed to be, as I understand your conversation, 
was based upon safety issues. Is that my understanding?
    Mr. Marshall. Yes, that's correct. And I want to go back. 
That was in the August-September 1999 timeframe.
    Ms. Jackson-Lee. All right. I appreciate that very much. In 
receiving letters from Members of Congress, I assume you 
received quite a bit?
    Mr. Marshall. That's correct.
    Ms. Jackson-Lee. Do you accept that as a role and 
responsibility, that members at varying times will make 
inquiries and make various comments in their letters or 
inquiries?
    Mr. Marshall. Yes, we do. We actually have a congressional 
affairs office that deals with those matters and they stay 
pretty busy.
    Ms. Jackson-Lee. The letter that you have before you from 
the Congresswoman, is there anything in that letter that says 
to transfer or cease and desist, transfer any officer or cease 
and desist of any investigation?
    Mr. Marshall. There is nothing in here that says to 
transfer the officer. There is something in here, and if I may 
find it. It is my recollection, and I can't really find it 
right now. It's my recollection that there is something in here 
that asks the AG to halt the questionable practices of the DEA. 
Is that this letter?
    Ms. Jackson-Lee. No, I don't think so. If you're talking 
August 20, 1999, you might peruse it yourself. There is, will 
you please give this matter your immediate attention, I await 
your response. I have not seen anything here that says anything 
about halting. You might peruse it, point out to me if you see 
something. I think you'd find that, the August 20 letter.
    Mr. Marshall. Yeah, here it is. ``Simply put,'' and this is 
quoting from the August 20 letter. ``Simply put, Mr. Prince 
believes strongly that the Department of Justice must intercede 
into the questionable practices of the DEA and provide him with 
the necessary protection to ensure that his life and livelihood 
are not subject to the ongoing harassment and intimidation.'' 
That is the sentence I was referring to.
    Ms. Jackson-Lee. But that is not a request of the 
Department of Justice to stop to cause a cessation. It refers 
to the suggestions in the letter about the points made by Mr. 
Price.
    Mr. Marshall. It talks about questionable practices and 
providing necessary protection to end harassment and 
intimidation.
    Ms. Jackson-Lee. Right, but not a stopping of the--stopping 
of an investigation, eliminate.
    Mr. Marshall. It doesn't say that in this letter.
    Ms. Jackson-Lee. Let me also acknowledge, there seems to be 
some coordination--not coordination, but suggestion of 
collaboration between the March 12 visit to the Brook Hollow 
Church, and then I think the March 15 action that I believe Mr. 
Howard may have taken. You have indicated, or you indicate, 
again, for my sake, that you are not making a correlation or 
suggesting that the Vice President or his staff or anyone by 
his visit asked the DEA or Attorney General to do anything to 
your knowledge.
    Mr. Marshall. No, that's correct.
    Ms. Jackson-Lee. And Mr. Howard, having been under oath, I 
know there is an OPR investigation still going on; is that my 
understanding?
    Mr. Marshall. No, the OPR investigation has been completed.
    Ms. Jackson-Lee. The IG is still going on?
    Mr. Marshall. The Inspector General is still going on, yes.
    Ms. Jackson-Lee. So the case is still open to the degree of 
trying to find out the facts in this matter?
    Mr. Marshall. That's correct.
    Ms. Jackson-Lee. Mr. Howard, being under oath in this 
committee, would you have the impression that Mr. Howard would 
be telling the truth?
    Mr. Marshall. Would I what?
    Ms. Jackson-Lee. Have the impression that Mr. Howard would 
tell the truth being under oath in this committee?
    Mr. Marshall. I have not heard his testimony. I would have 
the assumption and the expectation that he would tell the 
truth.
    Ms. Jackson-Lee. Is he of such a person that you have known 
him and worked with him for 12 years that you would expect him 
to tell the truth.
    Mr. Marshall. I have always known him to tell the truth, 
and that would be my expectation.
    Ms. Jackson-Lee. If that is the case, then at this 
juncture, would you be able to say that Mr. Howard has not done 
anything improper or you've not told him that he's done 
anything improper?
    Mr. Marshall. Well, I think that that, and I want to be 
very cautious here, because I think that's part of the purpose 
of the Inspector General's investigation.
    Ms. Jackson-Lee. If, in fact----
    Mr. Marshall. If I may continue, please. What I believed 
was happening here, and what personal conversations I had with 
Mr. Howard on the surface, do not correlate with the e-mails 
and the memo from Mr. Nims. So that's one of the reasons that I 
requested the Inspector General investigation was to clarify 
that for me.
    Ms. Jackson-Lee. Excellent. And I think that is an 
appropriate responsibility of an administrator, but today, and 
during the time you had your conversation, you did not indicate 
to Mr. Howard that you thought he was acting inappropriately.
    Mr. Marshall. When I had the conversations with Mr. Howard?
    Ms. Jackson-Lee. That's correct.
    Mr. Marshall. That's correct. I had every reason to believe 
that he was following my instructions and that the criminal 
investigation was continuing and while the OPR investigation 
was going on.
    Ms. Jackson-Lee. And I believe that was clarified, as I 
understand it here on the record, that that was occurring as we 
understand it. I am personally--I think that we should all be 
committed to finding out the truth, and I hope that this 
hearing will result in that. As I was sitting in this hearing, 
I had the opportunity to peruse some of the articles that 
recount some of the lyrics that I think are abhorrent.
    I abhor improper, out of order, and clearly we all have a 
first amendment, but I have gone on record before for speaking 
against such lyrics, regardless of whether we're talking about 
artistic rights and privacy and first amendment. So I have hope 
that we can separate out those accusations as not those of any 
of us who are here today. And hopefully, they are not words 
that our children and young people will find with any 
credibility and are not spoken with courage, as far as I'm 
concerned. But I do believe that we have lives in question 
here, people's reputations, people's long years of service, and 
I think it's very important that we tread lightly as we pursue 
this as it relates to what may be people caught up in a set of 
circumstances who are not involved.
    Do you have any knowledge of any involvement in any of 
these matters of the Brook Hollow Baptist Church or the Brook 
Hollow Church without walls that you may have heard of in your 
review of matters that you've heard of?
    Mr. Marshall. Well, you've set quite a background there 
with the lyrics and freedom of speech, and our children and I 
share all of those. I respect certainly your viewpoints. I 
appreciate your support and I respect the difference. I will 
say with regard to those lyrics, I think that those very lyrics 
indicate that the people that wrote them, the people that 
participated in them, even the people that produce, perform 
them, that sell them, I think that--I think that those people 
are vicious thugs, and I think there is really no place for 
that in our society.
    I recognize I respect free speech, but to me, those lyrics 
amount to inciting violence against police officers. I'm 
concerned for Jack Schumacher's safety as a result of that. I 
think that may very well encourage people to kill Jack 
Schumacher or try that, in fact, there are direct threats 
against Mr. Schumacher. With regard to the church, I have no 
reason to believe that the church participated, supported, 
condoned that in any way, shape, form or fashion. The only 
connection that I know of is that Mr. Prince, I understand it, 
is the owner, president, executive or some direct connection 
with the record company that produced that CD, and that he is 
also a member of that church.
    Now, I can't say that, in fact, I would assume that that 
does not mean that the church, that the church was involved. So 
no, other than that, I don't know of any connection between the 
church and those lyrics. I would hope that the church condemns 
those lyrics.
    Ms. Jackson-Lee. I think it's very important as we try to 
protect everyone's life integrity and reputation that we 
clarify when we have definitive information versus not. So as I 
take your testimony, you have nothing to associate this church 
and this pastor with anything that has gone on here today in 
this proceeding?
    Mr. Marshall. Well, other than the connection that Mr. 
Prince, I understand is a member of that church. Now that 
doesn't mean that the church is involved, it certainly doesn't 
mean that the pastor--but when you say the word ``connection,'' 
there is a connection between the people.
    Ms. Jackson-Lee. I disagree with you. Church----
    Mr. Marshall. There is an association.
    Ms. Jackson-Lee. But churches don't reject membership or 
members. In fact, churches are places where people of need go 
for whatever reasons, and I hope that is what you're saying 
here today.
    Mr. Marshall. I think we're talking semantics here. I have 
no reason to believe the church or the pastor is involved in 
this type of activity.
    Ms. Jackson-Lee. I'm grateful for your clarification on 
that issue.
    Let me finish in the 20 seconds of their graciousness. We 
have had a myriad of statements being made here today, a 
myriad, a number of witnesses that are testifying and under 
oath. I would hope that you, as a DEA administrator, will leave 
here, and we will leave here as members of this committee, and 
those who have been guests of the committee with the bottom 
line idea is to get to the truth and to be--free ourselves from 
innuendo and rumor. Is that the direction that you hope the IG 
is going and your office will be going?
    Mr. Marshall. I made comments similar to that in my opening 
statement, yes.
    Ms. Jackson-Lee. Would you summarize them for me, please.
    Mr. Marshall. Yes, my goal here, my underriding goal here 
is to find the truth of what happened here, to find whether DEA 
employees succumbed to political pressure, to close this 
investigation, and if so, to take the proper action to correct 
that, and if not, to see that the record is clarified. And I 
feel I have to do that to protect the integrity of DEA and its 
employees. So yes, absolutely I want the truth. I hope this 
hearing, together with the Inspector General's investigation, 
will get us to the truth, and that will allow me to take 
whatever action I need to take.
    Ms. Jackson-Lee. Nothing but the truth. I thank you. I hope 
we all stay focused. Thank you very much.
    Mr. Shays. Thank you, Mr. Marshall. We think you've been 
very cooperative. I am going to recognize Ben Gilman, but I 
would also request at this time that we have the attachment to 
the August 20 memo, if you would give us the attachment to 
that, to get at the truth would be helpful. And I would then 
make unanimous consent to put the memo redacted into the 
record, and we have checked with counsel on the other side, and 
there is no objection to that. But we would like the attachment 
to this piece, please.
    Mr. Marshall. Mr. Chairman I am told that the Prosecutors 
Office, the U.S. Attorneys Office in Houston, has some concerns 
about the information that is in the memo, that they are in the 
process of making some redactions on that memo. When that is 
done, we will provide it to you.
    Mr. Shays. Let me be really clear on this. You have pledged 
that once that is redacted, it is presented to this committee. 
I would like to know when that will happen.
    Mr. Marshall. I'm told that can be done before close of 
business today.
    Mr. Shays. Thank you very much.
    Mr. Gilman, thank you for your patience.
    We'll be coming back. We'll be coming back. Mr. Cummings, 
you'll be recognized next.
    Mr. Gilman. Thank you, Mr. Chairman.
    Administrator Marshall, we need your help to clear up these 
serious allegations with regard to political influence over 
major drug-related criminal investigation in Houston, TX; and I 
hope today's hearing and our DEA leader's appearance can help 
restore the public confidence in our DEA, something we have a 
high regard for.
    Yesterday was not particularly a good day for the DEA 
before the Congress. Whatever one can say about the 
uncertainties surrounding political influence that we witnessed 
yesterday and today, some degree of certainty did emerge from 
our hearing and that's the unmistakable fact that the DEA 
Office of Public Responsibility [OPR], procedures are badly in 
need of repair.
    From August 1999 to October 2000, a period of more than a 
year, a major drug investigation was shelved, no proactive 
investigation conducted, along with a DEA agent put out to 
pasture, all generated by the target of the investigation 
itself sidetracked by the inquiry. I think that's totally 
unacceptable. To me, this current OPR investigation--allegation 
investigation process looks like a road map for the bad guys to 
sidetrack DEA investigations when the heat is turned up outside 
the DEA.
    No one wants to see allegations of abuse of authority by 
DEA ignored or not thoroughly examined. However, I would urge 
you, Mr. Marshall, to totally evaluate and create a better 
system than shutting down an inquiry for more than a year and 
putting the lead DEA and his local police counterparts out to 
pasture based solely upon the unsubstantiated and self-serving 
allegations by the target himself.
    DEA appears to have over-reacted to a letter from the 
Member of Congress. The DEA gave the target of this 
investigation the benefit of the doubt over its own DEA agents 
and Houston police officers who are out there trying to do 
their job. When all of these fine police officers and agents 
were of course eventually vindicated and no wrong being found, 
the only beneficiary, however, was the target of a major drug 
trafficking inquiry.
    I hope that this case before us and the target's efforts 
being successful and the inquiry may never get back on track--I 
hope it will get back on track; and I hope, Mr. Marshall, you 
consider ordering a full review of the current OPR procedures 
so we may never again find ourselves in this kind of a 
situation.
    Mr. Marshall, on August----
    Mr. Marshall. May I comment, sir?
    Mr. Gilman. Yes, please, Mr. Marshall.
    Mr. Marshall. Congressman, I agree with you that if this 
investigation was shut down and there are serious questions on 
that, that shouldn't have been done. There is no reason for an 
OPR investigation to derail a criminal investigation, 
absolutely no reason. If it was done, it shouldn't have been 
done. It was done counter to my direction and my belief.
    With regard to the OPR process, we need to find ways to 
expedite that process. But when we receive allegations 
against--of misconduct I think we're obligated to investigate 
those allegations to prove them or to disprove them; and I will 
look for ways to expedite the process, but I will never 
compromise the integrity of the agency.
    I have recently asked for a review of that whole process to 
see if we can expedite the entire process from the 
investigation up through the decision process. It is my 
understanding that the Deputy Administrator has recently made 
some changes in there. I will review that for--to see if there 
is further progress that we can make.
    But I have recently articulated my philosophy of 
discipline, and it's a little bit of a change from what we have 
had in the past perhaps. The way I articulate that publically 
for all of our employees is that I want a speedy and 
compassionate discipline process for mistakes, honest mistakes 
that are made in the course of conducting our business. Because 
we all make mistakes. But, at the same time, violations which 
are integrity related which impact the effectiveness of my 
agency, the ability to do its job that are criminal in nature, 
they will be dealt with hopefully again swiftly but harshly. 
Because there is no place for that type of activity in DEA.
    That's my disciplinary process and the two sides of it. I 
am doing my best to see that we move in that direction. We 
must, however, investigate serious allegations and either prove 
them or disprove them and in either case protect our integrity 
and the public confidence in the agency.
    Congressman, I will look further at that process. Thank you 
for your comments.
    Mr. Gilman. Thank you, Mr. Marshall. I think it's 
encouraging you to hear you say that.
    Mr. Marshall, on August 24, 1999, despite your serious 
reservations as outlined in your memo of August 20 to the AG in 
which you say we would not normally brief a Member of Congress 
on an ongoing investigation except perhaps to acknowledge in 
the most general terms that an investigation exists, the 
circumstances of inquiry might also dictate how far we might 
go. I understand the sensitivity of the inquiry but really 
question the propriety of the inquiry, especially in light of 
the report. Mr. Marshall, who overrode your concerns?
    Mr. Marshall. I----
    Mr. Gilman. You recommended not doing this.
    Mr. Marshall. No, I don't believe the concern was 
overridden, Congressman. I made a recommendation----
    Mr. Gilman. If I might interrupt. You made a recommendation 
to the Attorney General saying that you question the propriety 
of this kind of an inquiry, and your reaction was that you 
should consider telling the Member we cannot give a brief on 
that matter.
    Mr. Marshall. That is correct. And that recommendation was 
not overridden. In fact, there was a letter that went back to 
Congresswoman Waters, if I can find it in my notebook.
    Mr. Gilman. Just briefly tell me.
    Mr. Shays. Excuse me. Let me interrupt for a second. I want 
to respect the time that Mr. Cummings has coming back, and we 
have gone over the 5 minutes. I just need an answer to this, 
and then we need to go to Mr. Cummings.
    Mr. Gilman. Mr. Chairman, I understand our side had 30 
minutes.
    Mr. Shays. We already used our 30 minutes. In fact, we used 
slightly more. Mr. Cummings was very generous in letting us go 
over time about 10 minutes, and then he had just 30 minutes, 
and I closed him right down. So I am determined to give him his 
5 minutes.
    Mr. Marshall. If I may just give an answer to the question. 
A letter went back from the Office of Legislative Affairs, 
Department of Justice, telling Congresswoman Waters that we 
cannot acknowledge even the existence of an investigation; and 
that was signed by Mr. Raben, I believe. I have it somewhere in 
this book. I will provide it to you because it was an official 
correspondence, and I'm surprised the committee doesn't already 
have it because it was a correspondence that was written, and I 
thought it had been provided already.
    Mr. Gilman. Mr. Chairman, will there be another round?
    Mr. Shays. Definitely, and I will even yield you my time. I 
want you to have more time. Your questions are very important, 
and you need more than 5 minutes. But I want Mr. Cummings to 
have his time.
    Mr. Gilman. I will go to a meeting, and I will come back.
    Mr. Shays. We hopefully will still be here or maybe not, 
hopefully. Mr. Cummings, you have a generous 5 minutes.
    Mr. Cummings. Thank you very much.
    Mr. Administrator, I want to direct my questions at 
something that I don't think anybody here has dealt with too 
much, but I want to make sure that we address the reputation 
not only of the agents that we have been talking about but I 
want to make sure we address your reputation and that of Ms. 
Reno, Attorney General Reno. And you will see where I'm going 
in a minute.
    When you had your discussions with the Attorney General--
and I know that some information may be privileged, I mean, 
confidential, that you need to keep, but there was no pressure 
placed on you to try to stop this investigation or anything of 
that nature, was there?
    Mr. Marshall. No, there wasn't.
    Mr. Cummings. And her--she basically brought to your 
attention the information--I mean the fact that she had gotten 
this memo, gotten a telephone call; and basically she was 
passing on information to you. And I take it that you felt 
confident that what she was saying is that she trusts your 
judgment, ``go forward with it and I'll check with you later to 
see how things are going.'' Is that a fair----
    Mr. Marshall. Essentially, yes, that's a fair 
representation.
    Mr. Cummings. But you didn't feel any pressure to do 
anything in particular.
    Mr. Marshall. No, I didn't.
    Mr. Cummings. Now, you never got a call from the Vice 
President of the United States or the President or Ms. Waters, 
did you? Have you ever talked to them about this case?
    Mr. Marshall. I have never talked to the President or the 
Vice President about this or anything else. My only encounter 
with Congresswoman Waters was in the context of a congressional 
hearing. I believe it was a subcommittee of the Judiciary. I 
have never had a private conversation with Ms. Waters.
    Mr. Cummings. But was the subject matter this issue here?
    Mr. Marshall. No, I have never talked to any of those three 
individuals about this issue.
    Mr. Cummings. Very well. Did you have--get any other 
pressure from any other government official in regard to 
saying, ``Mr. Administrator, you've got to do something to shut 
this down or bring it to a halt,'' or whatever? Anything like 
that?
    Mr. Marshall. I never had any conversation with either the 
President or Vice President or Ms. Waters. The only 
communication that I believe I saw was the letter from Ms. 
Waters.
    Mr. Cummings. All right. Now, when you--your conversations 
with Mr. Howard, when you spoke to him, what were your 
paramount concerns when you initially talked to Mr. Howard--
Officer Howard? When I don't say Officer Howard, it's not any 
disrespect. What were your major concerns? In other words, you 
were not trying to pressure him to do anything in particular, 
is that right?
    Mr. Marshall. No, that's correct. In fact, as I represented 
that conversation, it was my clear expectation that the 
criminal investigation was to continue. It was my--it was my 
goal really to do two things: No. 1, that we needed to get to 
the bottom of allegations that had been made. That was one 
objective. The other objective was to continue the criminal 
investigation on a parallel track as the OPR investigation was 
going forward.
    Mr. Cummings. Did there--was there any discussion about the 
backgrounds of the DEA officers involved in this investigation 
when you talked to Mr. Howard?
    Mr. Marshall. We only discussed one officer, that being 
Special Agent Schumacher; and, yes, we did talk about his 
background.
    Mr. Cummings. Did you have any concerns--you did have some 
concerns about his background, didn't you?
    Mr. Marshall. Well, I have already articulated my concerns 
in that conversation. And the concerns were that we have an 
allegation, an allegation that he is out to kill an individual. 
Our concern was--and he had been involved in several fatal 
shootings, all of which I hasten to add had been found to be 
justifiable.
    But, yeah, with that background and with this complaint on 
record we were concerned that if he got into a violent 
situation and had to use deadly force, a very real possibility 
with these violent drug organizations, that then he would be 
assumed guilty. And for his own protection and to ensure that 
there was no chance of that happening we discussed reassigning 
him, not as the point on this, rather giving the case agent 
duties to another agent in the same group under the same 
supervisor for Mr. Schumacher's own protection. That was the 
discussion.
    Mr. Cummings. Now if you were--before you were contacted by 
this committee, if one were to tell you--if Mr. Howard had 
said, I had followed your instructions, Mr. Administrator--keep 
in mind what I said, before you were contacted by this 
committee--you would have had no reason to doubt his word, 
would you?
    Mr. Marshall. No, I wouldn't, that's correct.
    Mr. Cummings. I don't have anything--I don't have anything 
further. Thank you.
    Well, I have one other thing. Mr. Administrator, I will be 
very brief because I know our committee member's time is 
running. Did you have something you wanted to add?
    Mr. Marshall. Well, this is in response to Congressman 
Gilman's request for the letter that went back to Congresswoman 
Waters. I'm told that the committee has that document. It is 
DEA/TX-0073. That's the Robert Raben memo back to Congresswoman 
Waters answering her August 20 letter.
    Mr. Cummings. With regard to cooperation, one of the things 
we're most concerned about on this committee is cooperation 
from the agencies. And I looked at your memo of August 20, 1999 
to Ms. Reno, and without even getting into it, because I think 
I can see how it can be a very sensitive document, I take it 
that there are some concerns that she might have and you might 
have with regard to making sure that the IG investigation does 
not prejudice anyone and that it's a fair investigation. And I 
take it that you also are concerned about making sure that 
there is an ongoing criminal investigation or if there is an 
investigation that is to be reopened that you do not--you want 
to make sure that nothing is prejudiced either on a possible 
defendant's side or your side. Is that a fair statement?
    Mr. Marshall. That's a fair statement. I'm a little bit 
confused if you're talking about the IG or the OPR 
investigation. But, yeah, that's a fair statement.
    Mr. Cummings. Yeah, I'm talking about--there were questions 
that you were asked a little bit earlier about your cooperation 
when a call was made to the chairman. The chairman said he 
called you, and he said--I don't know whether he talked to you 
directly or talked to someone in your office, but a statement 
was made that--based upon words from the Attorney General, and 
then you mentioned something about a meeting where you had 
gotten word from the Attorney General that you were supposed to 
either have limited cooperation with this committee or no 
cooperation. And I guess I was just trying to get to the bottom 
of why that was, what was that based upon. You follow me?
    Mr. Marshall. OK, those are two separate timeframes.
    Mr. Cummings. Fine, let's deal with both of them.
    Mr. Marshall. My recollection is that in October there was 
an initial request from Chairman Burton for documents and a 
request to interview DEA employees, and the documents he asked 
for were communications to and from Ernie Howard, myself--and 
I'm sure that subpoena is in here. There was a subpoena that 
was issued that was faxed over to my office asking for those 
things.
    I did in fact call the chairman and said, ``Mr. Chairman, 
you don't have to subpoena these things. I will cooperate 
voluntarily.'' He later wrote me a letter saying he will 
withdraw his subpoena based on my assurance that I would 
cooperate. We have provided those documents to the chairman.
    Now, fast forward to the November timeframe, and that's 
when we had the discussions at the Department of Justice about 
continued cooperation, and that is on the day or the day 
after--it was on the day that the Attorney General ordered the 
special investigation--and that was at my request by the way--
and it was at that meeting that it was determined that we would 
not continue to provide documents or interviews because the 
inspector general investigation was ongoing and that we would 
basically defer cooperation with the committee until that IG 
investigation was completed.
    Mr. Cummings. And I take it that now you are looking into 
or have looked into the possibility of taking a look at this 
criminal investigation because all of us have concerns about 
the criminal investigations. We heard the officers. It doesn't 
make too much difference who you believe, but we do know and I 
think it was pretty consistent the information that we have got 
is that there is a lot more to be done with regards to that 
criminal investigation. I take it that you're looking into 
that.
    Mr. Marshall. Yes, I am looking into that and particularly 
in light of the allegations that were pulled that we shut the 
investigation down, that sort of stuff. I know that we've been 
investigating this general trafficking group, either us or 
other law enforcement agencies, for probably 7, 8, 10 years in 
Houston and have not made the kind of progress during that 
entire time that anybody would like to see made.
    In light of that and in light of all of these allegations I 
did in fact send a team down to take really a new fresh look at 
that whole investigation to see what had been done, to see 
where we are now, to see if there are any approaches that have 
been missed, if there is any future way that we can go. And I 
have a preliminary report from that team. I don't want to 
discuss that in open session, but I do want to assess that.
    Mr. Cummings. I would hope that, Mr. Chairman, at some 
point we can have a private discussion, because I really would 
be interested--I think our entire committee needs to feel some 
kind of confidentiality. Because I think the pain that comes to 
us--there are a lot of things that we have concerns about, but 
I think on both sides of the aisle our greatest pain comes from 
just a thought that an investigation that should go forward, 
that should be addressing this whole drug situation, that it 
was--it may not have gone the distance.
    And I appreciate your comments.
    Mr. Marshall. I agree. If this investigation was shut down, 
it shouldn't have been. We need to not only find ways to 
reverse that, but we need to find ways to prevent that from 
happening in the future.
    Mr. Cummings. Thank you very much. Thank you for your 
indulgence.
    Mr. Shay. Mr. Cummings, I appreciate your questions.
    I just want to, before I recognize Mr. Ose, and he will be 
next, I just want to say, in the reference to shut down, 
suspend is almost as equal to shut down. I just hope we are not 
going to get semantics later that we have a technical file that 
is open but not active. We already have testimony that there is 
not a proactive investigation.
    Mr. Marshall. I will try to clarify that from my point of 
view.
    Mr. Shay. I am just making the point to you, and I don't 
want to take Mr. Ose's time.
    Mr. Marshall. I just want to clarify. I never intended--
and, in fact, when I gave the order, I intended for this 
investigation to continue on its present pace. I didn't draw 
the distinction at that time between shut down and suspension. 
I intended for it to go forward, and I was very clear about 
that.
    Mr. Shays. To be proactive.
    Mr. Marshall. Yes, sir.
    Mr. Shays. Thank you, sir.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Shays.
    Mr. Marshall, I've been sitting up here just thinking; and 
I'm aware of Ms. Waters' letter to the Attorney General dated 
August 20 or something like that to which you responded with a 
memo. How did the issue of Mr. Prince's/Smith's allegation 
surface with Ms. Waters?
    Mr. Marshall. Well, it was articulated in her original 
letter of August 20.
    Mr. Ose. Did Mr. Smith/Prince call Ms. Waters? Did he send 
her a letter an e-mail? Any idea?
    Mr. Marshall. I don't know if that's explained in Ms. 
Waters' letter or not, and I don't recollect that I ever knew 
exactly how he got that word to her.
    Mr. Ose. I want to--clearly, you have an excellent 
reputation; and I applaud you for it. Clearly, you've had to 
delve into this probably more than you've ever wished you had 
to. Have you read the deposition of August 24 that Mr. Smith/
Prince provided in Ms. Waters' office?
    Mr. Marshall. I read portions of it a few days after it was 
transcribed. It was over a year since I've read it. I didn't 
read the whole thing, but I've read portions of it.
    Mr. Ose. I've just read it again, and the reason I have 
read it again was that it was my memory that Mr. Prince could 
not in the course of that deposition ever cite a single 
incidence of Mr. Schumacher ever perpetuating harassment or 
intimidation on him whatsoever. Is that your recollection?
    Mr. Marshall. Yeah, that's my recollection. And that's the 
way it was characterized to me when Mr. Jimenez told me about 
the interview. That's the impression I had when I read the 
transcript. However, at the same time, we walked out of that 
meeting or Mr. Jimenez walked out of that meeting and got a 
report from a private investigator. And in that report there 
were some allegations, some of them, most of them, frankly, 
unsubstantiated but two specific allegations that he made that 
we felt like could be either verified or disproven; and we set 
about to do that.
    Mr. Ose. I want to get to the private investigator report, 
but I want to go back to the deposition because it's 
interesting to me. I've had the indubitable pleasure, Mr. 
Shays, of actually having been deposed on a number of times. 
And I provide--when I have been deposed I had to provide my 
statement under oath. So we have Mr. Prince/Smith in the course 
of a deposition under oath saying that he has never been 
identified, harassed, what have you, by Mr. Schumacher, 
whatsoever. I mean, that just seems like very clear evidence 
that it doesn't--I mean, I'm stunned that we would--I mean, 
here's the guy that actually asked for the investigation saying 
he's never been harassed or intimidated, saying it under oath 
and that the OPR thing goes forward.
    Mr. Marshall. If I might, please. I agree with that with 
regard to that deposition. The private investigator report was 
now a completely separate thing which said that Special Agent 
Schumacher had beaten up a couple of defendants and that a gold 
piece of jewelry was stolen from one of those defendants. Those 
are specific allegations. Those are fairly easily, with a 
little bit of investigative work, either negated or 
corroborated. Those are the investigations that we set out to 
look at, not anything that was in Mr. Prince's deposition 
because there was nothing there.
    Mr. Ose. As I understand--let's address both of those 
incidents. The gold necklace was from an individual named Chad 
Scott, according to the PI report, if I recall. It was Chad 
Scott who wore the gold necklace.
    Mr. Marshall. Who took the gold necklace.
    Mr. Ose. Correct, it wasn't Mr. Schumacher.
    Mr. Marshall. I believe that is correct. The allegation 
against Mr. Schumacher was that he had beaten up a couple of 
defendants, as I recall.
    Mr. Ose. Now the private investigator--I have seen the 
report. It's a very, very copious report. Who is this--for 
whom--who is this private investigator? What's his background? 
Who does he work for; etc.
    Mr. Marshall. It's my understanding that he was retained by 
Mr. Prince, Mr. Smith, I don't know what his background is.
    Mr. Ose. Is he an employee of Mr. Smith/Prince?
    Mr. Marshall. Well, if you consider an employee to be 
somebody that he is paying to do that piece of investigative 
work, I guess he was. He was clearly being paid by Mr. Smith to 
compile that report.
    Mr. Ose. Does he have any past or present or ongoing 
relationship to any other parties in this whole entire ugly 
episode?
    Mr. Marshall. I don't know the answer to that, sir.
    Mr. Ose. OK. Your memo references--in the body of the third 
paragraph references that the report says I understand the 
sensitivity of the inquiry but really question the propriety of 
the inquiry, especially in light of the report that blank may 
be a relative of the Member making the inquiry. Could you tell 
me what that means?
    Mr. Marshall. Yeah. When this all came about I believe it 
was Mr. Howard that told me that Mr. Prince was a cousin of Ms. 
Waters, and that's the reason I questioned that. And then I 
questioned the motivation in my mind.
    Mr. Ose. Has that ever been substantiated or refuted?
    Mr. Marshall. It's my understanding--and I would have to 
defer to someone else to confirm this, but it's my 
understanding that he may be--he's either a relative or 
childhood friend of Ms. Waters' husband is what I've been told.
    Mr. Shays. Let us say for the record--and clearly I will be 
very delinquent if I didn't establish this--there is no 
relationship, family relationship, there may be another kind of 
relationship, but there is no family relationship to Mr. Prince 
I think is the fact. You're not----
    Mr. Marshall. If you know that, sir, I'll defer to that. I 
don't know of my own personal knowledge if there is or isn't.
    Mr. Shays. The point is, though, that this memo is the memo 
that we requested from you; and it was intended to be internal 
as far as you know.
    Mr. Ose. Actually, this memo is from Mr. Marshall to the 
Attorney General that I'm talking about, dated August 20, 1999.
    Mr. Shays. OK.
    Mr. Ose. I have another round, but I see my light's red.
    Mr. Shays. I just want to establish for the record there is 
no substantiation in any way of a blood relationship between 
anyone in Congressman Waters' family and this--and the subject 
of the investigation.
    Mr. Marshall. I'm not sure whether we established that or 
not. Could I research that and get an answer back to you?
    Mr. Shays. I'm just going to say it hasn't been established 
and in all of our research we haven't found that to be the 
case. There may be a relationship of living in the area, family 
relationship--not family relationship, maybe another 
relationship that goes back a long way but not a blood 
relationship.
    Mr. Marshall. Then I'll defer to your knowledge on that.
    Mr. Shays. That's what I'm most comfortable saying for the 
public record.
    Mr. Ose. Mr. Shays, I think you're asking the question, are 
you not, and that's exactly the question I ask, is whether 
there is any evidence to corroborate or refute the suggestion 
in Mr. Marshall's memo to the Attorney General of a familial 
relationship.
    Mr. Shays. Can we do this? Can you check with your parties 
to understand what kind of relationship existed just so we have 
it on the record accurately before you leave today.
    Mr. Marshall. I will do so.
    Mr. Shays. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I have just a few 
questions, Mr. Chairman. I had to be out of the room earlier.
    I am curious, Administrator Marshall, when did you first 
know Mr. Howard? When did he first come to your attention?
    Mr. Marshall. I have known him for quite a number of years 
now, perhaps as long as 20 years; and I have worked with him 
fairly closely for 10 or 12 years.
    Mr. Horn. If I knew somebody for 20 years and you are the 
boss, and I was given an order dealing in something very 
carefully that could blow up one way or the other, I would pick 
up the phone, if I were Ernie Howard, to ask you ``what are we 
supposed to be doing here?'' Or if I were you and you knew him 
for 20 years, and your people around you might say, ``we are 
going to let this one go, it is going to be a suspension, we 
have this letter, you should pick up the phone.''
    Did you get a call from Mr. Howard that relates to anything 
around this particular issue, but primarily this issue?
    Mr. Marshall. On August 20 I picked up the phone and called 
Mr. Howard to get an orientation for my own benefit and as a 
result of the letter from Ms. Waters. I initiated that 
conversation, and I got a brief on the case. I already knew a 
few details about the case, but not any great depth. He gave me 
some more information.
    Over the course of several weeks, I had a number of 
conversations with Mr. Howard. Sometimes I called him and 
sometimes he called me. I did give very specific instructions 
to Mr. Howard that the investigation continue.
    Mr. Horn. So in dealing with this, you didn't leave it to 
your deputy administrator or if there is a regional 
administrator, or were they clued in at the time that this was 
a hot potato?
    In other words, you personally dealt with Mr. Howard?
    Mr. Marshall. For the first few conversations, I personally 
dealt with Mr. Howard. I personally dealt with Mr. Jimenez, but 
I know that Mr. Howard and Mr. Jimenez were dealing on a 
parallel track. Once I got the lay of the land and felt like we 
were progressing on a satisfactory track with both the OPR 
investigation, and the criminal investigation was continuing 
per my directions, then I backed away from it and assumed that 
Mr. Howard and Mr. Jimenez were handling their respective 
tracks. That is their job.
    Mr. Horn. How much contact did you have with Chief 
Inspector Gamble on this case?
    Mr. Marshall. Since he became chief inspector, he briefs me 
periodically on all of the OPR, significant OPR activities, and 
I got periodic briefs from him, once a month perhaps, where he 
would brief me on this and other matters.
    I talked to him specifically about this investigation 
probably--let me think to be sure about this answer, probably 
on just a couple of occasions. And those couple of occasions 
would have been first following my January 13 meeting with the 
Attorney General where she asked me to give Maxine Waters a 
status report on the OPR investigation.
    I discussed that with Mr. Gamble. I gave him some 
parameters for what he was and was not to tell Ms. Waters. 
Basically I told him not to discuss the ongoing criminal 
investigation. I told him to discuss the process of the OPR 
investigation and where we were within that process without 
giving the details of what we had found in that investigation.
    And then I believe I had another conversation with Mr. 
Gamble after that meeting where he related to me that he had 
done so. He also related to me at that time that Ms. Waters 
requested that Agent Schumacher be transferred out of Texas and 
that we look into the issue of the gold--the piece of gold 
jewelry.
    As far as I know, these were the only two conversations 
that I had with Mr. Gamble specifically regarding these 
matters.
    Mr. Horn. I remember that J. Edgar Hoover, when he had a 
person in the FBI that he didn't want around, they sent them to 
Montana or Idaho or some place, and that became a very large 
FBI office.
    Is it appropriate and is it used very much to put an agent 
from one State dealing in a number of things to another State, 
and is it for the good of the agency rather than not 
necessarily the good of the agent?
    Mr. Marshall. OK, I will have to give you an explanation on 
this.
    I don't believe in punitive transfers. We do make transfers 
for the good of the agency. I believe if a person has a 
performance problem, that the management of that office should 
deal with that performance problem.
    On the other hand, where an agent is ineffective in 
whatever locale he is in for whatever reason and that happens 
from time to time, then I think for the good of the agency they 
need to be moved to a location where they can be effective. But 
punitive disciplinary transfers, per se, I do not believe in 
them and I do not use them.
    Mr. Horn. The briefer for Ms. Waters was Mr. Gamble. You 
didn't go see her, or did you see her?
    Mr. Marshall. No, I have never had a private conversation 
with Ms. Waters.
    Mr. Horn. Because often agency heads come up and talk to 
committee chairmen.
    You are saying that Mr. Gamble could brief her on the 
matter?
    Mr. Marshall. That's correct. Certainly, like any agency 
head, I have visited personally with Members of Congress and 
Senators, but not Ms. Waters.
    Mr. Horn. I wonder if the people that advised Ms. Waters 
and the people that advised Mr. Gamble, were there any other 
suggestions made relevant to this unit, not just Mr. 
Schumacher, but the unit and to what degree did there seem to 
be a knowledge of what the unit was doing?
    What other great ideas came out of Capitol Hill?
    Mr. Marshall. I am not sure that I understand your 
reference to the unit. But with regard to Mr. Gamble's 
representation of that conversation to me, the two issues 
were--the transfer of Schumacher out of Texas and the gold 
piece of jewelry. I don't recall any other issues that he 
reported back to me on.
    Mr. Horn. Well, in other words, did she object to that? Did 
the Representative object to that or did it just die after 
that?
    Mr. Marshall. Object to what?
    Mr. Horn. Object to dealing with Mr. Schumacher. And one 
suggestion was, move him out of Texas. And then did that 
satisfy her, or who told her that he wasn't going to be moved 
out of Texas?
    Mr. Marshall. Mr. Gamble told her on the spot that is not 
going to happen, that is not the way that we operate, we will 
conduct the OPR investigation. I suppose she accepted that.
    Mr. Horn. So you did not hear any more from her on that 
issue?
    Mr. Marshall. I didn't hear any more on that issue, or from 
him.
    Mr. Horn. I have had those sessions with the State 
legislature, so I understand what you have to go through. Just 
tell the truth is the best way to handle it.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Shays. Mr. Marshall, I think we are kind of getting to 
the end, and you have been a very cooperative witness and 
helpful witness. I am going to ask counsel----
    Mr. Marshall. At some point, I have two items that I would 
like to clarify.
    First, I have just been handed a note that the document 
number that I gave you--I'm sorry. The attachment to my August 
20th memo, it looks like we are not going to have that by close 
of business today. We can get it tomorrow.
    Mr. Shays. Tomorrow will be acceptable. Before the close of 
business tomorrow will be very nice.
    Mr. Marshall. Thank you.
    The second item, I have a note here that says Ambassador 
Williams, who is Ms. Waters' husband, grew up with Mr. Prince 
in the fifth ward of Houston, and there is no mention of a 
blood relationship.
    Mr. Shays. Thank you.
    Mr. Cummings, I was going to have counsel ask questions. 
Then you can ask your questions.
    Mr. Wilson. I have just a very few questions.
    I have in my hand the August 20, 1999, memo from yourself 
to the Attorney General. Who wrote the memo?
    Mr. Marshall. I wrote the memo.
    Mr. Wilson. You just mentioned a few moments ago that you 
at some point on August 20 got an orientation from Mr. Howard; 
is that correct?
    Mr. Marshall. That's correct.
    Mr. Wilson. Prior to writing this memo, did you speak to 
Mr. Howard?
    Mr. Marshall. Yes, I would have gotten that orientation 
from Mr. Howard before I wrote the memo.
    Mr. Wilson. Is it fair to say that what you wrote is a 
product of your conversations with Mr. Howard on August 20?
    Mr. Marshall. That is fair to say, yes.
    Mr. Wilson. We had some discussion about differing 
recollections, but one of the principal issues that we have to 
reconcile amongst ourselves is Mr. Howard's testimony that he 
thought in August 1999 that there were no leads to be followed 
up on; and we have to reconcile that with all of the other 
testimony we have received, the Houston policeman that 
testified thought that there were leads, the special agent from 
the DEA, Mr. Schumacher, thought that there were leads to 
followup on. And it appears in your memo to the Attorney 
General, which is a fairly significant thing if you write a 
memo to the Attorney General, you said and I will quote from 
your memo, ``My questions and comments notwithstanding, it 
appears to me that this is a significant criminal investigation 
with''--and the document we released has a name redacted, ``and 
others are legitimate suspects. There are multiple sources of 
information reporting his involvement in the drug trade. There 
is physical evidence which appears to tie him to the drug 
trade, and it is an active, ongoing investigation.''
    So it appears that there is a continuum of employees here--
Houston policemen, DEA special agents, Mr. Howard, then 
yourself, then the Attorney General of the United States. The 
only person in this continuum, it seems, that thinks there are 
no leads to be followed up on appears to be Mr. Howard.
    Did you have any discussions on August 20 with Mr. Howard 
where he indicated to you that there was nothing else to be 
done at that point?
    Mr. Marshall. Well, no. I have to tell you that is one of 
the confusions that I have in this whole issue, and it is one 
of the reasons that I requested the inspector general 
investigation.
    This memo was written following a conversation with Mr. 
Howard, and it was my clear impression from Mr. Howard that 
this is an accurate characterization of that investigation, 
that we had a viable investigation here that we should 
continue. And then it was a few days later, I guess, or perhaps 
a week later, that he became frustrated and said, ``it is too 
much hassle, I will close it down.'' And I said, ``no, you 
can't; you told me it is a viable investigation and we have to 
go with it.''
    Mr. Wilson. This was just provided to us today, it had not 
been provided to us by DOJ, and this has a dramatic bearing on 
what Mr. Howard told us yesterday and today because it provides 
some contemporaneous evidence that at least Mr. Howard told you 
that there is an active, ongoing investigation. Is it fair for 
me to conclude that you would have no other way to conclude 
that there was an active, ongoing investigation unless Mr. 
Howard told you it was?
    Mr. Marshall. That's correct.
    Mr. Wilson. Because you didn't talk to anybody else on 
August 20 about this case?
    Mr. Marshall. Not about this case, no.
    Mr. Wilson. You asked Mr. Gamble to brief a Congressman 
about the OPR investigation, correct?
    Mr. Marshall. Correct. Well, let me clarify that again.
    I asked Mr. Gamble to give her a status report on the OPR 
investigation. I was very careful that I told him not to brief 
on the criminal investigation and not to give any of the 
factual details on the OPR investigation, to describe status 
and the process. That is what I told him to brief the 
Congresswoman on.
    Mr. Wilson. There was at least some direction to speak 
under the terms that you have outlined. From what we have heard 
during the briefing, the Congressperson at issue here asked Mr. 
Gamble to pull Special Agent Schumacher out of the case and 
take him out of Texas?
    Mr. Marshall. That is what Mr. Gamble reported to me after 
the conversation, yes.
    Mr. Wilson. And from what we have heard today, shortly 
thereafter, Mr. Gamble told Mr. Howard to take Mr. Schumacher 
off of the enforcement action?
    Mr. Marshall. I don't know what Mr. Gamble told Mr. Howard.
    Mr. Wilson. You are not aware of how that process played 
out?
    Mr. Marshall. No, I am not.
    Mr. Wilson. My final question: Is it fair to say that Mr. 
Gamble's recommendation was made as a result of his interaction 
with a Congressperson, but it sounds as if you would not be 
able to make that connection?
    Mr. Marshall. I don't know what recommendation that you are 
talking about that Mr. Gamble would have made.
    Mr. Wilson. To take Mr. Schumacher off enforcement.
    Mr. Marshall. I just don't know that Mr. Gamble made that 
recommendation to Mr. Howard.
    Mr. Wilson. Just a couple of last things.
    Earlier this year a member of committee staff interviewed 
Houston police officers and encountered some difficulties at 
the last moment. Are you aware of any efforts by the DEA to 
slow down the committee's efforts to talk to Houston police 
officers?
    Mr. Marshall. No, I am not. In fact, I heard that story, 
and I asked my Congressional Affairs staff to ask about that. 
They told me that they did inquire about that, and I believe 
they talked to Mr. Howard about that. Mr. Howard denied that he 
made any such efforts.
    Mr. Wilson. Did those inquiries establish whether anybody 
from the DEA was in contact with the Houston Police Department 
on the day that we conducted our interviews?
    Mr. Marshall. Well, I don't know that they established that 
nobody did that. But they didn't uncover affirmatively anyone 
who did that. Does that make sense?
    Mr. Wilson. That does make sense. That is something that we 
wouldn't mind following up on because when we tried to 
interview Houston Police Department personnel, we were held up, 
apparently because of DEA. Our concern is that there was an 
attempt to----
    Mr. Marshall. I recall that incident, and at least some of 
my staff asked Mr. Howard about that, and Mr. Howard told the 
staff member that didn't happen.
    Mr. Wilson. At least he didn't know that it happened?
    Mr. Marshall. Right. That he didn't know that it happened.
    Mr. Wilson. On July 17 of this year we did interview Mr. 
Howard actually in this room, and we appreciate your efforts to 
facilitate that. Did you talk to Mr. Howard before the 
interview?
    Mr. Marshall. Yes, I did.
    Mr. Wilson. Mindful of the question what did you discuss, 
if you could tell us what you discussed that is germane to the 
issues we have been discussing in the last day-and-a-half?
    Mr. Marshall. My recollection of your letter that came to 
me was that it was a very general request, that you wanted--and 
I believe I am thinking about the same letter here--that you 
wanted to interview Mr. Howard, or DEA staff, and you named a 
couple of subjects in that letter, a couple of names that you 
wanted to talk about.
    I didn't know before they came over here exactly what it 
was that you wanted to learn about that. I don't think that my 
staff knew. I don't think that Ernie Howard knew. I told Ernie 
Howard in a meeting in my office, prior to his coming over 
here, to come over and fully brief the committee staff on any 
of the activities with regard to those two people that had 
already been adjudicated in court and was a matter of public 
record; and for that matter, any other defendants that you ask 
about or people that you ask about, if there was a problem to 
fully discuss, disclose, talk about, whatever, with the 
committee staff.
    I cautioned him not to discuss with committee staff any 
aspect of the ongoing investigation, and I was very clear about 
that. And it was reported back to me later, not by Mr. Howard, 
but I believe by a staff member of mine, that those guidelines 
had been followed in the discussions.
    Mr. Wilson. I think we have already established that at 
that point you did not have the e-mails and you had not read 
the e-mails that Mr. Howard had sent to some of his colleagues?
    Mr. Marshall. That's correct. Nor was it mentioned to me, 
nor at any time during that conversation was I given any reason 
to believe that the investigation had been shut down.
    I specifically said, ``do not brief on active, ongoing 
investigations.'' There was no comment to me, ``well, there are 
no active, ongoing investigations,'' so I still, even at that 
point, assumed that these were active, ongoing investigations.
    Mr. Wilson. Thank you very much.
    Mr. Shays. Mr. Ose, you have the floor.
    Mr. Ose. Thank you, Mr. Shays.
    Mr. Shays. Mr. Marshall, do you need a break?
    Mr. Marshall. No, sir. Thank you.
    Mr. Ose. On page 8 of the private investigator's report, 
the second paragraph cites the instance having to do with the 
gold necklace and the other incident that Mr. Schumacher was 
accused of hitting someone in the stomach. Now we have 
ascertained that the gold necklace incident did not involve Mr. 
Schumacher, that in fact Mr. Chad Scott received a letter of 
reprimand for that.
    Mr. Marshall. That's correct.
    Mr. Ose. I am just trying to make sure that I understand 
whose reputation is being impugned here. As it relates to the 
allegation against Mr. Schumacher, certainly you investigated 
that much as you did the gold necklace allegation; is that 
correct?
    Mr. Marshall. I'm sorry?
    Mr. Ose. The allegation that Mr. Schumacher hit somebody in 
the stomach during the course of an investigation, did you 
investigate that?
    Mr. Marshall. Our OPR investigated that.
    Mr. Ose. Did they find substance or lack thereof?
    Mr. Marshall. They initially found an agent by, I believe, 
the name Fanning that said, yes, that happened. He was there 
when it happened. He described how it happened. He described 
that the defendant, or two, were up against the wall and that 
Mr. Schumacher, I believe the words were, ``slapped them 
around, kicked their feet out from under them,'' and initially 
there was that corroboration.
    Later on, however, we determined that Mr. Fanning himself 
had a credibility problem because he was under OPR 
investigation and subsequently was terminated from our 
employment. So his credibility then washed out, and the charges 
against Mr. Schumacher were unsubstantiated and he received a 
letter of clearance.
    I share your frustrations.
    Mr. Ose. We have a guy who registered serious allegations 
against a DEA agent on, like, August 19, and then came in under 
oath in a deposition and said, no, ``I have never had any 
contact with the guy.''
    Then we had an OPR investigation to followup on an 
additional allegation from a private investigator of who knows 
what origin, none of which was found to have any substance, and 
yet it seems to me somebody--I am trying to figure out, for 
what purpose are we continually trying to impugn this 
gentleman's character?
    Mr. Marshall. It is clear to me. We have allegations of 
theft and brutality that were specific allegations, specific 
names, times and places attached to them, and those were 
allegations that we simply have to investigate; and we did, and 
the process resulted in minor discipline for one, a clearance 
for the other. That is our process and that is what we have to 
do.
    Can you imagine if I turned my back on those allegations 
and then they subsequently turned out to be true?
    Mr. Ose. I am not questioning that.
    In terms of the clearance given to Mr. Schumacher regarding 
the alleged incident with the individual, I think it was 
January 27, 1999, how long did it take OPR to investigate and 
come to the conclusion that the allegations had no merit--6 
months, a year?
    Mr. Marshall. I believe that the OPR investigation--and I 
discussed this earlier--it is my recollection that the OPR 
investigation took a number of months. There were some reasons 
for that, one of those reasons being that some of the witnesses 
that the OPR investigators felt that they needed to talk to did 
not want to talk to them. It took a while to get them to talk. 
At some point I believe that investigation was sent to the 
Department of Justice, either the Civil Rights Division or the 
Public Integrity Section, to review.
    That aspect of it took, as I recall, from November to 
February or March. It was sometime in that March timeframe, and 
if you'll allow me to get the exact dates, I will do so, but my 
recollection is sometime in that March timeframe it was sent to 
the Board of Professional Conduct.
    Mr. Ose. So the investigation was finished in November and 
the paperwork basically took 5 or 6 months?
    Mr. Marshall. No, the investigation was not finished in 
November. In fact, I recall a notation on one of my notes at a 
biweekly DAG meeting at the Department of Justice that they 
still had to interview Special Agent Schumacher, and I believe 
that was in February. So I think that perhaps the OPR wasn't 
completed until March. Now, at any rate, it was sent to the 
Board of Professional Conduct, and that board--and I looked 
into this, and the explanation I got was that that board was 
operating at least one person short because one of the members 
was on sick leave for about 2 months. Sometime in that 
timeframe I was told that they were dealing with some other 
serious allegations, some 30-odd people were removed. I am told 
that they prioritize their cases, first dealing with the ones 
where employees are on limited duty or leave without pay or 
even leave with pay. That was not the case in here, and they 
simply didn't prioritize it as high as some of the other cases 
in their heavy workload.
    Mr. Ose. If I may go back, the deposition that was taken on 
August 20, who paid for that? Did the DEA pay?
    Mr. Marshall. You mean the court reporter?
    Mr. Ose. Yes.
    Mr. Marshall. DEA paid for that.
    Mr. Ose. Who paid for the private investigator's report?
    Mr. Marshall. Mr. Prince, I believe.
    Mr. Ose. Mr. Prince, the same guy that was deposed and 
testified that he had no knowledge of ever interacting with Mr. 
Schumacher in a manner that would be characterized as 
harassment or intimidation?
    Mr. Marshall. Correct.
    Mr. Ose. Submitted a report that said there was 
intimidation and harassment--Mr. Chairman, I'm sorry----
    Mr. Marshall. You've said that a couple of times, and the 
only thing I know is to repeat in the private investigator 
report, regardless of what we thought about it or what we 
thought about the person or regardless of what we thought about 
Mr. Prince, regardless of what we thought about Ms. Waters, 
that report contained some specific allegations that were 
either verifiable or refutable. Those allegations were serious.
    Now, we deal with the criminal element all of the time. The 
criminal element makes allegations against other agents very 
frequently. It is not unusual. But just because we don't think 
that it is true doesn't mean that we shouldn't investigate. I 
once again ask rhetorically, what if we turned our back on 
those allegations and they turned out to be some substance to 
them? So for those reasons and to protect the integrity of the 
agency and frankly to protect the integrity of the employees, 
we feel that we have to investigate those allegations where 
there is a specific allegation and either prove it or disprove 
it. In this case, one of those allegations was substantiated, 
and one was not. We acted accordingly. That is the way that our 
process works.
    Mr. Ose. I'm done.
    Mr. Shays. Mr. Gilman, you have the floor.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Marshall, first of all, I want to commend you and the 
men and women of our DEA who are--each and every day are out 
there fighting illicit drugs for the benefit of our youngsters 
and our communities.
    Your August 20, 1999, memo for not permitting information 
about any pending criminal case to any public official and to 
the target to the agency's investigation is quite appropriate 
and on the mark, and we commend you for that.
    With that said, let me ask you a few more questions.
    Mr. Marshall, you told your SAC agent in Houston, Ernie 
Howard, not to shut down this Rap-A-Lot case; is that correct?
    Mr. Marshall. Yes, that's correct.
    Mr. Gilman. So was it your belief that this case was 
continuing and being pursued?
    Mr. Marshall. That was my belief, yes, it was, until 
October of this year.
    Mr. Gilman. How did we get to this point of lack of 
adequate communication to your office that it actually was not 
being pursued?
    Mr. Marshall. That is one of the issues that I can discover 
in the inspector general investigation that is the result of 
these hearings.
    Mr. Gilman. To this date, have you found out why it was not 
being properly pursued?
    Mr. Marshall. No. If I had received any indication of that, 
I would have taken action. Had I seen the memo from Mr. Nims, I 
would have taken action and I would have corrected that 
situation.
    Mr. Gilman. To your knowledge, Mr. Marshall, has any 
allegation lodged against a DEA agent previously shut down an 
active DEA drug investigation?
    Mr. Marshall. To the best of my knowledge, no.
    Mr. Gilman. And can we assure the American public, that is 
not a normal DEA operating procedure and will not be so in the 
future?
    Mr. Marshall. I can assure you, that is not our procedure. 
It should not have happened if it happened.
    Mr. Gilman. Can we be assured that the investigation into 
the Prince case is not going to lie on the shelf and gather 
dust?
    Mr. Marshall. Mr. Chairman, I want to reserve any comment 
about the future of the investigation for a closed session. 
That seems like a simple enough question that you ask. I can 
assure you that I will see that all aspects--all appropriate 
measures have been taken.
    If I may, please just ask for that in an executive session. 
I think the more we talk about the future of this publicly, the 
more damage it might cause.
    Mr. Gilman. I am pleased to observe your discretion.
    Thank you, Mr. Chairman.
    I wanted to thank you, Mr. Marshall, for coming before this 
committee.
    Mr. Shays. Mr. Horn.
    Mr. Horn. I am very impressed by the Administrator's 
testimony. I think we have learned a lot, in both the majority 
and the minority.
    Mr. Shays. Thank you.
    Mr. Cummings.
    Mr. Cummings. It has come to my attention that Sidney 
Williams, Congresswoman Waters' husband, is 25 years older than 
Fred Smith. It is my understanding from Ms. Waters that he did 
not grow up with him. They did, however, come from the same 
neighborhood. So for whatever that is worth, I wanted to make 
sure that the record is clear on that.
    I wanted to comment on one thing that really bothered me 
during this hearing, and that is when--you weren't here, but 
yesterday we had an opportunity to hear the lyrics to this song 
by the artist known as ``Scarface.'' And I tell you when you 
have lyrics in a song that talk about harming police officers 
and things of that nature, while I believe very strongly in the 
first amendment, I am also very concerned about what we often 
call this ``thin blue line.''
    In Maryland you may--I am sure you are aware of this 
because I think your agency may have been involved--we had an 
officer, undercover officer, who was murdered during an 
undercover operation, one of our State troopers whom I knew 
well. It is so painful to think that men and women who are 
putting their lives on the line to make life better for all of 
us could be subjected to that kind of--those kinds of threats 
and that kind of reality.
    I have often said that we are all bounded by the reality of 
our mortality, and I will tell you--I say all of that to say, I 
think we have got to really, as a Congress and as a nation, 
begin to look at some of these lyrics, because I am going to 
tell you, when I heard that--and to think that police officers 
who were sitting here in front of me could possibly suffer 
while doing their jobs and trying to protect us, I tell you, it 
bothers me to no end.
    While we know that this has been a painful process for the 
DEA and for the Houston police, too, we want to make it clear 
that all of us are supportive of our police and supportive of 
the DEA.
    I appreciate everything that you have said because I can 
tell that this whole matter is something that concerns you, I 
can tell just from the things that you have said. But I want to 
also make it clear that we fully understand that you were under 
the impression that you had an ongoing investigation.
    We are still not clear on all of that, and the IG, I am 
sure, will get to the bottom of all of that. But I just wanted 
to leave that message with you.
    I know that you personally have personnel that may hear 
this or get it on the Internet or whatever, but I want to make 
it very clear that we support the Drug Enforcement 
Administration, and we support all of our law enforcement 
officers who are trying to uplift our lives.
    I wanted to leave you with that, and I want to thank you 
for your testimony.
    Mr. Marshall. Thank you for your comments, sir. I commented 
on this earlier, but I think it bears repeating.
    With regard to the lyrics on the song, I think the people 
that write those lyrics, perform them, sell them, promote them, 
the people that buy them, those are really vicious thugs; and I 
think things like that endanger the lives of our officers, 
these courageous--Special Agent Schumacher, Ernie Howard, they 
all have had threats against them. And I think those--I don't 
think that is freedom of speech; I think that is inciting 
violence against police officers. And I hope that we as a 
country, the next Congress, the next administration, somehow 
can do something to prevent that kind of stuff in the future.
    And thank you for your comments, sir.
    Mr. Cummings. Thank you.
    Mr. Shays. Thank you, Mr. Cummings. You shared exactly what 
the rest of us think. I appreciate your making that point.
    We have one last issue and it deals with a memo of 
September 27, 1999, regarding Mr. James A. Smith, a.k.a. 
Prince, and related OPR investigations. It is from Mr. Nims to 
you, but it says through Ernest Howard, Robert Joura is crossed 
out and Keith Baudoin, and in there it says, ``I have recently 
been instructed by HFD SAC Ernest Howard not to pursue any new 
leads regarding Rap-A-Lot until OPR investigation is cleared. 
However, we are cleared to talk about any witnesses and 
participate in any judicial proceedings. This is unfortunate, 
because there are still many investigative leads and 
enforcement operations to carry out.''
    My question is, is it your testimony that you did not see 
this memo?
    Mr. Marshall. That's correct.
    Mr. Shays. Is it a standard practice if it goes through 
someone, they can stop it before it gets to you?
    Mr. Marshall. I am not sure that we have a standard written 
rule on that. I wish I had seen that memo. If I had, we 
wouldn't be here today.
    Mr. Shays. Mr. Marshall, it is very clear--it is very clear 
that you expected this investigation to be ongoing and active. 
You have been very cooperative with both of us on both sides of 
the aisle. We thank you for your cooperation. We look forward 
to seeing the results of this investigation. If no one else as 
any other comments, we are going to adjourn this hearing. You 
are free to leave and you have been very helpful.
    This hearing is adjourned.
    [Whereupon, at 5 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
